<html>
<title> - ``LEAP AHEAD'' TECHNOLOGIES AND TRANSFORMATION INITIATIVES WITHIN THE DEFENSE SCIENCE AND TECHNOLOGY PROGRAM</title>
<body><pre>[Senate Hearing 107-340]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-340
 
 ``LEAP AHEAD'' TECHNOLOGIES AND TRANSFORMATION INITIATIVES WITHIN THE 
                 DEFENSE SCIENCE AND TECHNOLOGY PROGRAM

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2001

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
78-260 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                     PAT ROBERTS, Kansas, Chairman

BOB SMITH, New Hampshire             MARY L. LANDRIEU, Louisiana
RICK SANTORUM, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
WAYNE ALLARD, Colorado               ROBERT C. BYRD, West Virginia
TIM HUTCHINSON, Arkansas             JOSEPH I. LIEBERMAN, Connecticut
SUSAN COLLINS, Maine                 BILL NELSON, Florida
                                     MARK DAYTON, Minnesota

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 ``Leap Ahead'' Technologies and Transformation Initiatives Within the 
                 Defense Science and Technology Program

                              June 5, 2001

                                                                   Page

Aldridge, Hon. Edward C., Jr., Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................     3
Etter, Dr. Delores M., Acting Director, Defense Research and 
  Engineering; Deputy Under Secretary of Defense for Science and 
  Technology.....................................................     4
Andrews, Dr. A. Michael, II, Deputy Assistant Secretary of the 
  Army for Research and Technology and Chief Scientist...........    34
Daniel, Dr. Donald C., Deputy Assistant Secretary of the Air 
  Force for Science, Technology and Engineering..................    43
Cohen, Rear Adm. Jay M., USN, Chief of Naval Research; 
  Accompanied by Brig. Gen. Bill Catto, USMC, Vice Chief of Naval 
  Research.......................................................    54
Alexander, Dr. Jane A., Acting Director, Defense Advanced 
  Research Projects Agency.......................................    62
Sherwood, Dr. Peter M.A., University Distinguished Professor and 
  Head, Department of Chemistry, Kansas State University.........   104
Gabriel, Dr. Kaigham J., Professor, Electrical and Computer 
  Engineering, the Robotics Institute, Carnegie Mellon University   109
Kuper, Dr. Cynthia A., President, Versilant Nanotechnologies.....   112

                                 (iii)


 ``LEAP AHEAD'' TECHNOLOGIES AND TRANSFORMATION INITIATIVES WITHIN THE 
                 DEFENSE SCIENCE AND TECHNOLOGY PROGRAM

                              ----------                              


                         TUESDAY, JUNE 5, 2001

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SR-222, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Santorum, Roberts, 
Allard, Landrieu, and Bill Nelson.
    Committee staff member present: Romie L. Brownlee, staff 
director.
    Professional staff members present: Edward H. Edens IV, 
William C. Greenwalt, Carolyn M. Hanna, Ambrose R. Hock, Thomas 
L. MacKenzie, and Joseph T. Sixeas.
    Minority staff members present: Peter K. Levine, minority 
counsel; Daniel J. Cox, Jr., professional staff member; 
Creighton Greene, professional staff member; and Mary Louise 
Wagner, professional staff member.
    Staff assistants present: Jennifer L. Naccari and Suzanne 
K.L. Ross.
    Committee members' assistants present: George M. Bernier 
III, assistant to Senator Santorum; Robert Alan McCurry, 
assistant to Senator Roberts; Charles Cogar, assistant to 
Senator Allard; Kristine Fauser, assistant to Senator Collins; 
Menda S. Fife, assistant to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; and William K. Sutey, 
assistant to Senator Bill Nelson.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. By golly, on the last day of my 
chairmanship, we are going to start this thing on time. 
[Laughter.]
    Welcome to this subcommittee hearing.
    Ladies and gentleman, this afternoon the Subcommittee on 
Emerging Threats and Capabilities meets to receive testimony 
from representatives of the Department of Defense and 
nationally recognized researchers on the ``leap ahead'' 
technologies and transformation initiatives within the Defense 
Science and Technology Program.
    The testimony that is provided today will help the 
subcommittee prepare its recommendation for the Fiscal Year 
2002 National Defense Authorization Act. ``Leap ahead'' and 
revolutionary technologies have received a lot of press over 
these past years. The new administration has discussed 
investing in these ``leap ahead'' technologies and skipping a 
generation of weapons. These are intriguing propositions, to 
say the least, and we look forward to learning more details.
    However, the subcommittee remains concerned that the base 
investment in science and technology must be strengthened, and 
revolutionary technologies must be refined and quickly be given 
to the warfighter.
    Today we will hear from three panels on the efforts 
currently underway in the Department of Defense, in the 
services, Defense Advanced Research Project Agency (DARPA), our 
Nation's universities, and also, the small businesses to 
provide what we call innovative research into the most 
challenging problems facing our national defense.
    I would like to welcome Pete Aldridge and Delores Etter.
    Mr. Aldridge, I would like to extend my congratulations to 
you on your new position as Under Secretary of Defense for 
Acquisition, Technology, and Logistics. The subcommittee looks 
forward to working with you in this new capacity.
    Dr. Etter, I want to especially thank you for your 
continuing hard work on behalf of our Nation's Defense Science 
and Technology Program.
    I think all members of the subcommittee, all members of the 
full committee, all members who are even familiar or remotely 
familiar with Dr. Etter and her efforts wish to extend our 
sincere appreciation and recognition of her dedication and 
commitment as a true advocate for science and technology.
    I know you are going to be moving on to new opportunities. 
The U.S. Naval Academy gains a great deal in this regard. I 
will not mention our loss in this regard, and with regard to 
institutional memory, expertise, and commitment, but they are 
considerable.
    Please know your professionalism, energy, dedication, and 
expertise will be missed. I think you deserve an appreciative 
hand. Thank you very much for your service. [Applause.]
    Now these two witnesses do not have a time limit on their 
testimony. However, when we get to the two other panels, they 
have time limits. It is my suggestion that your opening 
statements be held to 10 minutes or less.
    I would be delighted to recognize the distinguished Senator 
from Florida for any statement that he might make at this time.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Mr. Chairman, it has been a pleasure 
to serve with you on this subcommittee on a subject that is 
most important to the future of this country; it is a 
privilege, also, to welcome to this subcommittee our old 
friend, Pete Aldridge, who years ago we were collaborating on 
scramjets and hypersonics, and all that. He brings to his new 
job in the Defense Department extraordinary experience and 
background. So I am delighted to be here. Dr. Etter, it is a 
pleasure.
    Senator Roberts. Let me say at the outset that this has 
been a personal honor and privilege to be chairman of this 
subcommittee. This is not the last roundup.
    We will proceed under the direction of Chairman Landrieu in 
the bipartisan fashion that we have achieved so far, but it has 
been a personal privilege.
    This is a subcommittee that was originally suggested by 
Senators Coats and Lieberman, and followed up in fine fashion 
by the distinguished chairman of the full committee. It is a 
relatively new subcommittee, but I think we have done a great 
deal of good, especially in regards to science and technology.
    I thank the Senator from Florida who brings considerable 
expertise in this area from the House of Representatives.
    Mr. Aldridge, please proceed.

 STATEMENT OF HON. EDWARD C. ALDRIDGE, JR., UNDER SECRETARY OF 
       DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Aldridge. Yes, sir, Mr. Chairman. Thank you, and 
members of the subcommittee, for allowing me to come and join 
you today to speak on what I would say is a very important part 
of the defensive effort, and that's the Science and Technology 
Program.
    As you have already mentioned, with me today is Dr. Delores 
Etter, the Deputy Director of Defense Research and Engineering, 
and overseer of the Science and Technology Program and budget. 
I share your views about the role and the contributions of Dr. 
Etter. I wish I could have talked her into staying. But she is 
on to bigger and better things, and we wish her well.
    We have a joint statement that we prepared, that we will 
supply for the record. We will just summarize very briefly, and 
give you back some time for these very important topics and 
projects that have been occurring in the rest of the Department 
of Defense.
    Senator Roberts. Without objection, it is so ordered. 
Please proceed.
    Mr. Aldridge. I have been on the job, as you mentioned, for 
15 days and, therefore, my knowledge of the details of some of 
these programs is somewhat limited, although I hope to change 
that very rapidly.
    However, I would like to summarize how our science and 
technology activities fit into the broader context of our 
acquisition efforts. Just after I entered this office, I 
established a new theme for how the acquisition function should 
operate. You have heard about acquisition reform, but I wanted 
to move to a new era.
    Many studies have given us ideas on how to improve 
acquisition. We know we now need to implement these ideas. 
Therefore, the theme for the operation of my office will be 
``Acquisition Excellence,'' and science and technology will 
certainly fit into that ``Acquisition Excellence'' role.
    I also established five goals for myself and the office 
about which I plan to run. Goal number one was to establish the 
credibility and the effectiveness of the acquisition and 
logistics support process. We need to focus on reducing cycle 
times, and to introduce program stability, introduce the 
evolutionary development, to reestablish our ability to 
convince Congress that we are operating these programs 
correctly. Credibility is one of those key elements that I plan 
to pursue.
    Goal number two is to revitalize the quality and morale of 
the acquisition and logistics work force. We have seen 
significant reductions in the work force over the past several 
years, and we have basically told the work force that perhaps 
they are not as appreciated as they should be. I intend to 
focus my efforts on improving the quality and the morale of 
that work force.
    Goal number three is to improve the health of the 
industrial base. We cannot have the finest weapons systems in 
the world unless they are produced by very healthy and 
productive and innovative corporations. So we want to be taking 
actions to improve the health so that there is an incentive to 
invest in our industry, there is an incentive for people to 
come into the industry, and that they can be as competitive, as 
strong and competitive as they can be.
    Goal number four is to rationalize the weapons systems and 
infrastructure with a new defense strategy. Once the strategy 
has been completed by the Secretary of Defense, we plan to 
review the weapons system to see what weapon systems fit the 
strategy and maybe find and see some of those which do not. 
That includes the infrastructure necessary to support our force 
structures and end weapons.
    Goal number five, and mostly related to the Science and 
Technology (S&T) Program, is to initiate those high leverage 
technologies that will give us the warfighting capabilities and 
strategies for the future. I agree with the notion of this 
subcommittee that we need to reinvest in our Science and 
Technology Program, and that will be one of my goals, to 
convince the Department and Congress that we need to do that.
    As you can see, these efforts that we have in the S&T 
Program directly contribute to my fifth goal. As a result, the 
S&T Program will receive my attention and my commitment.
    Mr. Chairman, that summarizes my statement. I would like to 
turn it over to Dr. Etter, please.

  STATEMENT OF DR. DELORES M. ETTER, ACTING DIRECTOR, DEFENSE 
RESEARCH AND ENGINEERING; DEPUTY UNDER SECRETARY OF DEFENSE FOR 
                     SCIENCE AND TECHNOLOGY

    Dr. Etter. Mr. Chairman, I share Mr. Aldridge's 
appreciation for the opportunity to appear before you today.
    My office has responsibility for the Department's Science 
and Technology Program. The Nation relies on the technological 
superiority of its Armed Forces. Our program's mission is to 
ensure that warfighters today and tomorrow have superior and 
affordable technology to support their missions, and to provide 
the revolutionary war winning capabilities.
    I would like to make a few comments on five priorities of 
our S&T Program from a corporate perspective.
    First, basic research is a long-term investment in our 
military's future. Previous investments have led to radio 
detection and ranging (RADAR), Stealth, night vision, and 
guidance for precision strike. We must ensure that we invest 
today in appropriate broad areas of research to be prepared for 
the future.
    Second, strategic technology areas are priority areas we 
recently identified in a collaborative effort with the services 
and defense agencies to address emerging national security 
threats. These technology areas are divided into three 
categories.
    The first is hard problems, areas where there are 
particularly difficult technical challenges. Examples include 
chem-bio defense modeling and standoff detection, and the 
defeat of hardened and deeply buried targets.
    The second category is revolutionary warfighting concepts. 
These are the technologies that will lead to next generation 
capabilities, dramatically new ways of addressing military 
problems. This category includes network centric warfare, 
fuller dominance of space, and autonomous systems.
    The final category is militarily significant research 
areas. These are technologies that will also be revolutionary, 
but still have a large component of basic research. Examples 
include nanoscience, directed energy, and advanced power.
    A third priority is enabling capabilities, areas that have 
the potential to improve a broad range of existing and future 
system. Three such areas of significance to the Department of 
Defense are propulsion, software, and electronics.
    Propulsion research includes high performance turbine 
engines, rocket propulsion, and hypersonics. In this work, we 
look at new capabilities as well as increasing fuel efficiency 
and noise mitigation in existing systems.
    Software continues to grow in importance in our weapons 
systems as developments and upgrades increase reliance on 
software. However, problems attributed to software remain a 
significant contributor to the program cost, schedule, and 
performance shortfalls. To address these issues, we have 
established a Directorate for Software Intensive Systems within 
our S&T Program.
    The Department cannot rely on the commercial market to 
fully address the electronics needs of the military, 
particularly in the areas of electro optics, infrared, mixed 
signal, radio frequency, and radiation hardening. Hence, it is 
important that we maintain robust programs in these areas.
    A fourth priority is rapidly transitioning technology from 
S&T to an operational capability. The Advanced Concept 
Technology Demonstrations Program is one way to successfully 
take matured technology into the field in prototype systems. 
Recent successes include Predator and Global Hawk unmanned 
aerial vehicles.
    Finally, a strong S&T workforce is a critical priority. The 
number of scientists and engineers we have is down 42 percent 
from the 1990 level. It is an aging force. The average age of 
the laboratory technologist is about 45 years, and over half of 
that workforce will be able to retire in the next 3 years. 
There have been numerous studies to look at these and related 
issues, and new efforts are now underway to address them.
    In conclusion, the strength of the Department of Defense 
Science and Technology Program depends directly on the health 
of its partners. These include universities that provide new 
ideas and knowledge; service laboratories that provide 
stability and ties to the operational forces; DARPA with its 
commitment to high risk, high payoff programs; industry which 
provides innovation and transition of technology; other 
agencies that allow us to leverage their efforts; and our 
international allies which allow us to address interoperability 
from the beginning.
    Mr. Chairman, I thank the subcommittee for this opportunity 
to share with you the corporate priorities of our Defense 
Science and Technology Program.
    Thank you.
    Senator Roberts. We thank both of you.
    [The joint prepared statement of Mr. Aldridge and Dr. Etter 
follows:]

 Prepared Statement by Hon. Edward C. Aldridge and Dr. Delores M. Etter

    Mr. Chairman and Members of the subcommittee, we appreciate the 
opportunity to appear before you today to discuss ``leap ahead'' 
technologies and transformation technologies.

            TECHNOLOGICAL SUPERIORITY FOR NATIONAL SECURITY

    The Nation relies on the technological superiority of its armed 
forces. As a result, the mission of the Defense Science and Technology 
(S&T) program is to ensure the warfighters today and tomorrow have 
superior and affordable technology to support their missions, and 
provide revolutionary war-winning capabilities. To do this we must 
understand the warfighters' needs. Fundamental to understanding those 
needs is an understanding of the strategic environment in which the 
warfighter operates, now and in the future.
    The global spread of advanced technology is transforming the 
military threats faced by the United States. In order to carry out our 
defense strategy, the U.S. military must be prepared to conduct 
operations in any environment, including one in which an adversary uses 
asymmetric means such as nuclear, chemical, or biological weapons; 
information operations; ballistic missiles; and terrorism. Future 
adversaries will increasingly rely on unconventional strategies and 
tactics to offset the superiority of U.S. forces. Our combat forces 
must be organized, trained, equipped, and managed with multiple 
missions in mind. We must be conscious of these threats as we foster 
technology breakthroughs that will lead to new capabilities to cope 
with that environment.
    Our vision for the 21st century is a warfighter who is fast, lean, 
mobile, and prepared for battle with total battlespace situation 
awareness and information assurance. Our Defense S&T program is focused 
on providing technologies enabling the weapons and equipment our combat 
forces will need to meet our strategic objectives in the future. The 
dawn of the information age has given rise to new revolutionary 
capabilities sparked by leap-ahead advances. For example, our Nation 
has led, and maintains a significant advantage in the development of 
information-based technologies. The Department has been actively 
pursuing improvements such as precision-guided munitions, the Global 
Positioning System, and satellite communications for decades. We are 
now only beginning to understand how significantly these information-
based revolutionary capabilities will transform the essential elements 
of U.S. Forces. To succeed across the full spectrum of operations, the 
Department will develop innovative new concepts for conducting 
operations, test them through demonstrations, rigorous experimentation, 
and rapidly transition the enabling technologies into revolutionary 
war-winning capabilities.
    The strength of the Defense S&T program depends directly on the 
health of its partners. These partners together provide the environment 
that supports the needs of the warfighter--from the universities that 
provide new ideas and knowledge; to Service laboratories that provide 
stability and ties to the operational forces; to DARPA for its 
commitment to high-risk, high-payoff programs; to other agencies that 
allow us to leverage our combined resources; to industry which provides 
innovation and transition of technology; and to our international 
allies for joint research programs that address interoperability from 
the beginning.

    This statement summarizes the priorities of our S&T program from a 
corporate perspective. These priorities include:

        <bullet> basic research, which provides the Department long-
        range research into areas likely to lead to advances in 
        national security;
        <bullet> technology transition programs that move S&T into the 
        warfighter's hands;
        <bullet> S&T which focuses the current and anticipated future 
        high-leverage S&T efforts;
        <bullet> enabling capabilities which benefit a broad-range of 
        emerging weapons and human systems; and
        <bullet> the health of the S&T workforce, which is one of our 
        biggest non-technical challenges.

                             BASIC RESEARCH

    New military capability and operational concepts emerge from many 
different sources. Historically, the Defense S&T program has responded 
to both the known needs for military capability and enabled the 
development of totally new operational concepts and capabilities. This 
has allowed us to keep the technological edge on which our forces have 
relied. It follows that the way to address future warfighting needs is 
to invest in broad areas of basic research that have high potential of 
yielding revolutionary advances as well as pursuing solutions to known 
operational problems. The basic research program provides support for 
research in the following twelve areas: physics, chemistry, 
mathematics, computer science, electronics, materials science, 
mechanics, terrestrial science, ocean science, atmospheric and space 
sciences, biological sciences, and cognitive and neural sciences.
    Basic research is a long-term investment with emphasis on 
opportunities for military application far in the future and 
contributes to our national academic and scientific knowledge base by 
providing approximately 40 percent of the Federal support for all 
engineering research in universities. The Department sustains its 
investment in basic research because of proven, significant, long-term 
benefits to the military, which in turn enhances our national economic 
security. Basic research provided the foundation for technological 
superiority in each of our recent conflicts. Radar made a significant 
contribution to winning World War II. Stealth, lasers, infrared night 
vision, and electronics for precision strike played a major role in the 
Gulf War. Our Nation's defense advantage is founded on a wide scope of 
scientific and engineering knowledge. The Department must continue to 
invest broadly in defense-relevant scientific fields because it is not 
possible to predict precisely in which areas the next breakthroughs 
will occur.

                         TECHNOLOGY TRANSITION

    Rapidly transitioning technology from S&T to an operational 
capability is crucial. Key mechanisms that have been established to 
improve the technology transition process include Joint Experiments, 
which are managed by Joint Forces Command, and Advanced Concept 
Technology Demonstrations (ACTDs), which are managed within the Office 
of the Secretary of Defense. These programs help to ensure the 
transition of innovative concepts and superior technology to the 
warfighter and acquisition customer faster and less expensively. The 
Joint Experiments program provides a venue to develop and 
experimentally test new concepts and technologies for the military. The 
ACTD program is used to determine the military utility of proven 
technologies, expedite technology transition, provide a sound basis for 
acquisition decisions, and to develop the concept of operations that 
will optimize effectiveness. Using this process, it has proven 
successful in taking matured technologies into the field in prototype 
systems. Recent successes included the Predator and Global Hawk 
unmanned aerial vehicles (UAVs).
    Most ACTDs address warfighting needs addressed by the commanders in 
chief, hence they have strong representation in the process. The 
program also has strong ties with DARPA. Of the 84 ACTDs that have been 
initiated since the program's beginning in 1994, 33 of these were based 
on technology developed by DARPA. The ACTD program also works closely 
with the Joint Experiments program, which assists in improving and 
demonstrating ACTD products. To date, 37 of the ACTDs have produced 59 
transitional products, 22 of which have proceeded to full-scale 
hardware acquisition. Transitional products include software 
developments that have already been deployed with warfighters. Ten ACTD 
transitional products, including hyperspectral scanners, unattended 
ground sensors and the Predator, were made available for Operation 
Allied Force in Kosovo. Using the aforementioned programs, we have 
greatly enhanced the mechanism to transition prototypes to the 
acquisition cycle.

                          KEY TECHNOLOGY AREAS

    Over the past decade, the national security strategic environment 
has changed dramatically. This change in national security threats, and 
how we should respond to these changes is currently under review 
throughout the Department. The DUSD (S&T) and OSD recently led a 
collaborative effort, involving the key S&T leaders from the services, 
agencies, and OSD to closely examine the impact of the new security 
threats on what the Department needs from the S&T community. This 
process led to the identification of some areas we believe we must 
focus on in order to be effective in our mission in the future.
    The needs have been divided into three categories: hard problems, 
revolutionary warfighting concepts, and militarily significant research 
areas. ``Hard problems'' are those areas where there are particularly 
significant technical challenges, which, if solved, would counter a 
significant operational or strategic threat. Examples include modeling 
the dispersion of chemical and biological warfare agents, and detecting 
and neutralizing hardened and deeply buried targets. Hard problems 
identify ``technology needs'' to overcome some particularly difficult 
security challenges we currently face.
    Revolutionary warfighting concepts allow us to develop dramatically 
new ways of addressing military problems. These are the technologies 
that will lead to the next generation capabilities. Just like stealth, 
global positioning system, and night vision devices provided our forces 
a decisive advantage during Operation Desert Storm, these revolutionary 
warfighting concepts could lead to the novel capabilities for military 
forces in 2015.
    Finally, are enabling technologies that will improve broad classes 
of weapon and human systems. Again, these capabilities can be 
revolutionary, but are broader based than revolutionary warfighting 
concepts, and include areas like advanced materials and advanced power.
Hard Problems
    In recent years there has been an increasing proliferation of 
chemical and biological agents available to a wider number of 
adversaries. Technology developments are needed in chem-bio defense 
modeling and stand-off detection to provide an operational capability 
to remotely detect and identify potentially toxic chemical and 
biological agents and to forecast their dispersion through a defined 
battlespace. We need to focus on developing capabilities in four major 
areas: detection of biological and chemical agents and toxic industrial 
chemicals and materials; diffusion and dispersion modeling for 
predicting hazards; improved understanding of agent toxicity; and 
increased comprehension of genetic and chemical compositions.
    Increasingly, potential adversaries are using buried facilities to 
protect their delivery systems, weapons of mass destruction, command 
and control systems and other military capabilities. This is an 
asymmetric measure to offset U.S. capabilities in intelligence 
collection and precision strike. Technology developments in time 
critical, standoff, and concealed target defeat are needed to provide 
an operational capability to safely identify and strike intended 
targets. Of specific interest is hardened and deeply buried targets, 
but the list also includes slowly moving targets (such as mobile 
missile launchers) and concealed targets (such as tanks hidden under 
trees). This area can be broken down into the following sub-areas where 
work needs to be focused: finding and characterizing targets through 
the use of novel sensing technologies, systems and munitions to defeat 
these ``special'' targets, and capabilities to assess damage to targets 
following strike.
    The U.S. is faced with an increasing array of asymmetrical threats 
as potential adversaries learn of our capabilities and weaknesses. 
Preparing for and countering these asymmetric threats requires us to 
understand the mind of the adversary and then to dissuade threatening 
actions or to counter them. Technology developments are needed in 
counters to asymmetrical threats to provide an operational capability 
to respond to asymmetric threats by improved use of information 
operations, computational models and group-dynamics/social science 
theory to achieve ``advantageous'' shaping of the security environment. 
Focused areas where technology development is needed include: dynamic 
indicator databases, social modeling including group dynamics and 
decision support, and tools for information visualization.
    With the proliferation of weapons of mass destruction and capable 
delivery systems worldwide, it is becoming increasingly important to 
defend against potential missile defense deep into an adversary's 
territory. Technology developments in cruise and ballistic missile 
defense are needed to provide the capability to remotely detect, track, 
and negate cruise and ballistic missile threats, providing a multi-
layered defense and reporting capability. We need to work in the areas 
of: detecting and tracking strategic and tactical missiles through the 
use of enhanced sensing systems and novel signal processing techniques, 
advanced systems and warheads to negate enemy missiles, and providing 
affordable protection, including radiation hardening, for our defense 
assets.
    As threats have evolved worldwide, we are fighting fewer large-
scale battles in open areas and more small-scale conflicts in cities. 
Hence, we are in need of developing new techniques that are suitable 
for the complexities of urban areas. Technology developments in 
military operations in urban terrain are needed to provide a capability 
to locate, surveil, discern, engage, and neutralize threat forces 
within the close confines of an urban environment. We need to work on: 
enhanced situational understanding of the urban battlefield; improved 
training and mission rehearsal capabilities appropriate for the new 
environment; and faster, safer breaching technologies to allow our 
forces to move more effectively in urban terrain.
Revolutionary Warfighting Concepts
    Technology developments in network centric warfare are needed to 
provide the operational capability to increase combat power by 
networking sensors, decision makers, and mission executors to achieve a 
shared awareness, increased speed of command, higher tempo of 
operations, greater lethality, and a degree of self-synchronization. 
The technology areas that require capability developments include: 
robust connectivity and interoperability of network systems; assurance 
that our information systems are secure against attack; operationally 
responsive and reliable networks; and tools for information 
understanding and decision support.
    Space operations are becoming increasingly important to military 
operations. Technology developments aimed at fuller dominance of space 
are needed to provide technologies necessary to capitalize on the space 
mission and provide the United States dominant access to the military 
high ground that space provides. Nearly all other operational military 
concepts are aided by dominant access to space, which allows a decisive 
advantage in command and control of our own forces, coupled with 
enhanced reconnaissance of enemy position and intent. The technology 
areas include: affordable space transportation including advanced 
propulsion and long-lasting power systems; sensing technologies for 
enhanced space surveillance; space control, including on-orbit 
servicing; and protection of our assets in space.
    Technology developments in unmanned systems for land, air, space, 
sea, and underwater are needed to provide systems that can execute an 
expanded range of missions in high-risk environments while keeping the 
warfighter safe. Autonomous systems range from sophisticated unmanned 
aerial vehicles--such as the Predator which deployed to Kosovo for 
reconnaissance missions--to miniaturized, inexpensive autonomous 
systems which can be deployed and operate together in a ``swarm'' to 
provide intelligence at ``low risk.'' Capabilities that need to be 
developed for future unmanned systems can be divided into the following 
focus areas: enhanced unmanned system control; miniaturization of 
components; and integration and collective behavior of multiple 
autonomous systems.
Militarily Significant Research Areas
    Speed-of-light directed-energy weapons--high energy lasers and high 
power microwaves--have the potential to perform a wide variety of 
military missions, including some that are impossible, or nearly so, 
for conventional weapons. These include interception of ballistic 
missiles in boost phase, defeat of high-speed, maneuvering anti-ship 
and anti-aircraft missiles, and the ultra-precision negation of targets 
in urban environments with no collateral damage. Technology 
developments are needed in directed energy to revolutionize military 
operations by exploiting the capabilities of directed energy weapons. 
Novel S&T to increase efficiency, decrease size and logistics, and 
improve maintainability of lasers and high powered microwave systems is 
needed.
    A continuing challenge to military operations is to generate, 
store, use, and project electrical and other forms of power throughout 
the battlespace. Technology developments in advanced power are needed 
to improve the U.S. capability to focus power and energy, in a 
logistically supportable way. As these capabilities are developed, we 
will aid transformation of the force into a more maneuverable force 
that can precisely project power when and where needed. Our work in 
this area includes the Navy's development of technologies supporting an 
electric ship, and the Army's development of electric drive vehicles. 
Some areas where technology development is needed includes: energy 
storage and release, including novel battery systems and fuel cells; 
power generation and distribution; and new and refined applications of 
power technology.
    The future military force will be involved in rapid and dispersed 
operations requiring individuals to work as a cohesive team, yet be 
capable of operating independently. The implications of this stressful, 
dynamic environment must be fully understood in order to improve 
decision-making processes, the training of decision-makers at all 
levels, and organizational patterns and procedures. Technology 
developments in the area of human dimension and psychological factors 
are needed to provide the capability to fully prepare all warfighters 
and support personnel cognitively and physically to conduct assigned 
missions and operations. The technology developments needed can be 
broken down into: training--including simulation based, virtual reality 
and augmented reality tools; decision making support, cognitive 
engineering to optimize human-information interfaces, and enhancement 
of performance under conditions of conflict.
    Maneuver and self-protection are two enduring principles of 
military operations that remain true today. The Department remains 
committed to the development of smaller, lighter, and stronger 
materials and components that will enable enhanced maneuverability and 
self-protection by allowing these lighter and stronger systems. 
Technology developments in nanoscience and advanced materials are 
needed to provide revolutionary opportunities for the warfighter to 
develop totally new operational concepts and capabilities, based such 
developments. In a broad sense, the work in this area can be separated 
into two areas: nanotechnology, which enables very small mechanical 
systems; and advanced materials which are designed for specific 
applications, such as embedded computing, novel composities, and 
nonlinear, nonisotropic ``smart'' materials.

                         ENABLING CAPABILITIES

    In addition to work in these areas, the Department continues to 
invest in longer term enabling capabilities that improve a myriad of 
systems. In each case, the enabling technology research leverages 
efforts going on in industry. We now describe three major long-term 
areas of focused R&D.
Propulsion
    Military fuel consumption for aircraft, ships, ground vehicles and 
facilities makes the DOD the single largest consumer of petroleum in 
the U.S. Existing and emerging technologies are now available at 
various stages of maturity that could improve warfighting effectiveness 
through fuel efficiency. These technologies are applicable to the 
turbofan/turbojet, turboprop/turboshaft, and expendable engine 
applications, as well rocket propulsion programs. In addition, the 
rocket propulsion program addresses technologies to support space 
launch and orbit transfer propulsion (both liquid and solid), 
spacecraft propulsion (chemical, electrical, and solar), strategic 
systems sustainment (post-boost control systems, missile propulsion and 
life issues), and tactical propulsion (solids and hybrids). A working 
group has been established to formulate a National Hypersonics 
Technology Plan to spearhead a much more focused government/industry 
effort to develop hypersonic technologies, which could enable a whole 
new range of hypersonic air-breathing engines, weapons, and aircraft. 
All these propulsion programs are joint efforts with the Services, 
NASA, industry, and defense agencies.
Software
    Software continues to grow in importance in our weapons systems as 
developments and upgrades increase reliance on software to provide the 
flexibility to meet existing and future unknown requirements. However, 
problems attributed to software remain a significant contributor to 
program cost, schedule and performance shortfalls. To address these 
problems we established a Directorate for Software Intensive Systems 
(SIS) that promotes and coordinates software related activities within 
DOD; we convened a Defense Science Board (DSB) Task Force on Software; 
and we chartered an SIS Steering Group of senior Service executives 
chaired by the DUSD(S&T) to articulate a Department software vision and 
guidance to the SIS Directorate.
    The SIS Directorate established a coordinated approach to improving 
software acquisition in four areas: DOD acquisition policy, 
collaboration among DOD and Service software experts, education and 
training of the acquisition workforce, and science and technology 
transition. The initial actions of the Directorate are focused on 
responding to the DSB Task Force recommendations. The Directorate has 
absorbed the Software Program Manager's Network and is integrating its 
products and activities. We are implementing independent expert reviews 
throughout DOD to help Program Managers identify and manage software 
risk, and have completed 24 assessments. We are establishing guidelines 
for software acquisition management education and training of our 
workforce. We are sponsoring the Capability Maturity Model integration 
effort for enterprise wide process improvement. Finally, our Defense 
Software Collaborators provide a forum for communicating software 
issues and leveraging our scarce resources to address them. The SIS 
Directorate is a critical focal point for initiatives that reduce 
software acquisition risk.
Electronics
    While the commercial market can be used to meet many of the 
electronics needs of the military, the Department has unique needs that 
are beyond the performance specifications needed for industrial 
applications. The Department has identified those areas where industry 
is not investing, but where advancement of technology is of key 
importance to the Department.
    Four major thrust areas have been identified. Advances in electro 
optics and infrared technologies are expected to enable improved 
countermeasures capabilities, and counter-countermeasures capabilities 
such as the ability to detect camouflaged targets. Investment in mixed 
signal technologies would lead to enhanced performance and versatility 
through combinations of electronics, photonics, and micro electro 
mechanical systems (MEMS) technologies. Advances in radio frequency 
technologies (including vacuum electronics and wide band gap 
technologies) are expected to enable new communication, detection, and 
other applications with greater range and the ability to discern small 
targets. Finally, the goal of investment in radiation hardened 
technologies is to enhance protection of DOD's space systems.

                               WORKFORCE

    A challenge facing the DOD today is that of enhancing and 
maintaining its S&T workforce. The intellectual capital behind DOD 
technology is the professional workforce in our 84 laboratories and 
research and development centers, which includes 28,500 Department 
scientists and engineers. This workforce is down 42 percent from 1990 
end strength of 43,800. The workforce is also aging--the average age of 
the laboratory technologist is approximately 45 years and over half of 
the workforce will be able to retire in the next 3 years. The S&T 
workforce has been the subject of multiple Defense Science Board 
studies and independent analyses over the past decade with a common 
conclusion that this essential and aging workforce must be sustained 
and modernized--through creative recruitment and retention options--to 
provide future warfighting superiority within an aggressive commercial 
market for these skills.
    We are working to implement new authorities recently enacted by 
Congress, including those that give laboratory directors many of the 
authorities that commercial lab directors have--such as the ability to 
hire on the spot when an outstanding candidate is identified and the 
ability to significantly reward employees who have made critical 
contributions to important programs, and the ability to offer 
competitive salaries. There are also efforts to look at providing 
opportunities for outside scientists and engineers to temporarily work 
in the DOD labs, and for DOD employees to spend time in industry.

                               CONCLUSION

    Mr. Chairman, we wish to thank the subcommittee for this 
opportunity to share with you the priorities of our Defense Science and 
Technology Program.
    In peace, technological superiority is a key element of deterrence. 
In crisis, it provides a wide spectrum of options to the national 
command authorities and commanders in chief (CINCs), while providing 
confidence to our allies. In war, it provides an edge that enhances 
combat effectiveness, reduces casualties, and minimizes equipment loss. 
Advancing affordable military technology and ensuring that it undergoes 
rapid transition to the warfighter are critical national security 
obligations.
    Thank you very much.

    Senator Roberts. Let me just start out here with a 
clarification in regards to the definition of ``leap ahead'' 
technology. As I have indicated, that has received a lot of 
press attention.
    So, Secretary Aldridge and Dr. Etter, with that term, 
``leap ahead'' technologies, define for the subcommittee what 
you think ``leap ahead'' technologies are.
    Mr. Aldridge. Let me start--it can be somewhat ambiguous. I 
try to use the term ``war winning'' technologies. People who 
would look at our stealth program in the 1970s and 1980s would 
perhaps define that as a ``leap ahead'' technology, something 
completely unusual, and would provide tremendous leverage of 
our military forces against any adversary.
    It can be defined in that way. It could be defined as war 
winning. It could be defined as asymmetrical advantage, things 
which are unique that we have which provide us unique 
capabilities over an adversary. Any of those could be used to 
define ``leap ahead'' technologies.
    Senator Roberts. Let us see. I'm writing this down. In the 
world of acronyms, we have the asymmetrical advantage 
technology. That is AAT. [Laughter.]
    We have a war winning technology. I am not going to try 
that one. We have the ``leap ahead'' technology, which is LAT. 
We have got AAT, LAT, and WWT. [Laughter.]
    You have to think in terms of acronyms, Pete.
    Mr. Aldridge. I did not--sir, I did not use a single 
acronym. I used whole words.
    Senator Roberts. Bless your heart. [Laughter.]
    We used to have a fish bowl in this subcommittee and for 
everybody that would use an acronym prior to saying the full 
name, or the agency, or the program, they had to put a dollar 
in. We could probably fund a great many things if we kept that 
up.
    Now, Dr. Etter, in your view, what are we talking about 
when we say ``leap ahead'' technologies?
    Dr. Etter. I think of two categories when I think of ``leap 
ahead'' technologies. The first would be areas that do give us 
revolutionary new capabilities. An example of that, I think, is 
high energy lasers.
    The second category that I think falls within that are 
designs of our systems that allow us to insert new technology 
that will give us dramatically new capabilities. So, this is 
looking at doing designs with the plan that we want to design 
them with; architectures that allow us to insert new 
technologies. That also will allow us to take very significant 
new increases and capabilities as we see new developments, 
particularly from commercial areas.
    Senator Roberts. I think that is very helpful.
    We have been joined by our next chairman, Senator Landrieu, 
who will be providing bipartisan leadership to this 
subcommittee.
    We have just heard testimony from Secretary Aldridge and 
Dr. Etter. Dr. Etter almost received a standing ovation for her 
contribution.
    We could do that, if you would like. [Laughter.]
    So I would now like to turn to my distinguished ranking 
member, soon to be chairman, for any comments that she might 
like to make.

             STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you. I would like to say, Mr. 
Chairman, what a wonderful job you have done in starting us 
off, and how much I have enjoyed working with you on this 
arrangement and how much I look forward to working with you, 
Senator, as we go through this change.
    But although the chairs may change, our general philosophy 
that we have is really not going to change. I think we are very 
much in agreement about the things that need to be done, and to 
try to shed some more light on this particularly important 
subcommittee.
    I want to thank you, Senator, for your leadership all of 
these years on the full committee as well as the subcommittee.
    Let me just give this brief statement for the record, and 
then I have a few questions to follow up.
    I want to acknowledge that the subject of this hearing, 
which is technology, is one of the most crucial aspects of our 
Emerging Threats and Capabilities Subcommittee. As we seek to 
transform our military and meet the challenges of the 21st 
century, we must continue to implement new technologies to keep 
our forces on the cutting edge, and ensure that they are 
prepared to deal with any threat that those who are hostile to 
us may be developing.
    I also appreciate, Mr. Chairman, your commitment to the 
Department of Defense Science and Technology budget which is 
the foundation of this transformation which I think is going to 
be a challenge to us in this particular Congress.
    Too often in the past, we have robbed this budget, cutting 
our investments in technology, to pay for current readiness. 
This approach may serve our needs today, but it will most 
certainly undermine our forces in the long run. That is going 
to be a great challenge of our subcommittee, to make sure that 
the budget supports the words and the directives and the 
suggestions that this particular committee will make.
    We face a number of challenges in this area in light of 
tight budgets. It requires vision to invest in programs that 
may not have any immediate payoff, but in years to come will 
have substantial payoff.
    Second, we must ensure that the Department of Defense can 
keep up with the ever quickening pace of technological 
development in the commercial world.
    Third, we must be competitive with the private sector in 
attracting our Nation's best and brightest young scientists and 
engineers. These issues are of vital importance to this 
subcommittee I look forward to continuing some of the work that 
has been laid out, and even adding to it, as I assume the 
chairmanship, and look forward to working with all of you. I 
reserve my questions until the appropriate time.
    Thank you for appearing here today.
    Senator Roberts. We thank you for your statement.
    Secretary Aldridge, as we know, the Department is 
undergoing a strategic review. The Secretary was here just last 
week giving members of the full committee an update. One of the 
studies with regard to this review is the future of defense 
research and development, and in particular science and 
technology.
    Let me ask the first obvious question. Have you been 
consulted to date on the strategic review as it relates to 
changes in the research and development accounts?
    Mr. Aldridge. Yes, sir. I have been involved in the 
decisionmaking process that the Secretary has. He has 
incorporated into this process many members of the Department 
of Defense, the Service Chiefs, the Commanders in Chiefs of the 
various theater forces, theater commands. He has been involved 
with getting their views on various topics. Science and 
technology, and research and development is one of those.
    Senator Roberts. As I understand it, one of the defense 
strategy new objectives is to provide recommendations for 
allocation of acquisition and R&D resources. So could you 
comment on what your recommendation for the R&D resources would 
be?
    Mr. Aldridge. I have made a series of recommendations and 
suggestions to the Secretary. He is considering them. He has 
not made any decisions regarding how he wants to proceed.
    I have discussed it with him, the necessity of increasing 
research and development, and specifically the science and 
technology budget, to bring the budget back up to a level that 
supports our future capabilities against a very unknown and 
volatile world in the future.
    I have made that recommendation. He has not shared with me 
his decision on how to proceed on that. I cannot say exactly 
how he plans to formulate the final decision in getting ready 
for the fiscal year 2002 budget amendment that is in 
preparation.
    Senator Roberts. I have one other related question, and 
then I want to recognize Senator Allard if he has an opening 
statement. Then I am going to yield to my colleagues, but then 
I am going to come back with additional questions.
    There are several aspects of the R&D enterprise that are 
what I would call new approaches. I understand that last week 
we had been briefed about that in regards to the Defense 
Strategy Review. I am talking about staff. These new approaches 
have been discussed and in review process.
    Let me just mention a few that you might want to comment 
on: Moving from the chronically under-investment in R&D to a 
sustained, healthy level of R&D with a percentage of it 
earmarked in the Department of Defense and the service budgets 
for something called ``Over the Horizon Research''; second, 
moving from a zero defect mentality to an acceptance of risk 
and failure in programs, obviously necessary for a successful 
overall R&D effort; third, moving away from an inflexible 
acquisition process to a spiral acquisition process, allowing 
various program development paths.
    I am particularly interested in any explanation you might 
want to give the subcommittee about the spiral acquisition 
process and the philosophy behind what we call spiral 
technology insertion. If you would like to comment on any of 
the three, especially the last, I would like to hear it.
    Mr. Aldridge. I am not sure if I can define that term 
either, sir. Let me talk about spiral development. That is 
clearly one of the items of interest for the Department. In 
fact, we are in preparation for a new DOD regulation that calls 
for the spiral or evolutionary development of systems. It has 
some very favorable advantages in the sense that you can get 
weapons into the fields sooner. You can reduce the risk, you 
can reduce the uncertainty of costs, and you can get rid of 
older weapon systems which tend to operate at a higher cost 
than the newer ones.
    Spiral development is a positive direction that we need to 
go to get our cycle times down, and to get the systems into the 
field as quickly as possible. We support that. It is something 
we ought to be doing.
    We have to recognize that the first system in the field is 
not going to be the ultimate system. We have to have it 
adaptive to changes in technology with time, and improvements 
with time that will eventually get to the ultimate 
configuration.
    One might describe the difference between an F-22 which is 
a system which has gone to the ultimate capability off the bat, 
versus the Joint Strike Fighter, which is, in fact, an 
evolutionary program. Global Hawk is another example of an 
evolutionary type of a program. That is one piece.
    The other comments that you made about ``Over the Horizon 
Capabilities,'' and the introduction of that was a suggestion 
that we have some fixed level of--I would call science and 
technology should be fixed. The research and development which 
carries forth other types of more or closer to weapon systems 
development, probably it would be variable with time.
    But the science and technology being something that should 
be set at some percentage of the defense budget, and held to 
that, I would certainly support. It is something we need to do. 
It has tended to be in the past a bill payer, and I think that 
is the wrong attitude for the science and technology budget to 
be pursued.
    Senator Roberts. This subcommittee certainly shares that 
view in spades.
    Dr. Etter, do you have any commentary on that from the 
standpoint of your experience?
    Dr. Etter. Yes, I would like to add two things. One, you 
mentioned the problems when we have a zero defect mentality as 
we think about science and technology. I would add that it 
really is important that we move away from that because 
particularly when we are working with new concepts and new 
innovations, we learn as much from our mistakes as we do from 
things that work right.
    We need to have an environment where people are comfortable 
with trying new things without having to feel that they have to 
work in order for the project to move ahead.
    The other thing I would add has to do with the spiral 
development. I would add there that this is particularly 
important in the software arena. When you look at our systems 
with software codes of many million lines of codes to do all of 
the capabilities we would like to get, one of the ways we are 
going to be able to get our hands on the kinds of problems that 
we are experiencing here is to try to deal with smaller systems 
that have only part of the capabilities, and then continue to 
upgrade.
    So, I think spiral development will help us all around, not 
only just in the hardware developments, but also in the 
software developments that supports that.
    Mr. Aldridge. There is another piece of it, just to add. It 
is stability to a program. When you do the evolutionary spiral 
development, you tend to have a better understanding of what 
the program is capable of doing. You are not taking as much 
risk as you would if you went to the ultimate configuration.
    Therefore, when you come over and explain what a program is 
going to cost, its schedule, and performance, we are closer to 
being correct as opposed to having a program that has a little 
more risk, and we have a tendency to be wrong, and have to ask 
for more money, and have to ask for slippages in the program.
    I think as we go through the evolutionary process, our 
credibility and being able to explain what a program is going 
to do, what it is going to cost, when it is going to be, what 
schedule it is going to be on, we have a much better ability to 
do that than we would have otherwise.
    Senator Roberts. Let me just say that, your point in 
regards to shortening the time for delivery of the warfighter, 
that really strikes home with me. I am aware of our services in 
test with DARPA and other folks.
    I know that DARPA's main function--and I am paraphrasing 
here--is on the crest of the wave. So many times, our service 
members indicate, ``Hey, it is not the crest so much; I need 
more of the wave, and I need it now.''
    It does not have to be, so many times it is, ``Well, that 
is not scientific enough.''
    I hate to use the word ``sexy,'' but that--well, I will 
not. Strike that. [Laughter.]
    Is that all right? If you say it is all right, it is all 
right. [Laughter.]
    That reminds me of the Ed Sullivan Show. [Laughter.]
    Let me say that in terms of the helmet that I had hoped 
would be available to the Marine Corps 4 years ago--now I have 
to admit I am old corps, and the current helmet, you cannot sit 
on it. You cannot cook in it. You cannot shave in it, and it 
weighs too much, and it certainly hinders your view, and it 
looks like a German helmet to begin with. [Laughter.]
    Senator Landrieu. But other than that, he likes it. 
[Laughter.]
    Senator Roberts. Yes, but other than that, I like it a lot. 
[Laughter.]
    But it is just that I cannot understand why we cannot get 
that kind of equipment that we really need faster. You are 
saying that this new kind of process might be able to be of 
help, is that correct?
    Mr. Aldridge. Yes, sir.
    Senator Roberts. OK. I appreciate that.
    Senator Allard, do you have an opening statement, sir? We 
can follow the regular order for questions. We thank you for 
coming.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman. I just would make 
just some brief comments. I appreciate your holding this 
hearing. I think it is important, and perhaps even just a 
little bit theoretical, with the fact that we do not even have 
our defense budget numbers right now to deal with it.
    But I think it is important that we maintain our emphasis 
on research and development. We have technologies out there 
that are reaching out a long ways. Certainly this is one member 
who does not expect them to work all the time. We have to 
continue to push the envelope.
    I know you are committed to that effort, and I know that 
the witnesses that we have here today are committed to that 
effort. I just look forward to hearing what has to be said 
here, and that is all I have, Mr. President--Mr. Chairman, soon 
to be ranking member. [Laughter.]
    Senator Roberts. Yes. If I cannot be chairman, there is 
always president. [Laughter.]
    I did not say president of what. [Laughter.]
    If I might ask one other question and then move on to 
Senator Landrieu, Senator Nelson, and Senator Allard.
    I am going to ask you the ``bigger than a bread box'' 
question. What percent of the defense budget should be the S&T 
account, or what should that amount to? I know you are not 
going to answer that. You can if you would like.
    Now, Dr. Etter, you can say anything you want to now. 
[Laughter.]
    Is there a range? Is there some kind of a range here? 
Because as you have indicated, Secretary Aldridge, this has 
been a bill payer account. That is most unfortunate. It is 
something we want to change. Do you have any comments?
    Mr. Aldridge. Sir, again, it is a part of the process that 
we are going through. I do not mind saying this: It should be 
somewhere in the range of 2\1/2\ to 3 percent of our budget. It 
has not been that in the past several years.
    Some time in the past, it was at that type of level, but in 
that range is something that we need to focus on. I think it 
ought to be constant. We ought to be planning that this is what 
is going to be as a percentage of the DOD budget. If Congress 
agrees that the budget should go up, then the percentage and 
the amount of money going into the S&T program should go up 
accordingly.
    Senator Roberts. Bless your heart. I am so happy to hear 
you say that. It mirrors what Senator Landrieu said in her 
opening statement, and I applaud that statement.
    Senator Landrieu.
    Senator Landrieu. Let me just follow up on that point and 
that figure. The record was 2\1/2\ to 3 percent. But try and 
help think for a minute of a large company that does comparable 
work.
    What do you think the comparison would be to the private 
sector for their R&D piece, if that would be a fair question? I 
guess my question would really be: How did you arrive at your 
2\1/2\ to 3 percent? Walk us through that.
    Mr. Aldridge. That is an excellent question, and it is very 
difficult to compare an industry and what they would be 
spending in research and development. You would find in some 
industries it is around 5 percent. In some of the software 
industries, it could be 10 to 15 percent.
    But in comparing it to the Department of Defense, it is 
different because there is a science and technology budget 
which is not that directly related to weapons systems. Then 
there is a research and development activity that is, in fact, 
related to developing a weapons system of a particular kind.
    The contractors are paid for that type of research. So it 
is not counted in their independent research and development 
(IR&D) program, so to speak. So it is hard to measure how much 
that ought to be.
    If you look at the past history of what we have been able 
to do with our Research and Development and S&T Program, one 
could say that that range of number makes you comfortable that 
we can do the things we need to do to stay ahead with that type 
of a level of effort.
    If you got below that, something has to give, and it is 
usually the basic research that goes. The ``leap ahead'' 
technologies go. People are not as willing to take as much risk 
with the money they have left and so, therefore, they are not 
pushing the state-of-the-art.
    When the numbers are in that range, we believe we have 
enough resources to really push out and do the innovation that 
is necessary and take a little more risk than we would have 
otherwise.
    Dr. Etter. Could I add something to that? A recent Defense 
Science Board study looked at this issue because it is a very 
difficult one. They looked across many different industries at 
the percent that they spent on science and technology or 
research and development.
    One of the things they found that relates here was that, 
first of all, in industry, often their research is fairly 
short-term research, 3 to 5 years, where a large part of our 
research really has to be much longer-term, 10, 15, or 20 
years.
    If you look at companies that have a longer-term research, 
you are looking at companies like pharmaceutical companies 
which do have to have this very long reach. They tended to 
spend around 3 percent on their research activity. So, I think 
that gives one a sense that Mr. Aldridge's percentages are in 
the right kind of ballpark for a company that is looking 
further out.
    I would like to add one other thing on percentages. When 
you come up with a percent--and I do think this is actually a 
very good way to think about what kind of investment we should 
have in S&T--you can look at the overall number, the 3 percent 
for the overall budget. But it is extremely important that you 
go down to the individual services, also, because that also is 
a very critical part.
    We really should be looking at services getting to 
something like close to 3 percent of their budget. There is 
quite a range today among the services, and I think that you do 
not get the right picture unless you look at what percent is 
being spent of each service in their overall obligation 
authority.
    Senator Landrieu. I appreciate that because I hope that the 
members of our subcommittee can really embrace this goal and 
help our full committee, and Congress, to stay disciplined in 
order to do this because there are always things right now, 
tomorrow, next week, that need to get funded. This is a 
constant debate that goes on.
    But I hope that our subcommittee will really rally and 
advocate and work in a bipartisan way to really press ahead 
because it just makes such common sense. Being able to explain 
this to our constituents and to measure it in ways that the 
public can understand gives us that political attitude, if you 
will, to press our case.
    Let me ask another question about some of the problems. 
This immature technologies problem, we have been often 
criticized--and I think in some ways it is justifiable--that 
private industry can field a product so much more quickly and 
faster in terms of cycles than we can. They make sure that 
their technologies are proven in a laboratory before they try 
to incorporate them into new products.
    Do you agree that our immature technologies are, in fact, a 
problem? If not, why not? If so, what steps are being taken 
that we should be aware of that can help make sure those 
technologies really work, and get that quickly decided and then 
move them into the field? Either one of you can start off.
    Mr. Aldridge. Let me start off in a broader sense of the 
problem of getting our technology in the field faster. It is 
unfortunate that we are in the process of a budget that when we 
have an idea, that we want to do something, it takes 2 to 3 
years to get that program funded because of the budget process.
    I do not have an answer to this, but there could be some 
kind of a line item that where we find the technology, we have 
a budget already established to go fund it immediately. I do 
not know exactly how to do that, but the budget problem that I 
am aware of does create this lag in time of idea to actually 
getting started.
    Dr. Etter. I would agree with that, and then go a little 
bit further on the maturity levels. One of the things that is 
in our new 5,000 series which describes the new acquisition 
process is a requirement to do technology readiness levels. 
This is a requirement that is now put upon the science and 
technology community to give essentially a number rating to 
technology as it is ready to move into acquisition.
    I think this is going to be extremely helpful. It allows us 
to communicate between the science and technology community and 
the acquisition community.
    What I hope it does not become is a way to say, 
``technology should not move into acquisition unless it reaches 
a certain level.''
    What we really should use this for is to make sure that the 
program managers understand the risk that they are accepting so 
that it really allows the communication to say if this is an 
extremely important technology for you to put into your system, 
by giving it a technology readiness level that indicates that 
it is not as mature as you would normally like, the program 
manager then knows that he is going to have to put, for 
example, more dollars into risk reduction efforts and things 
like that. So it helps you to avoid surprises.
    That is one of the most important things you want to do, is 
not to have surprises in the maturity of the different 
technologies that are going into our systems.
    Senator Landrieu. Thank you.
    Mr. Chairman, I have other questions, but there are other 
members so I will reserve to ask them later.
    Senator Roberts. We can come back if we have time.
    Let me recognize the distinguished Senator from 
Pennsylvania, Senator Santorum, for opening comments he would 
like to make.

               STATEMENT OF SENATOR RICK SANTORUM

    Senator Santorum. Thank you, Mr. Chairman. I have an 
opening statement that I would like to put in the record. I 
just want to make a few comments.
    Senator Roberts. Without objection.
    Senator Santorum. First, let me just thank you for holding 
this hearing. This is a hearing that I requested. You supported 
an amendment that I offered to the budget resolution which 
dramatically increased the amount of funding for S&T research.
    Senator Lieberman and I did work on the subcommittee having 
to do with air/land procurement. We have had many discussions 
about our concern for looking at our procurement tail that we 
have, and the huge amount of commitments that we are about to 
make for the long-term, on major acquisition projects, as well 
as others that are in the offer, and looking at that commitment 
that we have to make and the impact of that in the out-years 
for our budget.
    We are just wanting--and certainly we are thinking out 
loud, what is happening here in the next 5 to 10 years that may 
make these decisions either good decisions or bad decisions? 
Should we be at least integrating or at least be knowledgeable 
about what is on the horizon to either effect the decision that 
we make or make sure that we are capable of integrating that 
into the platforms that we decide to make, or basically 
fundamentally either scrap it or go to a different platform?
    That is the reason that I asked for this subcommittee to do 
this. I have some concerns that go beyond that, obviously, with 
particularly the research that is based in our academic 
centers, and the impact that we are having, not just on the 
amount of research being done there, but the training of 
engineers and scientists.
    I have been very supportive and am a very strong supporter 
of putting more money into NIH. I am all for putting more money 
in health research. But we are consistently lowering the amount 
of money in real terms that we are spending on S&T in our 
budgets in the military.
    The impact of that on our scientific community and our 
basic science research is profound, in our ability to have 
trained scientists and engineers who are going to be developing 
that next generation of warfighting capability. So I do think 
it is important for us to renew that commitment now that we are 
looking at a new vision for the military, that we re-energize 
and redouble our efforts to put more resources in the area of 
basic research and in our university communities, not just for 
the research value, but for the education and training 
component that comes with that.
    With that, Mr. Chairman, I apologize for taking so much 
time, but I appreciate it.
    Senator Roberts. The godfather of the hearing is entitled 
to take whatever time that he might wish. [Laughter.]
    [The prepared statement of Senator Santorum follows:]
              Prepared Statement by Senator Rick Santorum
    Chairman Roberts, thank you for convening this important hearing 
today. In l999, then-Governor George W. Bush addressed an audience at 
The Citadel in South Carolina and raised the notion of skipping a 
generation of weapons systems and of making ``leap ahead'' advances in 
American military capabilities. Governor Bush recognized that 21st 
century threats facing the United States are qualitatively different 
than the threats that occupied our military and our industrial base 
during the Cold War and the decade that followed the downfall of the 
Soviet Union.
    Since that speech, many others have articulated a need to transform 
our Nation's military to better respond to these threat trends. They 
note that our current military is ill-equipped to meet threats such as 
incidents of terrorism, information warfare, biological warfare, and 
urban conflict. The only way to meet these challenges is to redouble 
our energies on meeting these challenges. While procuring updated or 
evolutionary weapons systems might seem like the most expeditious way 
to meet these new threats, I believe that we need to work our way back 
and look first at the basic sciences and basic research efforts that 
will support the development of new weapons systems.
    For advances to occur in these capabilities, we will first need to 
make wise investments in key enabling technologies. I believe that 
Department of Defense basic research can provide the stimulus to make 
this possible. For this reason, during the Senate's consideration of 
the fiscal year 2002 budget resolution, I offered an amendment that 
provided an additional $353.5 million in Department of Defense basic 
research funding spent in American universities.
    Earlier this year, Senator Lieberman and I discussed potential 
hearing topics for the subcommittee on Airland. During our discussion, 
we shared our concern that Congress may not have a full or accurate 
picture of many of the ongoing advances that are happening in the areas 
of warfighting technologies. Senator Lieberman and I concurred in 
thinking that this imperfect or inaccurate information may lead 
Congress to make serious investment errors with respect to our limited 
military resources. Our greatest fear is that Congress will authorize 
and appropriate funds for programs and/or technologies with little or 
no applicability to 21st century threats.
    With this background in mind, I contacted you with the hope that 
you would conduct a hearing focusing on current advances in warfighting 
technologies taking place within our Nation's science and technology 
programs--in academia, Federal Government, and within industry. I 
encouraged you to invite witnesses from these three communities so that 
they might address and illustrate many of the technological 
breakthroughs that are occurring in our science and technology 
programs. I am glad to see that representatives from these three 
communities will be appearing today before this subcommittee.
    I would also like to thank you for honoring my request to include 
two witnesses who have first-hand knowledge in two ``over-the-horizon'' 
technologies--nanotechnology and micro-electromechanical systems 
(MEMS). I believe that members of the subcommittee will benefit from 
the testimony of Dr. Cynthia A. Kuper, President, Versilant 
Nanotechnologies, and Dr. Kaigham J. Gabriel, Professor, Electrical and 
Computer Engineering, Carnegie Mellon University, and their insights on 
these two important technologies.
    It is important to focus on ``over-the-horizon'' or ``leap ahead'' 
technologies because of the revolutionary powers of change these 
technologies can produce. As author Raymond Kurzweil notes, ``our 
forebearers expected the future to be pretty much like their present, 
which had been pretty much like their past . . . [yet] few have truly 
internalized the implications of the fact that the rate of change 
itself is accelerating.'' The author argues that technological change 
is exponential and that ``most technology forecasters ignore altogether 
this historical exponential view of technological progress. That is why 
people tend to overestimate what can be achieved in the short-term but 
underestimate what can be achieved in the long-term.'' It is for this 
very reason that the subcommittee should pay particular attention to 
these ``leap ahead'' technologies.
    Again, thank you for your willingness to schedule such an important 
hearing and I look forward to the testimony of our witnesses.

    Senator Roberts. Let me refer then to Senator Lieberman as 
the goduncle, I believe.
    Senator Santorum. Not the godmother, I know.
    Senator Roberts. No, no. [Laughter.]
    We may have to have a bipartisan amendment along with 
Senator Santorum, too, on the funding level if we maintain the 
S&T budget to the degree that we remain competitive.
    If we do not maintain our technological advantage in our 
military capability, our national security capability, I can 
assure you that the red carpets that are usually out in Europe 
for all of us who go there from time to time will turn to 
standard gray, or maybe French--or whatever.
    Senator Landrieu. Do not give the French anything to be--
[Laughter.]
    Senator Roberts. Well, that is another whole story. 
[Laughter.]
    But at any rate, also the respect of our adversaries. I 
cannot tell you how important this is from a national security 
standpoint.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Some of our most productive ``leap ahead'' technologies 
have often been associated with space. So I am curious, Pete, 
how does DOD's S&T strategy fit in with the national space 
strategy?
    Mr. Aldridge. As you well know, I am delighted to answer 
that question based on my space background. There are several 
things that we are doing in the space arena in relating--in 
fact, I was thinking as you challenged me in ``What were ``leap 
ahead'' technologies,'' Mr. Chairman, I started to think about 
some of them.
    Some of them were, in fact, from space, the real time 
capability of our reconnaissance capability. Space shuttle, I 
would said was a ``leap ahead,'' and space-related things like 
SR-71. The airborne laser is clearly a ``leap ahead'' 
technology, and even the UAVs are in some cases ``leap ahead'' 
technology.
    I guess you know it when you see one is the best I can 
describe it. It is hard to put a definition of what one is 
until you actually see it.
    Space phase radar is one, Senator Nelson, that we are 
working on very hard that is in the S&T program both from the 
standpoint of putting an AWACS in space that would detect the 
airborne targets to putting JSTARs in space that would detect 
moving targets on the ground. There are some significant 
technologies moving in that direction.
    Certainly, the reusable launch vehicle technologies, while 
that has been a NASA directed program, the Department of 
Defense is very interested in looking over the shoulder to make 
sure that when that comes to the point of fruition, the 
Department of Defense can use that technology when it is 
available.
    We are also looking at new things in the space 
surveillance, being able to understand the situation awareness 
in space. We are looking at technologies to protect our own 
satellites from hostile action in space. We are looking at 
technologies that would deny the adversary the use of space 
when it is detrimental to our interests.
    It is just a whole range of capabilities that we are 
looking at that would give us the continued asymmetric 
advantage. I will use that term again. There is no country in 
the world that can match us in our capabilities in space, and 
no one will for a very long time.
    However, there are things that people can do with the new 
technologies that exist in space by acquiring them from the 
commercial sector, and can use them detrimental to our 
interests. We want to be able to make sure our systems operate 
as they are planned; and in cases where an adversary is using 
space detrimental to our interest, we can deny him that 
capability. All those things, I believe, we need to work on. 
All of those are covered in our S&T program.
    Senator Roberts. Senator Allard.
    Senator Allard. We have a lot of technology that is moving 
forward in the private sector as well as in the Defense 
Department. In some cases, one wonders if we are able to stay 
ahead of the private sector with some of the research. Would 
you comment about some of the competition you feel from the 
private sector?
    Mr. Aldridge. Let me start, and I will have Dr. Etter 
continue. Yes, sir, we have a problem in our ability to use the 
technology from the private sector because we make our rules 
and regulations so burdensome for the commercial companies to 
do business with the Department of Defense. I think we have to 
address that problem first so that we have companies like 
Hewlett Packard who have tremendous technologies that can bring 
to bear to the Department of Defense, that it is commercially 
attractive for them to do business with us.
    That is one area that we can then get access to that 
capability which has, like you said, turned around very 
quickly.
    But the other side is that in many cases where there are 
unique military requirements, that in some cases, we are, in 
fact, ahead of the commercial sector. In some of these cases we 
just talked about, space phase radar, for example, there is at 
this point no really unique commercial requirement for such a 
thing. In some of the very high data rate capabilities that we 
have need for in the military, the commercial sector has not 
yet caught up with us.
    But there are many other things which the commercial sector 
is providing with respect to information technology that we 
should be taking advantage of because--but we do not make it 
friendly for them to do so, we need to go work on that.
    Dr. Etter. I would add from another perspective, one of the 
real challenges we have is just knowing what is available in 
commercial industry. That is a growing challenge because it is 
something that we need to be aware of, not only with what is 
going on in our country, but really what is going on globally.
    There are a number of efforts that try to look at that. 
Each of the services has their own efforts to look at 
technology. We have some international technology watch 
programs where not only do we participate, but some of our 
closest allies work with us to try to help us all stay aware of 
what is going on in technology.
    But I think that is going to continue to be a growing 
challenge, to know what is going on. But it is very important, 
and I think it is a real responsibility of the Department 
because we want to be sure that the dollars we spend on science 
and technology are not dollars doing something that commercial 
industry is doing; or if there are some very common interests, 
perhaps leveraging. But I think it is something it is a 
responsibility, but is going to be a growing difficulty to 
really stay on top of.
    Senator Santorum. Would you comment a little bit further on 
the cryptological challenges that you have?
    Mr. Aldridge. I am not sure I can, like I said, I have been 
on the job for only 15 days. I have not gotten into that part 
as of yet. I know we do have some challenges and, of course, 
working with the National Security Agency to work those things 
out. But I am afraid I cannot answer at this point.
    Dr. Etter. If I could add from one perspective, we have 
worked closely with NSA on some issues that relate to 
supporting their cryptography needs. These have fallen in the 
areas of high performance computing because there are certain 
kinds of capabilities from high performance computers that they 
really require for some of their needs. We have worked closely 
with them.
    This has involved looking at some additional support for 
commercial companies doing this, but also putting in place some 
initiatives for research to try to help do the kinds of initial 
research to help our companies within the U.S. be more 
competitive in some of these very high end areas and 
architectures.
    Senator Allard. Thank you.
    Senator Roberts. Senator Santorum.
    Senator Santorum. Thank you, Mr. Chairman.
    Just a couple of comments: First off, if we were successful 
in doubling your basic research budget, what would you do with 
the money?
    Mr. Aldridge. Double it? [Laughter.]
    Well, let us see. I have a few areas that I think are 
important for us to delve into. They are consistent with the 
strategies that are laid out in our formal statement for the 
record.
    But I think information technology comes to the top of my 
list of things that we ought to be working on, both information 
assurance that we can operate in ways that an adversary cannot 
disrupt; our growing dependence upon information for our 
capabilities; as well as our information warfare. We need to be 
able to deny the use of that capability to an adversary.
    But information technology, to me, would be high on my list 
because in a conflict, the ability to deny information I think 
is something that adds more to deterrence that anything we can 
do. So that would be high on my list.
    The second would be space systems. Space is a very 
important part of our capabilities to conduct military 
operations. There is nothing we can do in the military in terms 
of targeting that space is not an essential part of 
understanding where the targets are, the communication systems, 
the navigation systems, the bomb damage assessment, the weather 
predicting. Everything we do is essential to space, and we need 
to continue to develop our dominance in that particular area.
    Directed energy is an important future war winning 
capability. Unmanned systems are important, both unmanned 
reconnaissance and unmanned combat vehicles. Nano and micro 
technologies are something that we could continue to spend 
money on. Ballistic and cruise missile defense are very 
important issues for the future. These are the areas that I 
would focus on with the additional resources.
    Senator Santorum. I would like to talk a little bit about 
nano and MEMS, if you will. My understanding is that your 
nanotechnology initiative is called the Defense University 
Research Initiative on Nanotechnology. Can you explain that and 
what is going on in that program?
    Dr. Etter. Yes. This is a program that we work on with a 
number of other agencies. I think the area of nanoscience and 
nanotechnology is one that people recognize is a very critical 
one.
    Over the last few years, there have been interagency groups 
that have worked together to look at this area and to also 
divide up areas of emphasis so that we can get the most out of 
the dollars that we are putting into this.
    For example, NSF is one of the key players in it. DOD is 
also a key player, and the program that you described is the 
one that we have used to try to focus our efforts in this area. 
But it is looking at nanoscience and nanotechnology, 
particularly with a look at applications that we think will be 
important to DOD.
    For example, one of these is new energetics, new materials. 
We are also very interested in things that may allow us to come 
up with new power sources that would allow us to have smaller, 
lighter weight systems. We think nanoscience is going to be 
another part of that.
    But this program is one that is focused entirely on 
universities, and it is built around a multi-disciplinary 
university research initiative. So it is encouraging 
collaborative efforts among universities.
    We think this is a very important program, and have planned 
in that to make sure that we have a continuing support, not 
only for the programs that are currently being funded, but for 
bringing in new programs each year.
    Senator Santorum. When you are doing that kind of research 
whether it is that or others, how does that research that is 
going on intersect with the development of weapons systems that 
are ongoing at the various stages of procurement?
    Mr. Aldridge. Yes, sir. Let me address that. It so happened 
in my previous job--I was a CEO of a corporation in California 
that launched the smallest satellites ever put into orbit. They 
are called Pico Sats. They are one pound satellites that are a 
little larger than a cigarette package.
    But we were looking for technologies that--what could 
demonstrate technologies that then the program managers who 
have weapons systems to deploy feel confident that can take the 
technology, we can show that it works, and that they would be 
more comfortable then to apply it to their program. They are 
very prone--not prone to risk, until they have demonstrative 
capabilities.
    There are several activities underway to develop micro 
technology for weapons systems such as artillery shells. There 
is some work going on at Draper. We have had some work going on 
with NASA to put nano MEMS technologies on shuttle flights, for 
demonstration of technologies; looking at technologies that 
also would be applied to very small satellites like Pico Sats; 
looking at communication systems, reconnaissance systems, and 
things of that nature.
    What is from the university and the laboratory, we have to 
take a step to demonstrate that those capabilities are valid so 
that the program managers who have a need for these smaller, 
more capable systems will apply it. I think there is a history 
or trail that has to be provided there.
    Senator Santorum. Do we have existing a pretty good funding 
of that trail? I mean, is it--do we have enough resources--
first off, I guess the basic question is: Are we doing enough 
basic research? I think, at least from my perspective, I do not 
think we are, but I would like your answer.
    The second is, once that basic research is--how are we 
bringing that through to where it becomes relevant to the guy 
who is the program manager who is looking at the project?
    Mr. Aldridge. In the past, we probably have not done or 
funded sufficiently. We could do a better job. If we can get 
our S&T budget up to some of the percentages that were 
discussed earlier, 2\1/2\ to 3 percent, more funding would be 
available to have application for that type of technology that 
may accelerate it for use in the future.
    Dr. Etter. If I could add to that a little bit: When we 
have our basic research programs like the nanoscience one that 
you just mentioned, the dollars come out of an OSD account, but 
when the programs actually get funded, it is done through a 
service. So the services really do the execution.
    One of the things that this provides is a very close tie to 
one of the services and the research that is being done. That 
is often where the first steps are made in terms of working 
closely with the researchers to see what is coming out, and 
then try to identify that into applications that then are 
applications that tie into operational systems.
    Mr. Aldridge. Senator, one point, I was aware of some work 
going on at Draper Laboratories in this area, and one of the 
strongest motivations for the MEMS technology is commercial 
application.
    The commercial people who will be looking at these kinds of 
devices to put in automobiles, and millions and millions of 
devices were the ones that were the most interested, and were 
driving the research program to the point of accelerating the 
MEMS technology for commercial. It so happened that the 
military was riding on that commercial bandwagon, so to speak.
    Senator Santorum. My final question, I know my time is up, 
but if you would indulge me in one thing.
    My opening comments, to tie into those, are there things 
going on out there in the basic research world that you see 
that fundamentally affects the decisions that Congress has to 
make in the next year or 2 with respect to weapons platform or 
other types of acquisitions that we are going to make that 
should cause us to rethink about the commitment to those kinds 
of platforms?
    Mr. Aldridge. The answer to that is yes. If you look at the 
trend of the basic research budget over the last 5 or 6 years, 
that trend has been downward. That is not a healthy sign. It 
should be reversed.
    Senator Santorum. I do not think you understood my 
question.
    Mr. Aldridge. OK. I am sorry.
    Senator Santorum. We are making commitments to a variety of 
different platforms that we are going to eventually deploy, 
acquisition programs. Are there things going on within the 
research community that, in looking at the prospects for this 
research, in light of the decisions that we are going to make 
on acquisitions, that would cause you to say, ``Hey, wait a 
minute. Maybe there are things coming down the line that would 
make this investment at this time and this commitment''--
because you know these things have long tails--``an unwise 
decision''?
    Does that kind of analysis go on within the Department, or 
are we so stovepiped that that kind of interaction really does 
not occur to the degree that is necessary in this incredibly 
fast-paced evolution of technology that is going on in our 
society?
    Mr. Aldridge. I--that is a----
    Senator Santorum. I thought I would give you an easy 
question to answer. [Laughter.]
    Mr. Aldridge. Very tough question to answer. I would hope 
that that type of analysis does exist. I believe it does.
    I know there are--I have seen personally in the short 
history that I have been on this job, and certainly in the past 
history, where people are looking at technology working that 
says, ``Well, this technology is going to make this either 
obsolete''--if this is what you are getting to--``or it is 
going to change the direction we ought to be going now.''
    I believe that that type of analysis goes on in the 
Department of Defense. I hope it does--that is about as much as 
I can say about that topic.
    Senator Santorum. That is not particularly reassuring to 
me.
    Mr. Aldridge. I did not think that I wanted it to be 
because I am not sure that----
    Senator Santorum. I understand. You are new here. I am not 
going to hold you to that. [Laughter.]
    But I am not exactly--I was not emboldened by your 
response.
    Mr. Aldridge. OK.
    Dr. Etter. I would add that one of the things about basic 
research that is important to remember is most of the time it 
is not obvious what the applications are going to be. So I 
think that is the point at which you begin to see how something 
is going to be useful, is when you can see the applications. 
Sometimes that occurs in basic research, but often it is not 
the case. It is after it moves further into more applied 
research.
    I think the way that we try to make sure that we are 
positioned to take advantage of things that we do see is by 
looking at the designs of our systems and trying to use things 
like open standards, architectures that allow us to do 
insertion of new technologies.
    I think there are things that we can do to our systems 
today that not only allow us to plan to use technologies we see 
that are perhaps 3 to 5 years off, but to position them for 
things from basic research. But most of the benefits from basic 
research really are things that are further off than the 
current decisions we have to make today, but it is looking at 
the environment of systems and the ease with which we can 
upgrade that may be one of the ways we are going to be able to 
allow ourselves to take advantage of that.
    Senator Roberts. Let me say that was a very helpful and 
provocative series of questions, Senator, very helpful.
    Our distinguished ranking member has a time problem. Would 
you like to add anything at this point?
    Senator Landrieu. I just want to say that I am going to 
submit some additional questions for the record, but again, I 
just think this is a very important hearing. I really believe 
that the panelists from Kansas, Pennsylvania, Louisiana, and 
from other states and many of our universities have been part 
of this research.
    I have to slip out, but I am going to submit my questions 
for the record, Mr. Chairman, and will be reading the 
transcript of this because we will use this as a foundation to 
build on the future. I thank you all very much.
    Senator Roberts. Thank you, Senator.
    Secretary Aldridge, I got a lawyer problem. [Laughter.]
    You mentioned in your testimony last year that Congress did 
provide lab directors the direct hire authority of personnel, 
and the usual process of hiring could take anywhere from 3 to 
18 months. It has taken more than that to get the authority to 
shorten that up.
    This authority has not been utilized because apparently 
there is a disagreement between the acquisition folks and the 
personnel lawyers at the Department. Could you address this 
issue? How do we tap the lawyers so gently on the shoulder and 
say, ``Move''? [Laughter.]
    Mr. Aldridge. I had a discussion just yesterday with the 
new Under Secretary for Personnel and Readiness, Dr. David Chu. 
I discussed this problem with him, and we will resolve it 
within the next few days. I think it will be resolved in a very 
favorable way.
    We do want to implement this authority. We think it is 
necessary for our laboratories to get the very best talent. It 
is something that is short-sighted for us to have not exercised 
this sooner.
    Senator Roberts. Mr. Secretary, you can certainly tell 
those folks that you had a very helpful discussion with the 
Chairman, soon to be ranking member of the subcommittee. 
[Laughter.]
    If necessary, we can certainly stipulate anything that you 
suggest in legislation, and we want to get the damn thing done. 
Is that pretty clear?
    Mr. Aldridge. You are not very wishy-washy on that issue, 
sir, very straightforward. [Laughter.]
    Senator Roberts. Mr. Secretary and Dr. Etter, last year 
Congress required the Department to report on possible 
innovative approaches which you might take to address the 
technology transition issue. We suggested in language that the 
Department review such processes as the budget and acquisition 
process in order to accelerate the transition, along the lines 
Senator Santorum has suggested.
    We encouraged the Department to think of new approaches for 
providing what we call the timely transition of technology into 
the hands of the warfighter, such as a transition opportunity 
fund. Could you comment on what stage the report is in, and 
what sort of innovations the Department might undertake to deal 
with this issue?
    Dr. Etter. This is a report that is currently underway. It 
is not completed at this point, but we have tried to take into 
account the suggestions that you have given us.
    As we look at technology transition, one of the things that 
I think is clear is that there is no silver bullet here. It is 
something that you have to look at from a lot of different 
perspectives and have a lot of programs that work this.
    We do think having some kind of funds available to help 
transition programs that become very successful that are not in 
the palm process is going to be an important way to do that. We 
also think that there are ways of changing the funding process 
for our advance concept technology demonstrators that will also 
allow us to transition things that come out of that. So----
    Senator Roberts. Well, that is the peanut that I am 
interested in. We will name it after Senator Santorum. It is a 
transition opportunity issue, in order to get it in the hands 
of the warfighter. That is the one I really think has a lot of 
possibilities. Any comments? All of us feel that if we do not 
have a fixed amount, as you get into what the vagaries of the 
budgeting are, that the fixed amount the 3 percent should stay.
    But if you had a transition opportunity fund, and you could 
say to members who may be somewhat critical, if we are trying 
to establish priorities, say, ``Look, we have a transition 
opportunity fund,'' this actually puts it in the hands of the 
warfighter.
    I think that is justifiable. I think we could make that 
case. I think we could make it on the floor of the Senate if 
anybody wants. I do not know about the appropriators but----
    Dr. Etter. We agree. We are working to try to come up with 
a plan to do that. Thank you.
    Senator Roberts. OK. Dr. Etter, the Department embraced the 
utilization of technology readiness levels. You referred to 
that earlier in your testimony. The theory, as I understand is, 
everybody involved in the development of the system will know 
the level of risk they are taking on when adopting a technology 
at a certain readiness level.
    Now, here is the peanut again. The GAO reported last year 
that the Department usually--or the typical transitions 
technology at about technology readiness level three or four--
in other words, that is when you transition it--the industrial 
transitions as I understand it from the GAO report is at 
approximately seven.
    Now, my concern is primarily one of resources. The 
investment in the less expensive S&T phase of the process to 
mature it in technology and development, would appear to save 
money in the acquisition process. But does the S&T community 
have the adequate resources to develop the technologies to the 
later stages?
    One of the things is if you are at three or four, then it 
goes to industry and the damn thing breaks, or something 
happens, or it did not work out quite, why can you not have it 
in seven so you have a more robust product, and you can see 
where you are headed? Then in the long run, you are not going 
to have such a scattered approach. You use more of a rifle 
shot, and it pays off. Am I right in that? You see where I am 
headed in this?
    Dr. Etter. Yes, I do, and I think your point is well made, 
that if we are going to do more of the risk reduction within 
the S&T Program, that there will have to be funds to look at 
how we are going to support that, whether it is actually still 
S&T funds or funds as you move into six/four, but it is going 
to require additional funding to make sure that we have mature 
technologies as we go to acquisition.
    I think that there is another thing that will be involved 
in implementing this, and we are looking very closely in a task 
group at how we are going to implement this because this is a 
new requirement now that we are working on. There is also just 
a lot of time and effort spent in trying to do the evaluations 
of the TRLs themselves.
    One of the things that will be important if this process is 
going to work in terms of helping project managers understand 
the risk of technologies that they want to use, is that we have 
to be able to assign these technology readiness levels 
consistently across the services. It also means that we have 
got to be able to assign them for not just hardware, but also 
for software. So we do see a number of challenges with this.
    The funding issue that you brought up will be one of the 
challenges, and being able to consistently define the levels 
for technologies will also be important for us to look at.
    Senator Roberts. Mr. Secretary, in the recent Defense news 
article, it was reported that you sent a memorandum to 
Department's research directors and the procurement chiefs to 
stop the practice of requiring or asking our defense companies 
to ``supplement the Department of Defense appropriations by 
bearing a portion of the Defense contract costs.'' Why did you 
do that?
    Mr. Aldridge. Well, for the first time that I ever read a 
newspaper, it was correct. I did send a memo. We have found 
that through the years that there has been, as a result of 
underfunding some of our research and development activities, 
there was pressure placed on contractors to use their IR&D 
funds or even profits to help us through a transition period in 
the Department of Defense.
    My view is: That is an unhealthy practice. We need a 
defense industry which is strong. If we are going to expect the 
best weapons systems in the world, we need to have a strong 
defense industry to produce those systems. I believe it was 
inappropriate for us to encourage the industry to fund programs 
that we had underfunded through the normal budget process.
    I thought that the practice ought to stop, that if the 
Department of Defense could not afford to pay for a development 
program within its own budget and to rationalize it through the 
process of the Department of Defense and Congress, then it was 
not appropriate that we approached that program in that way. 
The idea of co-funding or using the IR&D funds of the industry 
to help us, I thought, was inappropriate.
    As a result, they can now use their IR&D funds in ways that 
can help the Department by innovating things that we may not be 
thinking about. They can use their own talent to help the 
Department of Defense in ways that we perhaps may not have 
anticipated. That is the reason for IR&D, and that is the way 
it should be used.
    Senator Roberts. That is a very strong statement. If you 
are going to force Peter to pay for the R&D Paul, or that that 
is what we used to do, and that is not going to be the fact 
anymore, basically you are saying that we should to fund it.
    Mr. Aldridge. Yes, sir.
    Senator Roberts. All right. Senator Allard.
    Senator Allard. Mr. Chairman, I do not think I have any 
more questions.
    Senator Roberts. Senator Santorum.
    Senator Santorum. Just a followup to that: Do you see that 
as creating an incentive for the private sector to do more 
research funding? I mean, more funding--you gave me the sense 
that they are sort of going to be off doing their own thing. Is 
there any coordination that you envision now that you have 
freed up this pot of money?
    Mr. Aldridge. Yes, sir. We watch what they do with their 
IR&D. In fact, in some cases, contractors come and ask us how 
they should spend their money in the best way for long term. We 
are not blind to how they spend their resources, but in some 
cases they have some better ideas of how to spend the money 
than we do perhaps.
    Senator Santorum. Do you expect that to maybe result in 
even more leveraging of funds? In other words, them putting 
even some more money in as a result of that?
    Mr. Aldridge. That is their choice at this point in time. 
If they see--the one exception to this rule is that if there is 
a very strong commercial application for the product, we might 
think about allowing co-funding.
    A good example is the expendable launch vehicle where, in 
fact, the Department of Defense saw that there was a valuable 
commercial variant of that, and so we did co-fund. There may be 
those cases that would be quite appropriate, but not in every 
case.
    Yes, I believe that if the industry saw that this IR&D, 
they found a great product, and it may make them very 
competitive in the future, they maybe would invest their own 
money into making them more competitive. So we win all around. 
We have a stronger industry which is better for us. It is a 
more competitive industry, and it is one that I think we all 
want.
    Senator Santorum. Thank you, Mr. Chairman.
    Senator Roberts. Dr. Etter, do you want to give us a little 
advance on the inner advanced electronics initiative that you 
are introducing in the fiscal year 2002 budget so we can go in 
a resolved and well-done--[Laughter.]
    Dr. Etter. I would be glad to give you a sense of the areas 
of priority in that. As you look at electronics, it is clear 
that there are lots of areas where commercial industry is way 
ahead, and what we need to do is just figure out how we can 
leverage off of that. But there are some areas that DOD is very 
interested in that commercial industry is not going to invest 
in. We have identified four of those.
    We think that, for example, RADHARD electronics is 
something that is very critical to DOD, particularly as we make 
the move into space. This is an area where there is not a 
commercial market. So DOD has to take a special interest in 
that.
    We currently have some activities. We have two fabrication 
lines that do RADHARD electronics, but one of the problems here 
is that they are about two and a half generations behind the 
commercial industry. So we need to look at this area not only 
in terms of providing DOD support to make sure the capabilities 
are there, but we really need to look very seriously at 
bringing these up to perhaps a generation behind commercial 
industry so that we have the kinds of capabilities that we 
really need to do the kinds of things we want to do in terms of 
space assets.
    Another area has to do with radio frequency electronics. 
This has two parts that are particularly important to DOD. One 
is in vacuum electronics, again an area that DOD is the main 
group that has an interest in this. This is an area that the 
Navy in particular has a wide use of vacuum electronics in some 
of its radar systems.
    Another area in this is wide-band gap. This is looking 
further out. This is certainly one of our basic research areas. 
It is one in which we need to do some of the initial research 
to the point where commercial industry will pick it up. So it 
is not something we need to stay in forever, but we need to do 
some of that initial work in it.
    So those are three of the areas that fall in that. There 
are a couple of others in terms of mixed signals that are 
important for us to do, and some of the infrared areas. So we 
have put together an initiative that particular identifies the 
things DOD has an interest in.
    We hope that with the priorities that Secretary Rumsfeld is 
going to be naming, that we will be able to look at that as 
part of the funding in the S&T program.
    Senator Roberts. That is a great segue. We did not plan it 
that way, but it is a great segue to Senator Bob Smith's 
question which I have here. I would like to ask it at this 
point with regards to RADHARD electronics. Following my own 
rule of thumb to prevent me from putting a dollar into the fish 
bowl that we did not really bring out today: Radiation Hardened 
Micro Electronics Industrial Base, RADHARD.
    Question on behalf of Senator Smith: Are there sufficient 
funds in fiscal year 2002 and the out years to fund RADHARD 
process development, to provide appropriate capital equipment, 
and to design advanced electronic devices necessary to 
modernize this critical industrial base?
    Dr. Etter. Well, of course, we cannot talk numbers here, 
but we certainly have been talking about that very issue, and 
we hope that that will be one of the things that will be part 
of our new budget.
    Senator Roberts. I am sure that Senator Smith will follow 
up on that, as we all will. He has a follow-up question. What 
is your strategy to maintain robust competition for development 
and production of RADHARD electronics?
    Dr. Etter. Well, the competition area really comes from 
having two different fabrication lines. So I think the essence 
there is that there are real benefits to having the competition 
of two lines. We recognize that and hope that that will be 
something we can take into account as we look at the budget to 
support this.
    Senator Roberts. What do you need from Congress for the 
Etter Initiative?
    Dr. Etter. Well, I think the funding that Secretary 
Aldridge has said he is going to support within our program is 
the kind of support we need to be able to do that.
    Senator Roberts. We will call it the Bob Smith/Rick 
Santorum Initiative. We better find us some help from the 
Majority as well.
    Thank you so much for your testimony. Thank you for your 
service to our country, Dr. Etter. Welcome aboard, Secretary 
Aldridge.
    We will ask the second panel to come up at this time.
    Mr. Aldridge. Thank you, sir.
    Dr. Etter. Thank you. [Pause.]
    Senator Roberts. The second panel is comprised of the 
Science and Technology representatives of the military services 
and also DARPA.
    As the witnesses are aware, the purpose of this hearing is 
different from past years. Today, we will hear about investment 
in ``leap ahead'' technologies, the transformation efforts 
underway within the services' Science and Technology Programs, 
and the transition of the revolutionary technologies in the 
hands of the warfighter.
    Without the budget, however, this subcommittee is unable to 
review in detail the commitment by the new administration to 
the Science and Technology Program. A strong, stable investment 
in Defense Science and Technology remains a priority of the 
subcommittee. In addition, we must ensure the warfighter has a 
capabilities over match well into the future. That is why in 
the absence of a budget it is still important to discuss the 
investment in truly revolutionary and ``leap ahead'' 
technologies.
    I would like to welcome our witnesses to today's hearing. 
We will hear from Dr. Michael Andrews about the Army's 
transformation efforts and the Future Combat Systems approach. 
I look forward to hearing what a ``system of systems'' is and 
what that approach is, and the definition of ``system of 
systems,'' and how it is truly an out-of-the-box thinking.
    The Future Combat Systems aim to be an ensemble of 
capabilities, a group of systems working in collaboration. It 
is ambitious, and is planned to lead the future in an Objective 
Force.
    The subcommittee now looks forward to hearing about the 
partnership the Army has formed with DARPA to implement the 
Future Combat Systems.
    We want to welcome Admiral Jay Cohen. This year, the Navy 
finished an ambitious process of realigning its Science and 
Technology priorities. The subcommittee anticipates receiving 
an overview of this transformation process, and the division of 
the S&T Program into two areas, the long term grand challenges 
and the more immediate future naval capabilities.
    The Navy has realigned its funding priorities to correspond 
to the newly identified technological capabilities, thereby 
focusing its effort in the most important research areas. We 
anticipate hearing more details about which technological 
challenges the Navy has identified as necessary to achieving 
these capabilities. I am also interested in hearing what 
efforts you have taken for force protection following the 
attack on the U.S.S. Cole.
    Dr. Don Daniel will testify on behalf of the Air Force. The 
subcommittee is particularly interested in hearing from you, 
Dr. Daniel, on the Science and Technology Planning Initiative 
now underway within the Air Force. I might mention that 
everyone here is well-aware of the issues confronting the Air 
Force Science and Technology Program, and the subcommittee's 
past concern about the lack of support for the program.
    It is critical that a real commitment to the long-term 
technological superiority required by the Air Force be provided 
in several key areas, including a renewed emphasis on space and 
missile defense. I understand that the Air Force has taken a 
very long look at the planning process mandated by Congress in 
last year's National Defense Authorization Act. I know that you 
are currently about halfway through the process, and real 
progress is being made.
    Also, I understand fundamental changes will occur no 
earlier than next year. I hope to hear more about that process 
today and the ownership taken by the Air Force leadership to 
turn around that serious deficit in its Science and Technology 
Enterprise.
    I would like to be optimistic about the process you are 
undertaking, Dr. Daniel, but do not be surprised if I remain 
skeptical until the process is finished, and future budgets are 
received and reviewed.
    Finally, I would like to welcome Dr. Jane Alexander, Acting 
Director of DARPA. The subcommittee looks forward to hearing 
about the ``leap ahead'' technologies that DARPA is engaged in, 
and the technology transition of these innovations to the 
warfighter community. You heard the earlier statements, I am 
sure.
    We will begin with Dr. Andrews, followed by Dr. Daniel, 
Admiral Cohen, and then we will close with Dr. Alexander.
    Now, after all those very lengthy questions to discuss at 
great length your future, we would like for your statement to 
be around 5 minutes so there will remain time for questions and 
answers.
    I think you know what we call ``show and tell.'' Senator 
Santorum has offered to try on the helmets and the goggles and 
any other things. [Laughter.]
    If things fly, he can be in charge of that as well. 
[Laughter.]
    So the liaisons will bring the displays to us and we will 
proceed with our first witness.

   STATEMENT OF DR. A. MICHAEL ANDREWS II, DEPUTY ASSISTANT 
  SECRETARY OF THE ARMY FOR RESEARCH AND TECHNOLOGY AND CHIEF 
                           SCIENTIST

    Dr. Andrews. Thank you, Chairman Roberts and Senator 
Santorum. Thank you for this opportunity to discuss how the 
Army's Science and Technology (S&T) Program is focused on 
accelerating the pace of the Army Transformation. I have 
previously submitted a written statement. I would like to 
summarize my remarks this afternoon.
    Senator Roberts. Certainly.
    Dr. Andrews. We are developing the fullest range of 
technologies to provide materiel solutions that will blur the 
traditional distinctions between the Army's heavy and light 
forces and, at the same time, increase their strategic 
responsiveness, and very importantly, reduce our logistic 
demands for those kinds of forces.
    Our goal is to field this capability for the Objective 
Force by the end of this decade, a very challenging time frame. 
It is my privilege to report to you that the Army's scientists, 
engineers, and our industrial and academic partners are 
committed to making the transformation a reality.
    The most vivid example of this commitment and our single 
largest S&T investment for the Army S&T Program at about $500 
million per year, is the Future Combat Systems (FCS) Program.
    Importantly, this ``leap ahead'' capability is being 
addressed in a strong partnership with DARPA. FCS is also a 
very clear example of the spiral development that you mentioned 
earlier; users, system developers and designers, and technology 
developers working together to give us the first capability for 
a fielded effort, followed closely with technology insertions.
    We believe that the Objective Force soldiers in this 2010 
time frame, equipped with the Future Combat Systems, will be 
capable of dominating across the full spectrum of operations, 
from peace time engagement through major theater warfare.
    Our warfighters from the Vice Chief of Staff established a 
design crucible for FCS, of 20-ton class or lighter. Abrams, of 
course, is about 70 tons, but a world-class killer and 
survivor.
    This demands that our Future Combat Systems be achieved 
with a ``systems of systems'' approach as you mentioned. This 
provides us a ``leap ahead'' in force capability with 
unprecedented lethality, survivability, integrated on the move 
command and control, as well as full situational awareness.
    It is not a platform. The FCS is not a platform. It is a 
system of battlefield capabilities in which the whole exceeds 
the sum of its parts. That is the real difference with ``system 
of systems,'' for the whole to exceed the sum of its parts.
    Fielding FCS will represent a true paradigm shift for the 
Army and how it fights, perhaps as significant as the 
introduction of the tank or the helicopter. It is that 
significant. On behalf of our soldiers, though, I want to 
really thank Congress, especially members of this committee, 
who last year supported the FCS program and the increases we 
needed.
    In my submitted written testimony, I have described many 
important areas of innovations. In the area of armaments, a 
multi-role cannon that can do both direct and indirect fire, on 
the move, and less than 20 tons; a compact kinetic energy 
missile that moves at about a mile and a half a second, and has 
the lethality to take on the next generation of tanks.
    I also have talked about survivability, active protection 
systems, as well as smart armors that protect our tanks and our 
soldiers; and finally, in terms of C\4\ISR, the ability to have 
on the move command and control for our systems.
    But what I want to do is give you a very clear example of 
the innovative thinking going into all key Objective Force 
concepts. It is that synergistic mix of manned and unmanned 
systems. You talked about that earlier, as well as Secretary 
Aldridge.
    To enable these innovations, we are pursuing a prudent 
balance between higher and lower risk technologies for the 
development of ground vehicles, or Unmanned Ground Vehicles 
(UGVs) to support FCS and other systems of the Objective Force. 
Let me describe this balance through three technical approaches 
to introduce robotics on the battlefield.
    First, at the lower end of technical risk, the Army is 
conducting a Robotic Follower Advanced Technology Demonstration 
Program. This program will develop and demonstrate near-term 
technology that permits a UGV, unmanned ground vehicle, to 
follow virtual bread crumbs, of a manned system that is in 
front of it. Typical follower missions then that we can provide 
are logistics resupply, medical evacuation, non-line-of-sight 
weapons carriers, as well as security for our troops.
    Second, for the mid-term we are pursuing a higher risk 
Science and Technology Objective Program to provide Semi-
Autonomous Robotics through improved perception and command and 
command capabilities. This will expand the UGV mission such 
that we can take on an unmanned scout capability, one of the 
tougher points. Tell it to go from ``a'' to ``b'' on its own, 
find the target, locate where that is exactly, and communicate 
where you are and where it is without being destroyed.
    The third, and finally then, to enable the near 
autonomous--getting as autonomous as we can get with UGV 
systems--the highest risk and perhaps the highest payoff in 
robotics work is being done as part of the DARPA/Army 
Collaboration Effort. DARPA is pursuing advanced technology for 
UGVs to increase mobility and provide alternative perception 
and control technologies.
    Now in addition to these ground vehicle robotic systems, we 
also have Unmanned Air Vehicle concepts. One of these on the 
table as you can see, the little round circular piece, is what 
is called an Organic Air Vehicle, adducted fan rotorcraft. It 
can provide extended range, stand-off sensors for the elements 
of FCS, to see before being seen.
    The current capabilities for this rotorcraft are capability 
of vertical takeoff as you can tell; it hovers; horizontal 
flight capability at 55 miles an hour, and up to 30 minutes of 
endurance, already tested. Potential missions here obviously 
include on-demand aerial reconnaissance for the FCS in 
restrictive terrain such as under trees or in urban 
environments. This also is being developed under the DARPA/Army 
partnership.
    Senator Roberts. How much does that weigh?
    Dr. Andrews. Ten pounds. It carries a payload of about like 
76 grams or so, 75 grams, a very small sensor----
    Dr. Alexander. It is a scalable design so it can be made at 
a larger size if a larger payload is needed.
    Dr. Andrews. Very key. I have just described some of those 
for the future. Let me now talk to you about two recent 
successful technology transitions, talking about the past that 
has certainly paid off here.
    First on the table, you see the Objective Individual Combat 
Weapon (OICW). That is the armament sitting in front of you. 
This is the product of an Army Advanced Technology 
Demonstration Program that was just transitioned to the program 
management side. This is a full-scale model of this objective 
individual combat weapon, weighs the same as the actual ATV 
product.
    It provides the individual soldier a new capability, to 
shoot an enemy in a hide position, in a foxhole, or behind a 
wall through a window, with its air bursting of 20 millimeter 
round. This is done by using a laser range finder to provide 
the smart munition and the front end for this round, the exact 
range to detonate.
    The bottom line, compared to the current M-16, grenade 
launcher, the OICW provides eight times the fire power at twice 
the range. This allows our soldiers to see first, act first, 
and finish decisively, leaving the enemy no place to hide.
    Another successful transition from the Army S&T Program 
addresses the number one cause of combat fatalities, blood 
loss. On the table in front of you are also two small plastic 
samples. Those are fibrin bandages. This was successfully 
transitioned from the Army Medical S&T Program. It is a cotton 
fiber material that--can somebody show that?
    Senator Roberts. Just grab the fibrin bandage. Do not grab 
the weapon. [Laughter.]
    Dr. Andrews. This is a cotton fiber material that has been 
impregnated with two human blood clotting proteins. The bandage 
will stop bleeding within 2 to 3 minutes.
    If you think about a bullet wound, or a major surface 
wound, or if you had a hole through your arm, you plug it in 
and stop the bleeding, again, within 2 to 3 minutes. While the 
obvious and primary purpose of this fibrin bandage is to save 
soldiers' lives----
    Senator Roberts. Doctor, why does this say, ``not for use 
in humans''? [Laughter.]
    Dr. Andrews. Prototypes, not Food and Drug Administration 
(FDA) approved yet. Part of our process in the Army Medical S&T 
is to go through FDA.
    Senator Roberts. But okay for the family dog here, I guess. 
[Laughter.]
    Dr. Andrews. We go through FDA which takes us----
    Senator Roberts. How long does that take?
    Dr. Andrews. That is almost as long as our acquisition 
cycles. It takes a good 7 years to get through the FDA.
    Senator Roberts. Seven years to get this damn thing done?
    Dr. Andrews. Well, once we get them through the technology 
piece, then they take their time. I mean, we are talking about 
using this on our soldiers, and FDA takes their time to make 
sure there are no problems.
    Senator Roberts. If you are trying to stop a bleeding 
wound, it seems to me that is a little higher priority than 
gulping down a pill or two for whatever ails you.
    Dr. Andrews. FDA is outside our control, obviously, and 
their priorities.
    Senator Roberts. My Lord, we got Viagra before we could get 
this thing. [Laughter.]
    Dr. Andrews. It will be there before the end of the decade, 
though.
    Senator Roberts. Well, we need to take a look at that. That 
is ridiculous. I guess that is outside of our jurisdiction. I 
do not know.
    How many of those prototypes do we have of the Objective 
Individual Combat Weapon?
    Dr. Andrews. That's up there.
    Senator Roberts. OICW.
    Senator Santorum. That is the gun.
    Senator Roberts. Yes, I know that. I am not--[Laughter.]
    Senator Santorum. Are you still talking about FDA? 
[Laughter.]
    Senator Roberts. No, I am done with FDA. I am upset with 
the FDA. We will raise hell about that later. [Laughter.]
    But, how many prototypes do you have of this? [Indicating]
    Dr. Andrews. We built one prototype.
    Senator Roberts. That is it?
    Dr. Andrews. That is it. Now we are into the PM, and they 
are building some new prototypes. They have just been in it for 
1 year. We built our demonstration unit. Again, that is the 
issue of limited resources. We carried two contractors as long 
as we could, and then did a down select.
    Senator Roberts. If so, in fact, this is the weapon of the 
future as described in the combat situations that you have 
described and this is acceptable to the Services, I am assuming 
the Army, and the Marines, and others, how many years away are 
we from that?
    Dr. Andrews. This is roughly at the fiscal year 2009, 
fiscal year 2008 time frame for introduction, first unit 
equipped. So that is about 7 years down. We are just now 
entering----
    Senator Roberts. How do we speed that up?
    Dr. Andrews. Resources.
    Senator Santorum. So it is a resource question. It is not a 
technology question.
    Dr. Andrews. It is a resource question, yes.
    Senator Roberts. It is not technology as the Senator has 
indicated. It is a resource situation.
    Dr. Andrews. In this case, this one is less science and 
technology. It is now in the acquisition, and the acquisition 
has limited resources.
    Senator Roberts. Why can that transition fund not be used? 
That is exactly what we asked Dr. Etter and the Secretary. Why 
could that transition fund not be--if you want to hold that up 
on the floor of the Senate. [Indicating] [Laughter.]
    I do not know--if we really want to take over, that might 
be a way. [Laughter.]
    Senator Roberts. But, that is just too slow. I am sorry. Go 
ahead.
    Senator Santorum. Well, that is the classic problem with 
all of our acquisitions. I mean, they just take too darn long.
    Senator Roberts. Right.
    Dr. Andrews. There are many parts to that problem. One is 
the amount of testing that has to go on. Since our soldiers 
will carry these, we have to make sure that everything is----
    Senator Roberts. How much does that weigh?
    Dr. Andrews. Too much. That is about 14 pounds, and trying 
to go down.
    Senator Roberts. Yes, that is too much.
    Dr. Andrews. Right. It is on a diet right now. Everything 
they are doing is to drive that weight down as well as working 
on improving the cost of the munition that goes with it, smart 
round.
    Senator Roberts. OK. I am sorry to interrupt you. Go ahead.
    Dr. Andrews. OK. Let me back up to the Army's vision.
    Senator Santorum. Let me just--so part of it is technology.
    Dr. Andrews. Yes, sir.
    Senator Santorum. You are telling me it has to go on a 
diet. I mean, if you knew how to do that, you would do it. So 
the problem is not just money. It is money and technology.
    Dr. Andrews. Money and technology, but most of the 
technology is mature technology outside the S&T world. So it is 
the PM world of reducing weight of materials, going more to 
composites which are off-the-shelf, more design changes by the 
contractor, drive the weight down.
    Senator Roberts. OK.
    Dr. Andrews. Since the Army's vision was announced in 1999, 
we have significantly reshaped and sharpened the focus of our 
advanced technology development in applied research investments 
for transformation Objective Force.
    Also on the table, I have the 2001 Army Science and 
Technology Master Plan. Those are the two large documents that 
you see sitting up there. [Indicating] This is the first Army 
S&T document that really is a capstone for capturing all of the 
changes to meet our transformation efforts.
    Now critical to the Army Transformation to the Objective 
Force, we have a corporate technology to readiness decision in 
April 2003. This is when our Chief of Staff, and the Secretary, 
and DARPA will make a decision to launch that ``system of 
systems'' demonstration area, in 2003 and go through 2005.
    Because S&T is critical to the Army's Transformation, last 
summer we established monthly Science and Technology Reviews 
with the Chief of Staff of the Army and the Army's four star 
commanders to provide broad guidance on warfighter needs and to 
assess our progress in satisfying those needs.
    In addition to maturing and transitioning technologies as 
rapidly as possible, we have maintained a longer term 
perspective with our basic research program. We have increased 
efforts in microturbine technology. This will allow us to be 
more efficient in electric power for the individual, and reduce 
the current demand we have for the number of batteries soldiers 
have to carry.
    We are also establishing a nanotechnology center to address 
Objective Force survivability. The center will focus on 
applying nanoscience technologies from universities, industry, 
and Army labs to achieve the material breakthroughs in 
soldier's stealth and ballistic protection, and reduced weight.
    We are also exploring state-of-the-art simulation 
technologies at the Army's Institute for Creative Technologies 
at the University of Southern California. We are leveraging the 
creativity of the entertainment and game industries to create 
compelling immersive environments for training our soldiers, 
increasing the likelihood that when the Nation sends soldiers 
into harm's way, they will accomplish the mission and return 
safely.
    Now, of course, we cannot achieve these goals without top 
caliber scientists and engineers who develop our technologies 
for the soldiers. Recruiting and retaining S&Es is a challenge 
across DOD as Secretary Aldridge has already testified.
    Last month, I convened an Army-wide S&T Leadership Summit. 
One of our tasks was to identify innovative approaches to 
recruiting, retaining, and refreshing the Army S&E workforce. 
We will be sharing these insights across the Department. I want 
to assure this subcommittee that I am committed to ensuring the 
quality of our S&E workforce. Our soldiers really depend on it.
    In closing, the Army S&T community has stepped up to the 
technical challenges necessary to enable the Army's 
transformation. We have energized all of our resources and are 
committed to making the Objective Force a reality. Your 
continued support is very welcome and critical to this Army 
transformation effort.
    Thank you.
    Senator Roberts. All right.
    [The prepared statement of Dr. Andrews follows:]

            Prepared Statement by Dr. A. Michael Andrews II

                              INTRODUCTION

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to appear before you to discuss the Fiscal Year 2002 Army 
Science and Technology (S&T) Program and the significant role S&T has 
in the Army Transformation. It is my privilege to represent the Army 
leadership, the members of the Army S&T community, and America's 
soldiers who rely on us to provide them with the capabilities they need 
to execute our National Military Strategy throughout the world.
    I thank the members of this committee for your important role in 
making today's Army the world's preeminent land combat force. I also 
thank you for your assistance in our transformation efforts. Your 
continued advice and support are vital to our success.

                             TRANSFORMATION

    The Army is changing and Army S&T has accepted the challenge of 
enabling this change. We are transforming today's Army from a Cold War 
Legacy Force to an Objective Force. This force will provide early entry 
capabilities that can operate jointly, without access to fixed forward 
bases, and still have the power to win campaigns decisively. The Army's 
Transformation will initially augment, and eventually replace, today's 
Legacy Forces which are too heavy or lack staying power.
    We are an Army between wars, and we are challenging all the 
assumptions about what conflict may be like in the future. We are doing 
this to ensure that our future soldiers have the capabilities necessary 
to accomplish the full spectrum of operations they will face in the 
21st century. Our future force, the Objective Force, will be more 
responsive, more deployable, more agile, more versatile, more lethal, 
more survivable, and more sustainable than our present force. The 
Objective Force will be strategically dominant, capable of placing a 
combat capable brigade on the ground anywhere in the world within 96 
hours, a division on the ground within 120 hours, and five divisions in 
theater within 30 days. These are ambitious, but achievable, goals.

                          THE ROLE OF ARMY S&T

    The Army S&T program is central to enabling the new vision and is 
on the critical path of the transformation leading to the Objective 
Force. We are committed to providing the technology to accelerate this 
transformation. The Army has challenged us to answer some very tough 
questions about achieving the Objective Force-desired capabilities. As 
General Shinseki has stated at a recent Association of the United 
States Army meeting, ``We are asking the science and technology 
community and industry to deliver capabilities that will help break the 
Cold War mindset we all carry with us.'' He made specific challenges in 
that same speech:

        <bullet> I would like to know whether we can design (combat) 
        systems that can't be hit.
        <bullet> I want range overmatch: I want to see farther than the 
        other guy and engage well outside his lethal envelope.
        <bullet> I want early, discrete targeting.
        <bullet> I want to pull the trigger first every time and kill a 
        target each and every time I pull the trigger, and I want to do 
        it at smaller calibers.

    To meet these challenges, the Army's S&T community has focused and 
sharpened its efforts. The Army has also partnered with the Defense 
Advanced Research Projects Agency (DARPA) to demonstrate an entirely 
new land combat capability called the Future Combat Systems (FCS). FCS 
is not ``a platform.'' It is a system of battlefield capabilities in 
which the whole exceeds the sum of its parts.
    FCS represents a true paradigm shift in how we fight--perhaps as 
significant as the introduction of the tank or the helicopter. Fielding 
FCS will be equivalent to making heavy forces lighter and lighter 
forces more lethal, in addition to reducing logistics demands. Some of 
the key challenges include:

        <bullet> Survivability: Survivability is the primary technology 
        challenge because our combat systems must weigh less than 20 
        tons to be rapidly deployable. This forces us to find new ways 
        to protect our soldiers. To survive a first round engagement 
        with 21st century threats, individual FCS platforms will 
        require advances in Command, Control, Communications, 
        Computers, Intelligence, Surveillance and Reconnaissance 
        (C\4\ISR) and platform protection systems. Overall force 
        survivability will require unprecedented battlespace 
        situational understanding, stand-off threat detection, and 
        neutralization capability. Options under development include 
        advanced communications and sensor systems that will increase 
        situational awareness and allow us to ``see first'' and farther 
        than the enemy; active protection systems which are designed to 
        degrade, deflect or defeat incoming threats before they can hit 
        our vehicles; signature reduction techniques that will make us 
        harder to see and therefore harder to hit; and lightweight 
        armor that weighs \1/4\, of the current armor, but provides the 
        same protection.
        <bullet> Lethality: Although our systems will be lighter 
        weight, they must maintain the lethality overmatch of current 
        systems while supporting the shortened timelines associated 
        with future threat environments. Required capabilities include 
        lethal and non-lethal, line-of-sight and non-line-of-sight, 
        gun, missile and directed energy weapons that will provide for 
        the destruction or incapacitation of multiple targets. Options 
        under development include the precision and loiter attack 
        missile systems that will allow us to conduct precision 
        engagements against the enemy at much greater ranges than he 
        can; lightweight, lower caliber guns and ammunition capable of 
        precision direct and indirect fire at long ranges, potentially 
        enabling us to combine capabilities of the traditional tank and 
        artillery piece into one system; extremely lethal compact 
        kinetic energy missiles that ensure overmatch against advanced 
        protection systems, and directed energy systems like lasers and 
        high-power microwaves for lethal and non-lethal applications.
        <bullet> C\4\ISR: Network centric operation is the linchpin for 
        FCS and the Objective Force, providing the foundation for 
        comprehensive situational awareness and the capability for 
        instantaneous prioritization, distribution and engagement of 
        multiple threats. On-the-move, distributed command and control, 
        multi-function sensors and sensor fusion algorithms, and 
        development of a seamless Tactical Internet among leaders, 
        soldiers, platforms, and sensors are critical to achieving 
        these goals. Options under development include digital, secure 
        on-the-move communications for collaborative planning and 
        execution, positive command and control, and shared situational 
        awareness; enhanced radar and sensor systems for longer range 
        detection, accurate identification and precise localization; 
        information assurance to counter information attack and avoid 
        deception, denial and disruption; and aided target recognition 
        to reduce reliance on the human-in-the-loop and increase 
        likelihood of engagement against high-value targets.
        <bullet> Power Generation & Management/Electric Propulsion: The 
        Objective Force will require efficient power generation and 
        management systems to remain lightweight, but still function at 
        a fraction of the logistics burden of the current force. 
        Fortunately, the Army can leverage commercial investments, and 
        is engaging with industry to achieve mutual development 
        benefit. Options under development include hybrid electric 
        drive for high acceleration, silent operation, design 
        flexibility and increased fuel efficiency; fuel cells for 
        efficiency, quiet operation, reduced environmental impact and 
        potential water generation; advanced diesel engines scaled for 
        FCS-class vehicles with higher power density and greater fuel 
        efficiency; low power demand electronics to increase energy 
        efficiency; and efficient power management designs.
        <bullet> Human Engineering: Future soldiers will face increased 
        challenges because of the variety of missions and complexity of 
        tasks that they must accomplish. We must minimize this 
        complexity and ensure our soldiers are trained and ready to 
        function on the battlefields of the future. Options under 
        development include human/machine interface designs that 
        decrease task complexity and execution times, improve 
        performance levels, and minimize physical, cognitive, and 
        sensory demands; associate systems to complement human 
        operators, offload routine tasks and enhance high priority task 
        performance; and embedded/deployable training and mission 
        rehearsal environments to maximize warfighter readiness for the 
        full spectrum of operations in rapid deployments.

                            UNMANNED SYSTEMS

    The Army supports the Congress' desire for fielding substantial 
unmanned capability among future operational ground combat vehicles and 
is aggressively addressing the technology, costs, risks and operational 
issues. To achieve that end, the Army has implemented a bold robotics 
technology investment strategy to provide the critical options needed 
to create opportunities for insertion of unmanned capabilities into the 
Objective Force. The Army has structured the FCS program with phased 
upgrades to support the introduction of progressively more robust 
unmanned ground combat capabilities.
    As part of its on-going partnership with DARPA, the Army is 
sponsoring the development of FCS concepts that involve significant 
unmanned capabilities. The Army strategy is to initiate the 
incorporation of substantial unmanned capabilities through the FCS 
program. The synergistic integration of manned and unmanned systems 
envisioned for the Objective Force will expand the envelope of 
capabilities at the leader's command and reduce the threat to our 
soldiers, taking them out of harms' way. The Army vision for the FCS 
and the Objective Force incorporates unmanned systems as a key element 
for both ground and air operations. The Army is currently developing 
the fundamental technology to enable these systems, both on its own and 
in collaboration with the DARPA.
    The collaborative Army/DARPA FCS program will define and validate 
FCS design and operational concepts, including the role of unmanned 
ground vehicles (UGVs) and unmanned air vehicles (UAVs). Potential 
unmanned functions include:

        <bullet> Remote sensing (UGV scouts, UAVs)
        <bullet> Communications relay (UAVs)
        <bullet> Unmanned weapons carriers for line-of-sight and non-
        line-of-sight fires (UAVs and UGVs), and
        <bullet> Unmanned logistic support vehicles (follower UGVs).

    As part of the Army/DARPA program, DARPA is pursuing advanced 
technology for UGVs to increase mobility and support enhanced 
perception capabilities. While promising, these technologies may not be 
sufficiently mature to be inserted for the initial fielding of FCS. The 
Army is, therefore, pursuing a complementary lower risk UGV approach 
for FCS. Building on past successes, the Army is pursuing a dual-track 
approach for development of UGV technology, consisting of a Robotic 
Follower Advanced Technology Demonstration (ATD) and a Semi-Autonomous 
Robotics for FCS Science and Technology Objective (STO).
    The Robotic Follower ATD will develop and demonstrate near-term 
technology that permits unmanned systems to follow a path ``proofed'' 
by a manned vehicle. The unmanned system may follow by as much as a 
minutes, hours or a day later. The potential for new obstacles, such as 
other vehicles, civilian traffic, or battle damage will still require 
substantial development of perceptual capabilities. Follower technology 
will enable the use of unmanned vehicles for logistics missions, as 
non-line of sight weapons carriers, and to provide rear security for 
troop formations, among other capabilities.
    The Semi-Autonomous Robotics for FCS program focuses on the 
development of more capable mid-term technology systems that are able 
to maneuver without substantial human intervention. The development of 
perceptual capabilities will permit unmanned vehicles to ``understand'' 
the environment, not only in terms of trafficability, but also 
tactically. The creation of the algorithms required for unmanned 
systems to employ tactical behaviors, analogous to the tactical 
judgment employed by soldiers, are a key part of this STO. The 
substantial, though still somewhat fragile, autonomous mobility 
capabilities recently demonstrated during troop-led experiments in 
relatively rugged terrain at Fort Knox, KY, underscore both the 
attainability and promise of the technology.
    Additional Army technology investments that have direct relevance 
for FCS and the Objective Force are being made with DARPA. They include 
the Organic Air Vehicle (OAV) and a UAV rotorcraft with a large 
payload, long endurance and a vertical take off and landing capability 
(the A-160 Hummingbird), advanced command, control and communication 
technologies, and novel sensor systems. These technologies hold the 
potential to permit the FCS, and its associated dismounted forces, to 
operate in complex terrain by exploiting organic, non-line-of-sight 
fire capabilities through remote sensing and communications relays.

                          OTHER S&T PRIORITIES

    Beyond the FCS, our S&T program must continue to support the full 
range of capabilities required for the remainder of the Objective 
Force. Some key areas of investment include:

        <bullet> Objective Force Warrior: Integrated soldier system of 
        systems to provide leap-ahead capabilities for the dismounted 
        soldier with dramatic weight and power reduction. The system of 
        systems will provide seamless connectivity with other 
        personnel, weapon systems, FCS, and robotic air/ground 
        platforms to achieve overmatch for the full spectrum of future 
        operations.
        <bullet> Medical Technology: Individual health monitoring, new 
        medical and dental preventive and treatment modalities, 
        including, vaccines and drugs against malaria, hemorrhagic 
        fever, and scrub thyphus, will significantly reduce Disease and 
        Non Battle Injury (DNBI) casualties and increase return to 
        duty, thereby reducing the medical footprint and the attendant 
        logistical requirements. Innovative products for far-forward 
        stabilization and resuscitation, hemorrhage control, and 
        minimizing neural injury will push advance care forward to the 
        point of injury, decrease the mortality rate, reduce return-to-
        duty delay rate, and make extended evacuation times possible.
        <bullet> Advanced Simulation: Modeling and simulation 
        technology, such as an innovative partnership with the 
        entertainment and game industries through the University of 
        Southern California (the Institute for Creative Technologies or 
        ICT) to accelerate the development of compelling immersive 
        environments for training, mission rehearsal, and concept 
        development. Another project, the Joint Virtual Battlespace 
        (JVB) program, is an enabling technology for evaluating how FCS 
        contributes to the total capability of the Objective Force, and 
        how the Objective Force plays in a joint force. JVB, combined 
        with virtual prototyping, also could provide an effective means 
        for performing Operational Test and Evaluation without the need 
        for numerous hardware test articles. This could result in 
        significant time and financial savings in the Army Acquisition 
        Process.
        <bullet> Rotorcraft Technology: As the DOD lead for Rotorcraft 
        Science and Technology, the Army is investing in the critical 
        technologies that could provide heavy (up to 20 Tons) and semi-
        heavy (12 Tons), intra-theater lift to the Services, and armed 
        unmanned platforms for combat reconnaissance. These 
        technologies also could upgrade the current Army Aviation Fleet 
        for heavier loads and reduced logistical burden.
        <bullet> Basic Research: Investment in knowledge and 
        understanding of fundamental phenomena to enable future 
        technological development; includes support for academic 
        research through the Single Investigator Program, University 
        Centers of Excellence, University Affiliated Research Centers 
        (UARCs, such as ICT), and the Collaborative Technology 
        Alliances (CTAs, formerly known as Federated Laboratories). A 
        specific new thrust in this area is the establishment of a 
        Nanoscience UARC focusing on the application of emerging 
        nanotechnologies to enhance future warrior survivability.
        <bullet> Micro electro-mechanical System Inertial Measurement 
        Unit (MEMS IMU): The Army has recently solicited 50 percent-
        cost share proposals to develop a low-cost, gun hardened and 
        high accuracy MEMS IMU for gun-launched guided munitions, 
        tactical missile and other military applications. The focus is 
        to produce a MEMS IMU that will be bought by the DOD in bulk, 
        thereby giving the economy of scale necessary to yield an 
        inexpensive unit price. The goal is a military tactical-grade 
        IMU that meets 90 percent of DOD munition and missile needs at 
        a low-performance unit price, available from two, or more, 
        commercial contractors.
        <bullet> High Energy Lasers: The Army S&T program continues to 
        investigate high energy solid state laser technology options 
        for potential application on the tactical battlefield. In this 
        effort, we are seeking to identify the most promising solutions 
        to ensure speed of light engagement and laser weapon lethality 
        throughout the spectrum of battlefield environments of weather, 
        dust and obscurants.

                               CONCLUSION

    Since the Army Vision was announced in October 1999, the Army S&T 
program has been re-shaped and focused to speed the development of 
those critical technologies essential to Transform the Army into the 
Objective Force. The Army S&T community has accepted the challenges and 
has energized all of its resources to meet them. We are accelerating 
the pace of transformation of The Army!

    Senator Roberts. Dr. Daniel.

 STATEMENT OF DR. DONALD C. DANIEL, DEPUTY ASSISTANT SECRETARY 
    OF THE AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING

    Dr. Daniel. Thank you, Mr. Chairman, Senator Santorum. I 
very much appreciate the opportunity to be here today.
    In 1944, General Hap Arnold said, ``The first essential of 
air power is pre-eminence in research.'' That statement was 
true in 1944, and it is just as true today in the world that we 
find ourselves. By continuing our investment in a broad and 
balanced selection of technologies, the Air Force will retain 
its dominance of air and space in future conflicts.
    Sir, as you mentioned earlier, I am happy to report and 
give you an update on our S&T Planning Review that we have 
undertaken in response to Section 252 of the National Defense 
Authorization Act. We have approached this review 
enthusiastically, and we have received outstanding 
participation from not only the Air Force S&T community, but 
the requirements, planning, logistics, and user communities as 
well.
    We have over 250 people involved in this review now. About 
140 of those are S&T folks, about 60 are from the requirements, 
to plans, and logistics communities, and about 50 are from the 
user or warfighter communities, all involved in this very large 
activity.
    As you required us to do, the S&T planning review will 
identify the short-term objectives and long-term challenges of 
the Air Force S&T Program. The review has been divided into 
three distinct phases.
    Phase I focused on identifying the objectives and 
challenges at the top level. This work has largely been 
accomplished in the January through April time frame. We 
essentially completed it last week, but I briefed the Air Force 
Council which is chaired by the Air Force Vice Chief of Staff, 
and these objectives and challenges were subsequently approved 
by the Council.
    Phase II concentrates on in-depth investigations and 
analyses of the work that needs to be accomplished in order to 
meet these short-term objectives and long-term challenges.
    Phase III will complete the review with an outbrief to the 
Secretary of the Air Force, and subsequent communication of the 
results to the Secretary of Defense and the Comptroller 
General. We also are maintaining contact with the GAO at 
periodic times as we go through the review, as well, so we do 
not wait until the end of the review and show them the results.
    Another activity we have undertaken I would like to speak 
on for a few moments are Science and Technology Summits. There 
has been a significant increase in the involvement of the 
warfighting commands and senior Air Force leadership in S&T 
planning, programming, and budgeting. We have established 
semiannual S&T summits where the Secretary of the Air Force, 
the Air Force Chief of Staff, all of the four star generals in 
the Air Force, and other senior leaders in the Air Force review 
the S&T portfolio.
    The first two reviews resulted in increased emphasis for 
research in sensors and information technology to advance our 
ability to find and attack targets under trees, and accelerated 
materials development for improved laser eye protection 
devices, an accelerating of development for the joint battle 
space infrasphere, and for completing important beam control 
demonstrations for our directed energy program.
    I might add that our next S&T summit will occur at the 
conclusion of our S&T planning activity. So, again, with the 
Secretary, and the Chief, and all the four stars, we will have 
a detailed review of those results.
    This technological superiority is increasingly a perishable 
commodity. We work hard to stretch our S&T funding by not only 
inventing the future, if you will, but also by speeding the 
introduction of new technologies to our warfighters. One way we 
are doing this is through applied technology councils and 
advanced technology demonstrations.
    The councils, the applied technology councils, are composed 
of two and three star, senior level representatives from the 
Air Force Research Laboratory, our acquisition product centers, 
and our major user commands. Their focus is on assessing the 
quality, utility, and time phasing of our advanced technology 
demonstrators.
    These councils are ensuring that up-front documented 
planning by all the stakeholders take place to improve the 
transition timeliness of demonstrated technologies from the 
laboratory to the customer. This new process ensures that the 
Air Force Research Lab pursues those ATDs with the highest user 
support and transition funding. We hold an Applied Technology 
Council meeting with each Combat Command every year and, thus 
far, have commissioned 22 Advanced Technology Demonstrators 
that have transition funding identified as a result of this 
process.
    The quality of our program is assessed by the Air Force 
Scientific Advisory Board through yearly reviews. Twelve 
technical areas were recently identified as world class 
research during the last cycle of these reviews; let me 
highlight just a few of these if I could.
    The Air Force has been the world leader in developing 
atmospheric compensation technologies that allow high energy 
laser beams to propagate through the atmosphere. We do this by 
first detecting the distortion the atmosphere causes to the 
laser beam, and then instantaneously adjusting away from the 
laser so that the beam reaches a target in a near perfect 
condition. I brought along some photographs of satellite 
imagery with and without atmospheric compensation that were 
taken from our research site at Kirkland Air Force Base, New 
Mexico, and they are on display here. [Indicating]
    Our Space Weather Research at Hanscom Air Force Base, 
Massachusetts is another world class operation. Recently, Air 
Force scientists developed the first real time model of global 
electron density profiles, providing critical input for 
communications and global positioning systems. This model 
supplies information crucial to the design, operation, and 
simulation of a wide variety of communications, navigation, and 
surveillance systems.
    On display is a mass model of the Compact Environment 
Anomaly Sensor, or CEAS. It was launched in the year 2000 and 
has mapped areas in space that are hazardous to onboard 
electronics.
    Working closely with operational users, the AFRL 
researchers at Wright-Patterson Air Force Base, Ohio continue 
to develop and transition new filter technologies that provide 
improved eye protection for aircrews from various levels of 
laser threats. The Laser Eye Protection Program is enabling 
aircrews to conduct day and night air operations without visual 
jamming or personal injury.
    You can see some of the products of this research in the 
form of the eye-glasses that are in the two cases here that we 
brought along. [Indicating]
    In addition, I have also brought along a recent version of 
our Panoramic Night-Vision goggle. [Indicating] This device 
dramatically improves the field-of-view of both in the 
horizontal and the vertical to the user, thereby enhancing both 
mission utility and most importantly, aircrew safety.
    There are many other technology areas that deserve special 
mention, but let me just highlight a few, if I could.
    Senator Roberts. Keep going.
    Dr. Daniel. Yes, sir. Let me highlight just a few examples. 
One of these is our unmanned combat air vehicle, or UCAV, which 
is an area that is generating increased excitement.
    Our current joint major development demonstration program 
with DARPA--this is a jointly funded program that is actually 
managed by DARPA with an Air Force colonel as a program 
manager--is now in its fourth year. Flight vehicle checkout and 
ground testing of the first demonstrator designated the X-45A 
is underway, with a projected first flight in September of this 
year. We also recently completed fabrication of the second X-
45A.
    I brought along a very small--it is nearly a 1/50th scale 
model maybe to help put this in perspective. The UCAV when you 
see the actual vehicle, it has a wing span that is about the 
same as an F-16 fighter. It is actually a sizeable vehicle.
    Our S&T Program is also providing the technology base for 
micro satellites. It may offer new options in space 
applications such as satellite servicing, or launch on demand. 
Clusters, or formations of micro satellites cooperating to 
perform the job of current large satellites may ultimately 
allow space missions to be performed more cheaply and 
effectively with higher survivability and flexibility.
    I brought along a 1/20th scale model of TechSat 21. 
[Indicating] This is a microsatellite that we will launch in a 
three-satellite formation in the year 2004. Hypersonics is yet 
another area of high interest to Air Force S&T. Our HyTech 
program achieved major successes in fiscal year 2001 with the 
ground test demonstration of a conventional jet-fueled 
scramjet, so-called hydrocarbon fueled scramjet, producing 
predicted levels of thrust over the Mach 4.5 to Mach 6.5 range. 
This research which you may have seen was recently featured on 
the cover of Aviation Week.
    In addition, the Air Force is leading a DOD-directed 
activity to formulate a National Hypersonics S&T Plan which Dr. 
Etter also mentions in her written testimony.
    I brought along a 1/3rd scale model of our HyTech ground 
engine demonstrator. It is the white engine that you can see 
just--perhaps can see just behind the X45. [Indicating]
    In conclusion, let me say that the Air Force is fully 
committed to providing this Nation the advanced aerospace 
technologies required to meet America's national security 
interests around the world, and to ensure that we remain on the 
cutting edge of flexibility, performance, and affordability.
    The technological advantage that we enjoy today is a legacy 
of decades of investment in S&T. Likewise, our future 
warfighting capabilities will be substantially determined by 
today's investment in S&T. I am confident that we can lead the 
discovery, development, and timely transition of affordable, 
integrated technologies to keep our Air Force the best in the 
world.
    Mr. Chairman, thank you again for the opportunity to appear 
before you today, and thank you especially for your continuing 
support of Air Force Science and Technology.
    Senator Roberts. All right.
    [The prepared statement of Dr. Daniel follows:]

               Prepared Statement by Dr. Donald C. Daniel

    Mr. Chairman, Members of the subcommittee, and Staff, the United 
States Air Force is committed to a robust Science and Technology (S&T) 
Program that enables us to achieve our vision of an integrated air and 
space force capable of rapid and decisive global engagement. In 1944, 
General Hap Arnold, the ``founding father'' of the United States Air 
Force, stated, ``The first essential of air power is pre-eminence in 
research.'' This was true in 1944 and it is still true today. By 
continuing our investment in a broad and balanced selection of 
technologies, the Air Force will retain its dominance of air and space 
in future conflicts.
    Innovation is vital part of our aviation heritage and it is the key 
to ensuring the Air Force will meet the challenges of tomorrow. We must 
be prepared to counter the worldwide availability of advanced weapons, 
wide-ranging activities, increasing regional instabilities, and other 
emerging and less predictable threats. We are developing ``leap ahead'' 
technologies that permit flexible forces capable of operating far from 
home on short notice. We must also be able to afford these innovations 
once we develop them in order to transform the Air Force to fulfill our 
vision. To meet these challenges, we search out the most promising and 
affordable technologies in order to win decisively, protect our forces, 
and minimize collateral damage.

                       THE AIR FORCE S&T PROGRAM

    The current Air Force S&T Program uses guidance from the National 
Military Strategy, Defense internal planning documents, Joint Staff 
guidance, and the Air Force Strategic Plan to focus our S&T investment. 
The resulting Air Force S&T Plan establishes a program that is balanced 
across our investments in Basic Research, Applied Research, and 
Advanced Technology Development, as well as across a diverse number of 
technology areas and the basic sciences. We balance our investment in 
long-range research yielding potential breakthrough technology with 
efforts to meet the more near-term needs of the operational warfighting 
commanders.
    To ensure program relevance, we involve system developers and 
warfighters to focus our efforts on the warfighters' most urgent needs. 
Finally, to ensure the technical quality of the program, the Air Force 
Scientific Advisory Board, the Department of Defense Reliance 
Technology Area Review and Assessment teams, the Defense Science Board, 
and other peer groups regularly review, evaluate, and critique our S&T 
programs. We feel that the result is an S&T program of validated high 
quality and relevance.

                          S&T PLANNING PROCESS

    In regards to our planning, I am pleased to be able to give you an 
update on our S&T planning review that we have undertaken in response 
to Section 252 of Public Law 106-398, the National Defense 
Authorization Act for Fiscal Year 2001. We have approached this review 
enthusiastically and have received overwhelming participation from, not 
only the Air Force S&T community, but the requirements, planning, 
logistics, and user communities as well. Currently, we have over 250 
people involved in this review: approximately 140 from the S&T 
community; 60 from the requirements, plans, and logistics communities; 
and 50 from the user community.
    As you required us to do, the S&T planning review will identify the 
short-term objectives and long-term challenges of the Air Force S&T 
Program. The review includes an assessment of the budgetary resources 
that are being used to address the short-term objectives and long-term 
challenges; the budgetary resources that are necessary to adequately 
address those objectives and challenges; and a course of action for 
each projected or ongoing Air Force S&T program that does not address 
either the short-term objective or the long-term challenge.
    The review has been divided into three distinct phases of activity. 
Phase I focused on identifying the objectives and challenges. This work 
was largely accomplished in the January through April timeframe and was 
completed last week when the Air Force Council approved the objectives 
and challenges. Phase II concentrates on in-depth investigations and 
analyses of the work that needs to be accomplished in order to meet the 
short-term objectives and long-term challenges. Integrated Product 
Teams and workshops have been formed to examine each short-term 
objective and long-term challenge, respectively. These results will 
also be briefed to the Air Force Corporate Structure and at the next 
Air Force S&T Summit in September. Phase III completes the review with 
an outbrief to the Secretary of the Air Force to enable the results to 
be communicated to the Secretary of Defense and the Comptroller 
General.
    The Short-term Objectives that have been approved by Air Force 
leadership are: Target Location, Identification, and Tracking; Command, 
Control, Communications, Computers, and Intelligence; Precision Attack; 
Space Control; Access to Space; Aircraft Survivability and 
Countermeasures; Sustaining Aging Systems; and Air Expeditionary Force 
Support. The Long-term Challenges receiving similar approval are: 
Finding and Tracking; Command and Control; Controlled Effects; 
Sanctuary; Rapid Aerospace Response; and Effective Aerospace 
Persistence.
    I am convinced that this effort will provide both a short-term, as 
well as a long-term focus to our S&T Program. The all-encompassing 
nature of the review has produced a set of objectives and challenges 
that reflect the enduring missions and capabilities that the Air Force 
provides to the Joint Force Commander. Further, they also draw from a 
broad range of technologies for their potential solution.
    Also, contributing to my enthusiasm for the review is the fact that 
it is closely coupled to other key Air Force documents. For example, 
the short-term objectives and long-term challenges are closely linked 
to the Air Force Core Competencies and operational mission areas. 
Indeed the short-term objectives and long-term challenges related to 
Command and Control are directly linked to all six of the Air Force 
Core Competencies. Mastering the Core Competencies makes possible the 
achievement of Global Vigilance, Reach, and Power, the key elements of 
the Air Force Vision 2020. Thus the clear connectivity of the S&T 
objectives and challenges to the Air Force Core Competencies ensure 
that the Air Force S&T program is directly supporting the Air Force 
Vision. Results of this review will be used to update the Air Force S&T 
Plan, and they will also be an important input to the next update of 
the Air Force Strategic Plan.
    Today, the execution of our S&T effort is the responsibility of the 
Air Force Research Laboratory (AFRL). Their mission it is to lead the 
discovery, development, and integration of affordable warfighting 
technologies for our aerospace forces. We are proud of AFRL, its 
people, programs, and facilities. It conducts a vigorous S&T Program in 
the following areas: basic research; propulsion; sensors; space 
vehicles; materials and manufacturing; human effectiveness; 
information; directed energy; air vehicles; and munitions. The S&T 
planning review effort that you have directed us to undertake will 
strengthen this Program as we move forward into what promises to be an 
exciting and challenging period for our Nation.

                               S&T BUDGET

    The single most important factor to strengthening the Air Force S&T 
Program is an overall increase in the Air Force topline funding. We 
have been faced with the reality of a fiscally-constrained, but 
operationally-demanding environment. The high operations tempo the Air 
Force has sustained in support of peacekeeping operations and 
conflicts, such as Kosovo, has placed a great burden on our people and 
resources and strained our ability to maintain current readiness and 
make necessary future investments such as S&T.
    In spite of these tight budgets, the Air Force is working hard to 
increase S&T funding and maintain a balanced S&T portfolio. In 
conjunction with this, there has been a significant increase in the 
involvement of the warfighting commands and senior Air Force leadership 
in S&T budgeting decisions. We have established twice yearly S&T 
Summits where the Secretary of the Air Force, the Air Force Chief of 
Staff, and the Air Force four-stars review the S&T portfolio and new 
initiatives. The first two reviews resulted in increased emphasis for 
research on sensors and information technology to advance our ability 
to find and attack Targets-Under-Trees; for accelerated materials 
development for improved Laser Eye Protection devices; for accelerating 
development of the Joint Battlespace Infosphere; and for completing 
important beam control demonstrations for our Directed Energy program.

                       MAXIMIZING OUR S&T DOLLARS

    We will continue to leverage technology to achieve new levels of 
combat effectiveness. Our strategy is to pursue integrated technology 
solutions that support our warfighter's highest priority needs. We must 
also pursue the fundamental enabling technologies that will improve 
tomorrow's Air Force. As technological superiority is increasingly a 
perishable commodity, we work hard to stretch our S&T funding, by not 
only ``inventing the future'' ourselves, but also by speeding the 
introduction of new technologies to our warfighters.
    One way we are doing this is through our Applied Technology 
Councils and the Advanced Technology Demonstrations (ATDs). The 
councils are composed of two- and three-star, senior-level 
representatives of the AFRL, our acquisition product centers, and our 
major user commands. Their focus is on assessing the quality, utility, 
and time-phasing of our ATDs. These councils are ensuring that up-
front, documented planning by all stakeholders takes place to improve 
the probability that a demonstrated technology will transition out of 
the laboratory to the customer. This new process will ensure AFRL 
pursues those ATDs with the highest user support and transition 
funding. We hold an Applied Technology Council meeting with each Combat 
Command every year, and have commissioned 22 ATDs that have transition 
funding in the fiscal year 2002 budget, and 30 potential ATDs that we 
are still working to fund in outyear budgets. The Applied Technology 
Council process has significantly contributed to focusing the S&T 
Program on warfighter needs by bringing direct operational input into 
development of a responsive and relevant demonstration program.
    Since deployed technology may remain in use for decades, the Air 
Force S&T Program not only focuses on enhancing performance, but we 
have also increased our emphasis on the reliability, maintainability, 
and affordability of weapon systems. Emphasizing affordability from the 
very beginning through training of our management and engineering 
staff, as well as through careful review of technology transition pilot 
projects, increase our potential to reduce the costs of technology 
early in the process and throughout a product's life cycle.
    We are very selective about investing in the appropriate 
technological opportunities. We constantly seek opportunities to 
integrate planning by the Air Force and leverage our S&T funds by 
cooperating with other Services, Agencies, the private sector, and 
international partners. For example, we rely on the Army as the lead 
Service for chemical-biological technology research. The Air Force also 
has strong inter-Agency efforts such as our program in aging aircraft, 
which is focused on detection and amelioration of corrosion and fatigue 
in aging structures. It is closely coordinated with the civilian aging-
aircraft research programs at the National Aeronautics and Space 
Administration and Federal Aviation Administration. Finally, the Air 
Force is closely involved in international technology cooperative 
efforts for S&T such as the cooperative technology development programs 
with France, Germany, and the United Kingdom in tactical missile 
propellants, insensitive high explosives, and aircraft battle damage 
repair. Another example of international cooperation is the bi-lateral 
work we are doing with the United Kingdom on developing a novel new 
target detection device, fuze, and warhead integration concept.
    International cooperative efforts help us increase the number of 
sources for innovative ideas and transition new capabilities to the 
warfighter. A key example is our extensive involvement with the NATO 
Research and Technology Organization, which oversees all of the 
cooperative military research the nineteen NATO members and the 
Partnership for Peace nations wish to share with each other. I sit on 
governing board of this group along with Dr. Etter, who is the senior 
U.S. representative, and Mr. Dan Mulville from NASA. At the next level 
are seven major technical panels each of which include three U.S. 
senior scientists and engineers. Finally, we have close to a hundred of 
our folks participating at the technical team level. This cooperation 
in the early stages of technology development also helps to ensure any 
ensuing technology product will be interoperable with the equipment of 
potential allies in coalition operations.

                          WORLD CLASS RESEARCH

    The quality of our program is assessed by the Air Force Scientific 
Advisory Board (SAB) through yearly reviews. The SAB conducts an in-
depth review of half of the S&T Program each year, covering the entire 
program over a 2-year period. Twelve technical areas have been 
identified as world class research during the last cycle of reviews--
let me highlight a few of these areas that were identified as world 
class.
    The Air Force has been the world leader in developing atmospheric 
compensation technologies to allow high power laser beams to propagate 
through the atmosphere. It does this by detecting the distortion the 
atmosphere causes to the laser beam and then instantaneously adjusting 
the wavefront of the laser beam so that when the beam reaches a target 
it is close to perfect. This is an enabling technology for the Airborne 
Laser program, as well as future ground-based lasers. Since the 
technology applies to any laser beam, it also enables ground-based 
space imaging systems to have resolution comparable to that of space 
systems. In fact this technology is now the baseline for large 
astronomical telescope systems. Some photographs of satellite imagery 
with and without atmospheric compensation that were taken from our 
research site at Kirtland Air Force Base, New Mexico, are on display 
here.
    Another SAB-rated world class research area is our Information 
Directorate Ground Moving Target Indicator and Sensor Fusion Laboratory 
at Rome, New York. This unique laboratory develops, evaluates, and 
transitions advanced trackers, information exploitation tools, 
dissemination technology, multi-intelligence fusion exploitation, and 
advanced fusion architectures. An example of one of the lab's 
successful technology transitions is the Moving Target Information 
Exploitation system, an all-source, web-enabled information 
architecture. The Moving Target Information Exploitation system 
processes, catalogs, exploits, and disseminates information to web-
based users utilizing real-time tools allowing relatively low-cost 
distribution of tailored Moving Target Information data. It has been 
demonstrated during several large-scale experiments, and has also been 
transitioned to two Initial Operational Capability locations at Warner 
Robins Air Force Base, Georgia, and Langley Air Force Base, Virginia.
    Our research in Automatic Target Recognition at Wright-Patterson 
Air Force Base, Ohio will allow future weapon systems to automatically 
identify and target specific ground targets. We are actively working to 
transition this technology via an Advanced Technology Demonstration, 
entitled Air-to-Ground Radar Imaging, and we are developing 
technologies with payoffs well beyond automatic target recognition, in 
areas ranging from combat search and rescue to drug interdiction 
operations.
    The Space Weather research at Hanscom Air Force Base, 
Massachusetts, is another world class operation. Here, we have a robust 
modeling capability including empirical and theoretical models that 
specify and forecast space weather from the Sun to the ionosphere. 
Recently, Air Force scientists developed the first real-time model of 
global electron density profiles, providing critical input for 
communications and global positioning systems. This model supplies 
information crucial to the design, operation, and simulation of a wide 
variety of communications, navigation, and surveillance systems. 
Environmental effects forecasted by this model range from intermittent 
outages caused by ionospheric scintillation to satellite system 
failures caused by intense fluxes of magnetospheric particles. The 
researchers at Hanscom also have developed hardware to protect our 
valuable space assets. This is a mass model of the Compact 
Environmental Anomaly Sensor that was first launched in 2000 and has 
mapped areas in space that are hazardous to onboard electronics.
    Working closely with operational users, AFRL researchers at Wright-
Patterson Air Force Base, Ohio continue to develop and transition new 
filter technologies that provide improved eye protection for aircrews 
from varied levels of laser threats. The Laser Eye Protection program 
is enabling aircrews to conduct day and night air operations without 
visual jamming or personal injury. You can see some of the products of 
this research in the form of eye-glasses here. In addition, I have 
brought along a recent version of a Panoramic Night-Vision Goggle that 
dramatically improves the field-of-view of the user thereby enhancing 
their mission utility and safety of use.

                          NOBEL PRIZE WINNERS

    The Air Force through its Basic Research Program sponsors a broad 
spectrum of topics at many universities throughout the United States. 
Approximately 60 percent of the $200+ million Air Force Basic Research 
program is allocated to universities through our grant process. These 
university investments have been highly successful for the Air Force 
and the entire United States. The Air Force Office of Scientific 
Research sponsors the work of exceptional people who provide basic 
research---the fundamental core component of Air Force Science and 
Technology. An indication of the Air Force's ability to select truly 
world class researchers is that we identified and sponsored the 
research of 38 Nobel Prize winners years before they won, including the 
work of four Nobel Laureates in 2000: Professor Alan J. Heeger of the 
University of California, Santa Barbara, who won a Nobel Prize in 
Chemistry; Professor Herbert Kroemer of the University of California, 
Santa Barbara, who won a Nobel Prize in Physics; Professor Paul 
Greengard of the Rockefeller University who won a Nobel Prize in 
Medicine; and Dr. Jack Kilby of Texas Instruments who also won a Nobel 
Prize in Physics.

                     EXPEDITIONARY AEROSPACE FORCE

    The operations in Kosovo have served as a proving ground for many 
of the technologies developed by the Air Force S&T Program, especially 
in the area of information operations. We validated the reach-back 
concept, pulling forward information from continental United States-
based support elements to enhance the effectiveness of our deployed 
fighting forces, while reducing the footprint of our combat support 
forces. The Air Force tested high-tech products such as Broadsword 
Secure Intelligence Gateway which allows intelligence analysts to 
access any U.S. intelligence database and the capability to make a 
single picture from multiple Predator images. And, for the first time, 
we tied key mission processes to web-based networks, making critical 
information instantly available to in-theater forces.
    The Air Force is applying lessons learned in Kosovo to its EAF 
planning. We're developing and incorporating new technologies and 
concepts to ensure our warfighters get the right information, at the 
right time. To do that, ``network-centric'' information infrastructures 
will use ``smart push'' to make assured information available to the 
warfighters, while providing ensured and easy access, or ``pull,'' of 
timely assured information in a user-friendly format. Our theater 
deployable communications systems will provide our aerospace 
expeditionary wings with secure and nonsecure voice, data, imagery, e-
mail, and messaging--doubling the current capability of our aerospace 
expeditionary wings, while getting to the fight with only one-half the 
current airlift requirement for the same mission.
    Using the latest advances in information technology developed by 
the Air Force Research Laboratory (AFRL), we have demonstrated several 
advanced planning and execution tools in our Joint Expeditionary Force 
Experiment. The Joint Assistant for Deployment and Execution allowed us 
to generate time-phased force deployment plans and tasking orders to 
send any combination of forces anywhere in the world, and have them 
arrive in the right place at the right time, and in the right sequence. 
This tool will allow the Air Force to complete in 1 hour a process that 
normally takes 2 weeks. Using a unique adaptation of the Global Air 
Traffic Management system, we were able to use both military and 
civilian air-traffic communication systems to provide continuous 
contact with our airlifters. Still another tool we demonstrated was the 
Worldwide Aeronautical Route Planner. Using multiple parameters, such 
as flight performance models, global weather patterns, country avoids, 
current navigational aids, and airway restrictions, this tool plots the 
most fuel and time efficient route possible in seconds versus hours.
    Training is another integral part of implementing our EAF vision. 
The technology for Distributed Mission Training is an area that holds 
great promise. Using state-of-the-art simulation technology, 
Distributed Mission Training permits geographically-separated aircrews 
to jointly train in a synthetic battlespace, connected electronically 
from their distant air bases. Importantly, Distributed Mission Training 
delivers this enhanced training from the home station, which helps the 
Air Force limit the amount of time airmen spend deployed and 
facilitates the training of Air Expeditionary Forces as they prepare 
for deployment.

                            THE LEADING EDGE

    There are many other Air Force technology areas that deserve 
special mention, but I will limit my testimony by describing just a few 
examples. Unmanned Combat Air Vehicles (UCAV) is an area that is seeing 
increasing support. The current joint major technology demonstration 
program with the Defense Advanced Research Projects Agency has entered 
its fourth year. Flight vehicle checkout and ground testing of the 
first demonstrator designated the X-45A is underway, with projected 
first flight in September of this year. The second demonstrator 
fabrication is complete and it was recently airlifted to the National 
Aeronautics and Space Administration Dryden Flight Research Center from 
Boeing, St. Louis, Missouri. Over 25 of the 90 demonstrations scheduled 
for Phase II have been accomplished. We expect completion of Phase II 
by the fall of 2003.
    The joint DARPA/Air Force UCAV program may well serve as a model 
for technology transition through detailed technology identification 
and maturation. Phase I of the program involved operational comparative 
analysis studies to assess the benefits of a UCAV system and identify 
the technologies, processes, and system attributes necessary for such a 
system to achieve those benefits. This initial phase was completed in 
fiscal year 1999. Phase II is the maturation and demonstration of these 
technologies, processes, and system attributes through the fabrication 
and demonstration of the two demonstrator vehicles and their support 
systems. This second phase will provide initial risk reduction 
activities and multi-vehicle simulation and flight demonstrations. 
Phase II will conclude with end-to-end demonstrations, validating the 
technical feasibility of a UCAV performing a Suppression of Enemy Air 
Defenses (SEAD) mission. A 1/48 scale model of the UCAV is on display.
    To increase aircraft survivability and operational efficiencies, 
the Air Force is developing both manned (F-22 and Joint Strike Fighter) 
and unmanned (UCAV) flight vehicles that can carry and employ weapons 
from both external and internal weapons bays. To increase the number of 
weapons the flight vehicle can fit into their internal weapons bays, 
part of our investment strategy focuses S&T funding on developing and 
demonstrating smaller precision weapons.
    One of the small munitions currently being flight demonstrated is 
the Small Smart Bomb. The program is divided into three phases. Phase I 
of the program, completed in 1997, demonstrated a six foot long, six-
inch diameter, 250-pound, adverse weather, low-cost, guided weapon 
capable of penetrating six feet of reinforced concrete. The small 
guided bomb reduces the logistic footprint over existing bombs and 
increases multiple kills per sortie. The model shown here, Small Smart 
Bomb with Range Extension, builds on the success of the first phase. 
The Phase I Small Smart Bomb was outfitted with a fold-out wing and 
control tail surface kit, that expands the footprint of the munition to 
a 35 nautical mile downrange by 20 nautical mile off-boresight range 
while maintaining its six foot reinforced concrete penetration 
capability. The expanded footprint will simplify mission planning by 
allowing a single release point for multiple munitions. Phase III of 
the program will build upon the success of the Phase II by integrating 
a low-cost, laser radar seeker with automated target recognition 
algorithms to the small smart bomb. This program has an accuracy goal 
of 1.5 meters. The increase in munitions accuracy and the decreased 
volume of explosive will reduce the collateral damage that can occur 
with larger munitions..
    Advances in technologies for power, electronics, micro-electro-
mechanical systems, structures, and payloads are also enabling 
significant reductions in the size, weight, and cost of satellites. Our 
S&T Program will provide the technology base for 10-100 kilogram 
microsatellites that will offer new options in many areas of space 
applications. Applications previously considered not cost-effective due 
to size and weight limitations, such as satellite servicing or launch 
on demand, become possible. Clusters of formations of microsatellites 
cooperating to perform the job of current large satellites may 
ultimately allow space missions to be performed more cheaply and 
effectively, with higher survivability and flexibility. Here is a model 
of TechSat 21, a three satellite formation scheduled for launch in 
2004. Here is a thin film photovoltaic array and the current technology 
it replaces. This array will be incorporated into the TechSat 21.
    To further the miniaturization of space platforms, DARPA and the 
Air Force have funded ten universities to explore the military utility 
of innovative, low-cost nanosatellites. These nanosatellites, weighing 
two to ten kilograms, will perform such experiments as formation flying 
algorithms, differential Global Positioning System navigation, 
miniaturized sensors, and micropropulsion.
    On July 19, 2000, the Air Force launched MightySat II.1 into orbit. 
At 266 pounds, MightySat II.1 is one of the most sophisticated 
satellites of its size ever launched. At a total S&T investment of 
about $40 million, this small satellite provides researchers with a 
``lab bench'' to test emerging high-payoff technologies for space. 
MightySat II.1's primary payload is a Fourier Transform Hyperspectral 
Imager, currently the only Department of Defense (DOD) demonstrator for 
hyperspectral surveillance technology in orbit. Over one hundred images 
have been taken to date. This summer, we will launch the Warfighter-1 
hyperspectral sensor on board OrbView-4, OrbImage's commercial remote 
sensing satellite. Warfighter-1 will allow us to continue our 
assessment of the utility of hyperspectral technology to perform 
military missions, such as detecting difficult military targets and 
categorizing types of terrain.
    The Air Force is also conducting the Experimental Satellite System 
series to demonstrate increasing levels of microsatellite technology 
maturity. XSS-10, the first in the series, is scheduled to launch in 
March 2002. It will demonstrate semi-autonomous operations and visual 
inspection in close proximity of an object in space--in this case a 
Delta II upper stage. In fiscal year 2004, we will launch XSS-11, which 
will demonstrate autonomous operations and provide experience with 
command and control in proximity operations to another space object.
    Hypersonics is another area of high interest to Air Force S&T. The 
Air Force HyTech program achieved major successes in fiscal year 2001. 
The first-ever demonstration of a conventional jet-fueled scramjet 
producing predicted levels of positive thrust over the Mach 4.5 to Mach 
6.5 flight range was accomplished. The engine was developed by Pratt & 
Whitney in collaboration with AFRL engineers, and this research was 
recently featured on the 26 March 2001 cover of Aviation Week. In 
addition, the Air Force is leading a DOD directed activity to formulate 
a National Hypersonics S&T Plan which has been discussed by Dr. Etter. 
I've brought along a 1/3 scale model of the HyTech ground engine 
demonstrator.
    While hypersonics is at the forefront of revolutionary propulsion 
technology, we are continuing the development of evolutionary turbine 
engines. The Integrated High Performance Turbine Engine Technology 
(IHPTET) program is a national effort between DOD, NASA, and industry 
to double turbine engine thrust to weight by fiscal year 2003 baselined 
on that available in 1987. The Air Force is the DOD lead for this 
program. The program is highly leveraged with industry contributing 
approximately 50 percent of the cost. IHPTET has ambitious, rigorous 
goals with objectives, technical challenges, and approaches identified 
to meet these goals. For example, turbine blades using a double wall, 
``supercooling'' concept enables the Joint Strike Fighter's required 
turbine life; and advanced intermetallic refractory alloys for turbine 
blade design enables engine operation at high temperature to double 
turbine blade life to 4,000 hours. IHPTET technologies provide 
potential excellent return-on-investment with a 20-40 percent fuel 
efficiency improvement.

                           THANKS TO CONGRESS

    I want to thank you for the strong congressional support for Air 
Force S&T. Our S&T appropriations for the past 2 years have averaged 
over $275 million above our requested amount and we greatly appreciate 
your interest in this important program. Your support has benefited 
several key technologies in the areas of space and sensors.
    For example, these additional funds are allowing us to better 
protect our Nation's space assets from both natural and man-made 
threats. We are furthering our fundamental understanding of ionospheric 
processes and improving our ability to forecast space weather 
phenomena. Later this year, we will launch an instrument to demonstrate 
the ability to detect and locate radio frequency threats to our 
satellites. Finally, you are helping us make strides in the important 
task of decreasing the cost of spacelift by reducing the cost to 
produce lighter weight launch vehicle shrouds, while improving their 
structural performance.
    Last year, you also supported upgrades to the Integrated 
Demonstrations and Applications Laboratory at AFRL. These funds are 
being used to acquire and install a multispectral synthetic battlespace 
simulation capability that will allow simulations at dramatically 
reduced cost. In addition to reducing research costs, this capability 
provides an affordable means to evolve the 21st century air and space 
sensor technologies required for next generation ``system of systems'' 
concepts. These concepts will utilize multiple sensors on both airborne 
platforms and space assets to successfully accomplish combat missions.

                               CONCLUSION

    The Air Force is in the midst of a technological and organizational 
transformation that is radically changing aerospace contributions to 
the nature of war. Stealth and precision strike, in particular, have 
injected ``leap ahead'' improvements into combat power unlike any we 
have known since the introduction of the jet engine. We are making 
important strides in command and control, long-range power projection, 
and mobility in support of an integrated Expeditionary Aerospace Force.
    The Air Force is fully committed to providing this Nation the 
advanced aerospace tools and technologies required to meet America's 
interests around the world and ensure we remain on the cutting edge of 
technology, performance, military flexibility, and affordability. The 
technological advantage we enjoy today is a legacy of decades of 
investment in S&T. Likewise, our future warfighting capabilities will 
be substantially determined by today's investment in S&T. As we face 
the new Millennium, our challenge is to advance technologies for an 
Expeditionary Aerospace Force as we continue to move aggressively into 
the realm of space technologies. I am confident that we can lead the 
discovery, development, and timely transition of affordable, integrated 
technologies that keep our Air Force the best in the world. As an 
integral part of the Department of Defense's S&T team, we look forward 
to working with Congress to ensure a strong Air Force S&T Program 
tailored to achieve our vision of an integrated air and space force.

    Senator Roberts. Admiral, we are going to recognize you. I 
am not too sure if we can get all of those demonstration 
projects, but can we--okay, we are getting ready here, I can 
see.
    What is it down there that you think that Senator Santorum 
and I and appropriate staff ought to take a close look at?
    Dr. Daniel. Sir, if you have not seen--I assume you are 
talking to me?
    Senator Roberts. Yes.
    Dr. Daniel. Sir, if you have not seen the X45, it is to me 
a very fascinating vehicle, although this is a very small scale 
model.
    Senator Roberts. Bring up the X45.
    Dr. Daniel. Again, that is about a 1/50th scale, and the 
actual vehicle is about the size of an F-16. This vehicle 
features two internal bomb bays; all the carriage of weapons 
will be internal. It has about a 3,000 pound internal weapons 
carriage capability.
    It also has hard points on the wings where we can put fuel 
tanks should we choose to extend the range or ferry the 
vehicle, although typically the vehicle would be delivered in a 
C-17. We stack several of these in crates on a C-17, and that 
is part of the program, as well. Again, we are projecting first 
flight now for September.
    Another one that you may want to take a look at are the 
laser eye protection devices. At first glance, these look like 
regular eye glasses. They will, in fact, shield aviators and 
aircrews from certain wavelengths of lasers. They are not 
particularly heavy. They are not particularly cumbersome, but 
they are very effective in shielding aircrews from certain 
wavelengths of lasers.
    Sir, one of the things we want to do with these particular 
spectacles is over time, have a very broad range over which 
they will shield.
    Senator Roberts. My goodness, look at that. [Laughter.]
    Dr. Daniel. We really need a picture of this. [Laughter.]
    Senator Roberts. All right.
    Dr. Daniel. Of course, one of the technology challenges 
here is to----
    Senator Roberts. Ride on, Dr. Daniel. [Laughter.]
    Dr. Daniel. I am going to put that picture on my wall, sir. 
[Laughter.]
    Sir, one of the challenges is not only to shield the eyes 
from what is coming in----
    Senator Roberts. You take the picture and I will put you on 
the wall, I will tell you that. [Laughter.]
    Dr. Daniel. But you still need to be able to see. The human 
still needs to be able to see. And, of course, there is that 
balance.
    I think also if we could just maybe look at one more. 
TechSat 21 is a program that--this is the model here. 
[Indicating] That is about a 1/20th scale model. These 
satellites will go into orbit, actually collapse down into 
something that looks like a can. They deploy, and once they are 
in orbit into the elongated shape that you see now.
    All along the sides of those are the panels that allow us 
to collect solar energy that, in fact, creates power for the 
satellite. This is quite an advance that we have made in 
materials technology. That is very, very thin material that 
allows us to do the solar collection and subsequent power 
generation.
    Again, our plan right now is we will put three of these on 
orbit out of the same package. They will all be collapsed down, 
one sitting on top of the other. They will go into orbit, and 
this will be our first real experiment of formation flying, if 
you will, with microsatellites. We are projecting to do that 
about the year 2004.
    Senator Roberts. All right. Admiral, knock our socks off.

   STATEMENT OF REAR ADM. JAY M. COHEN, USN, CHIEF OF NAVAL 
  RESEARCH; ACCOMPANIED BY BRIG. GEN. BILL CATTO, USMC, VICE 
                    CHIEF OF NAVAL RESEARCH

    Admiral Cohen. Good afternoon, sir. I must tell you that I 
have heard of the singing Senators, but this is my first 
exposure to the Blues Brothers. [Laughter.]
    So, it is good to know that you are laser protected. 
[Laughter.]
    It is a great personal honor for me to be here representing 
the Department of the Navy. Mr. Chairman, the Department of the 
Navy includes both the Navy and the Marine Corps, and I am 
quite honored to have in support here, my Vice Chief of Naval 
Research, Brig. Gen. Bill Catto.
    As you are aware, I previously submitted a written 
statement, so I will make some short comments surrounded here 
by the Marines.
    I regret that Dr. Etter is not here. I am, unlike my 
counterparts on this panel, I am just a fleet sailor. She and 
they took me under their wing over the last year and have tried 
to mentor me, a very difficult task, in the area of Science and 
Technology. But I certainly second your comments on Dr. Etter, 
especially her personal dedication to reinvigorating the 
Science and Technology workforce.
    Mr. Chairman, after I was on the job just a few months, we 
had the heinous attack on the U.S.S. Cole in October of last 
year. Several days later I received the following email which I 
would like to read to you. It is a fairly short email.
    It says, ``Dear Sir, My name''--and I will not include the 
last name or some details just to protect the individual. ``My 
name is John, my nickname is Jake. I am 9 years old, and I live 
in North Carolina with my parents and sister. My dad is a First 
Sergeant who has been on many ships. When I saw the U.S.S. Cole 
on TV, I thought it was really bad. I have an idea that you 
could probably try with your ships that you build. You can put 
one more layer of steel on the ship, but it has to have air in 
between it because if a layer is blown up, there is still one 
more layer that can still keep it floating. Less people will 
probably die or injured. I came up with this idea when I heard 
about the U.S.S. Cole that had a hole in the ship. I hope you 
will try this just to see if it works. Sincerely, Jake.''
    Well, I must tell you there are a couple of things that 
keep me awake at night. One is the fear of technological 
surprise, and that has been addressed previously during this 
hearing. But the other was this email. This is a little bit 
like the letter that was written 100 years ago to the editor of 
the Richmond Dispatch asking if there was a Santa Claus. Of 
course, you are familiar with the answer, ``Yes, Virginia, 
there is a Santa Claus.''
    It took me 2 months to answer this email, and the initial 
answer of course was, ``Jake, you are absolutely right, but we 
do not build double hull ships because of cost and weight 
considerations.''
    When you think about how cheap steel is and how dear flesh 
is, that was not an email that I was going to write back to 
this 9-year-old whose father regularly deploys on Navy ships. I 
was able to send him back an email 2 months later thanking him 
for giving me the insight to see what we could do significantly 
to improve force protection.
    And, Mr. Chairman, with your permission, I would like to 
hold up a card here. [Indicating] Perhaps, Tim, if you would 
just take it closer to the Chairman. With those laser glasses, 
he might have trouble seeing some of this.
    Now this is just an artist's conception, Mr. Chairman, but 
what you can see there is, number one, a small UAV flying. As I 
said, we are a blue/green team in the Department of the Navy, 
and we are able to leverage very quickly the work that the 
Marines have done on Dragon Eye.
    Major, if you will share with the Chairman what Dragon Eye 
is, and perhaps General Catto will help me here.
    Major. Senator, Dragon Eye is a man portable UAV. It weighs 
4\1/2\ pounds. It has a day and night camera. The ground 
control station weighs under 10 pounds. It will fly for 10 
kilometers, and it is something that will give a marine or a 
sailor a real-time tactical reconnaissance to help him see what 
is on the other side of the hill or in the fort. [Indicating]
    Admiral Cohen. Now, Mr. Chairman, this will, as you can see 
just clip apart. It is very rugged. We designed it for a couple 
of flights. The other prototypes have gone through several 
dozen flights. We do not catch them when they land. They just 
go ahead and strike the earth. You can see they have electric 
props, and the wings fold.
    The way it is launched is a sailor or a marine literally 
just throws it like you would a paper airplane, and it is 
electric driven. This was conceived, and built, and delivered 
by the Naval Research Lab right down here on the Potomac, but 
it was in response to the Marines' desire for a private to be 
able to look over the next hill without sticking his head up 
and getting it shot off.
    Fifth Fleet, which is right now under raised security 
conditions, asked for us to rapidly construct these and pass 
them to them, and with the Marines' help, we are doing that. 
They are sacrificing their initial lot to go and help. The view 
here is to give the COs of those ships the tactical awareness, 
situational awareness so, day or night, they can fly over a 
port that they might enter, or a contact of interest to them, 
and determine what the threat they think is to them.
    Senator Roberts. It is still pretty heavy. Watch out. 
[Laughter.]
    Admiral Cohen. Four and a half pounds, and we make these 
for about $10,000 a copy, and we view them as basically 
disposable.
    Senator Roberts. Now this is available to the fleet now?
    Admiral Cohen. Yes, sir. We are pushing them within the 
next month. Fifth Fleet will get between three and five with 
Marines to train the sailors who will throw them off the helo-
deck, the stern, before a ship looks to enter port so the CO 
can surveil the harbor.
    If he should see a wooden dowel with Saddam Hussein's face 
painted perhaps on the top of the dowel, giving an 
inappropriate symbol, maybe we want to be at an even greater 
level of defense. We are going to talk about some of the 
options we have.
    So, Tim, if you could hold that up again. [Indicating]
    The next thing that you see there, it looks like a Venetian 
blind hanging off the side. I am pleased that Senator Santorum 
was able to rejoin us because thanks to ARL Penn State, we have 
something, and we will get this to you. This is called LASCOR. 
You will see it is very, very thin. It is something we have 
used in Navy ships for some time, especially high up.
    Senators, you could stand on that. It is just like 
corrugated cardboard. I mean, that is where we got the idea 
from. It is very thin steel, used as laser welding. If you fill 
that with the appropriate light substance, the Marines have 
made shelters for their Harriers and a 155-millimeter shell 
will not penetrate it.
    Our goal would be to have this as a Venetian blind. 
Obviously, we could design the ships from this, but that is 
what I call the next step. The now step is to make this 
available as a Venetian blind, kick it off the gunnels prior to 
entering port, or in the event that you are threatened by swarm 
tactics, have it magnetic on the back side so that an explosion 
like the Cole kind of explosion, might cause gross deformation, 
but would not allow penetration of the ship's skin.
    You see a diagram on there, and I might say below the DDG, 
you see a nuclear submarine. We are going to make these in 
saddlebag form, also, so that when they are in a tight area 
such as a canal transit or restricted waters, they will have 
the ability to put those on top side, above the water line, to 
defend against shoulder-fired weapons which might otherwise 
have an opportunity to penetrate.
    In the Navy we have a big problem. In the Marine Corps, 
everyone is a shooter and they are very proud of that. In the 
Navy, we have a slightly different ethos. It is the Commanding 
Officer or the pilot who fights the ship. Everyone else is 
there to support. We say, take information into knowledge, 
finally into the wisdom necessary to release the weapon against 
the target.
    The Marines, because of their new missions, whether it is 
peacekeeping, Somalia, or in an urban environment, have 
extrapolated what the police forces in America have used for so 
long. They call it the Command Decision Range, and this is 
where they use roleplaying to see--they show you a shadow, ``Is 
this person holding a baby, or are they holding a new advanced 
weapon?'' and then see how the Marine reacts, and they are able 
to grade and see if the Marine has the right attitude in terms 
of force protection, self defense, et cetera.
    Well, on a ship in the morning, one of our young men or 
women might be mess cooking, okay, or chipping and painting. In 
the afternoon, we expect them to strap on a 45-caliber pistol 
or a 9-millimeter pistol, or an M-16 and defend the ship. Well, 
that is a significant transition to make.
    So again, with the help of the Marines, we have gone ahead 
and in Naval environments taken these command decision, CDS, 
made them, passed them to all the number fleets--and as a 
research man, I do not tell the ship COs what level they should 
be at, but we have given them three different levels for the 
terrorist threat. Now the numbered fleet commanders can tell 
the ships to use these for training.
    I want to show you one other thing on here. We always have 
an issue in rules of engagement of what we call the tourist 
versus the terrorist. Being Americans, we do not think a lot 
about shooting first. We are ready to take a lot of injury 
ourselves.
    Well, again, the Marines working with us through Naval 
Research, have developed--and you have read about it in the 
open press--a high powered microwave which if you become 
exposed to it, makes your skin feel like it is on fire. Now, it 
does no permanent damage as long as you turn around and walk 
away.
    Well, how do you warn people? What we were looking at is 
just using geometry, and we are going to have a green light 
over yellow light over red light scenario. I am actually making 
one of these. They will be hatch shippable on the submarine as 
our first example. They will have a 360-degree range of this 
high powered microwave.
    Now if you are a tourist in your Boston Whaler and you are 
approaching one of our ships, and you start to get warm--first, 
you see green, and then you see yellow. When you see red, you 
are getting warm. You are probably going to turn around.
    But if you are a terrorist and you believe that you are 
prepared to sacrifice your life, you will forge on. At that 
point, our young sailors who might have been mess cooking in 
the morning, if the rules of engagement are as such that they 
are protecting their ship, will engage that enemy. So we are 
excited about this. These things are actually happening today, 
and you can see the advantage of the blue/green partnership.
    Senator Roberts. But in relation to the U.S.S. Cole, even 
if you were in threat condition Delta, there was no--how can I 
phrase this? Use of deadly force is not--it is not in the rules 
of engagement. In other words, you are going to have to have a 
perimeter. You are going to have to have a situation to 
identify the terrorist--as recorded at least in the 
Intelligence and Armed Services Committee hearings, indicated 
that the sailor looked right down at the boat. There was 
nothing really visible. It was just two individuals who were 
waving and smiling. It was completely open, but obviously, all 
of the explosives were below the water level.
    You are going to have to have a perimeter. I can see this 
could be extremely helpful in regards to that. You establish 
the perimeter depending on where you are, and then you are 
saying that you have--when that red turns on, and it gets 
uncomfortably hot, that if they say, ``All right, full speed 
ahead,'' what happens then?
    Admiral Cohen. Well, first of all, they are still 
experiencing this tingling sensation.
    Senator Roberts. Right.
    Admiral Cohen. At that point, because we have marked that, 
basically, we have given fair warning. Now, these are just my 
ideas and research. I am not a fleet commander, and I do not 
establish what the threat con levels are or when deadly force 
will be utilized, but I am trying to give aids to the 
commanding officer so he or she has situational awareness, and 
that the young people who are forced to make those kinds of 
decisions on short notice, at least----
    Senator Roberts. Well, the Israeli Navy had a very 
interesting concept. They establish a perimeter, which is the 
whole bay area, and they use depth charges on a very regular 
basis. Now, that does tend to encourage people not to go there.
    Admiral Cohen. Yes, sir. [Laughter.]
    Senator Roberts. I am just trying to say that with regards 
to perimeter, more especially in a port like Aden where we went 
in, what, 27 straight times and because of that, got very used 
to it, but then if you really took a look at it, some of the 
red flags came down in our collection efforts, the analysis, 
left a great deal to be desired in my personal opinion.
    But you are going to have to come up with the technology to 
allow that ship commander to have a perimeter, and then turn on 
that red light. Then what do you do? That was my next question, 
and you just went into that a little bit.
    Admiral Cohen. Well, I laughed a little bit, sir, because 
shortly after the incident with the U.S.S. Cole happened, I 
went to the Israelis and other navies and I asked them how they 
handle situations like this. The Israelis told me they would be 
unable to help me because of the exact situation you said. They 
establish a perimeter. Anybody who violates that perimeter as 
far as they are concerned is authorized to be killed. Now that 
has not traditionally, in a peacetime environment, been the 
United States' Navy approach.
    Senator Roberts. No, that is not feasible.
    Admiral Cohen. What I am showing here is the ``Defense in 
Depth'' where we have shown you the LASCOR so that in the event 
this person does get through, I have a final defense, and that 
is deformation of the hull, but not penetration. So our most 
valuable asset----
    Senator Roberts. That would be the net that came down.
    Admiral Cohen. Exactly, sir.
    Senator Roberts. I see.
    Admiral Cohen. Exactly.
    Senator Roberts. OK. So he keeps coming and the red light 
is on, you deploy the net, and then you use--well, if he keeps 
coming obviously toward that net, I would assume under rules of 
engagement in certain situations, you could use deadly force.
    Admiral Cohen. Yes, sir, and I think Navy regulations tend 
to favor the commanding officer, we favor the bold.
    Senator Roberts. But you have also had this--what did you 
call it? [Indicating] What is this called? [Indicating]
    Admiral Cohen. It is called Dragon Eye.
    Senator Roberts. OK. Dragon Eye. So the CO has had an 
opportunity to have a pretty good overlook of the area, but of 
course, with the terrorists, why, that is not what they are 
going to do.
    Admiral Cohen. In a classified format, I will talk to you 
separately.
    Senator Roberts. Certainly.
    Admiral Cohen. We can tell you some of the enhancements.
    Senator Roberts. We have called up in that regard.
    Admiral Cohen. I have given you the layman's view, but I 
think people can understand that there are other enhancements.
    Senator Roberts. Well, we have a lot of lessons-learned 
hearings in regards to U.S.S. Cole and force protection, and we 
will even come back up. I am sorry to interrupt. Go ahead.
    Admiral Cohen. No, not at all, sir.
    The final thing, if you look at this picture just up on 
your left, it really looks confusing. [Indicating] Now, what 
you are seeing there is the projection from the 360-degree 
camera. That is what is on the tripod.
    Thanks to computers, we are able to know what the geometry 
of that hemisphere is, and we can take that picture, and 
although it is not the same picture, you can see on the very 
next computer monitor, we took a very similar picture on one of 
our yard patrol crafts. It is my enable research flag ship. We 
just took it up to New York City and had thousands of people 
come on board. We had about three dozen kiosks to show them 
what we were doing in naval research.
    We had this camera. This is leveraged off what the Army has 
done. They call it Silent Sentinel, where they are able to 
recognize human forms walking in a forest. But we can take that 
very abstract picture, reduce it, thanks to computers, to a 
panorama.
    We are looking now to make this--you may have read about it 
in the paper--a 360-degree periscope that would go on top of 
our normal periscope which has a very limited field of view, 
not only in daylight, but also in infrared, and use these 
programs that the Army and others have developed for shape 
recognition, shape motion, et cetera, as an alertment for our 
COs if they operate in highly populated waters. Regrettably, 
the oceans are getting more crowded every day.
    Now, Mr. Chairman, there is a lot more I could say, and I 
will look forward to your questions, but with deference to Dr. 
Alexander, I will conclude my comments.
    Senator Roberts. OK.
    [The prepared statement of Admiral Cohen follows:]

               Prepared Statement by Rear Adm. Jay Cohen

    Mr. Chairman, distinguished members of the subcommittee, thank you 
for this opportunity to discuss the Department of the Navy's Science 
and Technology Program.
    When Admiral Clark assumed the watch from Admiral Jay Johnson last 
summer, he said that our people were our first priority. His Marine 
Corps counterpart, General Jones, is equally committed to doing 
everything we can for his few and proud Marines.
    One of the most important ways we can keep our people and recruit 
more like them is to give them the best working conditions possible. 
While the bedrock of our Navy and Marine Corps is good leadership, 
technology is the foundation that rests on that bedrock. Admiral Clark 
has directed me, as Chief of Naval Research, to make science and 
technology work for our people in the Fleet. Since I also wear the hat 
of Assistant Deputy Commandant (Science and Technology) for the Marine 
Corps, I answer to the same marching orders from General Jones--make 
science and technology work for the Marine. So I will couch quite a bit 
of my testimony today in terms of what we're doing to deliver 
capabilities for sailors and marines. I think we have a great record, a 
sound process, and a terrific future.
    As Chief of Naval Research, I want to protect our warfighters from 
technological surprises, while giving them the tools to inflict 
surprises on our adversaries. The business of surprise is especially 
important today. The threats we face are too variable to yield to the 
clear responses available during the Cold War. I would like to draw out 
one fundamental lesson from the Cold War and other more recent 
situations--as uncertainty increases, options increase in value. My 
technical priorities electric warship, missile defense/space, human 
factors, environment, and efficiency--will offer ``out of the box'' 
capability options; it's my job to give the Secretary, and the CNO, and 
the Commandant, technology options they can exercise at need.
    Our science and technology strategy balances long-term interests 
with short-term needs. The health of our science and technology base-
our ability to discharge our National Naval Responsibilities, to remain 
a smart buyer of science and technology, and to get capabilities into 
the hands of the operating forces--ultimately depends upon a balanced 
portfolio from basic research through advanced technology development 
and manufacturing technology.
    I especially look forward to incorporating Secretary Gordon 
England's industry perspective on maximizing the Department of the 
Navy's precious technology investments.
    For the Next Navy and Marine Corps, we are concentrating our 
science and technology investment into focused programs designed to 
provide a critical mass of support that will yield Future Naval 
Capabilities (FNCs). I recently restructured the program to combine 
overlapping efforts, and I added two programs--Electric Warship and 
Combat Vehicles Technology (which will focus on bringing the advantages 
of electrical technologies to the naval warfighters), and Littoral 
Combat and Force Projection (which includes both combat and 
expeditionary logistics capabilities), which will focus on Marine Corps 
requirements in projecting power from the beach in-land. The other ten 
FNCs (in no priority order) are:

        <bullet> Autonomous Operations will focus on dramatically 
        increasing the performance and affordability of Naval organic 
        unmanned vehicle systems;
        <bullet> Capable Manpower will focus on selection and training 
        to provide fully prepared sailors and marines through human-
        centered hardware and systems;
        <bullet> Knowledge Superiority and Assurance will focus on 
        issues of connectivity and knowledge superiority for 
        distributed Naval Forces to ensure common situation 
        understanding, increased speed of command, interoperability, 
        and dynamic distributed mission planning and execution across 
        all echelons;
        <bullet> Littoral Antisubmarine Warfare will provide effective 
        capability to detect, track, classify and neutralize all 
        subsurface systems and systems to deny access, in support of 
        power projection ashore;
        <bullet> Missile Defense will focus S&T necessary to detect, 
        control, and engage projected theater ballistic and cruise 
        missiles as well as enemy aircraft threats;
        <bullet> Organic Mine Countermeasures will focus on an organic 
        MCM capability to shorten the MCM tactical timeline and 
        eliminate the need for manned operations in a minefield;
        <bullet> Platform Protection strives to win or avoid 
        engagements with evolving threats either in-stride or while 
        engaged in projecting power from the sea;
        <bullet> Time Critical Strike will focus S&T that provides a 
        substantial reduction in the engagement timeline against time 
        critical mobile targets, theatre ballistic missiles, weapons of 
        mass destruction, C\4\I Centers and armored vehicles;
        <bullet> Total Ownership Cost Reduction seeks to significantly 
        decrease costs associated with acquisition, operation and 
        support and to develop methods to accurately predict costs and 
        assess return on investment; and,
        <bullet> Warfighter Protection will focus on protecting 
        warfighters to reduce casualties in the emerging Expeditionary 
        Maneuver Warfare battlespace.

    I have directed my people to get close to the Fleet and the Force, 
to be alert to their needs and swift to respond to them. We are working 
to enhance their quality of service. As we connect better with our 
customers--the operating Fleet and Force--we are undertaking some novel 
initiatives to reduce the cycle time of our technologies. I have 
established a program I call ``Swamp Works.'' This takes high-risk, 
high-payoff technologies, puts the right stakeholders together, and 
gets a product into the hands of the operators who need it. Swamp 
Works' efforts are intended to be technically risky--I anticipate a 90 
percent failure rate--because leap-ahead work is always technically 
risky. Some of the items I'll show you today--particularly those 
related to force protection--are Swamp Works projects.
    Force protection crosses all technologies. New materials for hull 
protection, advanced sensors, next generation decision support systems, 
autonomous platforms, and, ultimately, directed energy weapons--all of 
these are technological responses to the asymmetric threats our forces 
encounter as they remain forward deployed.
    Another priority I mentioned is human factors and quality of 
service. Our young people will join and stay with us if we give them 
meaningful and challenging missions, and if we give them the means to 
accomplish those missions. The biggest morale-killers on a ship can be 
those repetitious, labor-intensive, dirty maintenance jobs that have to 
be done. Naval science and technology offers solutions: coatings that 
don't have to be scraped and chipped; fault diagnostics that tell you 
when a bearing is about to fail; condition-based maintenance that saves 
time and resources. The smart people we have in the Fleet today deserve 
to work with systems that are engineered with the human being in mind. 
Human-centric systems, because the system is made for the sailors and 
marines . . . not vice-versa. These include embedded training that 
helps sailors and marines work smarter, stay proficient, and learn new 
skills. There is also no greater satisfaction in sailors' and marines' 
working lives than accomplishing their mission and getting home to 
their loved ones.
    Below are some of the technologies that I think are steps in this 
direction, and are examples of our response to the needs of the Navy 
and Marine Corps of today:

        <bullet> Dragon Eye: The marine sergeant's 4-pound, electronic 
        reconnaissance, backpack aircraft. You launch it by hand and 
        recover it by catching it. If you crack it up, well, that's not 
        a disaster.
        <bullet> 360+ Periscope: Omnivision extends the view you get 
        through a periscope. It contributes to situational awareness--
        it helps the submarine commander know what's around him on the 
        surface.
        <bullet> Advanced hull forms: Why should all ships be designed 
        with metal skin frames and stringers? We've been building them 
        that way since they were literally made of animal skins. In 
        particular, why must ships today be built to accommodate a long 
        propulsion shaft? We're moving to an all-electric Fleet, and 
        that means we have an opportunity to experiment with new hull 
        forms, like SEA SLICE, that provide a stable platform in the 
        littorals.
        <bullet> Handheld Ultrasound: Save lives on the battlefield. It 
        enables a corpsman to detect--among other things--internal 
        bleeding.
        <bullet> Intelligent Shock Mitigation and Isolation System: 
        Intelligent use of COTS. This came out of the building 
        industry, specifically, the earthquake mitigation industry. 
        It's going into the LPD-17.
        <bullet> High power microwave technologies: Advanced electronic 
        materials like gallium nitride are revolutionizing this vital 
        area.

    Additionally, we are working to field hearing protection systems 
and vaccines to keep our sailors and marines healthy. We are working on 
more effective firefighting tools and techniques. We continue to work 
on environmentally friendly technologies such as the active noise 
cancellation program that may help our fighter jets to coexist with the 
ever-increasing civilian population around our bases.
    With the assistance and support of the Vice Chief of Naval 
Research, Brigadier General William Catto, who is with me here today, I 
focus on the Navy and Marine Corps of today, tomorrow and ``after-
next'' (the one that will fight and win battles in 2020 and beyond). I 
have given examples above of initiatives in progress for today and 
tomorrow. The Navy and Marine Corps ``after-next'' will be based on 
discoveries just being made today. To ensure we get the technology and 
development concepts right, a robust cycle of innovation, validated by 
experimentation that leads to transformation, must continue. It is a 
process without end; new technologies evolve, new ideas are born, new 
innovations must be experimented with, resulting in further 
transformation. It is a process as old as the Navy and Marine Corps, 
and as relevant as the need for a strong national defense today, 
tomorrow and always.
    The United States has a Navy and Marine Corps second to none in the 
world, thanks to our volunteers and America's investment in science and 
technology. I have committed to a science and technology program that 
ensures our technological superiority continues in this new century--
and a program that has the sailor and marine at its center. I hope you 
will visit the world class Navy/Marine Corps corporate laboratory right 
here in Washington, DC on the Potomac.

    Senator Roberts. We will move to Dr. Alexander. Pardon me, 
Doctor, but because of my interest in the U.S.S. Cole and force 
protection and all that involves, we wanted to get into that, 
and I apologize to you. Please proceed.

 STATEMENT OF DR. JANE A. ALEXANDER, ACTING DIRECTOR, DEFENSE 
               ADVANCED RESEARCH PROJECTS AGENCY

    Dr. Alexander. Well, Mr. Chairman, I thank you and the 
committee for the opportunity to come here today and tell you a 
little bit about what the Defense Advanced Research Projects 
Agency is working on.
    We are the central R&D organization for the Department of 
Defense. We can work on problems with individual Services, and 
we can work in the joint arena and for national command 
authority problems. Our portion of the R&D portfolio is to 
emphasize high risk, high payoff, those revolutionary 
capabilities that lead to big jumps in military capability for 
the United States.
    The other part of our charter says, ``Avoid technological 
surprise.'' So that means looking into the future 10 or 15 
years and anticipating what the opponents of the United States 
may be doing and come up with technological counters. We cannot 
prevent them getting their hands on technology, but what we can 
do is anticipate what advantage they may be trying to derive 
from that technology and coming up with a counter so that they 
do not get an advantage.
    So that is part of the Department's response to the 
globalization of technology, especially in the areas of 
electronics and information technology.
    We are going to be facing more and more sophisticated 
threats, as well as well as asymmetric threats where folks come 
up with counters to our weapons systems. Adversaries have 
figured out that if you go force on force against us, you will 
lose.
    We are working in three major investment areas. National-
level problems: Those are things that could really pose threats 
to the Nation. Currently, we are working in the area of 
biological warfare defense and in cyber defense. We are working 
in the area of core technologies. These are the breakthrough 
technologies----
    Senator Roberts. Let me interrupt for just a minute----
    Dr. Alexander. Sure.
    Senator Roberts. --to indicate that you are right on the 
money in that respect. We asked people, 3 years ago when this 
subcommittee was first formed, ``What keeps you up at night?'' 
These were the alleged gurus of what could happen down the road 
in regard to homeland security and force protection overseas.
    One thing they said--well, two things, one was cyber 
attacks or informational warfare; and the other was the 
biological weaponry which is so easy to use. So you are right 
on the money.
    Dr. Alexander. The second area we are working in is core 
technology. Those are the breakthrough things that enable the 
next generation beyond military systems. What we try to do is 
we look at where industry is going, and if they are already 
leading in a direction that will support what we need, then we 
stay out of it. But there are many areas, even in information 
technology and electronics, where there is a divergence of the 
military's needs from what the commercial industry will 
typically give us.
    You heard Dr. Etter talk about some of those in the area of 
radiation hard electronics. That is not one that DARPA is 
investing in, but we are looking at the wideband gap materials 
leading to systems that the military needs.
    We look for where things may diverge. For instance, in 
communications technology, in the commercial world, you want to 
be able to locate the emitter. In the military world, you do 
not want that to happen because your opponent could then use 
that as a vulnerability.
    The final area that we are working in is operational 
dominance, coming up with new systems, new technology, combined 
with concepts of operation that will really give that war-
winning capability you heard Under Secretary Aldridge talk 
about.
    I brought a few examples of what is coming out of the 
pipeline from DARPA today for each of those areas. Starting 
back with national-level problems, this is in the information 
assurance area. Working with a small company called, Secure 
Computing Corporation, they developed some algorithms that are 
improved firewalls. Actually, most firewall technology in your 
computer comes from DARPA investment in the early 1990s.
    This is the next generation. Firewalls are, in effect, a 
lock on your front door. But if your opponent gets through the 
front door, your house is open to them. That burglar can wipe 
you out. This technology allows you to put a firewall on each 
and every computer. Your system administrator, through an 
encoded channel, can change the lock continuously. So if you 
know you are under attack, then this can be rapidly changed so 
you have a defense against it.
    The company that we funded is now partnered with 3Com. The 
hardware is on the market now, and the upgraded software that 
will activate some of the special hardware in here will be on 
the market in the fall. So that is available.
    Could you take that up to the Senators? [Indicating]
    In the area of biological warfare defense, I brought you a 
decontamination solution. What we use currently is bleach. 
Bleach is very harsh on the skin, and it is very tough on the 
electronics. We use actually very concentrated bleach on 
electronics. After only a few times, you can actually destroy 
the equipment you are having to decon.
    This is a very gentle solution. It does not destroy 
electronics. In fact, it is edible. It can be used to clean 
wounds. You cannot use bleach----
    Senator Roberts. FDA-approved edible? [Laughter.]
    Dr. Alexander. FDA will--it is actually----
    Dr. Andrews. It is an herb. [Laughter.]
    Dr. Alexander. There are two personal care companies that 
are thinking about working to license this and to take it to 
the market. They are actually interested in it's wound cleaning 
capability, but it also will work for regular decontamination.
    Let us see. In the technologies area, we actually did 
investment in the early 1990s in microelectro mechanical 
systems (MEMS) technology that has now entered the marketplace, 
and you think of it as a commercial-off-the-shelf (COTS) 
technology.
    This is a MEMS exploder for a torpedo. [Indicating] The 
other weighs 17 pounds. The MEMS exploder is 17 times lighter. 
We worked with the Navy on developing this because they have an 
anti-torpedo torpedo where the form factor would not take this 
monster. In here are three COTS MEMS technologies, so things 
actually had gotten commercialized. In addition, we worked with 
the Naval Surface Weapons Center (NAVC) on developing two 
specialized MEMS components. So there are five MEMS components 
total in here. [Indicating.]
    Not only does this do what this monster does, but in 
addition, it has an inertial navigation system in it. It 
actually has more functionality in the smaller form factor. So 
that is an example of where core technologies can lead to 
breakthrough next generation systems.
    Can you hold up the optics?
    The normal nosecone of a missile is hemispherical. That is 
because up until now, that was all you could do and have the 
correct optical design and the correct ability to manufacture 
the technology. The problem with that is that very small change 
in shape can reduce the drag by about half.
    What that leads to is a greatly increased distance that the 
missile can travel with the same propellant, or you could go at 
a much more rapid speed by being able to make a shape like this 
called an ``A sphere.'' I brought this with me, just to show 
you we can make it in any size. [Indicating.]
    In addition, we developed both the design software that 
allows you to figure out how to make those shapes, what shape 
you want, and we worked with industry to develop the 
manufacturing tools. The tools are now commercially available 
to make these. It is transitioning to Army and Navy systems.
    Once you go on to--yes, that one. [Indicating.] Captain 
Kamp, if you could stand up. This is an example of the 
excellent staff we have at DARPA. Captain Kamp was the 
originator of the idea of looking at the problem of ``How do I 
deal with diesel subs proliferating and working in the littoral 
zone?'' The idea was to take what in the Air Force is a manned 
fighter and make it an underwater fighter. So that is the 
breakthrough idea there, the capability to actively go after 
opponent submarines in the littoral. What enables this is a new 
propulsion system, and some new design capabilities in the 
submarine.
    Then finally, we have been working in the area of unmanned 
air vehicles for a very long time. The Predator that you are 
used to hearing about from Kosov was actually Project Amber a 
long time ago at DARPA.
    One of the issues with the normal UAVs is that you have to 
continue forward. They are basically aircraft. The problem with 
helicopters is they do not have long endurance, and they are 
manned aircraft if you want to use them as an observation 
point.
    The idea of the A160, working with a small company in 
California, was to make a very long endurance, 48 hours, 
aircraft that is helicopter-based, but unmanned so you can use 
it as an eye in the sky. This is one of the concepts that is 
being considered for the FCS as part of that system of systems.
    So I hope I have given you a little bit of a feel for some 
of the technologies that are coming out of DARPA. Addressing 
your question on transition, I think I have given you a feel 
that some of these we are transitioning through the commercial 
industry and bringing it to the market so the Department can 
buy it. In some cases, we are transitioning it into the 
military program executive officers (PEOs) in order to bring 
breakthrough capability to our warfighting forces.
    Thank you very much.
    Senator Roberts. Doctor, thank you.
    [The prepared statement of Dr. Alexander follows:]

              Prepared Statement by Dr. Jane A. Alexander

                              INTRODUCTION

    Mr. Chairman, subcommittee members, and staff: I am very pleased to 
appear before you today to discuss DARPA's strategic plan, and to 
highlight a selection of DARPA's fiscal year 2002 programs.
    Let me refresh your memory concerning DARPA's strategic plan. 
DARPA's mission continues to be to act as the technical enabler for 
radical innovation for national security. We are pursuing three main 
mission areas that have endured since DARPA's founding in 1958, even as 
individual technologies change. DARPA's enduring mission areas are:

        <bullet> To find technical solutions to National-Level 
        Problems. The Agency's priority is on problems that may impact 
        our national survival.
        <bullet> To be the technical enabler for the innovation 
        required for our warfighters to achieve dominance across the 
        range of military operations--Operational Dominance.
        <bullet> To develop and exploit high-risk Core Technologies for 
        our Nation's defense.

    In the area of National-Level Problems, DARPA's programs are 
focused on biological warfare defense and information assurance and 
survivability. The biological warfare defense effort is developing 
therapeutics countermeasures, advanced sensors, advanced diagnostics, 
air and water purification devices, and genetic sequencing codes for 
potential biological threat agents. In the area of information 
assurance and survivability, DARPA is developing technologies to raise 
strong barriers against cyber attack and provide commanders with 
mechanisms to see, counter, tolerate and survive sophisticated cyber 
attacks. DARPA invests approximately 15 percent of its annual budget in 
this mission area.
    In the area of enabling Operational Dominance, DARPA is investing 
in technologies and systems for affordable, precision moving target 
kill for both offensive and defensive missions and dynamic command and 
control capabilities for mobile networks and near-real-time logistics 
planning and replanning. Other programs include technologies and 
systems that will enable future warfare concepts for air, space, land 
and sea.
    We believe that one key to Operational Dominance will be combined 
manned and unmanned operations--this will give the future U.S. military 
an overwhelming edge. Our investments in advanced, high-speed networks, 
complex system design and operation, wireless communications, 
microcircuits that combine information technologies and biological 
systems, and other areas, will enable the U.S. to conduct successful 
combined manned and unmanned military operations. Providing this 
technical edge is the key to our involvement with the Army in 
developing Future Combat Systems (FCS). Our vision for FCS is 
revolutionary--a network-centric land warfare system of systems 
composed of manned and unmanned nodes. It will give the U.S. a 
capability that no other nation possesses.
    Our Unmanned Combat Air Vehicle (UCAV) programs are another example 
of our Operational Dominance investments. We are working jointly with 
the Air Force and the Navy to develop autonomous unmanned systems that 
will be able to work with manned aircraft to effectively and affordably 
suppress enemy air defenses, and for the Navy, also conduct 
surveillance missions. With these systems, the U.S. will be able to use 
an unmanned aircraft for dangerous operations rather than put pilots at 
risk. The unmanned system will operate autonomously within the rules of 
engagement, in association with manned aircraft, to prosecute its 
mission. It will not be fire and forget--humans will maintain command 
and control throughout the mission, and the vehicle will return to base 
to be used again. This will truly be a revolutionary capability.
    The U.S. also must have Operational Dominance in space. The Orbital 
Express program is developing technologies to allow the autonomous 
rendezvous, refueling and repairing of satellites on-orbit. This will 
give us unprecedented abilities to upgrade our space-based assets.
    Approximately 40 percent of our annual budget is invested in the 
Operational Dominance mission area.
    DARPA's Core Technology investments include information technology, 
microsystems technologies, materials technologies, micro-
electromechanical systems, beyond silicon complementary metal oxide 
semiconductor (CMOS) technologies, and investments that combine biology 
with DOD's traditional strengths in information technologies, 
electronics, optoelectronics, sensors, and actuators. It is the results 
of all of these investments that will allow DOD to build systems and 
capabilities for future operational dominance. In addition, investments 
in these core areas provide DARPA with a unique outreach into 
commercial and dual-use technology.
    DARPA's investments in information technologies will provide 
information superiority to the DOD through revolutionary advances in 
embedded and autonomous systems software; high performance computing 
components; advanced networking; seamless computer interfaces for the 
warfighter; ubiquitous computing and communications; and agent-based 
systems.
    In addition, DARPA is investigating chip-scale microsystem 
technologies that integrate the core technologies of electronics, 
photonics (light) and micro-electromechanical systems (MEMS). This 
chip-scale integration offers substantial new opportunities to 
revolutionize and miniaturize communications, targeting and analytical 
systems, as well as sensors.
    DARPA invests approximately 40 percent of its annual budget in the 
Core Technology mission area.
    I will now go into more detail about DARPA's investments in 
currently ongoing and planned programs. The Department is in the middle 
of a strategy review and a Quadrennial Defense Review. As these reviews 
complete, we may propose changes to some of the details of these 
efforts. So, with that understanding, I'll launch into an overview of 
our programs.

             TECHNICAL SOLUTIONS TO NATIONAL-LEVEL PROBLEMS

    DARPA's charter is to solve national-level technology problems, 
foster high-risk, high-payoff military technologies to enable 
operational dominance, and avoid technological surprise. In today's 
world of emerging asymmetric and transnational threats, our concern 
focuses on two principal national security issues: protection from 
biological warfare attack and protection from information attack.
Protection from Biological Warfare Attack
    A clear and growing national security need is protection of our 
military forces from biological warfare attack by both military and 
terrorist organizations. DARPA's goal is to deter or thwart such 
attacks with a Biological Warfare Defense thrust focused on sensors, 
medical diagnostics and countermeasures, air and water purification, 
pathogen genetic sequencing, building protection, and consequence 
management.

        ``We will work to defend our people and our allies against 
        growing threats: the threats of missiles; information warfare; 
        the threats of biological, chemical and nuclear weapons. . . . 
        We will be creating the military of the future, on that takes 
        full advantage of revolutionary new technologies. . . .''

                                --President Bush, January 26, 2001.
    Sensors
    To detect the presence of a threat agent, DARPA is investing in the 
development of advanced Bio Sensors that are robust, autonomous, fast, 
and sensitive to multiple biological warfare agents. DARPA's mass 
spectrometer holds the promise of extraordinarily fast and robust 
identification of all known biological warfare pathogens. The first-
generation prototype was evaluated in field trials last year against 
simulants; based on these trials as well as other technology 
development, we are now making design and engineering modifications to 
develop a robust and automated identification and detection capability 
using time-of-flight mass spectrometry. The program is also developing 
a nucleic-acid-based microarray sensor to integrate and automate DNA/
RNA isolation, labeling, and hybridization procedures into a single 
platform. The program has already developed a first-generation sensor 
designed to determine whether anthrax is present, to enable fast 
separation of hoaxes from real threats. We are evaluating the sensor's 
performance this year for possible transition to a number of partners, 
and we are developing an improved, hierarchical sensor in fiscal year 
2002.
    Another part of the sensor program is investigating whether it is 
possible to build sensors around cells or pieces of tissue to alert us 
to the presence of a toxic environment. These Tissue Based Biological 
Sensor (TBBS) systems use the physiological response of biological 
cells and tissues to detect biological or chemical threats. The TBBS 
program is fabricating new devices based on high-density microarrays to 
detect the presence of engineered agents (or as-yet unidentified 
threats) for which there are no antibodies or genetic sequences. We 
constructed laboratory prototypes in fiscal year 2000, including an 
integrated chip microarray that incorporates liver tissue and measures 
liver response following exposure to biological agents and chemical 
toxins. We then took hand-held systems that incorporate electrically 
active cells into the field at the U.S. Marine Corps base at Twentynine 
Palms, CA, and tested portable life support systems to provide on-site 
support for these systems. In fiscal year 2001, we are continuing 
development of these systems to screen them against a wider list of 
chemical and biological threats and to determine the limits of 
sensitivity, false alarm rates, and the effects of interferrants. The 
Metabolic Engineering for Cellular Stasis (MECS) program complements 
TBBS efforts. It is investigating biological practices that allow 
organisms to adapt to environmental extremes and is using those 
practices to engineer new cellular systems such as platelets and red 
blood cells. In fiscal year 2000, MECS researchers demonstrated 
dramatic improvements in the stability of cells by genetically 
engineering them to increase their resistance to drying for storage. In 
fiscal year 2001, the program is designing and testing cell and tissue 
systems that reliably report on viral and bacterial exposures and 
investigating key sensor features to minimize false positives and 
maximize signal strength.
    Medical Diagnostics and Countermeasures
    In the event of a biological attack, the U.S. will need to identify 
those who have been exposed to a biological warfare agent and to 
distinguish them from the ``worried well,'' as well as from those with 
natural diseases that might require different treatment. Therefore, 
identifying disease markers that can serve as rapid indicators of 
exposure is one of the focus areas of the Advanced Medical Diagnostics 
program. One group at Stanford University is looking for genetic 
markers by testing human cell cultures exposed to a variety of 
infectious disease agents and other stimuli. In fiscal year 2000, the 
researchers identified a number of human genes that are selectively 
turned on or off in response to infection, and in fiscal year 2001, 
they are testing for these markers in clinical settings such as 
hospitals. Another activity in this program is identifying markers in 
breath that may be used to determine who has been exposed to a 
potential pathogen. In fiscal year 2001, the program identified 
specific biochemical markers using non-invasive mass spectroscopy that 
can provide critical information from breath samples. Future studies 
will look for these markers in breath in models of pathogen exposure 
(in model systems). In fiscal year 2001, we made significant progress 
in establishing diagnostic detection equipment based on antibody 
detection of pathogens. The program transitioned this time-resolved 
fluorescence technology to the Centers for Disease Control, and it is 
now being validated for use in public health facilities; the system has 
been tested against a number of biological pathogens. Rapid sequencing 
techniques also progressed significantly in fiscal year 2001, and the 
program is transitioning results to the private sector for further 
development.
    The Unconventional Pathogen Countermeasures (UPC) program is 
developing broad-spectrum countermeasures for threat pathogens. This 
includes anti-viral and antibiotic drug discovery and development as 
well as vaccinations. Three UPC projects, plant-based vaccine 
production, optimized vaccine development using gene-shuffling, and 
optimization of novel antimicrobial therapeutics, have succeeded in 
initial DARPA experiments, and we are transitioning them to the U.S. 
Army Medical Research Institute for Infectious Diseases (USAMRIID) for 
further development. In addition, the U.S. Army Institute for Surgical 
Research, Fort Sam Houston, is evaluating skin decontamination by 
nanoemulsion technology. In fiscal year 2001, we anticipate 
transitioning other successes to USAMRIID, including novel antibiotic 
therapeutics, antibiotic target methodologies, and novel DNA vaccines 
and platforms. A novel vaccine enhancer developed under the UPC program 
is likely to transition to the Centers for Disease Control or USAMRIID 
later this year. By fiscal year 2002, we expect to have additional 
programs ready for transition including vaccine candidates, novel 
enzyme antibacterial therapeutics, and new approaches to using 
computers to accelerate the process of discovering therapeutics.
    Building Protection
    In addition to the component technologies, DARPA is developing 
complete systems solutions to counter the biological warfare threat. 
The goal of the Immune Building program, which is just getting underway 
in fiscal year 2001, is to make military buildings far less attractive 
targets for attack by chemical or biological warfare agents by reducing 
the effectiveness of such attacks via active and passive response of 
heating, ventilation and air conditioning systems and other building 
infrastructure (neutralization, filtration, etc.). This ambitious goal 
can only be achieved through a combination of technology development 
and systems-level experimentation. The program is leveraging earlier 
efforts in these technologies--for example, decontaminating foams and 
novel materials that can be used for both chemical and biological 
filtration--and extending them for use in this application. The program 
is also developing new component technologies specifically for this 
application, such as new gaseous decontamination techniques that can 
follow the contaminant into the small, inaccessible spaces within 
buildings, specialized low-pressure-drop filtration for use at return 
vents, and high-efficiency/long-lifetime sources of ultraviolet 
radiation for on-the-fly neutralization of agents. In addition, several 
industry teams are evaluating candidate architectures for building 
protection systems. In fiscal year 2002, the program will test 
successful technologies and prototypes as parts of complete protection 
systems, and we will evaluate the most promising architectures 
experimentally at full scale, as a first step in the design of 
``optimal'' protection systems.
    Air And Water Purification
    Clean air and water are crucial to the sustained operation of our 
Military Services in the event of a biological and chemical warfare 
attack. To-date, our program in Air and Water Purification has 
demonstrated encouraging results. Warfighters must be able to obtain 
potable water quickly--their water purification devices and beverage 
containers must be integrated in order to work and pack away together. 
One project, the New Generation Hydration System, will produce 
microbiologically safe drinking water and beverages from sources of 
unknown quality and will provide an efficient storage and delivery 
system for hands-free, on-the-move hydration.
    One of the program's key design objectives is to be able to purify 
all available water sources in the field, including desalinating 
seawater. We plan to meet this requirement by developing a forward 
osmosis membrane. The program has completed proof-of-principle 
experiments showing technical feasibility. During the remainder of this 
year, the program is optimizing the components of the system, e.g., 
increasing the water flux through the membrane and demonstrating 
removal of volatile organic compounds and other harmful contaminants 
from the water. In fiscal year 2002, the program will make the system 
more rugged and will integrate the forward osmosis component with a 
standard military hydration bag (such as a Camelback). The Marine Corps 
plans to transition DARPA's New Generation Hydration System as an 
official enhancement program.
    The Air and Water Purification program is also developing 
pioneering approaches for advanced gas mask filters. Today's masks have 
higher-than-desirable breathing resistance, and their capacity (the 
period of time they effectively filter) is limited. Recently, we have 
demonstrated the proof-of-principle that microfibrous carriers make 
better use of carbon to adsorb chemical agents and that they accomplish 
this with an inherent particulate filtration capability. For the next 2 
years, our work is aimed at reducing the pressure drop by at least a 
factor of two over current C2A1 canisters, while maintaining the 
equivalent period of time the filters operate effectively.
Protection from Information Attack
    The United States possesses limited capabilities to protect against 
sophisticated cyber attacks. Defending against distributed, coordinated 
attacks requires technology and infrastructure that commercial industry 
is not developing. To address this challenge, DARPA initiated the Third 
Generation Security (3GS) suite of programs to defend the Defense 
Department's advanced information systems. The goals of these programs 
are to raise strong barriers to cyber attack and provide commanders 
with technology to see, counter, tolerate, and survive sophisticated 
cyber attacks.
    In fiscal year 2000, the 3GS suite of DARPA programs made 
significant progress toward these goals. These programs:

        <bullet> Developed and demonstrated techniques to detect 
        malicious code and confine damage caused by mobile malicious 
        code;
        <bullet> Identified survivability principles to allow continued 
        operations through a wide class of cyber attacks;
        <bullet> Developed distributed security technologies to 
        overcome the limitations of perimeter defense strategies (i.e., 
        firewalls);
        <bullet> Developed intrusion detection and correlation 
        techniques to enable detection of certain kinds of stealthy 
        network-based attacks and to reduce the overwhelming numbers of 
        security alerts that operators face by recognizing actions that 
        are part of significant multi-step attack scenarios; and
        <bullet> Developed modeling techniques to determine how the 
        effects of attacks or defensive responses might impact the 
        system's continued ability to perform mission-critical 
        functions.

    In fiscal year 2001, the 3GS programs are integrating evolving 
security technologies to achieve automatic defense, assess correlated 
attacks, achieve preliminary situation understanding, improve tolerance 
against intrusion, obtain better assessments of damage and containment, 
and develop a hardened core. DARPA is using experimentation and 
technology transition partnerships with operational commanders to 
evaluate these advanced defensive technologies and transition them to 
warfighters. Also this year, conceptual system definition studies will 
begin to apply the results of the 3GS programs to make the DOD's Global 
Information Grid (GIG) more survivable in the face of cyber attacks. In 
fiscal year 2002, the suite of programs will use previous system 
concept studies to design both a survivable prototype of an exemplar 
GIG system and a Cyber Panel for monitor and control. Next year, the 
program will:

        <bullet> Demonstrate the ability of mission-critical systems to 
        operate through cyber attacks;
        <bullet> Develop a new family of protocols resilient to both 
        service denial and traffic analysis;
        <bullet> Develop techniques for detecting and correlating 
        disturbances across large networks to allow response to 
        widespread attacks in real time; and
        <bullet> Develop and demonstrate tools for selecting and 
        carrying out collective defensive actions in response to 
        correlated cyber attacks.

                     ENABLING OPERATIONAL DOMINANCE

    DARPA is the technical enabler for the revolutionary innovation 
required for our warfighters to achieve Operational Dominance--
dominance across the range of military operations. DARPA is emphasizing 
development of technologies and systems to enable affordable, 
precision, moving target kill for both offensive and defensive 
missions. We are also developing technologies and systems to provide 
dynamic command and control capabilities to our commanders, including 
the advanced communications and mobile networking technologies 
necessary for assured communications and information superiority. Other 
programs focus on technologies to allow planning and replanning in 
near-real-time. Lastly, DARPA is investing heavily in technologies and 
systems that will enable future warfare concepts for combined manned 
and unmanned operations, and operations in space, on land, at sea and 
in the air.
Affordable, Precision, Moving Target Kill
    Current approaches to engaging time-critical surface moving targets 
include area-of-effect munitions and man-in-the-loop targeting. These 
approaches traditionally involve large, very expensive weapons, the 
potential for large collateral damage, and, often, the requirement to 
put the warfighter in harm's way. DARPA is responding by developing 
low-cost, highly capable weapons networked to a variety of airborne 
sensors for offensive and defensive missions, advanced sensors capable 
of detecting targets hidden in foliage, and camouflage and broadband 
antennas that can be electronically reconfigured.
    The Affordable Moving Surface Target Engagement (AMSTE) program is 
developing technologies to make it feasible and practical for the 
warfighter to precisely, rapidly, and affordably engage individual 
moving surface vehicles. The program will demonstrate that, without 
expensive modifications to existing and planned systems, networked 
sensors and weapons can be integrated to provide robust, precise 
standoff engagement of moving surface targets. In fiscal year 2000, the 
AMSTE program completed a series of weapon system trade studies that 
evaluated AMSTE component architectures, developed and performed real-
time laboratory experiments to assess the accuracy and robustness of 
fire control algorithms using radar data collected from multiple 
airborne sensors, and completed detailed system designs of an 
experimental AMSTE system. These studies demonstrated the feasibility 
of the AMSTE concept and identified critical supporting technologies 
requiring further development and maturation. In fiscal year 2001, the 
AMSTE program awarded two contracts, to Northrop Grumman Corp. 
Integrated Systems Sector (Melbourne, FL) and to Raytheon System Co. 
(El Segundo, CA), to develop and assemble prototype AMSTE experimental 
systems (representative radar sensors, data links, and weapons) for 
live flight experimentation. At the end of this year, a series of 
developmental flight experiments will culminate in the delivery of GPS-
guided precision weapons against moving vehicles, targeted by standoff 
networked sensors using AMSTE precision fire control techniques. 
Further experimentation with the AMSTE system is planned for fiscal 
year 2002, and the program will develop and incorporate critical 
enhancements to address high-confidence track maintenance in highly 
cluttered environments.
    The Advanced Tactical Targeting Technology (AT\3\) program is 
developing and demonstrating technologies that will radically improve 
today's capability to target surface-to-air missile (SAM) threats 
through the use of networked, next-generation electronic support 
measures systems. AT\3\ enables the rapid and accurate targeting of 
precision-guided weapons to counter the modern, more capable enemy SAM 
systems, which are using increasingly sophisticated tactics such as 
early emitter shutdown, making them particularly challenging targets. 
In fiscal year 2000, the program successfully completed initial 
software algorithm development, non-real-time flight tests, test data 
analysis, and a critical design review. The data collections focused on 
a few critical issues: platform-to-platform decorrelation from 
electronically or mechanically scanned systems, multipath, and 
geolocation performance. Using realistic emitters, we conducted these 
tests with a combination of legacy hardware, new AT\3\ hardware, and 
off-the-shelf navigation solutions, and all technical objectives were 
achieved. The successful conclusion of the tests laid the foundation 
for our continuing development work in AT\3\. DARPA has selected 
Raytheon Defense Systems Company (Tucson, AZ) to conduct the program's 
second phase. This year, the program is fabricating AT\3\ test 
hardware, conducting hardware-in-the-loop and ground tests, and 
continuing software algorithm development. In fiscal year 2002, the 
program will complete real-time flight tests of the AT\3\ packages 
against real threats, analyze the test data, and continue software 
algorithm development based on the collected flight-test data.
    A new generation of collection systems will provide dramatically 
increased volumes of high-fidelity data to the operational decision-
maker. The challenge will be to manage and synchronize these advanced 
collection systems with tasking, processing, exploitation, and 
dissemination capabilities to provide critical information in a 
constantly changing operational situation. The Advanced ISR 
(Intelligence, Surveillance, and Reconnaissance) Management (AIM) 
program is providing the technical foundation for ISR support through 
the development of an automated system to optimize the tasking of ISR 
assets to meet users' needs. The AIM program is developing and 
advancing technologies in areas of multi-node collaboration, semi-
automated reasoning, and mathematical programming. The resulting AIM 
capabilities will transition to DOD automated planning and command, 
control, communications, computers and ISR (C\4\ISR) migration systems 
as appropriate. In fiscal year 2001, the AIM program is installing the 
Multi-Asset Synchronizer at the U.S. Southern Command to participate in 
Exercise Unified Endeavor. AIM is providing enhanced coordination and 
visualization of multiple diverse collection assets, enabling 
collection managers to assess the utility of the technology and to 
provide valuable feedback to guide further development. In fiscal year 
2002, AIM capabilities will be further extended to provide near-real-
time re-tasking of assets to respond to contingencies and to maximize 
exploitation system product value.
    The goal of the DARPA Counter Camouflage, Concealment, and 
Deception (Counter CC&D) program is to mature and demonstrate a foliage 
penetration (FOPEN) synthetic aperture radar (SAR) to provide the 
warfighter with all-weather, day/night capability to detect targets 
hidden by foliage and camouflage. In fiscal year 2000, the FOPEN SAR 
was installed on an Army RC-12 aircraft, and the program conducted 
preliminary flight tests to validate the real-time image formation 
software and verify that the system could provide the required image 
resolution and sensitivity. This year, the FOPEN SAR has demonstrated 
excellent image quality in the VHF and UHF bands and will complete the 
preliminary RC-12 flight tests by imaging vehicles hidden under foliage 
at Camp Navajo, AZ, to establish the capabilities of single-pass and 
change-detection algorithms. In fiscal year 2002, the RC-12 FOPEN SAR 
will fly an extensive series of flights to collect the data necessary 
to train, test, refine and validate algorithms in different foliage 
environments. The program will also conduct experiments to determine 
the ability of FOPEN SAR to perform terrain mapping and terrain 
characterization.
    The Symbiotic Communications program will develop a passive, all-
weather airborne system that can produce real-time high-resolution 
synthetic aperture radar images, and very accurate (National Imagery 
and Mapping Agency level four) terrain height maps, categorize terrain 
(for example trees versus roads), and detect and locate slowly moving 
ground vehicles. This system is a passive, bistatic receiver, making it 
difficult for adversaries to detect and counter the system. This 
approach will allow our warfighters to gather the battlespace data they 
need without putting themselves at risk. In fiscal year 2001, an expert 
Government team and two contractor teams will develop system concepts 
and ground-based experiments to validate technical feasibility and to 
refine performance predictions. In fiscal year 2002, the two contractor 
teams will conduct early flight tests, achieve radar processing of 
signals of interest, and demonstrate bistatic synthetic aperture radar 
processing.
    DARPA is concerned about the threat of attack by large numbers of 
low-cost air vehicles--from unsophisticated cruise missiles to small 
fixed-wing aircraft. This asymmetric threat can emerge very quickly, 
and there are many ways an adversary can acquire such a threat, e.g., 
manufacturing them indigenously, importing them from other countries, 
or converting existing assets. Initiated in 1996, the goal of the Low 
Cost Cruise Missile Defense (LCCMD) program is to develop a viable, 
affordable option for countering such an attack without resorting to 
our current inventory of interceptors (designed for far more 
sophisticated threats) and running the risk of being overwhelmed by 
sheer numbers of attacking platforms. The LCCMD program is developing 
and demonstrating affordable seekers for use on a low-cost interceptor 
system. Seekers represent approximately two-thirds the cost of a 
typical interceptor system. Last year, the program conducted laboratory 
testing of a laser radar seeker and a novel microwave-frequency noise 
radar seeker. In fiscal year 2001, the program is conducting field-
testing of the noise radar seeker and initiating development of an 
affordable micro-electromechanically switched electronically scanned 
array (MEMS ESA) seeker. In fiscal year 2002, the program will complete 
a preliminary design of the MEMS ESA seeker and fabricate subassemblies 
of its antenna system. The U.S. Army Space and Missile Defense Command 
has expressed great interest in this program, and has funded an effort 
this year to evaluate low cost cruise missile defense options.
    The Real Time Battle Damage Assessment (RT-BDA) program is 
developing and demonstrating new techniques to automate the assessment 
of target battle damage. The program will use tactical and theater 
synthetic aperture radars coordinated with weapons delivery to image 
the targets before, during, and following the strike to enable 
immediate assessment of the strike effectiveness. This year the program 
is conducting instrumented data collections of real battle damage on 
realistic targets to produce a database to support further research in 
signature exploitation techniques. The program is also investigating 
imaging radar BDA phenomenology and developing prototype RT-BDA 
detection algorithms and assessing their effectiveness. In fiscal year 
2002, we will further mature these initial algorithms to provide damage 
localization and assessment, and they will be implemented and evaluated 
in a real-time laboratory system.
    The Global Positioning Experiments program addresses the problem of 
enemy jamming of the Global Positioning System (GPS). The program will 
demonstrate the use of airborne pseudolites, which are high-power, GPS-
like transmitters on aircraft, to broadcast a powerful replacement GPS 
signal that ``burns through'' jammers and restores GPS navigation over 
a theater of operations. Two field demonstrations last year showed that 
signals broadcast from airborne pseudolites can be used in place of 
satellite broadcasts to provide good quality navigation to military GPS 
receivers with only software modifications to the receivers. In fiscal 
year 2001, the program is conducting laboratory and field tests to 
demonstrate that beamformer antennas can protect the airborne 
pseudolite from jamming. In fiscal year 2002, the program will combine 
these two key pieces of the concept by flying an aircraft in the 
presence of powerful jamming and demonstrating the ability of a 
beamforming antenna to allow the aircraft to acquire a satellite signal 
and rebroadcast it as a pseudolite. Preparations will also begin for a 
multiple, airborne psuedolite demonstration.
Dynamic Command and Control
    One key aspect to operational dominance is the ability of the 
commander to access critically needed information and to control that 
information dynamically. Information technologies can provide this 
ability by allowing disparate information systems and databases to 
interoperate quickly and efficiently. Other technologies allow 
commanders to develop operational plans quickly and revise their plans 
in near real-time to capture new information or counter an adversary's 
activities. Mobile networking technologies are also important, as 
future warfare concepts envision small units armed with comprehensive 
knowledge of the battlespace and able to communicate while maneuvering. 
The military has a unique need for communications networks that can be 
formed and reformed rapidly without a fixed infrastructure, and that 
are highly secure and resistant to jamming; DARPA has a number of 
investments in these areas. Other programs are focused on the 
application of information technology to the critical military 
challenge of controlling and automating the logistics pipeline and 
planning process.
    Near-Real-Time Planning and Replannning
    Many recent studies agree that future U.S. adversaries are unlikely 
to challenge the U.S. directly. Rather, it is more likely that they 
will present an asymmetrical threat, developing and using approaches 
that avoid U.S. strengths and exploit potential vulnerabilities using 
significantly different methods of operation. Adversaries will attempt 
to create conditions that effectively delay, deter, or counter the 
application of U.S. military capabilities. DARPA is undertaking high-
risk research to help our military and intelligence agencies identify 
threats before attacks happen. This will allow deterrence or deflection 
of unconventional but potentially devastating attacks against our 
military forces and infrastructure. The DARPA Asymmetric Threat 
initiative will develop a suite of new technological capabilities to 
better detect, correlate, and understand these asymmetric threats.
    The Human Identification at a Distance program began in August 
2000. In fiscal year 2001, the Human Identification at a Distance 
program is developing automated multi-modal surveillance technology for 
identifying humans at a distance using different biometrics techniques 
such as face and body parts identification, infrared and hyper-spectral 
imagery, gait and temporal human dynamics, non-imaging physiological 
based-biometrics, and remote iris scan. In fiscal year 2002, the 
program will assess the capabilities of each biometric to identify 
people at a distance. Based on the assessment, the program will further 
develop the most promising biometrics and investigate fusion methods.
    The Wargaming the Asymmetric Environment (WAE) program will develop 
and demonstrate specific predictive tools to better anticipate and act 
against terrorists. WAE is a revolutionary approach to identify 
predictive indicators of terrorist-specific attacks and behaviors by 
examining their past behavior in the broad context of their political, 
cultural and ideological environment. Initial results demonstrate the 
feasibility of developing automated and adaptive behavior prediction 
models tuned to specific terrorist groups or individuals. It uses their 
past behaviors and the consequences of their deeds, as well as the 
antecedent activities that led up to the act, to predict what, when, 
where, how and why they will strike next. Over the past year, WAE 
developed a model able to predict an active terrorist group's next 
tactic (assault, bombing, assassination, hijacking, or no attack). The 
model was validated against archival data covering 66 attacks over 17 
years. In fiscal year 2001, WAE is expanding its predictive model and 
validation process to increase the level of detail for predictions of 
target characteristics, timeframes, geographical location, and 
motivating factors. In fiscal year 2002, WAE will extend its predictive 
model development and validation to include other groups and 
individuals; these models will then be used to develop an intervention-
testing environment.
    The Evidence Extraction and Link Discovery (EELD) program will 
develop automated discovery, extraction and linking of sparse evidence 
in large amounts of classified and unclassified data sources. EELD is 
developing detection capabilities to extract relevant data and 
relationships about people, organizations, and activities from message 
traffic and open source data. It will then link together related items 
that comprise potential terrorist groups or scenarios, and learn 
patterns of different groups or scenarios to identify new organizations 
or emerging threats. EELD's initial activities demonstrated the 
feasibility of extracting relationships from text and validated the 
detectability of patterns representing terrorist groups and scenarios. 
EELD also developed two promising techniques for learning patterns of 
activity, and developed functional system concepts to guide technology 
developments. In fiscal year 2001, EELD will develop techniques for 
evidence extraction, link discovery and pattern learning, validate the 
detectability of patterns in classified data, and initiate collection 
and characterization of documents for technology evaluations. In fiscal 
year 2002, EELD will develop and demonstrate technology to extract 
relationships, and detect and learn single-link type patterns.
    Project Genoa, in the process of concluding, provides the 
structured argumentation, decision-making and corporate memory to 
rapidly deal with and adjust to dynamic crisis management. Project 
Genoa is developing information technology for the intelligence 
community to rapidly and systematically accumulate evidence, facilitate 
collaboration while protecting critical information and test hypotheses 
that support decision-making at the national level. In fiscal year 
2000, Project Genoa matured and transitioned a new ``thematic'' search 
engine to users on Intelink. Based on successful technology 
demonstrations, the Defense Intelligence Agency has agreed to be a 
transition partner for Project Genoa technology. In fiscal year 2001, 
Genoa evidence-accumulation components are being delivered to the 
Office of the Secretary of Defense and Joint Staff Directorate for 
Intelligence (J2), the Joint Counter-intelligence Analysis Group, and 
U.S. Pacific Command. In fiscal year 2002, these transition activities 
will be completed.
    The Command Post of the Future (CPOF) program is developing tools 
that enable commanders to rapidly acquire a deep understand of any 
military situation, leading to faster and better decision making and 
more effective employment of military forces. In the past year, CPOF 
has developed several prototypes of the BattleBoard, a mobile command 
interface that provides the commander with a visual interface to 
subordinates, superiors, peers, and staff that significantly improves 
situation awareness and has demonstrated an order of magnitude 
reduction in time to plan while at the same time improving the 
robustness of plans. In fiscal year 2001, CPOF is extending research 
into team collaboration tools and augmenting the collaboration and 
visualization tools in the BattleBoard with reasoning tools that will 
provide the commander with the ability to attach intelligent monitors 
to places, objects, and times in the battlespace, effectively using the 
BattleBoard as an extension of his memory and expertise. In fiscal year 
2002, CPOF will add a dialog system to the BattleBoard providing the 
commander with richer, more natural ways to query information in the 
command and control system. Additionally, CPOF will integrate the 
BattleBoard into existing Army and Marine Corps command and control 
systems.
    The Active Templates program is developing and delivering critical 
command and control software tools for special operations forces (SOF). 
These tools enable commanders to plan four times faster, coordinate 
decisions immediately, synchronize combined-arms operations, and 
control resources that dictate the outcome of the fight. In fiscal year 
2000, the temporal plan editor and execution checklist tool were tested 
successfully in three SOF exercises and subsequently adopted by a 
number of SOF organizations. In fiscal year 2001, DARPA is developing a 
geo-spatial editor for planning and tracking SOF missions on a map or 
an image. In fiscal year 2002, the program will use default reasoning 
to develop a networked spreadsheet that allows users to coordinate 
information, get intelligent assistance for decision-making, and reuse 
solutions to similar problems solved in the past.
    Advanced information technologies are being actively applied to 
warfighter logistics support, making that support secure, scalable, and 
robust, and to collaborative logistic and operational planning and 
execution capabilities for the Global Combat Support System.
    The objective of the Advanced Logistics Project (ALP) is to 
demonstrate the feasibility of using advanced agent-based technology to 
make a revolutionary improvement in how the DOD provides logistics 
support to the warfighter. The Advanced Logistics Project is a joint 
DARPA/Defense Logistics Agency effort, in partnership with the U.S. 
Transportation Command and the Joint Staff Director for Logistics. The 
project has developed a distributed systems technology that will 
revolutionize dynamic planning, execution, and overall information 
management of the DOD logistics enterprise. In fiscal year 2000, the 
project dramatically enhanced the architecture to provide the 
capability to develop and manage multiple concurrent logistics plans. 
The program worked with the Defense Agencies and Military Services to 
identify high-payoff pilot projects and developed several applications. 
One is operational today at U.S. Transportation Command, and another is 
operating at the Defense Supply Center Columbus, a component of the 
Defense Logistics Agency, and is scheduled to go into full operation by 
late June. The program concludes this year having demonstrated a 
systems architecture that has the capability to: generate an item-level 
logistics plan in under an hour; totally control the transportation 
pipeline; continuously generate time-phased support and sustainment 
demands; monitor the execution details down to the individual items 
against real-time information from the real world; and dynamically 
repair the plan when necessary. If this technology were fully fielded 
in the military, it would allow the military logistics enterprise to: 
gain control of the logistics pipeline; enable the warfighter to 
project and sustain overwhelming combat power sooner; permit forces and 
materiel to be deployed, tracked, sustained, and redeployed more 
effectively and efficiently with reduced reliance on large DOD 
inventories; provide users at any level the ability to effectively 
interact during planning and execution; and, link operations with 
logistics staff elements at all echelons. As an infrastructure for 
global logistics, an operational ALP capability would truly enable 
Focused Logistics as envisioned in Joint Vision 2020.
    The Ultra*Log program is developing information technologies to 
enhance the survivability of large-scale, distributed, agent-based 
logistics systems operating under very chaotic wartime conditions. This 
program will build upon--and extend--the revolutionary technologies 
developed under the Advanced Logistics Project in the areas of 
security, scalability and robustness to ensure reliable logistics 
support to the warfighter under the most extreme kinetic and 
information warfare conditions. If successful, this would serve as a 
template for creating agent-based distributed command and control 
systems operating at all echelons that could dynamically recover from 
information attacks, infrastructure loss, and other real-world problems 
that plague effective planning and control in complex wartime 
environments. In fiscal year 2000, the program identified several 
critical survivability technology extensions such as adaptive 
communications protocols, layered certificate and encryption-based data 
security, and techniques for recovery from catastrophic information 
loss, as well as the processes for measuring and experimentally 
evaluating them. In fiscal year 2001, the program is concentrating 
first on building the foundation for survivability in the core 
architecture to include secure information management, increased fault-
tolerance, and system scalability. The program will perform its first 
large-scale evaluation and assessment in late 2001, to include a Red 
Team attack of the logistics information system during a representative 
Major Regional Contingency (MRC) scenario. In fiscal year 2002, the 
program will focus on expanding the logistics information system's 
capability to detect threats and change system-state dynamically in 
response to those threats. The military concept of ``ThreatCon'' will 
be incorporated into the software agent architecture to support dynamic 
reconfiguration for enhanced survivability in increasingly chaotic 
conditions. In the program's second major assessment in the late 2002, 
the prototype system will attempt to detect various threats and 
failures and deploy appropriate countermeasures during the 
representative MRC scenario.
    The primary theme of the Joint Theater Logistics Advanced Concept 
Technology Demonstration (ACTD) is logistic command and control. The 
ACTD will leverage current and emerging technology to produce, and 
rapidly transition, advanced collaborative logistic and operational 
planning and execution capabilities for the Global Combat Support 
System (GCSS). It will build a series of web-based Joint Theater 
Logistics Decision Support Tools that will encourage operations and 
logistic collaboration during planning and requirements determination 
and execution tracking, and while realigning resources to meet changing 
operational situations. The Joint Theater Logistics ACTD will correct 
existing logistic deficiencies and provide the capabilities necessary 
to ensure the future coordinated sustainability for logistic 
operations. This ACTD builds upon the success of the Joint Decision 
Support Tools and technical architecture developed under the earlier 
Joint Logistics ACTD, and incorporates technologies from DARPA's 
Advanced Logistics Project, the Command Post of the Future, and other 
ACTDs targeted for Joint Task Force operations. The target user for 
Joint Theater Logistics ACTD is at the operational level: the Joint 
Task Force, its Service components, and major Service logistics 
organizations.
    In fiscal year 2000, the Joint Theater Logistics ACTD conducted an 
initial demonstration of collaborative products, allowing operations 
and logistic users, in real-time via the web, to coordinate shared 
concepts for planning and execution. This effort included selection of 
combat and combat support forces, missions, locations, and time 
phasing. In fiscal year 2001, the Joint Theater Logistics ACTD is 
demonstrating the ability to collaboratively develop operational 
courses of action and the corresponding logistic supportability 
assessments for fuel, engineer, and other commodities in a Joint Task 
Force environment. In fiscal year 2002, the ACTD will provide a 
logistic watchboard capability to monitor and replan ongoing logistic 
operations in real-time, with flexible visualizations to provide rapid 
drilldown for assessment details. The Joint Theater Logistics ACTD 
products will transition through the Defense Information Systems Agency 
in fiscal year 2003 as a Pilot Service Program, with expected fielding 
to GCSS in fiscal year 2005.
    Mobile Networking Technologies
    The Airborne Communications Node (ACN) program is developing a 
multi-mission payload that will simultaneously provide, in a single 
package, assured communications and radio frequency exploitation 
(signals intelligence, electronic warfare and information operations) 
for joint and multinational forces on maneuver. The payload will be 
scalable for application on a wide range of platforms. It will enable 
high-bandwidth, beyond-line-of-sight connectivity and will allow the 
tactical commander to dynamically reconfigure his available assets to 
satisfy changing mission priorities. In fiscal year 2000, the three 
competing Phase I contractor teams demonstrated their architecture and 
proof-of-concept designs for ACN. The program selected two teams to 
incorporate multi-mission functionality (e.g., assured communications 
and radio frequency exploitation) into their architecture and begin 
development of the technologies necessary to implement the multi-
mission design. In fiscal year 2001, the program is demonstrating 
subsystem performance through detailed laboratory testing and 
simulation. In fiscal year 2002, the program will validate multi-
mission functionality in an end-to-end system demonstration in a 
laboratory environment.
    The Small Unit Operations Situation Awareness System (SUO SAS) 
program is developing and integrating key communications, navigation, 
and situational awareness technologies for use by light, early-entry 
forces in restrictive terrain where they currently cannot communicate. 
The program is developing technologies to enable warfighters to 
communicate clandestinely in buildings, tunnels, jungles and 
mountainous terrain using self-forming, computer-controlled networks 
that continuously monitor the environment, mission needs and the 
tactical situation, and optimize themselves to ensure that 
communications are always maintained. These capabilities will greatly 
increase the effectiveness and survivability of small, dismounted 
forces. Last year, a series of contractor laboratory and field tests 
were highly successful in demonstrating SUO SAS' clandestine 
communications waveform and its non-GPS method for precisely locating 
soldiers inside buildings. In fiscal year 2001, the program is 
completing the detailed hardware and software designs, fabricating the 
major prototype components, and integrating and measuring system-level 
performance. In fiscal year 2002, the program will complete prototype-
level field performance testing and analysis, providing important 
measures of the technological advances for implementation by the 
Services in their communications and situation awareness systems. 
Transition details are currently being discussed with the Army.
    The WolfPack program is developing new electronic warfare 
technologies that can hold enemy emitters (communications and radar) at 
risk throughout the tactical battlespace while avoiding disruption of 
friendly military and protected commercial radio communications. The 
WolfPack concept emphasizes an air-deployable, ground-based, close 
proximity, distributed, networked architecture to obtain radio 
frequency spectrum dominance. The WolfPack concept is to use a network 
of nodes to sense the radio frequency environment, ascertain the type 
and configuration of the threat, and carry out a precise, coordinated 
response. That response can either be to disable communications and 
radar reception, or to relay the geolocation information of the threat 
transmitter. In fiscal year 2000, a team made up of representatives 
from government, academia, and industry validated the WolfPack concept 
and highlighted the critical areas of technology development through 
analytical assessments of critical technology and performance 
tradeoffs. This year, the program is starting development of high-risk, 
high-payoff technologies such as wideband antennas, precision 
geolocation techniques for urban terrain, spectrum denial techniques 
for dense threat environments, and extremely small micro-jammers. The 
program is selecting competing contractor teams to design the system 
architecture and develop critical component technologies. In fiscal 
year 2002, the WolfPack program will finalize the system designs and 
conduct laboratory and limited filed demonstrations of component 
technologies for network management and emitter node and network 
identification, classification and geolocation.
Future Warfare Concepts
    DARPA is investing in a number of diverse technologies and 
prototype demonstrations that will enable future operational concepts 
for a wide variety of critical military missions combining manned and 
unmanned systems and in space, in the sea, on land, and in the air. The 
investments for combined manned and unmanned warfare are significant. 
The autonomous robotics technologies being developed today will allow 
future warfighters to accomplish their missions more effectively with 
less risk of casualties, thus preserving the U.S. military's most 
important resource, its people. In space, we are pursuing revolutionary 
methods to extend the life of spacecraft while they are on-orbit. We 
have programs to reduce the frictional drag on ships, analyze future 
missions for attack submarines, and improve the performance of towed 
sonar arrays. For land warfare, we are developing a hybrid-electric 
drive reconnaissance, surveillance and targeting vehicle, covert 
optical tags for precisely locating objects at kilometer-ranges, and 
alternatives to antipersonnel landmines. In the air, we are developing 
active control of flows using a variety of very small-scale actuators, 
and, based on our success with the Miniature Air Launched Decoy 
program, we are fabricating a low-cost interceptor to engage enemy 
cruise missiles.

        ``On land, our heavy forces will be lighter, our light forces 
        will be more lethal. All will be easier to deploy and to 
        sustain. In the air, we will be able to strike across the world 
        with pinpoint accuracy, using both aircraft and unmanned 
        systems. On the oceans, we will connect information and weapons 
        in new ways, maximizing our ability to project power over land. 
        In space, we'll protect our network of satellites essential to 
        the flow of our commerce and the defense of our common 
        interests.''

                               --President Bush, February 13, 2001.
    Combined Manned and Unmanned Operations
    Flying manned aircraft into hostile territory to strike targets or 
to suppress enemy air defenses places the aircrews at great risk. The 
DARPA/Air Force Unmanned Combat Air Vehicle (UCAV) Advanced Technology 
Demonstration will prove that some of the most hazardous missions can 
be performed effectively by an unmanned vehicle and made operational by 
2010, while, at the same time, reducing costs and risk to human life. 
DARPA firmly believes that the unit recurring fly-away cost of the UCAV 
weapon system will be one-third that of the Joint Strike Fighter and 
that operations and support costs, compared to a current manned fighter 
squadron, will be reduced by 75 percent. The program began its second 
phase in 1999, selecting a single contractor to conduct a comprehensive 
series of simulations, ground tests, and flight tests using a surrogate 
aircraft, two full-scale air vehicle demonstrators, and a 
reconfigurable mission control station. The first UCAV demonstrator air 
vehicle was previewed last year, and the test flight program started 
this year. The X-45A air vehicle is currently completing engine runs 
and will systematically move through a series of taxi tests toward a 
first flight late this Summer. In parallel, a series of simulations 
will demonstrate the ability of an operator to manage a UCAV in a 
realistic battle environment. The remainder of the current phase of the 
UCAV program, extending through fiscal year 2003, will demonstrate: 
compatibility of the unmanned system with the envisioned 2010 
battlespace; robustness and security of communications with the air 
vehicle; the feasibility of adaptive, autonomous control of the air 
vehicle, with advanced cognitive decision-aids for the ``man-in-the-
loop'' system operators; feasibility of coordinated, multi-vehicle 
flight; affordability of operations and support costs; and 
deployability of the system.
    The potential of the unmanned approach to hazardous air missions 
has also resulted in a joint DARPA/Navy Naval UCAV (UCAV-N) program. 
The Navy has a need for sea-based, highly survivable, effective and 
affordable air power to conduct deep strike, suppression of enemy air 
defenses, and surveillance missions as part of an integrated air 
campaign. A Naval Unmanned Combat Air Vehicle can prosecute the enemy 
integrated air defense system and high-value targets with relative 
impunity without placing a pilot in harm's way. In addition, a UCAV-N 
capability that can maintain continuous vigilance will enable advanced 
surveillance, suppression of enemy air defenses, and immediate lethal 
strike for attacking time-critical targets. DARPA and the Department of 
the Navy have agreed to a joint program to validate the critical 
technologies, processes and system attributes and demonstrate the 
technical feasibility of a UCAV-N system. The UCAV-N Advanced 
Technology Demonstration program is structured in two phases: first, 
analysis and preliminary design, and second, development and 
demonstration. In July 2000, DARPA awarded two Section 845 agreements 
to Boeing and Northrop Grumman for analysis and preliminary design of a 
UCAV-N air system, and those studies were completed in March 2001. In 
April of 2001, the Phase I contracts were modified to permit more 
complete system preliminary design and to begin risk reduction of 
critical technologies, processes and system attributes. A successful 
conclusion to Phase I would lead to a seamless transition into Phase II 
in January 2002. Phase II will continue through December 2004.
    The jointly funded, collaborative DARPA/Army Future Combat Systems 
(FCS) demonstration program will define the concept design for a new 
generation of deployable, agile, versatile, lethal, survivable, 
sustainable and dominant combat systems. The program will develop 
innovative technologies to get more firepower to the battlefield 
quickly, establish dominance once there, and reduce the risks to U.S. 
soldiers. A collaborative system of manned and unmanned platforms is 
the key FCS enabler. DARPA and the Army are developing the technologies 
to achieve this new way of fighting, managing the development risks 
carefully in order to field a highly successful combat system.
    The program will develop a preliminary design and fabricate and 
test an FCS concept demonstrator that will show how the collaboration 
of manned and unmanned vehicles can establish dominance on the 
battlefield. At the same time, the program is developing radically 
innovative enabling technologies for insertion in the demonstrator. 
These jointly funded enabling technologies will provide mobile, 
networked command, control, and communications capabilities; autonomous 
robotic systems; precision indirect fires; airborne and ground organic 
sensor platforms; and precision, three-dimensional, adverse-weather 
reconnaissance, surveillance, targeting and acquisition. In fiscal year 
2001, the FCS program entered a competitive concept development phase 
and is conducting a series of government-run experiments to evaluate 
the potentially revolutionary impact of various technologies on land 
warfare. In addition to this design and demonstration effort, DARPA is 
supporting eight programs to provide supporting technologies:

        <bullet> The Unmanned Ground Combat Vehicle program, to provide 
        increased mobility, access and flexibility for ground combat 
        units;
        <bullet> The Perception for Off-Road Robotics program, which 
        will solve problems in autonomous ground vehicle mobility;
        <bullet> The Organic Air Vehicle program to provide small 
        ground combat units with their own air vehicle for close-in 
        surveillance, reconnaissance and targeting;
        <bullet> The A160 program, developing a long-endurance, high-
        altitude rotorcraft for wide-area reconnaissance and 
        surveillance and for use as a communications relay;
        <bullet> The JIGSAW program, using laser imaging to facilitate 
        the identification of targets hidden under foliage;
        <bullet> The Command and Control program, which will develop 
        the necessary architecture for a combat system such as FCS with 
        distributed capabilities;
        <bullet> The FCS Communications program, for the robust, secure 
        links between mutually supporting vehicles needed on the 
        battlefield; and
        <bullet> The NetFires program, a continuation of the Advanced 
        Fire Support System, to provide precision, vertically launched 
        missiles.

    The Unmanned Ground Combat Vehicle program is determining the 
performance benefits associated with design of ground combat vehicles 
unrestrained by the need to accommodate a crew. The resulting vehicles 
are expected to show radical improvements over their crewed 
counterparts in deployability, endurance, and obstacle negotiation. 
This program began in fiscal year 2001 and will generate seven 
preliminary unmanned vehicle system designs for payloads of 
approximately 330 pounds and 3300 pounds by year-end. These payloads 
are notionally associated with sensor missions and sensor plus weapons 
missions. In fiscal year 2002, the program will select at least four 
designs to conduct critical subsystem testing (power systems, 
suspensions, structural dynamics, and controls) in conjunction with 
design refinement in preparation for prototype fabrication, which 
should begin in the Summer of 2002.
    The Perception for Off-Road Robotics program is determining the 
extent of autonomous ground navigation that can be achieved in the 
near-term to support tactical assumptions being made for robots in FCS. 
This program is structured around unscripted field testing of multiple 
perception approaches using state-of-the-art sensors, algorithms, and 
processing capability in a wide variety of environmental conditions. 
Example multiple perception approaches include dual perspective sensing 
with a small unmanned air vehicle assisting the ground vehicle, or 
combined active and passive sensing with radar and infrared sensors. 
Some approaches also use strong adaptive learning algorithms to place 
sensor data in the context of the local terrain and simplify the 
identification of hazards. The field tests will incorporate on-the-fly 
learning by the robots and operation in coordinated teams (including 
unmanned air vehicles). This program began in fiscal year 2001 and will 
involve four competing perception system teams, each preparing two 
surrogate vehicles for autonomous mobility and perception testing in 
fiscal year 2002. In fiscal year 2002, three of these approaches to 
participate in field testing in forest, desert, mountainous, and 
outdoor urban terrain under both day and night conditions. These tests 
will be used to refine the algorithms and assess the performance (and 
potential performance) of each approach under these widely varying 
conditions. The results will provide validated data for FCS simulation 
models.
    The purpose of the Organic Air Vehicle (OAV) program is to provide 
ground combat units, including Future Combat Systems units, with a 
capability to detect adversary troops concealed in forests or behind 
buildings or hills--anywhere that U.S. forces do not have a direct 
line-of-sight to the hostile force. Today the military must send out 
human scouts to locate and identify enemy troops, a slow and dangerous 
process. The air vehicle will be small, lightweight, and inexpensive 
enough to be carried, launched, and operated by lower-echelon ground 
units. The goal is that the OAV design be less than one foot in any 
dimension, weigh less than two kilograms, and cost approximately $1,000 
each in quantities of 100,000 or more (cost for the air vehicle without 
payloads). The air vehicle will carry a variety of sensors, such as 
LIDAR, infrared, or electro-optic devices to detect vehicles or 
individual soldiers. Initial testing of an OAV candidate, the Lift 
Augmented Ducted Fan vehicle, was completed satisfactorily last year. 
In fiscal year 2001, we will conduct flight tests of promising vehicles 
and develop flight control software. The program will finalize 
integration of complete, scalable vehicles and sensor packages in 
fiscal year 2003.
    The Hummingbird A160 program is developing a revolutionary 
advancement in the capabilities of helicopters. The program began in 
1998 to satisfy a military need of the Army and the Marine Corps for an 
affordable, vertical take-off and landing unmanned air vehicle with a 
long ferry-range (greater than 2,500 nautical miles) and high-endurance 
(greater than 24 to 48 hours) capability with substantial payloads. The 
A160 is also being developed as a sensor and communications platform 
for U.S. Special Operations Command and the DARPA/Army Future Combat 
Systems program. Automated flight controls and an automated ground 
station will allow operation of the aircraft with minimal operator 
training. The flight control system and ground station were 
demonstrated successfully last year with a surrogate unmanned 
helicopter. The rotor system was also demonstrated on a ground-based 
rotor test stand in the past year, and the first A160 air vehicle is 
expected to begin flight-testing this year. In fiscal year 2002 and 
2003, the A160 program will integrate and demonstrate several 
surveillance payloads.
    The Jigsaw program is developing LADAR sensors to enable combat 
identification by humans. Unlike video data, LADAR sensors will provide 
three-dimensional information that can penetrate holes in foliage and 
assemble information from multiple viewpoints as the sensor moves 
around the potential target. This program, which started in fiscal year 
2001, is collecting experimental data mimicking FCS environments and is 
developing software to perform the assembly and visualization of three-
dimensional information. In fiscal year 2002, the program will build 
prototype LADAR sensors with integrated software to perform experiments 
in realistic scenarios.
    The objective of the FCS Command and Control program is to develop 
an integrated command and control system for the Future Combat System 
Unit Cell that enables two to six people to command all organic assets, 
both manned and unmanned, in combat. Since the proposed area of 
influence, operational reach, and lethality of the cell's organic 
assets are comparable to that of a current operational battalion, this 
program is attempting to reduce the command and control staff by a 
factor of 10. The current battle command approach is stovepiped in 
nature and is not integrated. The operational constructs of FCS dictate 
the need for a responsive, integrated command and control system to 
support this new approach to distributed networked battle. The program 
began in October 2000, and has mapped information flows, tasks, 
operational constructs and technical build requirements for the 
integrated command and control architecture. This year, the program 
continues research in integrated battle command and modeling and 
conducts an initial pilot test simulation of a unit cell in combat. We 
begin a series of four experiments in integrated battle command in 
October 2001, with the final experiment planned for April 2003.
    The objective of the FCS Communications program is to create a 
real-time, mobile, ad hoc network capable of operating with the 
extremely low probability of detection and robustness to jamming 
necessary for positive robotic and fire control requirements. In fiscal 
year 2001, the program selected contractors to develop critical 
enabling technologies: high band technology for dynamically exploiting 
millimeter-wave frequencies; low bandwidth (e.g., future Joint Tactical 
Radio System) technology for dynamically exploiting complex radio 
frequency environments; mobile ad hoc network technology for smoothly 
blending the high bandwidth and low bandwidth technologies into an 
assured single network; and network modeling and simulation. In fiscal 
year 2002, the program will down-select to a single team for system 
integration and demonstration.
    The Future Combat Systems and the U.S. Marine Corps' concept for 
Operational Maneuver from the Sea both envision the use of forces 
rapidly deployed by air and sea that need to be able to call upon 
precision, responsive firepower guided by beyond-the-horizon targeting. 
The NetFires program is developing a family of small, container-
launched missiles to provide massive, responsive, precision firepower 
early in a conflict and is a key element supporting beyond-line-of-
sight engagements for the DARPA/Army Future Combat Systems program. 
NetFires is designed for low logistics burden and low life-cycle cost: 
a single C-130 could deliver a shipping container with 150 NetFires 
missiles capable of engaging 150 separate targets up to 200 kilometers 
away. The system is shipped in its launching container, requires no 
additional launch support equipment, and can be fired remotely from 
trucks, HMMWVs, or a variety of other platforms. NetFires' rounds are 
ready to fire immediately, resulting in a much higher potential rate of 
fire than is possible with current howitzers or missile launchers. Last 
year, the program tested both a variable thrust motor, a key enabling 
technology, and a launcher. This year we are continuing to verify the 
operation of the variable thrust motor, having successfully 
demonstrated maximum-flight-duration motor burn-times. Both missile 
contractors have successfully conducted their first boost test vehicle 
launches, and we are conducting seeker captive flight tests and 
extensive wind tunnel tests; air drop tests of the loitering attack 
missile will take place this summer. Initial unguided air vehicle 
flight-testing begins this year, and extensive, fully integrated 
missile flight-testing will be conducted in fiscal year 2002 and 2003.
    One key to developing intelligent, autonomous, unmanned platforms 
is advanced software. The Software for Distributed Robotics (SDR) 
program is developing robot software technologies to allow a single 
soldier to interact naturally with and intuitively control a large 
swarm of very small micro-robots performing a collective task. In 
fiscal year 2000, SDR demonstrated statistically grounded, 
probabilistic control algorithms suitable for directing the actions of 
a dozen micro-robots. In fiscal year 2001, the program is demonstrating 
the ability of a single soldier to control the behavior of a swarm of 
100 simulated micro-robots. In fiscal year 2002, SDR will demonstrate 
these ensemble behaviors on a swarm of 100 physical micro-robots and 
will transfer the software to physical robot platforms.
    Space Operations
    The Orbital Express program is designed to create a revolution in 
space operations. It will demonstrate the feasibility of refueling, 
upgrading, and extending the life of on-orbit spacecraft. Automated 
spacecraft will perform all of this space work, lowering the cost of 
doing business in space and providing radical new capabilities for 
military spacecraft such as high maneuverability, autonomous orbital 
operations, and satellites that can be reconfigured as missions change 
or as technology advances. Giving military satellites the capability to 
maneuver on-orbit would provide them with dramatic advantages: they 
would be able to evade attacking spacecraft and could escape 
observation by making their orbits less predictable to adversaries. 
Last year, the program selected multiple contractor teams to recommend 
the optimum architecture for an on-orbit servicing infrastructure. The 
teams reported to DARPA on the space missions they determined would 
benefit the most from being serviced, e.g., surveillance satellites 
that could be maneuvered to coordinate overhead coverage with air 
strikes to provide timely battle damage assessment if they could be 
refueled, or space based radars that could be upgraded with faster 
processors instead of waiting for new satellites to be launched. In 
fiscal year 2001, the teams are designing a pair of spacecraft for an 
on-orbit demonstration of the enabling technologies needed to make on-
orbit servicing feasible--autonomous guidance, navigation, and control 
software to control satellite rendezvous and proximity operations, 
sensors to measure and match relative satellite motions, wide capture-
range grapple and soft docking mechanisms, and open satellite bus 
architectures that can accept plug-in upgrade components. The program 
will select one team to build components necessary for the on-orbit 
demonstration and continue development of key technologies. Fabrication 
and ground-test of the two space vehicles will continue through fiscal 
year 2004, with launch of the space experiment anticipated for late 
2004.
    The Coherent Communications, Imaging and Targeting (CCIT) program 
could lead to more efficient systems for tracking satellites and 
transmitting communications to them from mobile platforms. Current 
systems, which use adaptive optics (flexible mirrors whose surface can 
be changed to compensate for atmospheric aberrations or distortions), 
are too heavy to use in mobile platforms. The CCIT program will 
demonstrate aberration-free communications, imaging, and tracking using 
the coherent properties of laser light and aberration correction 
devices that employ micro-electromechanical (MEMS) technology. Fiscal 
year 2001 is the first year of the program, and we are designing and 
modeling the CCIT system and developing aberration correction. The 
program is developing three device types, and we will assemble the most 
promising into a laboratory CCIT system in fiscal year 2002. All three 
Military Services are potential customers as CCIT provides capabilities 
for secure communications.
    Maritime Operations
    The goal of the Robust Passive Sonar (RPS) program is to 
significantly increase the performance of tactical towed sonar systems 
by canceling out surface shipping noise, the primary cause of 
interference. The RPS program accomplishes this cancellation by 
innovative and optimal processing techniques coupled with multi-
dimensional receive arrays and other external information. The expected 
net system performance gain is 10 to 20 decibels, and the system is 
expected to dictate future array and acoustic sensor field designs. 
Last year, the program began development of the space-time processing 
algorithms to reject interference. In fiscal year 2001, the program is 
beginning development of a processing system that will integrate the 
various algorithms and is also planning an initial data collection 
exercise. In fiscal year 2002, the program will conduct data collection 
exercises with the Navy and carry out a preliminary performance 
assessment of the integrated system.
    The Submarine Payloads and Sensors Program was a joint DARPA/Navy 
program to investigate missions for attack submarines in the future, 
the payloads and sensors needed to conduct these missions, and the 
impact of these changes on the overall submarine design. Two consortia, 
formed in 1999, provided final reports to DARPA and Navy last year, and 
program management of this effort has transferred to the Navy this 
year. Concepts generated under the study will enable the Navy to 
investigate new payload and sensor technologies for its Virginia class 
submarines. In fiscal year 2002, DARPA is evaluating the results of the 
study in consideration of other DARPA investments in maritime 
technologies. Several innovative technologies in underwater propulsion 
concepts, underwater littoral warfare concepts and antisubmarine 
research can be combined to enable new warfighting capabilities. One 
such idea is a very fast, highly agile underwater fighting vehicle 
employing vortex combustor technology for propulsion and advanced 
sensor technologies for targeting surface ships and submarines in the 
littoral regions.
    The Buoyant Cable Array Antenna (BCAA) program is developing a 
submarine phased array antenna in a towed buoyant cable format, which 
will provide high bandwidth, full duplex communication capabilities 
while a submarine is operating at speed and at depth. Over the next 
decade, increased emphasis on joint littoral operations, network 
centric operations, and advanced threat sensor systems will overwhelm 
the submarine's operational connectivity. In fiscal year 2000, the 
program developed and tested antenna and transmit algorithms in 
controlled environments, i.e., laboratory and in-water conditions. In 
fiscal year 2001, DARPA is conducting open-ocean testing of the antenna 
system to demonstrate critical performance milestones. Fiscal year 
2002, the integrated system will be fabricated, deployed from both a 
surface ship and a submarine, and tested at sea to demonstrate high 
bandwidth connectivity from a submarine.
    The Friction Drag Reduction (FDR) technology program is developing 
a multi-scale modeling capability for turbulent flow to allow ship 
designers to decrease friction drag by at least 30 percent with a 
commensurate increase in endurance and/or payload fraction and possibly 
significantly increasing speed. Using recent advances in computational 
technology, FDR will examine whether injecting polymers and 
microbubbles will achieve these goals. In fiscal year 2001, DARPA is 
modeling different drag-reduction mechanisms. In fiscal year 2002, 
DARPA will continue modeling activities, and begin system optimization 
and design of near full-scale laboratory experiments.
    Ground Operations
    The Antipersonnel Landmine Alternatives (APLA) program is focused 
on long-term alternatives to antipersonnel landmines that would prevent 
adversaries from maneuvering at-will. The Self-Healing Minefield is 
developing an antitank minefield that completely eliminates the need 
for antipersonnel landmines. The military uses antipersonnel landmines 
within an antitank minefield to prevent dismounted soldiers from 
finding and disabling the antitank mines. In the Self-Healing 
Minefield, no antipersonnel landmines are used. Instead, antitank mines 
detect a breach attempt via mine-to-mine communication and the 
minefield responds by self-repositioning a fraction of the mines 
remaining in the minefield to fill in the breach. In fiscal year 2000, 
the program began designing and testing three concepts for the antitank 
mine mobility system and communication system, investigated behavioral 
responses to breaching, and completed preliminary field-testing of a 
liquid fuel-based hopping mobility system. During fiscal year 2001, the 
program is testing and refining the three system concepts, culminating 
with the construction of at least 10 prototype inert mines for each 
concept. During fiscal year 2002, the program will complete final 
testing of the first generation prototype mines at Fort Leonard Wood, 
MO.
    The Reconnaissance, Surveillance and Targeting Vehicle (RST-V) 
program will develop, demonstrate and transition to the Services four 
hybrid-electric drive, lightweight, highly maneuverable advanced 
technology demonstrator vehicles that can be transported inside a V-22. 
The RST-V's compact, V-22 airlift-requirements-driven design also makes 
it attractive for transport in a wide variety of aircraft, including 
the CH-47 and CH-53 helicopters and the C-17 and C-130 fixed-wing 
aircraft. The vehicle will incorporate advanced integrated 
survivability techniques and an advanced suspension. It will carry 
integrated precision geolocation, communication and reconnaissance, 
surveillance and targeting sensor subsystems. The RST-V platform will 
provide small-unit tactical reconnaissance teams, fire support 
coordinators, and special reconnaissance forces with quick deployment 
and deep insertion of a multi-sensor vehicle to provide battlespace 
awareness. Last year, the first two vehicles rolled out and the program 
demonstrated the ability to transmit digital video and to operate using 
battery-only mode, diesel-engine-only mode, and diesel-electric hybrid 
mode. In fiscal year 2001, the program is participating in the U.S. 
Navy Extending the Littoral Battlespace Advanced Concept Technology 
Demonstration and U.S. Marine Corps Capable Warrior Advanced 
Warfighting Experiment to demonstrate the silent watch/silent movement 
capability of a hybrid-electric vehicle. During the experiment, Force 
Reconnaissance Marines will conduct a reconnaissance, surveillance, and 
targeting mission using the RST-V's integrated command, control, 
communications, computer, and intelligence/reconnaissance, 
surveillance, target acquisition communication and sensor suite 
digitally linked into the Extending the Littoral Battlespace wide-area 
network architecture. The third and fourth vehicles will also be rolled 
out this year. During fiscal year 2002, the vehicles will undergo 
survivability, automotive, and active suspension performance testing.
    The Optical Tags program is investigating optical technologies and 
innovative design and fabrication techniques for covert, kilometer-
range, optical tags systems for downed pilot extraction, covert 
tracking, and precision targeting. Specific applications will be 
selected based on their operational significance and user input, and 
then demonstrated in meaningful warfighter experiments. During fiscal 
year 2001, applique-based tags are being fabricated and demonstrated at 
kilometer ranges. A live technical demonstration for early-entry and 
special operation forces is planned for late-Summer 2001, when we will 
demonstrate specific vehicle identification within a convoy, individual 
soldier identification and location marking applications. During fiscal 
year 2002, the program will begin investigating precision strike 
applications and conduct engineering tests of improved tags in a more 
stressing, operationally realistic situation.
    The Tactical Sensors program is developing the architecture, 
sensors, and other technologies to incorporate unattended ground 
sensors into the suite of tools useful to the warfighter for detecting 
and classifying time critical targets. The system will consist of 
miniature, low-power internetted unattended ground sensors, deployed in 
clusters and fused with longer-range space and airborne systems. In 
fiscal year 2001, the emphasis is on quantifying system performance, 
developing target classification algorithms, and initiating planning 
tools. In fiscal year 2002, the program will finalize the system design 
and build a number of systems for demonstration and validation in the 
field.
    Air Operations
    The Small Scale Propulsion Systems program is developing a new 
class of propulsion systems that will be smaller than any existing 
engines, i.e., less than seven centimeters diameter and generating 
thrusts of less than 10 kilograms. The new engines will enable 
development of very small missiles to use against small targets, small 
unmanned vehicles for close-in surveillance, and new space-launch 
vehicles. Engines being developed include a shirt-button-sized turbo-
jet engine, a rocket engine only 12 millimeters wide by five 
millimeters thick, an efficient and high-thrust seven-centimeter 
diameter turbo-jet, and a pulse detonation engine. During fiscal year 
2000, the program began detailed design of the engines. During fiscal 
year 2001, the program is completing detailed designs, finishing the 
fabrication of the button-sized turbo-jet engine, and testing the pulse 
detonation engine prototype and the turbo-pumps for the 12-millimeter 
rocket. The program will finish fabrication and testing in fiscal year 
2002.
    The performance of any system that travels through air or water is 
dominated by the ability to control the flow over its surfaces. To-date 
we have been limited to passive control methods such as surface 
shaping. Recent advances in very small-scale actuators are being used 
in the Micro-Adaptive Flow Control (MAFC) program to enable active 
control of flows using a variety of very small-scale actuators. The 
MAFC program combines adaptive control, distributed sensor arrays, and 
advanced miniature actuators to provide a closed-loop control system 
for a particular application. The program is beginning to demonstrate 
revolutionary performance improvements for aerospace and marine 
applications. Performance improvements as large as 30 percent have been 
achieved, with momentum inputs 10 to 50 times smaller than those used 
in conventional systems. MAFC technologies are being explored for a 
wide range of applications, including: adaptive lift-on-demand for 
agile weapons and uninhabited aircraft; lightweight gas-turbine 
engines; control of cargo aircraft jet engine exhaust on the ground for 
safe loading operations; and steering projectiles for extended range 
and precision. In addition, MAFC technologies hold promise for improved 
payload capacity for rotorcraft, enhanced aircraft maneuverability, 
extended vehicle range, and decreased fuel burn at lower total system 
cost. The applications are guided by system-level performance benefits 
and cost assessments. In fiscal year 2001, several promising control 
devices are testing protocols and demonstrating open-loop flow control. 
We tested a prototype full-scale flow control system on a C-17 engine 
and established that it would not adversely affect engine performance. 
An active hover download alleviation system for the V-22 performed 
better than expected at one-tenth scale, with a 20 percent increase in 
overall vehicle lifting capacity; testing will progress to one-quarter 
scale in fiscal year 2002. The program will demonstrate fully 
integrated MAFC subsystems in fiscal year 2002 and fiscal year 2003.
     developing and exploiting high-risk, high-payoff technologies
    DARPA continues its traditional investments in information 
technology, microsystems technologies, advanced materials, and micro-
electromechanical systems (MEMS). It is the results of these 
investments that allow us to build the systems and capabilities for 
operational dominance of the future. In an exciting new initiative, 
BioFutures, we have begun to invest in programs that lie at the 
intersection of biology, information technology, and the physical 
sciences, having realized that the biological sciences, when coupled 
with DARPA's traditional strengths in materials, information, and 
microelectronics, could provide powerful approaches for addressing many 
of the most difficult challenges facing DOD in the next 15 to 20 years. 
In the Beyond Silicon Complementary Metal Oxide Semiconductors (CMOS) 
thrust, we are pursuing a radically different approach to the 
fabrication of logic and memories, enabling enormous gains in 
computational power in smaller and smaller devices.
Information Technologies
    DARPA's investments in information technologies will provide 
information superiority to the U.S. military through revolutionary 
advances in:

        <bullet> Design methodologies for embedded and autonomous 
        systems software;
        <bullet> High performance computing components;
        <bullet> Networking;
        <bullet> Seamless computer interfaces for the warfighter;
        <bullet> Ubiquitous computing and communication resources; and
        <bullet> Agent-based systems.

    Information technologies such as computing and networking have come 
a long way, but their future remains unlimited. New technologies offer 
great promise, e.g., wireless and power- and energy-aware computing 
devices, embedded computers (that is, computers interacting in real-
time with networks of sensors and actuators), wideband optical 
networks, MEMS, quantum devices, cognitive neurophysiology, and 
computational biology and bio-informatics. However, these new 
technologies also require additional development if DOD's future 
computing systems are to be able to take full advantage of them.
    Embedded and Autonomous Systems Software
    As computers are increasingly embedded in the real world with 
networks of actuators and sensors interacting with physical devices in 
real-time, it is important to design middleware for connecting the 
computing intelligence to the physical system. Advanced weapon systems 
are increasingly becoming totally dependent on the efficacy of their 
embedded computing systems. Consequently, as we endeavor to improve the 
functionality of military systems, either for reasons of greater 
autonomy or higher performance requirements for the warfighter, we must 
develop methodologies, tools, and technologies for embedded software 
that are:

        <bullet> Verified and validated by design so as to reduce the 
        need for extensive testing;
        <bullet> Reasonably well separated from the underlying 
        computing platform to enable their upgrade as new processors 
        become available; and
        <bullet> Composable so as to allow for the addition of new 
        functionality without extensive rewriting of the legacy code.

    As DOD systems increasingly transition from platform-centric to 
network-centric weapons systems, developing a new generation of 
technologies that can greatly enhance the adaptivity, assurance, and 
affordability of embedded software is essential for U.S. national 
security. To address this need, the Program Composition for Embedded 
Systems (PCES) program is creating new technology for programming 
embedded systems that will substantially reduce development and 
validation effort and improve the flexibility and confidence of the 
resulting software. The technology produced by the PCES program in 
fiscal year 2000 has been used to refactor complex monolithic operating 
systems into modular components that can be reassembled rapidly to 
build custom embedded control systems. In fiscal year 2001, the program 
is developing and applying static analysis techniques for real-time 
embedded systems' properties and demonstrating these techniques to 
enhance the performance and robustness of operational avionics mission 
computing systems. In fiscal year 2002, the PCES program will develop 
and apply intermediate representations and mechanisms for code 
composition and transformation that will synthesize adaptive software 
to control and enhance the quality of service properties of data-
streaming missions performed by advanced unmanned air vehicles.
    The Mobile Code Software program develops software technology to 
resolve time-critical constraints in logistics and mission-planning, 
including integrated maintenance and mission planning to support the 
operation of Marine Attack Squadrons, real-time mission planning and 
dynamic replanning experiments for unmanned combat air vehicle 
operation, and adaptive scan-scheduling for electronic warfare 
platforms. Demonstrations of Mobile Code Software in real-time, 
distributed, resource management of radar sensors for tracking moving 
objects showed that negotiation-based approaches can meet the time 
requirements of electronic warfare applications. The Mobile Code 
Software program solves the resource management problem through the 
interaction of lightweight, mobile software components. We use a 
bottom-up organization approach and negotiation as techniques for 
resolving ambiguities and conflicts to get logistics and mission-
planning solutions that are both ``good enough,'' and ``soon enough.'' 
In fiscal year 2000, Mobile Code Software successfully demonstrated 
real-time negotiation technology in mission planning with users at 
Marine Aircraft Group 13, Yuma, AZ. In fiscal year 2001, the program is 
scaling-up the technology to demonstrate integrated mission planning 
and maintenance planning using real-time negotiation. In fiscal year 
2002, Mobile Code Software will demonstrate rapid, dynamic, 
negotiation-based re-planning in highly decentralized environments and 
in electronic warfare applications.
    The Mobile Autonomous Robot Software (MARS) program is developing 
software technologies that can enable machine-learning strategies to 
automatically generate sophisticated robot behaviors such as autonomous 
navigation and real-time obstacle avoidance. These sensor-mediated 
behaviors will reduce the requirement for remote operator control for 
robots employed in tactically realistic environments including complex, 
dynamic environments such as urban combat battlespaces. In fiscal year 
2000, MARS demonstrated a suite of off-line learning technologies that 
can rapidly generate desired robot behaviors with minimal hand coding 
of the control software. In fiscal year 2001, the program is 
demonstrating on-line learning techniques that can automatically 
generate desirable, adaptive behaviors without human intervention. The 
ultimate goal is to allow the warfighter to task a robot in the same 
terms as he or she might task a human. In fiscal year 2002, MARS will 
demonstrate a trainable, perception-based autonomous indoor navigation 
capability.
    The goal of the Software-Enabled Control (SEC) program is to 
leverage increased processor and memory capacity to achieve higher 
performance and more reliable software control systems for mission 
system platforms. Military applications include integrated avionics 
design and vehicle control for high-performance unmanned air vehicles 
(UAVs) and unmanned combat air vehicles (UCAVs), as well as upgrade 
potential for existing airframes such as the F-15E, F-18, and AV-8B. 
This research will yield control technology that is robust enough to 
withstand extreme environments and to enable highly autonomous, 
cooperating mission systems. In fiscal year 2000, the SEC program 
designed an open software architecture for hybrid discrete and 
continuous control that supports better integration of control mode 
logic with continuous control laws, including synchronized switching 
and new software scheduling mechanisms. In fiscal year 2001, a 
prototype implementation of the hybrid multi-mode control software is 
being completed for single-vehicle uses, including predictive modeling 
of environmental effects (e.g., wind gusts, turbulence) and safely 
controlling mode transitions under such effects. This technology will 
provide enhanced maneuverability/evasive capability for UAV/UCAV 
systems and enhanced robustness under extreme conditions for piloted 
systems, increasing the warfighter's survivability and decreasing his 
workload. Multi-modal control technology will provide better-controlled 
transitions between complex operational flight modes (inherent in 
vertical takeoff and landing UAVs and high performance/transonic manned 
aircraft), thereby reducing safety risks to the warfighter and vehicle. 
In fiscal year 2002, the program will develop adaptive hybrid control 
services to ensure stable operation and extend the control software 
design to support highly coordinated control of multiple platforms. 
Coordinated multi-modal control technology will simplify the task of 
controlling groups of unmanned vehicles, increasing the capacity of a 
single warfighter to safely control large numbers of air and ground 
vehicles. This technology will directly support management of authority 
within groups, supporting the ultimate goal of enabling safe combined 
manned and unmanned operations.
    From avionics systems to smart weapons, embedded information 
processing is the primary source for superiority in weapon systems. The 
new wave of inexpensive MEMS-based sensors and actuators and the 
continued progress in computing and communication technology will 
further accelerate this trend. Weapon systems will become increasingly 
``information rich,'' where embedded monitoring, control and diagnostic 
functions penetrate deeper and with smaller granularity in physical 
component structures. Virtually all new and planned weapon systems 
illustrate this trend: proposed future functionally integrated but 
physically distributed ``open flat avionics architectures,'' inherently 
distributed architectures for National Missile Defense and Future 
Combat Systems, mission control software architecture for UCAV, and 
many others. These systems all require solutions that the Networked 
Embedded and Autonomous Software Technology (NEST) program is 
developing: application-independent, customizable, and adaptable 
services for the real-time ``fine-grain'' distributed control of 
physical systems. The quantitative target is to build MEMS-based, 
dependable, real-time, embedded applications comprising 100 to 100,000 
computing nodes. In fiscal year 2001, NEST is designing Open 
Experimental Platforms (including a ``smart structure'' and a 
distributed vehicle application), challenge problems, and NEST 
integration frameworks. The smart structure application provides 
active, acoustical/structural mode damping and adaptive damage 
identification in payload fairings. The distributed vehicle application 
implements closed-loop coordination among large number of sensors and 
micro-vehicles in pursuer-evader simulations. In fiscal year 2002, the 
program will demonstrate the scalability and fault resilience of basic 
coordination service components in 100-node, simple network embedded 
software technology applications using lightweight, wireless 
communication networks.
    High Performance Computing
    DARPA's investments in information technology are also providing 
technology and tools to design high performance computing components 
that are adaptable (i.e., the computer hardware can be modified by its 
own software), with processors embedded close to the memory to prevent 
data starvation and allow power- and energy-aware computing.
    Many defense applications such as dynamic, sensor-based processing, 
battlefield data-processing integration, and high-speed cryptographic 
analysis are data-starved--that is, the processor is so fast that it 
has to wait for memory to be accessed from random access memory between 
operations, thus slowing down the computation. Prior analysis showed 
that memory access was growing at the rate of 7 percent annually, while 
Moore's Law predicted the doubling of processor speed every 18 months. 
This program is aimed at reducing this imbalance.
    The Data Intensive Systems program is developing innovative data 
access techniques to solve this problem and enable new military 
capabilities. For example, if the processing portions of the computer 
architecture are physically closer to the memory location, data can be 
retrieved more quickly. In fiscal year 2000, the program designed and 
simulated intelligent memory controllers, adaptive caches, and memory 
systems. In fiscal year 2001, we are completing the concept development 
and testing of the early prototypes and demonstrating a 16-fold 
improvement in the speed at which memory is made available to the 
processor for data intensive applications.
    Energy and power management has now become a critical factor for 
future embedded and large scientific computing applications. The Power 
Aware Computing/Communication program is developing an integrated 
software/hardware power management technology suite comprised of novel 
techniques that may be applied at all levels of a system--from the chip 
to the full system. This will enable embedded computing systems to 
reduce energy requirements by a hundred- to a thousand-fold in military 
applications ranging from hand-held computing devices to unmanned air 
vehicles. In fiscal year 2000, we began power aware computing and 
communications research, metrics, and mission scenarios. In fiscal year 
2001, the program is evaluating and prioritizing individual power aware 
technologies for components, micro-architectures, compilers, operating 
systems, and algorithms. In fiscal year 2002, power management 
technologies will be demonstrated showing a potential 10-fold power/
energy savings for multiple candidate DOD platforms and missions, 
including Land Warrior Dismounted Soldier, distributed sensors, and 
unmanned combat air vehicles.
    Networking
    DOD applications are highly bandwidth-intensive, and their 
demanding requirements cannot be met by the commercially developed 
networking technologies that are optimized for web browsing and low 
data-rate data streaming. The Next Generation Internet program, ending 
this year, has developed the key technologies, both in hardware and 
software, to enable access to extremely high bandwidth. The program has 
deployed a national-scale SuperNet test bed that ties together several 
dozen sites at multi-gigabit rates. A number of high-speed, end-to-end 
networking records were established during our experimentation. These 
early experiments also revealed the vulnerability of existing 
networking protocols to bandwidth-intensive flows, and have stimulated 
a number of efforts to streamline the networking protocol. This year, 
the new protocols that enable high-speed access at 40 gigabits per 
second are being integrated into network interface cards and tested 
along with all-optical burst switches.
    The Gigabyte Applications program is developing technologies for a 
highly robust, high-speed networking infrastructure in a heterogeneous 
environment. By extending high-bandwidth capability to wireless links, 
it will be possible to deploy high-speed networks with many hundreds-
of-megabit- to gigabit-per-second capacity in remote tactical locations 
with no pre-existing fiber infrastructure. Such links will also enable 
high-speed reach back to a command post or to the U.S. This can be 
contrasted to approximately 20 megabits per second connectivity made 
available to a handful of U.S. installations during the Bosnia 
conflict--a speed totally inadequate for distributing sensor output, 
maps, high-resolution imagery and other intelligence data in real-time. 
The program is also developing key DOD applications that take advantage 
of a robust capability to stream gigabytes to terabytes of real-time 
data. In fiscal year 2001, the program is testing multi-antenna 
wireless networking technology that has the potential for gigabit end-
to-end radio frequency connectivity. In fiscal year 2002, the program 
will demonstrate the sparseband sensor processing technology, where 
multiple gigabit per second streams from radars operating in different 
bands or locations are networked and coherently processed to 
dramatically enhance the sensitivity and resolution that could be 
attained from independent sensors.
    Seamless Computer Interfaces
    The Translingual Information Detection, Extraction, and 
Summarization (TIDES) program is creating technology to enable English 
speakers to locate and use network-accessible information in multiple 
languages without requiring knowledge of those languages. Last year 
TIDES started developing key component technologies and cooperated with 
Third Fleet in a field experiment called Strong Angel that applied 
early versions of the technologies to humanitarian assistance and 
disaster relief operations in a mock exercise in Hawaii. In fiscal year 
2001, TIDES is making the technologies more robust and using them in a 
more ambitious experiment called Integrated Fleet Experiment-Bio (IFE-
Bio), aimed at global infectious disease monitoring, that will be 
conducted in Bedford, MA, and San Diego, CA. In fiscal year 2002, the 
program will add cross-document, cross-language summarization and 
translation capabilities and will conduct experiments in additional 
languages of defense interest, including Chinese and Arabic.
    Ubiquitous Computing
    Miniaturized, low cost sensors will become more capable and 
pervasive in future military systems to detect ground-moving targets 
and biological and chemical warfare agents, and for military operations 
in urban terrain. To fully utilize these sensor capabilities, we must 
develop software that can create an ad-hoc network of deployed sensor 
devices, and process information collected by the sensors for 
reconnaissance, surveillance, and tactical uses for the warfighter. The 
Information Technology for Sensor Networks (SensIT) program is 
producing software that enables flexible and powerful sensing 
capabilities for networked micro-sensors. During fiscal year 2000, the 
program developed new algorithms for ad hoc sensor networks, and 
methods for cooperative sensing. The initial version of the SensIT 
software with dynamic programming ability was demonstrated at the U.S. 
Marine Corps base at Twentynine Palms, CA, where extensive data from 
acoustic, seismic, infrared and other sensors was collected to develop 
micro-sensor network methods for detecting, classifying, and tracking 
ground moving targets and communicating this data to (and receive 
tasking instructions from) a remote site. In fiscal year 2001, the 
program is developing an integrated software suite and conducting field 
demonstrations, also at Twentynine Palms, CA. This demonstration will 
include inter-networking of ground sensors with sensors on mobile 
platforms such as unmanned air vehicles, predicting target movements, 
imaging the targets and relaying the image data to a command center for 
confirmation. In fiscal year 2002, the program plans a field 
demonstration and two joint experiments with the Marine Corps. These 
demonstrations will feature fully integrated software that highlights 
the new operational capabilities of low-latency networks of 
programmable, multi-modal micro-sensors for rapid tracking of ground 
moving targets and for detecting and classifying of threats in urban 
environments.
    A grand challenge for information technology is bridging the gap 
between the physical and digital worlds. Computers should disappear 
into the background while information becomes ubiquitous. The 
Ubiquitous Computing program focuses on developing the underlying 
technologies to provide accessible, understandable, relevant 
information to mobile users, based on an understanding of the user's 
tasks and informational needs, to provide the user with greater and 
more timely situational awareness--thereby increasing his 
survivability, lethality, and effectiveness. In fiscal year 2000, the 
Ubiquitous Computing program delivered several products, including: a 
small foot-print operating system, TinyOS, that enables self-
organization of small computing devices, such as those in the SensIT 
distributed sensor network vehicle tracking demonstration; an initial, 
component-based architecture to provide seamless computing support to 
mobile ground troops, enabling them to have access to digital 
information needed for their tasks; and an architecture to support 
secure, mobile access to ``persistent data,'' i.e., data that must be 
stored and accessed for some period of time, such as logistics and 
casualty information. In fiscal year 2001, the program is developing 
software components to support nomadic data access and representations 
for task-level computing.
    Agent-Based Systems
    The DARPA Agent Markup Language (DAML) program is creating 
technologies that enable software agents to identify, communicate with, 
and understand other software agents dynamically in a web-enabled 
environment. Agents, which are software programs that run without 
direct human control or constant supervision to accomplish goals 
specified by the user, can be used to collect, filter and process 
information--a crucial need of command, control, intelligence, 
surveillance, and reconnaissance applications. DAML is developing an 
extended XML markup language that ties the information on a page to 
machine-readable semantics, thus creating an environment where software 
agents can function. This effort will provide new technologies for 
operational users by integrating information across a wide variety of 
heterogeneous military sources and systems as the technologies are 
deployed in both command and control and intelligence applications. 
Last year, in the first year of the program, DAML developed the first 
working draft of the software language and coordinated it with the 
World Wide Web Consortium. In fiscal year 2001, the program is 
releasing working versions of Briefing Tools, Search Tools, and 
Ontology Creation Tools, and is defining and testing a toolset for 
military applications of DAML technologies. In fiscal year 2002, the 
program will deploy the DAML Search tool on an operational Intelink 
node and prototype selected DAML tools to enhance search and retrieval 
tools at the Center for Army Lessons Learned and other military and 
civilian venues.
    Information superiority in the modern battlefield requires that the 
military be able to rapidly assemble a set of disparate information 
systems into a coherently interoperating whole. This must be done 
without system redesign and may include interoperation with non-DOD 
governmental systems, systems separately designed by coalition 
partners, or commercial-off-the-shelf and open-source systems not built 
to a pre-existing government standard. The Control of Agent Based 
Systems (CoABS) program is building on the technology of run-time 
interoperability of heterogeneous systems to develop new tools for 
facilitating rapid system integration. Last year, CoABS developed and 
demonstrated a flexible information infrastructure and an 
interoperability tool called the Agent Grid, which supports the dynamic 
deployment of complex applications for military command and control. 
The Agent Grid was demonstrated to the U.S. Army Communications-
Electronics Command Research, Development and Engineering Center 
(CECOM), Fort Monmouth, NJ, and to the Air Force Research Laboratory 
(AFRL), Rome, NY. CECOM is now investigating the Agent Grid for use in 
their battlefield command and control systems, such as the Maneuver 
Control System, and AFRL is experimenting with the Agent Grid to solve 
interoperability issues for Air Force missions. In fiscal year 2001, 
CoABS is using agent technologies and tools in military scenarios to 
demonstrate the run-time integration and interoperability of 
heterogeneous systems in applications that address present and future 
command and control problems. In fiscal year 2002, CoABS will 
transition run-time integration capabilities to the Military Services 
by providing the command and control infrastructure for Joint Forces 
Command's Millennium Challenge `02, operating in the Army's Agile 
Commander Advanced Technology Demonstration, and facilitating new 
operational capabilities for the Air Mobility Command.
    At present, complex military problem-solving tasks are either 
performed totally by human operations officers and intelligence 
analysts, or with minimal assistance by small knowledge bases. Computer 
scientists trained in artificial intelligence technology must formulate 
these knowledge bases. The Rapid Knowledge Formulation (RKF) program is 
developing methods to conduct rapid database searches, construct 
knowledge bases, and draw inferences for key information. The RKF 
program is enabling end-users to directly enter knowledge into 
knowledge bases and to create massive knowledge bases (106 axioms) in 
less than 1 year. It will allow artificial intelligence novices to 
directly grasp the contents of a knowledge base and to compose formal 
theories without formal logic training. As a result, it will enable 
military and technical subject matter experts to encode the problem-
solving expertise required for complex tasks by directly and rapidly 
developing, extending, and expanding small knowledge bases by a factor 
of 10. Because these knowledge bases are required for analysis of 
hardened and deeply buried targets, offensive and defensive information 
operations, and weapons of mass destruction capability assessments of 
terrorist organizations, the capabilities enabled by RKF will be 
extremely useful. The RKF program began in fiscal year 2000 and 
demonstrated a language and diagram interface, analogic reasoners, and 
theory explanation capabilities; it also developed 10 to 20 core 
theories. In fiscal year 2001, RKF is demonstrating direct knowledge 
entry by a single, novice user at a rate of 2,000 axioms per month 
entered into a knowledge base that addresses malaria and orthopox 
(smallpox) biological weapon threats, vaccines and other 
countermeasures. By the end of fiscal year 2002, RKF will demonstrate 
knowledge entry of a biological warfare challenge problem at a rate of 
50,000 axioms per month from each of 25 subject-matter experts.
Microsystems Technologies
    DARPA's pursuits in microsystems technologies are driving a new 
chip-scale revolution in electronics, photonics, and micro-
electromechanical systems (MEMS) while demonstrating revolutionary 
display technologies and photonics for military information systems.
    The objective of the University Opto-Centers program is to 
establish multi-investigator university optoelectronic centers with 
programs closely coupled to photonic industry researchers to develop 
and demonstrate chip-scale optoelectronic integration technologies. The 
development of advanced, chip-scale optoelectronic modules is essential 
for future, high-performance military sensor and information processing 
systems. University-based research provides the knowledge base and the 
highly capable expertise to both innovate and support the development 
of these capabilities within industry. In fiscal year 2000, the 
University Opto-Centers established new capabilities for the design, 
fabrication and demonstration of chip-scale modules that integrate 
photonic, electronic and micro-electromechanical systems-based 
technologies. The program also established university technology 
research goals and identified methods to facilitate industry access to 
these technologies. In fiscal year 2001, the program is evaluating 
specific chip-scale integrated module designs and assessing the success 
of engaging industry commitment to the program. In fiscal year 2002, 
the program will fabricate and test individual chip-level sub-
assemblies for later use in prototype development.
    The Flexible Emissive Display program was established in fiscal 
year 1999 and is developing and demonstrating large-area, high-
resolution, flexible, emissive, rugged displays for DOD applications. 
The development of rugged, lightweight, inexpensive, flexible displays 
will be useful for aircraft, ships, land vehicles, and foot soldiers. 
In fiscal year 2000, the program conducted demonstrations in all three 
key technology areas: backplanes, emissive materials, and substrates. 
In fiscal year 2001, the program is demonstrating a low-cost, high-
speed, roll-to-roll assembly process for plastic-film liquid crystal 
displays and is demonstrating a flexible, lightweight, emissive, color, 
electroluminescent display based upon plastic material. By the end of 
this fiscal year, the program will have demonstrated emissive color 
display video capable of greater than 80 lines per inch on a flexible 
substrate.
    The primary human-machine interface remains the visual display of 
information. The DOD has a diverse range of needs for display 
technology, and today most of these needs (approximately 80 percent) 
can be met by commercial parts, while the remaining require ruggedized 
or custom design and manufacture to meet performance requirements. 
DARPA's High Definition Systems (HDS) program, ending this year, began 
13 years ago and invested over $650 million in display and related 
technologies. The HDS program has played a significant role in meeting 
today's DOD display needs. At the start of the program, cathode ray 
tube technology dominated most applications. Liquid crystal displays 
(LCDs) were just beginning to emerge as an alternative, primarily for 
power-efficient, lightweight laptop computer applications. The primary 
suppliers of these technologies were in Japan and were unwilling to 
work with DOD contractors. Today, for most of the displays important to 
the DOD, LCDs continue to dominate, but new technologies are emerging 
that include MEMS mirror arrays, light emitting diodes (LEDs), and thin 
film electro-luminescence displays. These latter types of displays are 
available from both domestic and international sources, but the 
dominant LCD suppliers are still centered in the Far East (Korea, 
Taiwan and Japan). However, the market for LCDs is highly competitive, 
presenting a robust marketplace in which DOD suppliers have ready 
access to the most advanced technologies.
    Specific HDS program successes include: MEMS-based Digital 
Micromirror Device technology, which is finding application in the 
Common Large Area Display Set for Airborne Warning and Control System, 
Joint Surveillance and Target Attack Radar System and E-2C airborne 
systems and UYQ-70 aboard ship; cholesteric liquid crystal technology 
that can maintain a static image without consuming power and is finding 
application for information management systems by the Army Military 
Police; small (one-inch) active matrix LCD for use in head-mounted 
displays being transitioned to the Army's new reconnaissance/attack 
helicopter, the RAH-66 Comanche; and low-voltage thin film electro 
luminescence displays for the forward looking infrared displays in the 
Army's Abrams M1A2 System Enhancement Program. A major investment area 
for the HDS program has been in developing flexible emissive displays, 
including organic light emitting diodes and flexible substrate 
technologies. These technologies are becoming available but face 
considerable manufacturability and long-term reliability challenges. 
However, they offer the promise of roll-up or ``window-shade'' displays 
for compact, portable command and control applications. In addition, 
the HDS program has supported, on a cost-shared basis, the U.S. Display 
Consortium (USDC). The USDC is made up of U.S. display industry 
companies and provides support for the development of display 
manufacturing equipment, processes and materials. The Consortium has 
completed more than 40 projects, including 25 that resulted in 
commercialization of new tools or materials for fabricating LCD, 
electro-luminescent or organic light emitting diodes.
    Relative to defense needs, today's truly global market for high 
definition displays and the far greater commercial applications of 
these devices has resulted in an advantageous position for the DOD. The 
DOD strategy as we go forward is to make use of the global industrial 
capability where it is available, using existing acquisition 
guidelines, with contractors buying most display components in a highly 
competitive, rapidly evolving and increasingly robust market place. In 
the future, DARPA will limit its research and development investments 
to focused specific needs where industry is not yet leading the way and 
a military advantage is foreseen.
    The Photonic Analog-to-Digital Converter Technology program will 
apply photonic technologies to improve analog-to-digital converter 
performance to achieve 12- to 14-bit resolution at sampling rates up to 
10 giga-samples per second. Sampling at these very high rates enables 
use of more complex radar waveforms and improved signal-to-noise 
performance, providing enhanced resolution and improved target imaging 
for military radar systems. The ability to directly perform analog-to-
digital conversion of multi-gigahertz signals at the source, while 
preserving their entire spectral content, will have significant impact 
on the performance of a wide range of radar, electronic warfare and 
communication systems and create new architectural possibilities for 
these systems. In fiscal year 2000, the program evaluated alternative 
designs for the optical clock, optical sampler, and electronic 
quantizer modules. In fiscal year 2001, the program is completing the 
initial photonic analog-digital converter evaluation and finalizing the 
design for the demonstration module. In fiscal year 2002, the program 
will integrate the photonic clock and sampler modules with electronic 
quantizers and complete analog-to-digital converters with at least 10 
gigasamples per second.
    Traditional approaches to electronic interconnects based on wire 
interconnection lead to information processing systems that are bulky, 
heavy, and power-hungry. The communication bandwidth and speed possible 
with these electronic interconnects is lower than that of the processor 
itself, leading to bottlenecks within the system. The Very Large Scale 
Integration (VLSI) Photonics program is developing photonics technology 
that uses optical links instead of electronic wire links for chip-to-
chip and board-to-board communications. This new technology will allow 
data transfer rates faster than a terabit per second, which is crucial 
for high-speed processing applications such as synthetic aperture radar 
and automatic target recognition. In addition, VLSI Photonics will 
enable a 100- to 1000-times reduction in power and size for these 
systems.
    The most important accomplishment in the VLSI Photonics program has 
been the demonstration of the capability to manufacture vertical-cavity 
surface-emitting lasers with yields of over 99 percent on large-area 
(three-inch) wafers. Technology for manufacturing conventional lasers 
will never achieve this low-cost, large-area capability. Surface-
emitting lasers have demonstrated the lowest threshold currents of any 
lasers ever manufactured, with estimated lifetimes of well over 50 
years. In fiscal year 2000, the program used optical links to transfer 
useful data between chips to allow benchmarking performance against 
traditional electrical approaches. We are planning the two major 
capstone demonstrations of the program for the third and fourth 
quarters of fiscal year 2001, the program's final year. The first 
involves data processing in synthetic aperture radar, and the second in 
hyperspectral imaging. Both of these applications generate large 
quantities of data that are currently difficult to process in real-
time. The reduced size of the optical components and increased data 
processing speed will demonstrate the feasibility of achieving more 
than 100-times reduction in power-volume product for synthetic aperture 
radar two-dimensional fast Fourier transform computations. This program 
has successfully captured the interest of systems designers, including 
commercial high-end workstation designers, and has stimulated the 
creation of at least two start-up activities to pursue the continued 
development of the technology.
    Thermal imaging remains a cornerstone technology for many military 
applications, including small unit operations, ground, air and sea 
target acquisition, missile seekers, and threat warning. Significant 
strides have been made in converting thermal imaging technology from 
cryogenically cooled detectors to uncooled thermal detectors, which 
have the potential to improve detector performance by a factor of 10. 
The Uncooled Infrared Integrated Sensors program has catalyzed a major 
shift in focal plane array technology. For many years, the standard 
uncooled array was based upon a pixel size of 50-by-50 micrometers and 
an array format of 320-by-240 picture elements. This relatively large 
pixel size limited both the system resolution and target acquisition 
range, and most importantly, restricted the options available to the 
system designer. Last year, this program demonstrated for the first 
time the ability to fabricate uncooled infrared sensors with a pixel 
size of 25-by-25 micrometers, a 75-percent reduction in area. Although 
thermal sensitivity should be reduced for smaller pixels, the 
sensitivity was maintained at 0.050 degrees Kelvin, exceeding current 
uncooled performance. These efforts will truly revolutionize thermal 
imaging, providing lower cost sensors for current systems and allowing 
the integration of imaging micro-sensors into novel platforms such as 
micro air vehicles and robotics. A 320-by-240 array incorporating this 
structure demonstrated two times the target acquisition range of the 
typical uncooled infrared sensor. In fiscal year 2000, the program 
began the investigation of new concepts for thermally sensitive 
microstructures. In fiscal year 2001, the program is demonstrating a 
100-gram imaging sensor with performance acceptable for micro air 
vehicles. In fiscal year 2002, the program will incorporate high 
responsitivity materials into the detector structures and integrate 
materials and microstructures into imaging arrays. This will establish 
the viability of high-performance uncooled infrared, providing 
acceptable thermal imaging performance in a package 10 to 100 times 
smaller and at one-tenth the cost of current thermal imaging sensors.
    The objective of the Photonic Wavelength and Spatial Signal 
Processing program is to develop integrated electronic and 
optoelectronic device and module technologies that allow the dynamic 
and reconfigurable manipulation of both the wavelength and spatial 
attributes of light for adapting, sensing and image pre-processing. The 
reconfiguration and data pre-processing capabilities of these 
technologies will allow the design and manufacture of real-time sensing 
and imaging systems. These systems could be deployed in a wide variety 
of tactical systems, such as night vision systems, early warning 
sensors, and autonomous platforms. This will be a significant 
improvement over the current generation of sensing and imaging systems, 
most of which are not capable of real-time data collection, analysis, 
and presentation. The technology will allow hyperspectral imaging in 
real-time in a single, chip-scale microsystem. The data contained in a 
given scene will be processed, in terms of spatial and spectral 
content, on-chip at the sensor/imaging array through the heterogeneous 
integration of detector arrays, micro-optics, and controlling 
electronics. This approach will result in greater than an order of 
magnitude reduction in the amount of data that must be transmitted to a 
user, thereby reducing demand on constrained bandwidth links. 
Furthermore, since processing is done at the sensor, faster and more 
reliable decision making will be enabled, e.g., rapid detection, 
identification, and classification of chemical and biological agents. 
The same suite of technologies can also be used in the detection and 
recognition of targets and objects that are otherwise obscured from 
view. During fiscal year 2000, the first year of the program, we 
developed the basic source and detector device technologies that cover 
spectral bands between 350 nanometers and 14 micrometers. In fiscal 
year 2001, the program is demonstrating emitters and detectors in the 
spectral band 350 to 500 nanometers. In fiscal year 2002, the program 
will develop micro-machined optical elements for the spectral band 300 
to 500 nanometers and three to five microns in the infrared band.
    The Advanced Lithography program is seeking solutions to critical 
technical barriers in emerging microcircuit fabrication technologies 
that are essential to improving the computational speed, functionality, 
size, weight, and power requirements of microelectronics. These 
performance improvements will benefit essentially all advanced military 
systems, including computation and signal processing for 
communications, sensing, and guidance systems. In fiscal year 2000, the 
program developed key tool components, materials and processing to 
accelerate the availability of emerging lithography technologies beyond 
193 nanometers. In fiscal year 2001, the program is demonstrating key 
components of a maskless wafer writer and key components for 
lithography of 0.07-micron features. In fiscal year 2002, the program 
will develop key tool components, materials and processing for both 
maskless and projection approaches for lithography at 0.05 microns and 
will fabricate prototype devices for military applications with 
features of 0.1 micron in size. The fiscal year 2002 budget level for 
the Advanced Lithography program will reflect and support the 
semiconductor industry's decision regarding next generation 
lithography; they decided to pursue extreme ultraviolet lithography as 
opposed to optical and x-ray lithography technologies. DARPA's Advanced 
Lithography program will therefore reduce investments in those areas 
while concentrating on leading edge technologies critical to military 
needs--maskless and nanolithography. DARPA will continue to push the 
leading edge of lithography into the sub-35 nanometer range, while 
industry provides the engineering developments for next generation 
lithographies. In addition, DARPA initiated a broad effort to identify 
and develop the next-generation of microcircuitry components to 
overcome the traditional limits of current silicon technology. This 
effort, Beyond Silicon Complementary Metal Oxide Semiconductors, is 
discussed later.
    The objective of the Three-Dimensional Imaging program is to 
develop the ability to rapidly capture a three-dimensional image of a 
target and determine its detailed target profile. This will 
significantly enhance the ability to identify targets in cluttered 
backgrounds and to correctly identify friendly versus unfriendly 
targets. Imaging from fast-moving platforms and the requirement to 
rapidly engage multiple targets necessitates the development of an 
imaging array, which, using a single flash of laser illumination, 
provides both intensity and target depth information. The Three-
Dimensional Imaging program focuses on the materials, detector, and 
unique electronics technology required to obtain, in a single, very 
short-duration, eye-safe laser pulse, a target depth profile or three-
dimensional image of the target. Key innovations in the technology are 
the ability to incorporate gain into the detector structure, fabricate 
focal plane arrays of high-gain detectors sensitive at short-wave 
infrared wavelengths, and to integrate range-processing circuitry into 
the unit cells at each detector. In fiscal year 2000, the program 
evaluated fundamental materials properties necessary to fabricate high-
gain detection devices in the short-wave infrared wavelengths, with a 
focus on material defect reduction and the uniformity enhancement 
necessary for array development. This year, the program has 
demonstrated a four-by-four detector array with a gain of 30 at one 
gigahertz and will complete investigations of novel high-gain detector 
concepts. In fiscal year 2002, the program will demonstrate a low-power 
system with a range resolution of one to six inches at one to two 
kilometers.
    The Steered Agile Beams (STAB) program is developing small, 
lightweight laser beam steering technologies for the replacement of 
large, mechanically steered mirror systems for free-space optical 
communications and infrared countermeasures systems. New solid-state/
micro-component technologies such as optical MEMS, patterned liquid 
crystals and micro-optics will provide the opportunity to incorporate 
small, ultra-light, rapidly steered laser beam subsystems into a 
broader range of military platforms and man-transportable applications. 
These advanced subsystems will enable laser designators to 
simultaneously engage multiple targets, increase both smart weapon kill 
ratio and delivery platform stand-off distance (and, therefore, 
launcher survivability), allow full 360-degree infrared countermeasures 
coverage around aircraft and other high-value military assets, and 
provide a secure, covert means of high-bandwidth transmission programs 
for special operations forces and scout intelligence preparation of the 
battlefield. During fiscal year 2000, the program determined the 
optimum mix of technologies to be developed, and established STAB 
system architectures and performance objectives for subsystem 
components to form the basis for managing risk and technical progress. 
In fiscal year 2001, the program is developing, fabricating and 
evaluating the beam steering, emitter, and detector components and 
downselect the most promising approaches. In fiscal year 2002, the 
program will develop design goals for assembled components and 
fabricate individual laser beam steering components.
    High-performance radio frequency systems are critical to a wide 
range of advanced military radar, electronic warfare and secure 
communication applications, but they are currently restricted to 
deployment on large weapons platforms due to the size, weight and power 
characteristics of electronics-based radio frequency components. The 
Radio Frequency Lightwave Integrated Circuits program will develop 
smaller, lighter, yet higher performance photonics-based radio 
frequency components capable of operating over a much broader range of 
radio frequencies, while also providing the form factors required by 
the small and rapidly mobile weapons platforms of the future. This 
program, which began in fiscal year 2000, is identifying promising 
approaches to photonic components or enhanced radio frequency 
applications. The first year was spent developing radio frequency 
photonic modules that enable links with zero net radio frequency loss 
from input to output and demonstrating optically integrated modules 
capable of performing complex radio frequency functions. In fiscal year 
2001, the program is identifying key applications for integrated radio 
frequency photonic modules, producing initial prototypes, and 
demonstrating methods to evaluate their performance. In fiscal year 
2002, the program will integrate recently developed emitters, 
waveguides, detectors and integrated circuits to produce radio 
frequency photonic component prototypes.
Advanced Materials
    DARPA's Structural Materials program is tailoring the properties 
and performance of structural materials to lower the weight and 
increase the performance of defense systems. Technologies are being 
pursued that will lead to ultra-lightweight ground vehicles and 
spacecraft through the use of structural amorphous metals or 
multifunctional materials. The program is also developing improved body 
armor for the individual soldier.
    The Multifunctional Materials program explores materials that 
combine the function of structure with another critical system function 
(power, repair, ballistic protection, etc.). For example, in fiscal 
year 2001 the program is demonstrating the use of fuel cells whose 
physical structure also serves as the functional structure for the 
system or platform, significantly reducing the parasitic weight of 
power generation in weight-sensitive micro air vehicles. An example is 
a micro air vehicle with a wing that is the structure, the antenna, and 
the fuel cell wall (hydrogen inside, air outside). In fiscal year 2002, 
the program will investigate structures that combine ballistic 
protection with structure.
    The goal of the Lightweight Body Armor program is to significantly 
reduce the weight of soldier body armor designed to stop 30 caliber 
armor piercing bullets to an aereal density of 3.5 pounds per square 
foot. Three ultra-lightweight body armor concepts, two of which use 
active armor techniques, are supported by the U.S. Army Training and 
Doctrine Command Systems Manager-Soldier. The DARPA program is the 
first to investigate how active armor systems could be safely and 
effectively employed for personnel protection. This year, the program 
is selecting the most viable concept for further development, with 
subsequent demonstration of an armor system by the Army planned for 
fiscal year 2002.
    The Structural Amorphous Materials program exploits the truly 
unique properties (toughness, strength, ballistic properties) of 
structural amorphous materials for critical defense applications such 
as ballistically resistant ship structures and as a replacement for 
depleted uranium in anti-armor projectiles. In fiscal year 2001, we are 
developing approaches for processing these advanced materials in bulk 
at reasonable cost. In fiscal year 2002, we will evaluate the 
properties of these materials in the context of making significant 
improvements for defense applications.
    The objective of the Mesoscopic Integrated Conformal Electronics 
(MICE) program is to be able to create electronic circuits and 
materials on any surface, e.g., to print electrical circuits on the 
frames of eyeglasses or interwoven with clothing. The MICE program will 
provide a number of benefits to the DOD. The ability to print 
ruggedized electronics and/or antennas on conformal surfaces such as 
helmets and other wearable gear will provide new capabilities and 
functionalities to the future warfighter. MICE technologies will 
eliminate the need for solder, thereby greatly increasing the 
robustness of electronic circuitry, and the need for printed wiring 
boards, enabling significant weight savings for a number of military 
electronic platforms. To accomplish these objectives, the program is 
developing manufacturing tools that directly write or print electronic 
components such as resistors, capacitors, antennas, fuel cells, and 
batteries on a wide variety of substrates and with write speeds that 
approach or exceed commercial printing technologies--all at 
significantly decreased processing complexity and cost. Recent efforts 
have demonstrated the ability to print metal lines on curved surfaces, 
feature sizes as small as five microns, and print speeds close to one 
meter per second. One of the most exciting developments has been the 
demonstration of printed zinc-air batteries that have four times more 
volumetric power density than commercial batteries. With these 
demonstrations in hand, industry is moving forward with plans to use 
MICE tools for printing batteries, fuel cells, conformal antennas, and 
circuit interconnects. Plans for upcoming years include printing high-
gain antennas on conformal surfaces, printing solar cells and fuel 
cells for integrating energy sources with the electronics, and making 
high-quality electronic parts at very low temperatures.
    The Smart Materials and Structures Demonstrations program has 
applied existing smart materials in an appropriate device form to 
reduce noise and vibration and to achieve aerodynamic and hydrodynamic 
flow control in various structures of military interest. These devices 
can facilitate a paradigm shift for the design of undersea vehicles, 
engine inlets, aircraft wings, and helicopter rotor blades. 
Demonstrations have included small, high-bandwidth devices for acoustic 
signature reduction of marine turbo-machinery, shape memory alloy (SMA) 
actuators to control the shape and attitude of fighter inlets to 
achieve higher aerodynamic efficiencies and performance, flexible skins 
with embedded SMA wires that permit continuous control surface shape 
changes for improved aerodynamic performance (Smart Wing), and small, 
powerful actuators capable of fitting into the confined interior space 
of a rotating helicopter rotor blade for noise and vibration reduction 
(Smart Rotor). We are also exploring novel ways to make compact hybrid 
actuators that will employ smart material driving elements to create a 
new class of efficient, high energy density actuators in a package that 
is smaller and lighter than conventional hydraulic and electromagnetic 
actuators with similar power ratings. These new actuators could lead to 
considerable weight savings and reduced complexity and maintenance in 
smaller aircraft and have applications to the control of new types of 
hypersonic missiles. We concluded the marine and aircraft 
demonstrations earlier this year, and will conduct the final Smart Wing 
wind tunnel test of a scale-model unmanned combat air vehicle in the 
NASA Langley Transonic Dynamics Tunnel later this year. Construction of 
full-scale helicopter rotor blades in the Smart Rotor effort is 
currently underway, and wind tunnel and whirl stand tests are planned 
for late 2001. The overall goal of the Smart Rotor effort is to 
successfully demonstrate acoustic noise and vibration reductions in a 
flight test aboard an MD900 Explorer in early 2002.
    The Exoskeletons for Human Performance Augmentation program is 
developing technologies to enhance a soldier's physical performance to 
enable him, for example, to handle more firepower, wear more ballistic 
protection, carry larger caliber weapons and more ammunition, and carry 
supplies greater distances. This will provide increased lethality and 
survivability of ground forces in combat environments, especially for 
soldiers fighting in urban terrain. Working with significant interest 
and technical input from the operational military, we are exploring 
systems with varying degrees of sophistication and complexity, ranging 
from an unpowered mechanical apparatus to full powered mechanical 
suits. The program is addressing key technology developments, including 
energy-efficient actuation schemes and power sources with a relevant 
operational life, active-control approaches that sense and enhance 
human motion, biomechanics and human-machine interfaces, and system 
design and integration. In fiscal year 2000, the program evaluated 
innovative actuation concepts using chemical energy sources such as 
hydrocarbon fuels to provide mechanical motion. In fiscal year 2001, 
researchers are developing, characterizing and testing integrated 
technologies, activities that will continue in fiscal year 2002.
    Biomimetic technologies look for inspirations from biological 
systems to create hardware with superior capabilities. One focus of the 
biomimetics efforts in the Controlled Biological and Biomimetic Systems 
program is to explore the unique mobility offered by legged platforms. 
The program designed small, legged robotic vehicles (the size of a 
shoebox) for fault-tolerant mobility over rough terrain where wheeled 
and tracked vehicles often fail. Field-testing with the Marine Corps 
has demonstrated that these platforms have significant mobility in 
operational environments such as urban terrain where large obstacles 
and unplanned rough terrain impeded mobility. Preliminary assessment of 
the six-legged platforms called Rhex and Scorpion have shown superior 
performance in benchmarking tests against wheels and tracks and in 
operational environments of interest. The program now plans to explore 
developmental prototypes and define additional military utility for 
these legged robotic vehicles. We are interested in including 
additional fundamental principles of legged performance, new biomimetic 
structural and functional materials and enhanced software. The program 
will ultimately add sensor payloads for navigation and guidance and to 
perform specific military applications such as reconnaissance, or 
identification and removal of unexploded ordinance.
    The Functional Materials program is developing non-structural 
materials and devices that enable significant advances in 
communications, sensing and computation for the military. Examples 
include: magnetic materials for high sensitivity, magnetic field 
sensors and non-volatile, radiation-hardened magnetic memories; light-
emitting polymers for flexible displays; and frequency-agile materials 
based on ferrite and ferroelectric oxides for high sensitivity, compact 
tuned filters, oscillators, and antennas. In fiscal year 2000, the 
program demonstrated light-emitting polymers for flexible displays with 
performances almost equivalent with inorganic alternatives. The program 
demonstrated a frequency-agile, lightweight patch antenna for UHF 
satellite communications that has 20 times less volume than existing 
antennas and, thus is suitable for low-profile mounting on the roof of 
military vehicles. We also developed a very low cost, high performance 
ferroelectric phase shifter for monolithic thin-film electronically 
steered antenna applications. In fiscal year 2001, the program is 
expanding its work in electroactive polymers to include the development 
of thin-film spatial filters that will improve by a factor of 10 the 
speed and power requirements for sensors for missile defense. In 
addition, the program is exploring the development and application of 
artificially engineered nanocomposites or ``meta-materials'' for 
achieving electromagnetic properties unobtainable in nature. In fiscal 
year 2002, the program will demonstrate actuators that mimic biological 
muscles for robotic applications and meta-materials concepts for a 
number of important DOD electromagnetic applications. The program will 
demonstrate a one-megabit, fully radiation-hard memory by the end of 
fiscal year 2002. This memory will be competitive with conventional 
memories and will definitely replace some, if not all, of the existing 
random access semiconductor memories like Flash, Dynamic Random Access 
Memory (DRAM) and Static Random Access Memory (SRAM). This memory 
technology is transitioning to the Defense Threat Reduction Agency and 
the Navy Trident Program, and it is beginning to generate a significant 
amount of commercial investment.
    The Totally Agile Sensor Systems (TASS) program is developing 
ultra-sensitive radio frequency receivers using high-temperature 
superconductivity (HTS) filters and low-noise amplifiers. This 
technology will provide the highest possible sensitivity for 
communications intelligence and signals intelligence missions pursued 
by the U.S. military and intelligence communities. The goal is to 
enable superconducting filters and amplifiers that can achieve up to 10 
times the range compared to conventional means for detection of low-
level signals. In fiscal year 2000, the program investigated several 
methods to ``tune'' the frequency of HTS filters. In fiscal year 2001, 
the program is working toward tunability of 30 to 50 percent of base 
frequency demonstrating a system to detect and geolocate sources of 
unintended radiation for the Rivet Joint aircraft. In fiscal year 2002, 
the program will push tunability to 100 percent of base frequency, with 
automatic electronic selection within one millisecond. The program will 
consider using the technology for non-imaging identification and 
location of battlefield targets.
    Current sensor system architectures sense signals from a physical 
stimulus, transduce them to electrical signals, convert the electrical 
signals to digital form for processing by computers, and finally 
extract critical information from the processed signals for 
exploitation. Integrated Sensing and Processing (ISP) aims to replace 
this chain of processes, each optimized separately, with new methods 
for designing sensor systems that treat the entire system as a single 
end-to-end process that can be optimized globally. The ISP approach is 
expected to enable order-of-magnitude performance improvement in 
detection sensitivity and target classification accuracy, with no 
change in computational cost, across a wide variety of DOD sensor 
systems and networks, from surveillance to radar, sonar, optical, and 
other weapon guidance systems. Fiscal year 2001 was the first year of 
funding for this program. In fiscal year 2001, the program is 
developing new mathematical frameworks for global optimization of 
sensor system performance. In fiscal year 2002, the program will 
implement physical and software prototypes of the new methodology in 
test bed systems such as missile guidance and automatic ground target 
recognition modules for validation and evaluation, and to support 
continuing iterative development of new design methods for sensor 
systems.
    The Virtual Electromagnetic Test Range (VET) program will develop 
and demonstrate fast, accurate three-dimensional computational 
electromagnetic prediction codes enabling practical radar cross-section 
design of full-size air vehicles with realistic material treatments and 
details and components such as cavities, thin edges, and embedded 
antennas. Success will provide the predictive modeling phase of 
aircraft design with an order of magnitude savings in man-hours; two 
orders of magnitude reduction in computation expenses may be 
obtainable. An order of magnitude reduction in range and model costs is 
also predicted. The biggest impact of these new capabilities is likely 
to come in the form of cost reductions for modifications and upgrades 
to existing air vehicles. In fiscal year 2001, the program is 
developing the capability to predict scattering from deep cavities, 
gaps, cracks, and thin edges with high fidelity. In fiscal year 2002, 
it will demonstrate the capability for high fidelity prediction from 
multi-sensor apertures and arrays.
    It has been long recognized that current and future battery 
technology will not provide sufficient energy to meet the requirements 
of military missions unless multiple batteries are carried throughout a 
mission, an incredible expense in logistics and mission effectiveness. 
This limitation could also significantly degrade the usefulness of 
emerging systems such as robots and other small unmanned vehicles. To 
address this issue, DARPA began the Palm Power program in fiscal year 
2001 with the goal of developing and demonstrating technologies to 
reduce the logistics burden for the dismounted soldier by developing 
novel energy conversion devices operating at 20 watts average power 
with 10 to 20 times the energy density of batteries. The program is 
examining several approaches that can convert high-energy-content fuels 
to electricity, with an emphasis on approaches that can use available 
military fuels. Among the technologies being considered are: direct 
oxidation solid oxide fuel cells; extremely compact fuel processors for 
integration with proton exchange membrane fuel cells; novel small 
engines; new approaches to solid state thermionic emission and 
thermoelectrics coupled to advanced miniature combustion systems; and 
advanced materials and materials processing. In fiscal year 2002, the 
program will evaluate new materials and concepts to meet program goals.
MEMS
    Micro-electromechanical Systems (MEMS) technology enables ultra-
miniaturization of mechanical components and their integration with 
microelectronics while improving performance and enabling new 
capabilities. The MEMS program has been focusing on developing 
integrated, micro-assembled, multi-component systems for applications 
such as aerodynamic control; inertial measurement and guidance; and 
microfluidic chip-technologies to be used for biological detection, 
toxin identification, DNA analysis, cellular analysis, drug preparation 
and drug delivery. Over the last several years, many significant 
programs were established within DARPA that leverage MEMS technology. 
One such new activity is the Micro Power Generation program. The 
development of micro power sources will enable ultra-miniaturization 
and functionality of new standalone systems. The use of MEMS technology 
has already demonstrated size reduction, mass reduction, power 
reduction, performance enhancements, new sensing concepts and new 
functionality in weapon systems and platforms. Micro power sources will 
be the key components in ultimate miniaturization and integration of 
standalone, self-contained, wireless micro-sensors and micro-actuators 
that can be deployed remotely in clusters to drastically enhance 
superiority of weapon systems and field awareness. Another new activity 
is the Nano Mechanical Array Signal Processors (NMASP) program. The 
development of NMASP will enable ultra-miniaturized (the size of a 
wristwatch or hearing aid) and ultra low-power UHF communicators/GPS 
receivers, greatly improving the mobility and location identification 
of individual warfighters. NMASP technologies will deliver these new 
component level technologies, as well as new methods for production of 
mass spectrometers, calorimeters, bolometers, and high-resolution 
infrared imaging devices.
    The objective of the BioFluidic Chips (BioFlips) program is to 
demonstrate technologies for self-calibrating, reconfigurable, totally 
integrated bio-fluidic chips with local feedback control of physical 
and chemical parameters and on-chip, direct interface to sample 
collection. In fiscal year 2000, its first year, BioFlips identified 
promising microfabrication platforms to integrate fluidic chip 
components and developed several subsystem approaches to achieve system 
specifications. The program used advanced modeling of microscale 
fluidics to evaluate these subsystem designs. In fiscal year 2001, 
BioFlips is developing closed-loop bio-fluidic chips to regulate 
complex cellular and molecular processing through the integration of 
individual biomolecular transport components and in situ sensors for 
local feedback control of the fluid parameters. In fiscal year 2002, 
the program will demonstrate optimization of subsystems and components 
for integration into prototype systems. Examples of prototype systems 
include micro flow cytometers that are the size of a wristwatch, a 
sample preparation microsystem that extracts purified DNA from whole 
blood samples, and a wristwatch-sized physiological monitor that can 
acquire body fluids through the skin for measuring blood gas partial 
pressures, pH, glucose, and hematocrit.
BioFutures (Bio:Info:Micro)
    DARPA's investigations at the intersection of biology, information 
technology and the physical sciences (Bio:Info:Micro) began in fiscal 
year 2001 with the realization that the biological sciences, when 
coupled with the traditional strengths of DARPA in materials, 
information and microelectronics, could provide powerful approaches for 
addressing many of the most difficult challenges facing DOD in the next 
15 to 20 years. Chief among these challenges is preventing human 
performance from becoming the weakest link on the future battlefield. 
For example, DOD must be able to maintain the decision-making and 
fighting capability of the soldier in the face of asymmetric attack 
(e.g., biological warfare defense), stress and increasingly complex 
military operations. We will explore and develop new capabilities and 
methods for performing complex military operations by applying what we 
learn from the models provided by living systems, which function and 
survive in a complex environment and adapt, out of necessity, to 
changes in that environment. In short, the combination of biological 
science and technology offers an avenue into the understanding--and 
development for defense applications--of systems that are capable of 
complex, robust, and adaptive operations using fundamentally unreliable 
components.
    As we proceed with the Bio:Info:Micro initiative, two development 
themes emerge that have become our organizing principles: critical 
human factors for future warfighting, and complexity in military 
operations. The proliferation of technology on the battlefield and the 
open-market availability of extremely capable weaponry are dramatically 
shortening the timelines for critical decision-making while increasing 
the complexity of the battlespace. The tools we develop at the 
intersection of biology, information technology, and the physical 
sciences will enable radically new command capabilities to deal with 
this increased complexity in warfare, while addressing the increasing 
demands being placed on our warfighters.
    Critical Human Factors for Future Warfighting: Human physical and 
cognitive limitations often constrain technological superiority and 
superior warfighting, especially in a future battlespace that will 
continue to increase in complexity and tempo. A major thrust for 
DARPA's Biological Science and Technology program is to explore 
solutions to extending human performance. Solutions include extending 
physical and cognitive performance during the stress of military 
operation, and interacting with complex, teleoperated, semi-autonomous, 
and autonomous systems. The program is exploring biological principles 
and practices to enable new capabilities to sustain or extend human 
performance for future warfighting. The program will investigate 
therapeutics, sensors, materials, neural and mechanical interfaces, 
biological or biomimetic controllers, and learning, memory and 
training.
    Complexity in Military Operations: Military operations and systems 
are increasing in complexity. DOD must explore new solutions able to 
maintain superior performance in spite of increased complexity. Living 
systems demonstrate robust solutions as they operate in a complex world 
by optimizing performance through adaptive evolution. A major thrust at 
DARPA will be to explore and develop new capabilities to perform 
complex military operations based on the principles and practices of 
biology. Of particular interest to DOD are biological capabilities for: 
regenerative, cooperative, or redundant processes and materials; 
information processing; pattern recognition and decision analysis; 
target identification and acquisition; maneuverability and navigation; 
stability in wide environmental extremes; and communication of singular 
or networked systems.
    Three programs illustrate DARPA's emphasis on human factors and 
complexity in military operations:
    The Metabolic Engineering for Cellular Stasis program is 
investigating biological practices that allow organisms to adapt to 
environmental extremes (water, temperature, salt) and using these 
practices to engineer new cellular systems such as platelets and red 
blood cells. In fiscal year 2000, this revolutionary effort 
demonstrated the functional recovery of dry platelets and other cells 
that could be used in therapeutic or diagnostic applications for DOD. 
Future efforts will focus on new engineering methods and practices that 
result in the enhanced stabilization of cells and tissues.
    The Bio-Computation Program is exploring and developing 
computational methods and models at the bio-molecular and cellular 
levels for a variety of DOD and national security applications. The 
program is developing powerful, synthetic computations that can be 
implemented in bio-substrates, and computer-aided analytical and 
modeling tools that predict and control cellular processes and systems 
of living cells. The DOD applications of the program include the 
ability to predict cellular-level effects of chemical and biological 
agents and the underlying pathogenic processes; the effect of stress on 
cell functions (such as circadian rhythms) that affect warfighter 
performance; and mechanisms for controlling these effects. We are 
selecting performers in fiscal year 2001. In fiscal year 2002, the 
program will begin to develop scalable, DNA-based computing and storage 
and computational models that capture the behavior of mechanisms in 
living cells underlying pathogenesis and rhythms that are common to 
many organisms.
    The Simulation of Bio-Molecular Microsystems (SIMBIOSYS) program is 
developing innovative interfaces between molecular-scale processes in 
chemistry, biology and engineering (electronics, optics, MEMS) through 
experimental and theoretical analyses. The program is beginning this 
year by developing experiments, models, phenomenological relationships 
and scaling laws for a range of bio-molecular recognition processes 
(i.e., antigen-antibody, DNA hybridization, enzyme-substrate 
interactions) and bio-fluidic transport processes in microsystems. In 
fiscal year 2002, SIMBIOSYS will develop methods to transduce these 
molecular recognition signals into measurable electrical/optical/
mechanical signals through integrated on-chip elements that interface 
with the biological recognition process. We will characterize and 
quantify innovative transduction (and signal amplification) methods 
through experiments and models.
Beyond Silicon Complementary Metal Oxide Semiconductors
    We are approaching the end of a remarkably successful era in 
computing--the era in which Moore's Law reigned and where processing 
power per dollar doubled every year. In large part, this success was a 
result of advances in complementary metal oxide semiconductor (CMOS)-
based integrated circuits. Although we have come to expect, and plan 
for, the exponential increase in processing power in our everyday 
lives, today Moore's Law faces imminent challenges both from the 
physics of deep-submicron CMOS devices and from the enormous costs of 
next-generation fabrication plants. This situation requires DOD to 
consider a radically different approach to the fabrication of logic and 
memories--a program we call Beyond Silicon CMOS.
    The Beyond Silicon CMOS thrust is starting in fiscal year 2001. The 
initiative is aimed at maintaining the phenomenal progress in 
microelectronics innovation that has served military systems designers 
so well over the last 30 years. Taking advantage of advanced materials 
deposition and processing techniques that enable increasing control 
over material and device structures down to nanoscale dimensions, the 
Beyond Silicon MOS initiative will enable low-cost-to-manufacture, 
reliable, fast, and secure information systems critical to meet future 
military needs. Because the transistors can be made so small, we can 
make chips with a very large number of transistors per chip, which 
allows greater fault tolerance and high speed (future microprocessors 
based on these technologies will run at speeds 10 to 100 times faster 
than today's best gigahertz-level clock rates). And, with the resulting 
greater computational power, we will be able to run more complex 
algorithms to improve security. In the case of the ultimate computers 
that exploit quantum mechanical effects, we will be able to make use of 
physical phenomena not available in today's electronic devices to 
achieve computational capabilities unavailable by traditional 
techniques.
    With a goal to develop new device capabilities, DARPA is exploring 
options such as non-silicon-based semiconducting materials, including 
organic and amorphous materials. Components and systems leveraging 
quantum effects, and innovative approaches to computing designs 
incorporating these components, will allow low-cost, seamless, 
``pervasive computing'' (making generally available the kind of 
computing power normally associated with large computing facilities); 
ultra-fast computing; and sensing and actuation devices. Much as 
today's desktop computers have the power of the super-computers of a 
decade or so ago, these chip-scale computers will enable super-
computer-like capabilities in portable machines. The military impact 
could be, for example, to enable a computationally intense synthetic 
aperture radar capability on a small unmanned air vehicle.
    The Beyond Silicon CMOS thrust is composed of five programs that 
will develop new capabilities from promising information processing 
components using both inorganic and organic substrates and components 
and systems leveraging quantum effects and chaos.
    The first of the Beyond Silicon CMOS programs is Antimonide Based 
Compound Semiconductors (ABCS). Its goal is to develop low-power, high-
frequency electronics circuits and infrared sources based on the 
antimonide family of compound semiconductors. Specific goals include 
circuits with over 104 devices per circuit operating at frequencies 
above 100 gigahertz and consuming less than one femtowatt (10-12 Joules 
per second)--a two-order-of-magnitude improvement over today's 
capabilities (i.e., 10 times faster, consuming one-tenth the power). 
Specific infrared source goals include operating above thermoelectric-
cooled temperatures, with much greater efficiency for continuous wave, 
mid-wave infrared and single-mode operation in the long-wave infrared 
range. In fiscal year 2001, this program is demonstrating non-silicon-
based transistor technologies and nanostructured materials for quantum-
based electronic and optoelectronic device applications. In fiscal year 
2002, ABCS substrate technology will accelerate recent breakthroughs in 
lateral epitaxial overgrowth and thin-film delaminating and rebonding 
to develop a source for ABCS substrates with essentially any desired 
thermal or electronic property.
    Another program is Integrated Mixed Signal Analog/Digital and 
Electronic/Photonic Systems (NeoCAD) with a goal of developing and 
demonstrating innovative approaches to computer-aided design of mixed 
signal (analog/digital) and mixed electronic/photonic systems. The 
objective is to design and prototype the ultra-complex microsystems 
having the high degree of integration and complexity needed for 
military and commercial applications. In fiscal year 2001, NeoCAD is 
developing fast algorithms for non-linear analysis of mixed signal 
systems (analog and photonic devices), and the program is extending 
algorithm methods to non-linear problems. In fiscal year 2002, NeoCAD 
will develop model order reduction methods (for analog and photonic 
devices) to enable the creation of device behavioral models, and will 
develop and demonstrate top-down design capabilities for analog, mixed 
signal and mixed electronic/photonic systems that match the efficiency 
currently achieved with digital-only designs.
    The goal of the Spins In Semiconductors program is to change the 
paradigm of electronics from electron charge to electron spin. This can 
have profound impact on the performance (speed and power dissipation) 
of memory and logic for computation and for optoelectronics for 
communications. We can ultimately expect increases in both storage 
densities and processing speeds of at least 100 to 1000 times. This 
will give the warfighter the ability to process and assimilate much 
more data than possible by other means and make him much more 
situationally aware. Many DOD systems will also benefit from this 
significantly enhanced performance by enabling much more sophisticated 
signal processing by allowing our systems to handle significantly more 
data. For example, if we are successful, we will provide orders of 
magnitude more flexibility to our remote sensing assets. The program 
has already demonstrated long-lived electron spin coherence in 
semiconductors, which translates to very long spin-propagation 
distances. In fiscal year 2001, we will demonstrate that spin 
information can propagate across boundaries between different 
semiconductors in a heterostructure without any loss of spin 
information. In fiscal year 2002, we intend to demonstrate a very high-
speed optical switch using spin precession to control optical 
polarization.
    The Polymorphous Computing Architectures program is developing a 
revolutionary approach to implementing embedded computing systems that 
support reactive, multi-mission, multi-sensor, and in-flight 
retargetable missions and reduce the time needed for payload 
adaptation, optimization, and verification from years to days to 
minutes. This program breaks the current development approach of 
``hardware first and software last'' by moving beyond conventional 
computer hardware and software to flexible, polymorphous computing 
systems. This program is just beginning and is identifying reactive, 
in-mission computing requirements and potential polymorphous computing 
concepts in fiscal year 2001. In fiscal year 2002, the program plans to 
model and evaluate candidate polymorphous computing architectures.
    The Quantum Information Science and Technology (QuIST) program is 
developing information technology devices and systems that leverage 
quantum effects and technologies for scalable, reliable, and secure 
quantum computing and communication. Quantum computers and 
communication systems are potentially much more capable and secure than 
today's systems and can serve DOD's increasing need for secure 
communication and computational power to meet the stringent 
requirements of military data and signal processing. The QuIST program 
begins this year with investigations of components and architectures of 
quantum information processing systems, along with algorithms and 
protocols to be implemented on those systems. In fiscal year 2002, the 
program will demonstrate techniques for fault-tolerant computation and 
secure communication, and will demonstrate components of quantum 
photonic communication systems.
    In a revolutionary departure from today's painstaking circuit 
fabrication methods, the Molecular-scale Electronics (Moletronics) 
program is pursuing the construction of circuits using nanoscale 
components such as molecules and inexpensive chemical self-assembly 
processes. These chemically assembled systems will have high device 
density (scaleable to 1011 devices per square centimeter, about 100 
times that of current silicon integrated circuits) and low power. It is 
now realized that requirements for electrical power drive much of the 
information-age infrastructure, placing ever greater need to obtain 
low-power electronic systems. In fiscal year 2001, the program 
demonstrated both the ability to reversibly switch memory molecules at 
room temperature, the ``tools'' of computation (``AND,'' ``OR'' and 
``NOT'' gates), and a working 16-bit memory at 10 times the density of 
silicon Dynamic Random Access Memory (DRAM). In fiscal year 2002 and 
2003, we will optimize the performance of the molecular devices, 
demonstrate a molecular gain device, increase device density, and 
develop innovative architectures that exploit the unique properties of 
switching on the molecular scale to demonstrate the advantages of 
electronics on this scale.

                               CONCLUSION

    Both President Bush and Secretary Rumsfeld continue to highlight 
the need to take advantage of new possibilities offered by the ongoing 
technological revolution, as well as to develop defenses against modern 
technological threats. I hope that this short summary of DARPA's 
investment strategy has outlined how DARPA stands ready to do both--
provide technological opportunities for our warfighters, and harness 
technology to provide advanced defenses. Our proposed program, of 
course, will have to change as the nature of the threat changes, and as 
the strategy for coping with those threats evolves. I thank you for the 
opportunity to speak with you today, and welcome your questions.

  Appendix--Examples of DARPA's Science and Technology Investments in 
                       Support of our Warfighters

    The Affordable Multi-Missile Manufacturing (AM3) program, a 5-year, 
DARPA/Tri-Service initiative, was structured to attack rising missile 
costs with a combination of process and product changes to reduce the 
cost and cycle times for tactical missile manufacturing. The results 
are being felt in over 13 military systems, including: a common 
inertial measurement unit for the Wind Corrected Munitions Dispenser; 
commercial parts activities for the Low Cost Autonomous Attack System 
and Army Tactical Missile System; flexible manufacturing systems for 
Patriot Advanced Capability-3; electronic procurement for Line-of-Sight 
Anti-Tank weapons; common test approaches for the Evolved Sea Sparrow 
Missile (ESSM) and Stinger; multi-missile factory approaches for the 
AIM-9M Sidewinder, the Rolling Airframe Missile, ESSM, Javelin, and BAT 
brilliant anti-armor submunition; and improved software tool approaches 
for BAT and the Advanced Precision Kill Weapon System.
    The DARPA Compact Lasers program was developed to defend aircraft 
against heat-seeking missiles. The diode-pumped, mid-infrared, solid-
state laser technology developed in the program has been selected to 
provide the multi-band laser for the Air Force's Phase I Large Aircraft 
Infrared Countermeasure program. This program's purpose is to protect 
large aircraft from all currently fielded man-portable heat-seeking 
missiles. Phase I of the program will outfit large transport aircraft 
such as the C-17 and the C-130 with defensive systems that use the 
DARPA-sponsored lasers.
    For many airborne systems involving video or infrared sensors, a 
window protects the sensor from the environment. Flat or gently curved 
windows can cause drag and other degradations to platform performance. 
In the Precision Optics program, the window is shaped to meet the needs 
of the aerodynamic environment, rather than forced to fit commonly used 
optical shapes for aircraft and missiles. This reduces the aerodynamic 
drag, which will increase the range or velocity of the missile, and 
maintains low observability. Precision Optics technologies were 
demonstrated in an advanced variant of the Stinger missile. This 
variant of Stinger, like all other electro-optic/infrared guided 
missiles, had an aerodynamically blunt, hemispherically shaped dome. 
Using Precision Optics technology, the new seeker head incorporated an 
ellipsoidal-shaped dome for reduced aerodynamic drag and used 
correctors to compensate for the look-angle-dependent aberrations. The 
seeker successfully acquired and tracked targets at Redstone Arsenal, 
AL. The Army and Navy are conducting development efforts to use the 
DARPA technology in advanced missiles.
    The Moving and Stationary Target Acquisition and Recognition 
(MSTAR) program has improved advanced automatic target recognition 
capabilities using the one-foot resolution synthetic aperture radar 
imagery that is increasingly available from operational platforms. The 
MSTAR algorithms were evaluated as a component of the Semi-Automated 
Imagery Intelligence Processor (SAIP) system by replacing SAIP's 
original automatic target recognition algorithms with the model-based 
MSTAR algorithms. The MSTAR algorithms have demonstrated correct 
detection rates of 90 percent or better, and identification rates of 
detected targets of 80 percent or better. The MSTAR-enhanced SAIP 
system assists an analyst in forming reports and identifying target 
types among a set of more than 30 modeled target types. SAIP has 
transitioned to a Joint Program Office in the Army Space Program 
Office, which is integrating SAIP capabilities into the operational 
Tactical Exploitation System.
    The GPS Guidance Package (GGP) program has developed a smaller, 
lower-cost, long-life navigation system based on highly integrated 
fiber optic gyros, silicon accelerometers, and miniature GPS receivers. 
The Army is testing the GGP this Spring as an improvement for the 
Multiple Launch Rocket System firing unit. The adoption of GGP will 
give the Army the pointing accuracy it needs for its fire support at a 
fraction of the lifecycle cost of the current Army system.
    As U.S. tactical aircraft engage a target, the radars of an 
adversary's integrated air defense system may track them. DARPA has 
developed the low-cost Miniature Air-Launched Decoy (MALD) to confuse 
these defenses. This program achieved its affordability objective, an 
average unit flyaway price of $30,000 (fiscal year 1995 dollars) if 
3000 units are produced. This price is many times lower than currently 
available air-launched decoys, and MALD's deception performance will be 
very effective in confusing air defense systems. MALD program 
management has been successfully transferred to the Air Force, with 
flight-testing continuing this year. The Air Force is planning a 
``Silver Bullet'' procurement of 100 to 150 MALD units beginning in 
fiscal year 2002.
    In the detection and identification of biological warfare agents, 
antibody-based sensors have traditionally had difficulty distinguishing 
between the organism that causes anthrax and other naturally occurring, 
non-pathogenic relatives within the same genus. Under DARPA 
sponsorship, researchers have developed a set of antibodies that are 
highly specific to anthrax, but not to its non-pathogenic relatives. 
Currently, four of these Anthrax Antibodies are being evaluated by the 
U.S. Army Chemical and Biological Defense Command (Edgewood Area, 
Aberdeen Proving Ground, MD) as a possible replacement for the anthrax 
antibodies in DOD antibody-based sensors. This will decrease the 
possibility of false alarms caused by cross-reactivity of the 
antibodies that identify the bioagent.
    Another DARPA development is of new antibody-binding reporting 
material called Upconverting Phosphors (UPTT) for use in sensors for 
biological warfare agents. Many conventional sensors use fluorescent 
tags to report the presence of a biological warfare agent as manifested 
by a binding event taking place (e.g., antibody-to-antigen binding), 
but the tags have several shortcomings. Fluorescent tags absorb and 
emit light in similar wavelengths, so signal-to-noise problems limit 
sensor sensitivity. In addition, only a few separate tags (different 
fluorescent wavelengths) exist. On the other hand, the UPTT materials 
are engineered with a novel arrangement of energy states to allow 
absorption and emission in widely different wavelengths, allowing much 
greater sensitivity. Also, 18 separate UPTT tags have been developed. 
The UPTT materials are currently under evaluation by the Joint Program 
Office-Bio Defense for suitability as a replacement to the fluorescent 
tags in the currently fielded ``Smart Ticket'' sensors.
    The DARPA Enhanced Consequence Management Planning and Support 
System (ENCOMPASS) has been transitioned to the Crisis Consequence 
Management Initiative (CCMI) laboratory located at Space and Naval 
Warfare Systems Center-San Diego, CA (SSC-SD). CCMI is responsible for 
other DOD projects that involve aerial surveillance and intelligence 
support. The CCMI laboratory is currently working in cooperation with 
Joint Forces Command to install the ENCOMPASS components in support of 
their mission for Homeland Defense. DARPA's ENCOMPASS investment has 
led to the development of a commercially available software program for 
overall resources management for crisis response. Key components of the 
ENCOMPASS program have been tested at Pacific Warrior and the Air Force 
Information Warfare BattleLab in San Antonio, TX. In addition, the Air 
Force's Lightweight Epidemiology Advanced Detection and Emergency 
Response System (LEADERS) uses key components of ENCOMPASS and will be 
installed at Wilford Hall Medical Center and Brooks Air Force Base, San 
Antonio, TX. The Air Force Surgeon General's office is also in the 
process of installing LEADERS at Air Combat Command, Langley, VA, and 
Walter Reed Army Medical Center, Washington, DC.
    DARPA has helped in the development of a new Navy transition 
laboratory, the Concept Exploration Laboratory (CXL), that focuses on 
technology for military medicine. This facility is located at SSC-SD, 
with experts in operational planning from the Naval Health Research 
Center and SSC-SD. The CXL vision is to become the focal point for all 
advanced medical technology for testing and evaluation before 
prototypes are transitioned to the fleet. CXL is working closely with 
the Pacific Command to support Cobra Gold in Thailand and the Kernel 
Blitz Experiment at Camp Pendleton, CA, in June 2001.
    The application of fiber-optic technology to high-capacity data-
links for electronic warfare, radar and related applications offers a 
substantial advantage in terms of increased data-handling capability 
and reduced size and weight over that of existing copper cabling. 
DARPA's photonics programs have developed technologies for efficient, 
low-cost manufacturing of optoelectronic components that interface 
electronic subsystems to fiber cabling. These technologies, such as 
vertical cavity surface emitting lasers, have resulted in a suite of 
optoelectronic technologies that are being considered for future 
insertion into platforms. In particular, the Navy's Fiberoptic Roadmap 
initiative and the Navy's planned upgrade for the EA-6B aircraft are 
making use of much of the technology developed in these DARPA photonics 
programs.
    Over the past year, DARPA's Advanced Microelectronics program has 
demonstrated an impressive array of results in technologies for ultra-
short channel transistors, including the fabrication of silicon 
switching devices with useful electrical characteristics and having the 
world's shortest channel length (10 nanometers). In addition, this 
program also demonstrated a fabrication process that uses only 
conventional equipment to produce transistors with 25 nanometer 
features (180 nanometers is current state-of-art in production). These 
short-channel transistors have unconventional device structures but are 
compatible with ultra large-scale integration into dense integrated 
circuits. Electrical measurements show that these new transistors are 
also very fast, attaining switching speeds in the few picoseconds 
range, thereby enabling future signal processing chips to operate at 
speeds on the order of 10s of gigahertz. Several other agencies--the 
National Reconnaissance Office, National Security Agency, and the 
Defense Threat Reduction Agency--are now collaborating with the AME 
program contractors to investigate applications of this nanoscale 
technology.
    The Anti-Torpedo Torpedo (ATT) is a new Navy approach to counter-
torpedo attack that has significant volume constraints for control 
electronics. A MEMS-based Torpedo Exploder package offers the required 
performance in a volume compatible with the ATT design. The exploder 
incorporates two MEMS devices that have been developed over the past 3 
years, a combination flow sensor/accelerometer and an actuator. The 
MEMS-based ATT has recently undergone two successful sea trials and the 
Navy has made the decision to continue development. The availability of 
DARPA's MEMS exploder was one key enabler for this Navy program.
    In the area of smart munitions, over the past several years two 
complimentary DARPA programs have developed MEMS Inertial Measurement 
Units (IMUs) for use in the guidance package for artillery shells. 
These MEMS IMUs provide required guidance in a small package capable of 
withstanding the 50,000 Gs shock experienced when the shell is fired. 
Following the DARPA demonstration of the capabilities of the MEMS IMU, 
both the Navy and Army have programmed funds for additional development 
leading to production.

    Senator Roberts. Senator Santorum has a 5 o'clock 
television appearance that he must make, and he would like to 
make a statement at this point.
    Senator Santorum. I apologize. I am committed to doing 
``Hardball.'' Unfortunately, I did not expect this to go that 
long. You have been asking too many questions, Mr. Chairman. 
[Laughter.]
    But I want to thank all the panelists, and we have two 
panelists in the next panel from Pennsylvania, Dr. Kuper and 
Dr. Gabriel, and I apologize to them for not being able to be 
here for their testimony. But rest assured, we will submit 
questions for the record, and I will go over their testimony. I 
want to thank them for making a special effort to come down and 
be with us.
    I thank all of you as likewise. I appreciate your 
testimony. This is the beginning from my perspective of a 
process that is working closely together to make sure that we 
accomplish the kind of integration that I think is necessary to 
move our force forward. Thank you all very much.
    Thank you, Mr. Chairman.
    Senator Roberts. Well, again, Senator, you deserve a lot of 
credit in your leadership in making sure that we had this 
hearing.
    Let me ask each of the Services very quickly, and then we 
will get to the third panel because it is getting on, 
transformation efforts, each of you appear now to be focused on 
preparing the capabilities rather than new systems or 
platforms.
    Briefly tell the subcommittee, if you can, how you 
determine these future critical capabilities, and then give me 
two examples if you can of what capabilities that you might 
envision the U.S. needing in the next 25 years that we do not 
currently have. [Pause.]
    Would you like to make a call? [Laughter.]
    Dr. Andrews. Let me take a shot at it first. One of the 
things we do not currently have today for our present platforms 
that are out there are active protective systems for incoming 
rounds. So that is a technology that by the end of this decade 
we should begin to see the first ones built.
    Senator Roberts. OK. Repeat that for me, please.
    Dr. Andrews. What we do not have today on platforms--we use 
steel, yards of steel in front of us to take incoming rounds 
and live through it. As we go to lighter systems, what we do 
not have today is an active protection system or a defense 
system that can knock a missile, or essentially knock it off 
course before it hits you. So there is an active protection 
system that is in development in the Army. That should be 
demonstrated by the end of the decade, for insertion in Future 
Combat Systems is a good example of that.
    Senator Roberts. OK. There is one. Any others that you 
would like to make?
    Dr. Andrews. Another one possibly is the area of compact 
kinetic energy missile. We just recently--in the middle of May, 
we had a demonstration of our line-of-sight anti-tank 
capability. This is about a 10-foot-tall missile and weighs 200 
pounds, travels a mile a second, delivers about six times what 
the silver bullet of the Army has on a target in terms of 
energy. It goes through the tank, blows the turret off. We just 
had a demonstration that this capability works with some 
critical IMUs.
    Since that is such a heavy and large missile, we are in the 
process right now of developing a compact version of that. Can 
we have a less than 5-foot version and still deliver nearly 
equivalent lethality? So by the end of the decade, again, 
another shot at something significant in terms of lethality. 
Both survivability for the platform, lethality for the 
platform, those are two examples.
    Senator Roberts. Dr. Daniel.
    Dr. Daniel. Thank you, sir. When I look to the future and 
think about new capabilities, one of the first thoughts that 
come to my mind is small. Dr. Etter, a few months back, in 
fact, sponsored a symposium that all of us had the pleasure of 
speaking at and it emphasized this.
    The nanotechnology initiatives that are going on right now, 
I think have the potential for revolutionizing a broad range of 
technology as we start using from atomic and molecular building 
process right on up, particularly in materials as we tailor and 
scope materials, materials that may be self healing, materials 
that will sense they need to change or do different functions 
depending on what situation is going on. So the smallness and 
nanotechnology revolution, if you will, is something that I am 
particularly intrigued by.
    I am also intrigued by bio sensors. When we look at the 
many missions the Air Force has, one of the first things we 
have to do is typically sense what is going on. We have to know 
what the situation is, what situation awareness is, what an 
enemy might be doing.
    Sensors are the key to doing this. There are many marvelous 
systems in nature that have effectively electro optic sensors, 
if you will, that do not require massive amount of cooling. 
Typically, the kinds of EO systems that we produce do require 
large amounts of cooling which tend to be very, very heavy, and 
also tend to be very expensive.
    When I look at some of the 6-1 activities we are doing 
right now, perhaps 100-fold increase of sensor weight might be 
possible if we could make some of the breakthroughs that I 
think might be out there in bio sensors. It is an area that 
does not get a lot of attention, but I think that it has 
tremendous payoff for us, mission areas that are applicable to 
all the Services.
    So, smallness, nanotechnology revolution, bio sensors, I 
think, are two great capabilities that we are going to see in 
the coming decades.
    Senator Roberts. Admiral.
    Admiral Cohen. Mr. Chairman, I think there are a couple--
first of all, I believe the Navy is going electric. In fact, 
the armies of the world are going electric. We are looking very 
hard at the generation transmission conditioning, stowage, 
whether it is fuel cells or other means, as well as fascinating 
propulsion opportunities that this provides. We think we are 
looking 10 years ahead.
    The country is in crisis in energy generation, certainly in 
some geographic areas, and we think it would be a wonderful 
time to work together, a long standing history with the 
Department of Energy to bring to bear some of the technologies 
that we have invested in.
    Another very important area is human factors. We are 
talking about the DD-21, our future Naval ships, having fewer 
than 100 in a crew. Every person in the crew might have a 
college degree, highly trained, bonus, because of the size of 
the ship and the few numbers in the crew. They might have their 
own stateroom.
    As I say, the Navy version of MREs, meals rejected by 
Ethiopia--[Laughter.]
    But the facts of life are if we do not get that man/machine 
interface right with time critical strike, more workload on 
each individual, and a time compressed nature of warfare today, 
they are not going to stick around. We have all seen people 
leave and go back to their spouse and say, ``I cannot do that 
one more time.''
    Finally, the good news is the Cold War is over, and the bad 
news is the Cold War is over. The facts of life are the good 
people of Miramar, Oceania, Langley, and other places just are 
not going to put up with the sound of freedom much longer; yet 
we must have a well-trained, combat capable Armed Forces as 
they sail in harm's way.
    Even though we may not be at war, we have go to figure out 
how to do that in an environmentally responsible way.
    Senator Roberts. Doctor.
    Dr. Alexander. I think the ability to use legacy platforms 
and network together to be able to go after time critical 
targets, both movers and those that are short emitters. We have 
got a program working called Advanced Tactical Targeting 
Technology which by using existing communication links ties 
them together to be able to go within 10 seconds of a time an 
emitter comes up and take them out.
    The second area I would offer is something we are working 
with Australia on called Metal Storm. It is an electronically 
ignited gun that is capable of a million rounds a minute, very 
rapid fire, very controlled. You can do patterns, multiple 
barrels so you could actually fill space where you need it with 
projectiles.
    Senator Roberts. I have some questions that I am going to 
submit for the record, but in the interest of time I think we 
are going to get the next panel up. Thank you so much for 
coming, and for your testimony, for the show and tell which was 
very interesting, and we look to have you back.
    I am going to go ahead and introduce the panel while we are 
changing the panels.
    Panel three has three distinguished researchers involved in 
the very technologies that have been described as ``leap 
ahead.'' These researchers are on the cutting edge of today's 
technological innovation and provide a great service to our 
Defense Science and Technology Program.
    I would like to extend a special welcome to Dr. Peter 
Sherwood, who is a distinguished professor and head of the 
Department of Chemistry at Kansas State University, home of the 
ever-optimistic and fighting Wildcats. Dr. Sherwood has a long 
career in basic research with carbon fibers, and composite 
materials. In addition, he is currently the director of the 
Kansas DEPSCoR. That is the Defense Experimental Program to 
Stimulate Competitive Research. He is in charge of that 
program.
    This committee has been committed to the DEPSCoR program 
since its inception back in 1995, and has worked very 
diligently to increase its budget year over year for the past 
several years.
    The research you do is very important to the S&T 
enterprise, Dr. Sherwood, even more important to the State of 
Kansas. We are happy to call you one of our own.
    Dr. Kaigham Gabriel is a professor of electrical and 
computer engineering at The Robotics Institute at Carnegie 
Mellon University, and will address the subcommittee today on 
micro electro mechanical systems, MEMS.
    Joining him on the panel is Dr. Cynthia Kuper, who is 
president of the Versilant Nanotechnologies. Is that right?
    Dr. Kuper. Versilant.
    Senator Roberts. Versilant. OK. Thank you. Both of these 
researchers hale from the great State of Pennsylvania. You have 
already heard Senator Santorum certainly welcome you to the 
subcommittee.
    I would like to apologize to the panelists. You are like 
the first responders in our terrorism hearing. By the time we 
got to the first responders, the people who really do the work, 
why, most of the crowd left. But I apologize for that.
    If we can keep it down to maybe 3 minutes or 5 minutes, I 
would encourage you to do so. All of your testimony will be 
made part of the record.
    Thank you so much for taking time out of your very valuable 
schedules to come and share your testimony with us. I know it 
is a long trip. I know it is taking time out of your schedule, 
but we welcome you to the subcommittee.
    Dr. Sherwood, would you proceed, please?

STATEMENT OF DR. PETER M.A. SHERWOOD, UNIVERSITY DISTINGUISHED 
   PROFESSOR AND HEAD, DEPARTMENT OF CHEMISTRY, KANSAS STATE 
                           UNIVERSITY

    Dr. Sherwood. Chairman, members of the subcommittee, I 
thank you for the opportunity to submit this testimony 
regarding the Defense Department's basic scientific research 
program, the Defense Experimental Program to Stimulate 
Competitive Research, DEPSCoR, and defense related research in 
the State of Kansas and at Kansas State University.
    I am Peter Sherwood, University Distinguished Professor and 
Head of the Department of Chemistry at Kansas State University 
in Manhattan, Kansas. I represent the faculty from the State of 
Kansas and the Kansas EPSCoR Committee, and I serve as a State 
of Kansas DEPSCoR Director.
    I am here today to speak in support of funding for the 
Defense Department's basic scientific research program and the 
DEPSCoR program. This statement is submitted on behalf of the 
program, the universities pursuing defense related research in 
the State of Kansas, and Kansas State University.
    The DEPSCoR program has led to an increase in regular DOD 
funding in the State of Kansas. The impact of DOD funding in 
the state from DEPSCoR and regular DOD grants has been 
substantial. In my own case, regular DOD funding allowed us to 
perform detailed studies of the interfacial interactions 
between a carbon fiber and a matrix with a view to eliminating 
oxidation in carbon-carbon composites.
    Carbon fibers are high modulus fibers that are used to 
strengthen a matrix to yield advanced composites that are light 
and strong. The card that you have in your hand, has a tow of 
3,000 carbon fibers. If you look very, very closely, you can 
just resolve a single fiber. That is about 7,000 nanometers. I 
want to focus on that number because I will talk about an even 
smaller number in a moment.
    These composites are used in stealth aircraft, the U.S. 
Marine version of the Harrier, and in many commercial aircraft.
    The interfacial chemistry has a dramatic effect on the 
mechanical properties of the composite, and I have studied this 
interfacial chemistry for many years using the techniques of 
surface science. The work has enabled us to tailor the surface 
chemistry of the fiber to optimize interaction with the matrix 
while reducing or eliminating degradation at the fiber matrix 
interface.
    Many DOD funded projects provide opportunities for basic 
research of interest to DOD that leads to new developments that 
can lead to the establishment of local industrial and economic 
development. For example, at Kansas State University, Dr. 
Kenneth Klabunde, University Distinguished Professor of 
Chemistry, has had a long period of continuous DOD regular 
funding.
    This funding enabled him to develop a number of patents 
related to reactive nanoparticles, tiny particles with 
dimensions corresponding to an assembly of small numbers of 
atoms and with remarkable chemical and physical properties. The 
particles have important military and civilian applications.
    You will see a small bottle of a white powder that I have 
given you. It is about 3 inches long, and contains particles 
that are only 4 nanometers in diameter. Compare these with the 
carbon fibers of 7,000 nanometers, where you could just see one 
of them. The powder particle are only 4 nanometers in diameter. 
Now these particles that you have in your hand there have a 
surface area that is about the same as Kansas State's football 
stadium that seats 50,000 people. This illustrates some of the 
remarkable properties of this material.
    Dr. Klabunde successfully in 1995 developed a company now 
called Nanoscale Materials, which has been very successful in 
achieving DOD and other SBIR awards, and together with public 
funding now employs 20 people and is the first occupant of a 
research park at Kansas State University.
    The focus of Nanoscale Materials has been the use of these 
nanoparticles for chemical and biological defense applications, 
destructively absorbing selected chemical and biological 
warfare agents, rendering them harmless. If you look at that 
one-page handout, I have a picture of an Anthrax simulant, 
showing the cell before and after it has been treated with 
these nanoparticles, which you see have completely destroyed 
the Anthrax material.
    The State of Kansas strongly supports DOD's Science and 
Technology Programs across all defense organizations, 
especially those defense research programs providing support to 
our Nation's universities.
    I want to express deep appreciation for the committee's 
past support of the fiscal year 2001 funding approved for these 
programs.
    I also want to express the appreciation for the committee's 
past support of the DEPSCoR program which has provided an 
opportunity for the State of Kansas to construct a program that 
has enabled the state to promote research of interest to DOD.
    This has provided funding from state and other sources, 
from DOD, to provide $9 million of support over the past 6 
years and 26 substantial projects at our three research 
universities.
    The State of Kansas joins many other organizations in 
urging the subcommittee to increase the Science and Technology 
Program to $10 billion in fiscal year 2002, a funding target 
consistent with numerous program and department reviews, 
including recommendations made by the Defense Science Board. We 
also respectfully request that you provide $25 million for the 
DEPSCoR program in fiscal year 2002.
    We very much appreciate the opportunities that we have 
heard of earlier on today that DOD has provided for us to 
pursue some very exciting research.
    Thank you very much.
    Senator Roberts. Thank you very much.
    [The prepared statement of Dr. Sherwood follows:]

                Prepared Statement by Dr. Peter Sherwood

    Mr. Chairman and members of the subcommittee, I thank you for the 
opportunity to submit this testimony regarding the Defense Department's 
basic scientific research program, the Defense Experimental Program to 
Stimulate Competitive Research (DEPSCoR) and defense related research 
in the State of Kansas and at Kansas State University.
    I am Peter Sherwood, University Distinguished Professor and Head of 
the Department of Chemistry at Kansas State University in Manhattan, 
Kansas. I represent the faculty from the State of Kansas and the Kansas 
EPSCoR Committee, which includes leaders from higher education, state 
government, and the private sector in Kansas, and I serve as the State 
of Kansas DEPSCoR Director. I am here today to speak in support of 
funding for the Defense Department's basic scientific research program 
and the DEPSCoR program. This statement is submitted on behalf of this 
program, the universities pursuing defense related research in the 
State of Kansas and Kansas State University.
    The State of Kansas strongly supports DOD's S&T programs across all 
defense organizations, especially those defense research programs 
providing support to our Nation's universities. I want to express deep 
appreciation for the committee's past support and for the fiscal year 
2001 funding approved for these programs. I also want to express the 
appreciation of the committee's past support of the DEPSCoR program 
which has provided an opportunity for the State of Kansas to construct 
a program that has enabled the state to promote research of interest to 
DOD, and has provided support from Federal, State and other sources 
that has yielded nearly $9 million of support over the past 6 years for 
26 substantial projects at our three research universities. We urge the 
subcommittee to approve robust and stable funding for these basic 
(6.1), applied (6.2) and advanced technology development (6.3) elements 
in fiscal year 2002. Specifically, the State of Kansas joins many other 
organizations in urging the subcommittee to increase the S&T program to 
$10 billion in fiscal year 2002, a funding target consistent with 
numerous program and department reviews including recommendations made 
by the Defense Science Board.
    The impact of DOD funding in the state from DEPSCoR and other 
competitive grants has been substantial. In my own case DOD funding 
allowed us to perform detailed studies of the interfacial interactions 
between a carbon fiber and a matrix with a view to eliminating 
oxidation in carbon-carbon composites. Carbon fibers are high modulus 
fibers that are used to strengthen a matrix to yield advanced 
composites that are light and strong. These composites are used in 
stealth aircraft, in the U.S. Marine version of the Harrier fighter and 
in many commercial aircraft. The interfacial chemistry has a dramatic 
effect on the mechanical properties of the composite, and I have 
studied this interfacial chemistry for many years using the techniques 
of surface science. This work has enabled us to tailor the surface 
chemistry of the fiber to optimize interaction with the matrix while 
reducing or eliminating degradation at the fiber matrix interface.
    Many DOD funded projects provide opportunities for basic research 
of interest to DOD that leads to new developments that can lead to the 
establishment of local industrial and economic development. For example 
at Kansas State University, Dr. Kenneth J. Klabunde, University 
Distinguished Professor of Chemistry, has had a long period of 
continuous nationally competitive funding from DOD. This funding 
enabled him to develop a number of patents related to reactive 
nanoparticles--tiny particles with dimensions corresponding to an 
assembly of small numbers of atoms and remarkable chemical and physical 
properties. The particles have important military and civilian 
applications including air and water purification, environmental 
remediation and decontamination and industrial catalysis.
    Dr. Klabunde successfully developed in 1995 a company to market his 
inventions, Nanoscale Materials Inc., which has been very successful in 
achieving DOD and other SBIR awards, together with public funding and 
now employs more than 20 people and is the first occupant of a new 
research park at Kansas State University. The company was established 
with assistance from the Mid-America Commercialization Corporation, a 
not-for-profit joint venture between Kansas State University, the State 
of Kansas (via the Kansas Technology Enterprise Corporation), the city 
of Manhattan and the Manhattan Chamber of Commerce. The focus of 
Nanoscale Materials Inc. has been the use of these nanoparticles for 
chemical and biological defense applications, destructively absorbing 
selected chemical and biological warfare agents, rendering them 
harmless. Pilot plant production of these nanomaterials has been 
operational since last year, and has been found effective in the 
destruction of chemical warfare agents mimics and biological warfare 
agent mimics (e.g. anthrax simulants, escherichia coli, erwinia 
herbicola and human virus simulants).
    Kansas has responded to concerns about emerging threats and 
capabilities with new initiatives. A recent initiative from Kansas 
State University involves a proposed nonlethal environmental evaluation 
and remediation (NEER) program that uses existing assets in a 
coordinated manner to form a center (NEERC) to address this challenge. 
A request for DOD support has been made this year in four areas: 
nanoparticle responses to chemical/biological threats; a request to 
develop and manage a Marine Corps urban operations environmental 
laboratory at NEERC; a request for support of a nanoparticles program 
for neutralization of facility threats and a smart mortar development 
and testing program.
    I would also like to tell you something about the DEPSCoR program. 
Based on the positive results of the NSF program, Congress created 
EPSCoR programs in six additional Federal agencies. One of these is the 
Defense Department. The individual agency EPSCoR programs, much in the 
same way as the NSF EPSCoR, help researchers and institutions in 
participating states to improve the quality of their research so they 
can compete for non-EPSCoR research funds. The Federal-wide EPSCoR 
effort funds only merit-based, peer reviewed programs that work to 
enhance the competitiveness of research institutions and increase the 
probability of long-term growth of competitive funding.
    EPSCoR relies heavily on state involvement and participation, 
including non-Federal matching funds. Due to the Federal/state 
partnership upon which EPSCoR relies, and the opportunity that the 
program provides to allow the states to develop a strategic focus that 
allows them to enhance their strengths in research, EPSCoR is often 
considered a model program, and is a wise use of taxpayer funds.
    The Defense EPSCoR (DEPSCoR) program contributes to the states' 
goals of developing and enhancing their research capabilities, while 
simultaneously supporting the Defense Department's research goals. 
DEPSCoR grants are based on recommendations from the EPSCoR state 
committees and the Department's own evaluation and ranking. Research 
proposals are only funded if they provide the Defense Department with 
research in areas important to national defense.
    Last year the Defense Department issued an announcement of a 
competition under the aegis of the Defense EPSCoR program. A total of 
224 projects were received from the 18 states eligible to participate 
in DEPSCoR requesting more than $74 million in funding. Following 
review of the individual projects by the appropriate research office 
(the Army Research Office, the Ballistic Missile Defense Organization's 
Science and Technology Directorate, the Office of Naval Research, or 
the Air Force Office of Scientific Research), 63 projects were selected 
for funding with $18.7 million made available in fiscal year 2001. The 
average award was $298,000.
    The program in Kansas has had a very important effect on the 
overall research activities in the state. Twenty-six DEPSCoR projects 
have been funded in Kansas since the program started in its present 
form in 1996. The projects were developed by Kansas researchers in 
collaboration with DOD program managers to address topics critical to 
defense readiness and capabilities. Before submission of the projects 
for DOD evaluation, 15 projects were selected from many proposals in a 
state competition. The state competition involved initial peer review 
by reviewers outside the EPSCoR states, followed by proposal selection 
by a panel whose members were also outside EPSCoR states. In this way 
Kansas researchers were subject to the rigorous national peer review 
process, as well as benefiting from the valuable feedback provided to 
the investigator by the review process.
    The program is a true partnership between DOD, the State of Kansas, 
and the three research universities in the state. Funding to date has 
involved nearly $9 million with about 56 percent of the funding coming 
from DEPSCoR, 28 percent from the State of Kansas and 16 percent from 
the universities involved. Faculty of all ranks have been involved, 
with the senior faculty providing a mentoring role. DEPSCoR projects 
have improved the Kansas infrastructure for defense related research; 
about half the projects have been in engineering and the other half in 
physics, chemistry and mathematics.
    I will now discuss two projects from the twenty-six funded projects 
to illustrate the impact that these grants have had in yielding 
research results that benefit our Nation's defense, that improve the 
ability of Kansas to perform defense related research, and that have 
enabled faculty to become more competitive, and in the case of younger 
faculty to launch their research careers. Fifty percent of the DEPSCoR 
projects have been located at Kansas State University, and the 
remainder at the University of Kansas and Wichita State University.
    An Assistant (now Associate) Professor of Physics at the University 
of Kansas, Dr. Judy Wu, has developed methods for coating mercury-based 
high temperature superconductors onto oxides and metals in processes 
that have led to two United States patents, and one U.S. patent 
pending. Superconducting coatings of these materials, that have 
transition temperatures above 130K onto oxides, can be used for 
superconducting microwave telecommunication devices of superior 
performance in terms of low loss, high resolution, and light weight. 
These properties have recently been demonstrated on small-scale 
microwave devices. Superconducting coatings of these superconductors 
onto metals can be used to form superconducting cables that can be used 
for power-related applications including low-loss/high power 
generators, transmission cables, electric motors, and high-field 
magnets. Dr. Wu now has nationally competitive DOD funding.
    Dr. Ramesh Agarwal, Bloomfield Distinguished Professor of 
Aeronautical Engineering led a project with Dr. M. Papadakis, Associate 
(now Full) Professor of Aeronautical Engineering at Wichita State 
University. The project was concerned with the development of 
computational electromagnetics for solving scattering, radiation and 
electromagnetic environmental problems of considerable importance to 
DOD. These workers developed a higher-order Discontinuous Galerkin (DG) 
finite-element method for the solution of the Maxwell equations on 
structured grids. The method proved very accurate, and much more 
efficient than existing formulations, and has allowed for the accurate 
computation of electromagnetic scattering. The approach will have a 
significant payoff for three-dimensional studies that will assist the 
development of stealth aircraft and missile systems. The project 
provides an example of the leadership and mentoring by senior faculty 
that is an important component in the success of the DEPSCoR program.
    Kansas continues to seek support through regular DOD programs and 
through the DEPSCoR program that will enable the State to play its part 
in the national contribution to DOD programs and interests. The State 
strives to make its university faculty aware of DOD programs, 
encouraging contacts and visits with DOD program managers. New faculty 
are encouraged to develop new programs of interest to DOD, and 
established faculty play a key mentoring role for such faculty as well 
as conducting their own DOD supported programs. The challenges of large 
collaborative programs are being actively pursued, as well as the 
opportunities for economic development through spin-off technology.
    The State of Kansas appreciates this subcommittee's long-standing 
support for Defense EPSCoR and we urge you to continue that support. 
The State recognizes the very tight fiscal constraints this 
subcommittee faces in the new era of a balanced Federal budget, but we 
respectfully request that you provide $25 million for the Defense 
EPSCoR program for fiscal year 2002.
    The Defense Department's Experimental Program to Stimulate 
Competitive Research is a wise and worthwhile investment of scarce 
public resources. It will continue to contribute significantly to 
efforts to build scientific and engineering research efforts in support 
of national defense needs.
    Mr. Chairman, the State of Kansas strongly supports the Defense 
Department's basic research programs (functions 6.1 and 6.2). With the 
end of the Cold War, the technological demands facing our military have 
increased. New research must be pursued to meet new challenges in the 
fields of information warfare, high technology terrorism, the 
proliferation of weapons of mass destruction and threats in diverse 
parts of the world.
    It is essential that Congress ensure that scientific research and 
technological advances in support of our military are not eroded 
because of the lack of adequate funding for DOD's 6.1 basic and 6.2 
applied research. We have joined with our colleagues in the research 
community to urge the administration and Congress to strengthen the 
Nation's investment in the Department of Defense's (DOD) Science and 
Technology (S&T) programs. These programs are vital to our Nation's 
security and technological superiority. We strongly endorse 
recommendations that Congress to provide $10 billion for DOD S&T 
programs for fiscal year 2002.
    Thank you for your consideration of this request.

    Senator Roberts. Now I am going to ask you what I asked 
Carolyn Hanna of the committee staff. Carolyn back here says 
that it would take her too long to explain it to me. 
[Laughter.]
    Then I asked Alan McCurry of my staff to explain it to me, 
and he said he understands it. This half-filled tube contains 
magnesium oxide nanoparticles that are only four nano--nano-
what?
    Dr. Sherwood. Nanometers.
    Senator Roberts. Nanometers in diameter. These particles 
have a surface area--do you mean the total in the----
    Dr. Sherwood. In that tube.
    Senator Roberts. In that tube, equal to that of the 
football stadium at Kansas State----
    Dr. Sherwood. That is right.
    Senator Roberts. --and you have got a picture of the 
stadium. I think I can see myself down there. [Laughter.]
    I do not understand that. Do you mean that that surface 
particle of all these little guys here is equal to that of the 
entire stadium? Is that right?
    Dr. Sherwood. That is correct. That is correct. It is due 
to the many different facets that one sees on those materials.
    One example I might give you is if you look at the United 
Kingdom which has an area comparable to that of the State of 
Kansas, if you walk along the state boundaries of the State of 
Kansas, because the boundaries are fairly straight, you will 
cover a certain number of miles.
    If you walk around the boundaries of the United Kingdom 
which is about the same area, you will have covered something 
like a hundred times the distance covered on the Kansas trip 
simply because the United Kingdom is so indented with little 
creeks, and----
    Senator Roberts. I see what you are saying.
    Dr. Sherwood. It is the same idea with those nanoparticles.
    Senator Roberts. That is amazing. Dr. Gabriel.

STATEMENT OF DR. KAIGHAM J. GABRIEL, PROFESSOR, ELECTRICAL AND 
 COMPUTER ENGINEERING, THE ROBOTICS INSTITUTE, CARNEGIE MELLON 
                           UNIVERSITY

    Dr. Gabriel. Thank you, Mr. Chairman, distinguished members 
of the subcommittee.
    The points I would like to make today are based on two 
decades of research experience at MIT, Bell Labs, and Carnegie 
Mellon University. In addition to the academic and industry 
experience, I served for 6 years at DARPA culminating in a 
Senior Executive Service position as the director of the 
Electronics Technology office where I was responsible for 
annual research and development budget of $400 million.
    Since the end of the Cold War, the technology landscape has 
changed, and that change is accelerating. The technology 
landscape over the next two decades is going to be different 
from the technology landscape of the last two decades in some 
very fundamental ways.
    One is that the advances of these technologies are being 
primarily driven by the commercial interests. Two, the 
technologies that are militarily relevant are changing and 
increasing in number; just as an example, we heard from the 
previous panel, biotechnology and bio sensors coming up when I 
think you would not have heard that 10 or 15 years ago from the 
DOD.
    Three, the rate of change in those technology areas is 
increasing, and the new capabilities, the ``leap ahead'' 
capabilities that we all are focusing on here today, are 
happening at the intersections of different technology areas.
    Finally, something that was coming up quite a bit in both 
the first and second panels, it is not only the process of who 
is going to develop these technologies first that is going to 
be a determinant, but who is going to be good at using them and 
experimenting, and putting them into systems and use that is 
also going to be determining the military capabilities.
    One recent example of technology intersections yielding 
these ``leap ahead'' quantum jumps and capabilities is in the 
area of microsystems being integrated with biotechnology. Drug 
discovery is being done 100 to 1,000 times faster today because 
of this integration of MEMS and biotechnology. Chips that are 
no larger than a postage stamp using thousands of micro wells 
make it possible for researchers to test thousands of different 
drug combinations all at the same time.
    Further advances in this sort of integration will lead to 
real-time fuelable systems that will detect, identify chemical 
and biological agents allowing for rapid response for 
protection of forces and for homeland defense.
    A second example of this technology integration coming 
together is a chip that I brought here which I would be happy 
to show you or send up, which integrates which is--this chip is 
no larger than a pin head. [Indicating] We can put a microscope 
on top of it so you can see it.
    It has an integrated membrane that can vibrate to hear 
sounds. It is made like any other microchip, and can be 
integrated with electronics, and could cost less than 50 cents 
each so that hundreds of thousands could be deployed so that--
like grains of the sands, and it would give adversaries no 
place to hide. This technology is a direct result of MEMS, a 
technology that was advanced and applied because of research as 
we heard from the development funding from DARPA.
    Over the past decade, MEMS technology has led to 
accelerometer and gyroscope chips, as you saw from Dr. 
Alexander's presentation. Over the next decade, we believe that 
MEMS will create belt-buckle-size inertial guidance systems, 
optical switches and filters, and complete chemical and 
biological factors on a chip.
    While funding for basic research is really important at the 
intersections of technology, it is also important so that DOD 
can provide a focusing for this research for well-defined 
``leap ahead'' capabilities.
    A Defense Science Board study, which I had the honor of 
chairing a few years back, came up with a couple of key 
technologies for the defense capabilities over the next 15 to 
25 years. Those technologies were not a surprise, 
biotechnology, information technology, microsystems, and 
materials and energy. We heard those before from the previous 
panels.
    What was new was two very important recommendations from 
that panel: One, focusing investments on the intersections of 
technologies which is where the quantum capabilities and 
performance are going to come from; and, two, was focusing much 
of the research and basic research for capability driven, grand 
challenge, ``leap ahead'' capabilities.
    With those sort of investments, such technology 
investments, driven by the DOD, we can ensure the offensive and 
defensive U.S. military capabilities will continue to be unique 
and overwhelming as we have been before.
    With such investments--without such investments, we risk 
failure. With such investments, we cannot fail to succeed.
    Thank you, Mr. Chairman.
    Senator Roberts. Thank you, Dr. Gabriel.
    [The prepared statement of Dr. Gabriel follows:]

                 Prepared Statement by Dr. K.J. Gabriel

    Mr. Chairman and distinguished members of the subcommittee. Thank 
you very much for the opportunity to provide testimony on ``leap-
ahead'' technologies and transformation initiatives within the defense 
science and technology programs.
    The points I'd like to make today are based on over two decades of 
research experience that I have had at MIT, AT&T Bell Labs and Carnegie 
Mellon University. In addition to my academic and industry experience, 
I served for 6 years at DARPA, culminating in a Senior Executive 
Service position as Director of the Electronics Technology Office 
responsible for an annual research and development budget of more than 
$400 million. Most recently I co-chaired the Defense Science Board 
Summer Study Task Force on Defense Technology Strategy, Management and 
Acquisition.
    Since the end of World War II, technology advances have provided 
new, unique, and overwhelming capabilities for the military forces of 
the United States. These advances were often focused on DOD-unique 
objectives and interests, and typically developed by defense-sector 
industries.
    For the past 40 years, the technologies of military relevance have 
been aerospace, nuclear, electronics, missile and marine/undersea 
technologies. For those technologies, development and evolution cycles 
were measured in years and decades, and the technologies were difficult 
and costly for our adversaries to develop or acquire.
    As a Nation we've been served well by these past research and 
technology investments In recent conflicts, capabilities derived from 
these technologies have given the U.S. superior advantages including: 
precision-guided munitions; ``owning the night'' with night vision 
capability; and stealthy aircraft, weapons, and ships.
    Since the end of the Cold War, however, the technology landscape 
has changed--and the change is accelerating.
    The technology landscape for the next two decades differs from the 
technology landscape of the last two decades in five fundamental ways:

          1. Advances in most technologies will be driven primarily by 
        commercial interests;
          2. The types of technologies that are militarily relevant are 
        changing and increasing in number;
          3. The pace of advance in those technology areas that have 
        military relevance is increasing; and
          4. New capabilities and quantum jumps in old capabilities are 
        increasingly occurring at the intersections of different 
        technologies; and
          5. Turning technologies into capabilities is governed not 
        only by who develops better technologies first, but equally by 
        who has the better process of experimenting with and 
        integrating technologies into systems.

    If the DOD does not navigate this new technology landscape 
successfully, it is in danger. It is in danger of losing old 
capabilities and of not being able to acquire new offensive and 
defensive capabilities quickly enough. More significantly, the new 
technology landscape leaves the DOD vulnerable to those new 
capabilities being acquired first by others.
    Not only are new technologies needed to meet the need of the coming 
decades, but the DOD needs new ways of focusing, funding, developing, 
and using those technologies.
    The 1999 Defense Science Board Study identified key DOD technology 
areas and research funding strategies to enable order of magnitude 
improvements in military capabilities over the next 10 to 25 years. The 
key research areas identified were not a surprise nor were they new. 
The areas are: biotechnology; information technology; microsystems; and 
materials and energy.
    What is new are two recommendations for where and how DOD funding 
should be directed in those areas: first, the call for DOD to focus and 
allocate significant fractions of basic research funding at the 
intersections of these technologies; and second, the call for DOD to 
allocate significant portions of basic research funding toward 
objectives that translate to clear and revolutionary capabilities. It 
is at the intersections of technologies where quantum jumps in 
capabilities are realized. It is when we have clear objectives that 
productive and useful capabilities are developed.
    One recent example of technology intersections yielding quantum 
jumps in capability is in drug discovery. Drug discovery is beginning 
to be done 100 to 1000 times faster than before because of microsystems 
being integrated with biotechnology. Chips no larger than a postage 
stamp with thousands of micro wells and channels enable researchers to 
assess the efficacy of thousands of different combinations of chemicals 
as a drug---all at the same time.
    We believe further advances and integration with information 
technology will lead to real-time, in-the-field systems that will 
detect and identify chemical and biological agents, allowing rapid 
response for the protection of deployed forces as well as for homeland 
defense.
    A second example is a chip that I have brought here with me today. 
It is a microchip the size of a pinhead with an integrated membrane 
that can either hear sounds or vibrate to produce sounds that you can 
hear. It is a direct result of MEMS--micro electro mechanical systems, 
a technology that was advanced and applied because of research and 
development funding from DARPA.
    MEMS technology makes it possible to build microscopic mechanical 
components on the same chip with electronics, using the materials and 
processes of microelectronics fabrication. Over the past decade, MEMS 
technology has led to: accelerometer and gyroscope chips, and high-
resolution, large area displays using arrays of millions of 
micromirrors---with each mirror the size of blood cells.
    Over the next decade, we believe MEMS Microsystems technology, 
coupled with other technologies, will lead to belt-buckle-sized 
inertial navigation systems, optical switches and filters for fiber-
optic telecommunications systems, and complete chemical and biological 
laboratories on a chip.
    While funding basic research at the intersections of technologies 
is important, it's also important for the DOD to focus research by 
articulating far-reaching but well-defined objectives in capability.
    Too often the argument is made that since the ultimate utility of 
basic research is hard to predict, basic research should be completely 
unfettered-free to roam where it may. I believe otherwise.
    The history of scientific and technical advance is filled with dead 
ends, lucky short cuts, and unanticipated vistas. But unstated in most 
of this history is that people were originally trying to get somewhere. 
They had an objective. They just didn't know exactly how they were 
going to get there or when. Many times where they wound up turned out 
to be more important than where they were originally going. Having an 
objective allows researchers to gauge their progress and make reasoned 
choices about pursuing certain avenues while abandoning others.
    We recently celebrated the 50 anniversary of the ENIAC (Electronic 
Numerical Integrator And Computer), the first general purpose 
electronic computer built using DOD research funds at the University of 
Pennsylvania. The ENIAC was not built because the DOD saw the Internet 
coming, but neither were precious Federal monies spent to build the 
computer just because it would be interesting. The DOD funded the ENIAC 
because it needed a faster and more efficient way to update artillery 
ranging tables.
    The basic research funded at the University of Pennsylvania had an 
objective and in the course of meeting that specific objective, we 
uncovered the new, rich and exciting vista of information technology.
    Universities have been and will continue to be the source of such 
new technologies. Just as importantly, universities continue to be the 
source of people skilled in the development and use of new 
technologies. With the passage of the Bayh-Dole act of 1980 
universities have also become and are increasingly the source of 
technology transfer and commercialization for emerging and new 
technologies.
    The DOD has an opportunity. The DOD needs to continue and increase 
its funding of basic research. But it's not enough to simply add more 
money to traditional approaches. We need to recognize the changes in 
the technology landscape and adapt our funding strategy continuously to 
meet new challenges and take advantage of new opportunities. The DOD, 
with its mission orientation, is unique in its ability to focus on 
capabilities and influence the course of technological advance, 
particularly in the early, basic research stages of technology 
developments.
    The DOD can focus, harness and accelerate developments of new leap-
ahead technologies at the intersection of traditional disciplines. Such 
technology developments, focused on and driven by far-reaching DOD 
needs, will help insure that the offensive and defensive U.S. military 
capabilities will continue to be unique and overwhelming. Without such 
investments, we are sure to fail. With such investments, we cannot fail 
to succeed.
    Mr. Chairman this completes my remarks. I would be happy to answer 
any questions the subcommittee might have.

    Senator Roberts. Dr. Kuper.

    STATEMENT OF DR. CYNTHIA A. KUPER, PRESIDENT, VERSILANT 
                        NANOTECHNOLOGIES

    Dr. Kuper. Thank you, Mr. Chairman and the subcommittee, 
for giving me this opportunity to speak with you today 
regarding the present status and future direction of 
nanotechnology. I prepared a written statement, and I wish to 
read excerpts from that.
    Senator Roberts. Certainly.
    Dr. Kuper. If I were asked to testify before you just a few 
years ago, I would have used words like ``imagine'' and 
``potential.'' Today, I use words ``will'' and ``can.'' I am 
here to tell you where nanotechnology is and where it is going.
    Nanotechnology is the technology of science on the nano 
scale, the size scale of atoms and molecules, one billionth of 
one meter. It is the most powerful form of engineering we know 
of and thus brings with it the most innovative and 
revolutionary materials that exist in the universe.
    Nanotechnology holds the key to our future, a future that 
began over the last decade in university laboratories across 
our country and the world, where scientists embarked on studies 
of new forms of carbon that is 100 times stronger than steel 
and weighs 1/6th as much, wires made out of single molecules 
and pathways to engineer devices half the size of the diameter 
of a human hair.
    The future of these findings will lead to desktop computers 
the size of credit cards, vehicles for land and air that self-
heal and think, and multi-functional materials. An example of a 
multi-functional material that would greatly benefit soldier 
land warfare is a jacket worn by a soldier that weighs as much 
as a cotton shirt, but yet is a ballistic shield, a portable 
power supply, and a medicine cabinet of anti-biological warfare 
agents, holding the vaccines in tiny capsules ready to release 
them when its sensors detect their presence in the air.
    In this future we will use a new form of carbon to deliver 
drugs to infected cells, and conversely use the bacteria that 
infected the cells to build computers. The use of bacteria for 
molecular circuitry has already been demonstrated.
    I am fortunate to have worked with these materials first-
hand and am humbled to say that I have been trained by some of 
the world leaders in this field. I began my scientific 
endeavors in the laboratory at the age of 15, working on cures 
for breast cancer. I obtained my doctorate in Chemistry and 
never dreamed I would be on an adventure such as this one, 
having the opportunity to work with Nobel laureates and our 
space agency to develop these materials, and to obtain a 
glimpse into our future.
    Nanotechnology will build a new class of air and spacecraft 
using materials with the highest strength-to-weight ration ever 
seen. These materials are called carbon nanotubes. Their 
diameter is one billionth of one meter; that is 10,000 times 
smaller than the diameter of the human hair. Their lengths are 
a micron, one millionth of one meter.
    These are single molecules and, therefore, they are without 
defect. Their unique structures give them strengths 100 times 
greater than steel and 1/6th the weight of steel, half the 
weight of carbon fibers used today.
    High strength and low weight is just the beginning of the 
remarkable properties of these materials. They also conduct 
electricity equal to copper without the loss of heat. Carbon 
nanotubes have extremely high thermal conductivities as well, 
and are unreactive in most environments. Each desired physical 
property is obtained simply by rotating the molecule from 0 to 
90 degrees.
    With carbon nanotubes we can build maritime vehicles that 
evade corrosion and detection by the enemy. We can build 
airplanes with warping wings that respond automatically to 
environmental conditions and that are lighter and more fuel-
efficient. We can build computer circuits orders of magnitude 
smaller than today's standards. We can build our future, a 
future that looks as perfect as the nature that surrounds us.
    I look toward the government for strategic investment in 
nanotechnology similar to its investments during the 1950s, 
which led to micro technology, micro fabrication, and the 
computer technology of today. This was our past. It has been 
fruitful and formidable, but has run its course.
    The technology of the past cannot answer our needs for 
today and our needs for the future. We need lighter and more 
fuel-efficient vehicles. We need better forms of power storage. 
We need orders of magnitude increase in data storage 
capabilities. We need our soldiers better protected on the 
battlefield.
    The lead-time for a science to become technology is 10 to 
15 years. We have just passed a decade in nanotechnology, and 
this is a most critical time. We must take nanotechnology out 
of the laboratories and into the market. We must move from 
characterization to fabrication. We must build, and we must 
invest.
    Once it was thought that the largest barrier to our 
technology of the future was the technology itself, not having 
microscopes powerful enough to see individual atoms and 
molecules, not understanding the physics and chemistry of the 
size scale. The scientific community has overcome these 
obstacles and surpassed them.
    Today without question the largest barrier to taking the 
next step is economic. The materials of nanotechnology are 
ready to be fabricated into useful forms so that the military 
and society can realize their extraordinary benefits. We are 
ready to break away from basic science and become an applied 
industry. This is evidenced by the number of new 
nanotechnologies startup companies growing every day.
    Now I will use the word ``potential.'' These small 
businesses have the potential to supply the material to the 
military needed to build the next generation of defense 
products. These businesses need an infrastructure to survive. 
They need investment, and they need goals.
    The Defense Department will greatly benefit by forming 
strategic partnerships with the nanotechnology private sector. 
Department of Defense appropriations can bring speed to market 
so that the military can reap the benefits.
    Senator Santorum has shown great vision in this area, 
realizing that nanotechnology will facilitate the development 
of unmanned air and land vehicles and greatly improve ballistic 
shielding. It is time to bring that vision to fruition.
    I urge the Senate to make a small investment which promises 
to reap enormous rewards. Thank you.
    [The prepared statement of Dr. Kuper follows:]

                Prepared Statement by Dr. Cynthia Kuper

    Senator Roberts, and members of the subcommittee, I greatly 
appreciate the opportunity to speak with you today regarding the 
present status and future direction of nanotechnology.
    If I were asked to testify before you just a few years ago I would 
have used words like ``imagine'' and ``potential.'' Today I use the 
words ``will'' and ``can.'' I am here to tell you where nanotechnology 
is and where it is going.
    Nanotechnology is the technology of science on the nano scale, the 
size scale of atoms and molecules, one billionth of one meter. It is 
the most powerful form of engineering we know of and thus, brings with 
it the most innovative and revolutionary materials that exist in the 
universe.
    Nanotechnology holds the key to our future, a future that began 
over the last decade in university laboratories, across our country and 
the world, where scientists embarked on studies of a new form of carbon 
that is 100 time stronger than steel and weighs 1/6 as much, wires made 
out single molecules and pathways to engineer devices half the size of 
the diameter of a human hair. The future of these findings will lead to 
desk top computers the size of credit cards, vehicles for land and air 
that self-heal and think, and multi-functional materials. Such an 
example of a multi-functional device that will greatly benefit soldier 
land warfare is a jacket worn by a soldier that weighs as much as a 
cotton shirt, yet is a ballistic shield, portable power supply, and a 
medicine cabinet of anti-biological warfare agents, holding the 
vaccines in tiny capsules ready to release them when its sensors detect 
their presence in the air. In this future we will use carbon nanotubes 
to deliver drugs to infected cells and conversely use the bacteria that 
infects cells to build computers. The use of bacteria for molecular 
circuitry has already been demonstrated.
    I am fortunate to have worked with these materials first-hand and 
am humbled to say that I have been trained by some of the world leaders 
in this field. I began my scientific endeavors in the laboratory at the 
age of 15, working on cures for breast cancer. I obtained my doctorate 
in Chemistry and never dreamed I would be on an adventure such as this 
one; having the opportunity to work with Noble laureates and our space 
agency to develop these materials, to have a glimpse into our future.
    Nanotechnology will build a new class of air and spacecraft using 
materials with the highest strength-to-weight ratio ever seen. These 
materials are called carbon nanotubes. To visualize a carbon nanotube, 
visualize a sheet of chicken wire and place a carbon atom in every 
vertice in the chicken wire. Then roll up the sheet so that is closes 
upon it self at the edges seamlessly. You have just formed a long tube 
made solely of carbon atoms. Now, if you will, envision a soccer ball. 
Place a carbon atom in every vertice on the stitching of the soccer 
ball. This is a carbon 60 molecule, or Bucky ball, named after the 
architect Buckminster Fuller.
    Take this soccer ball and cut it in half. Use each half to cap the 
ends of the long tube. This is a single-wall carbon nanotube. Its 
diameter is one billionth of meter and its length is a micron, one 
millionth of one meter. These are single molecules and they are with 
out defect. Their unique structure gives them strengths 100 times 
greater than steel and weight 1/6 of steel, 1/2 as much as carbon 
fibers used today. High strength and low weight is just the beginning 
of the remarkable properties of these materials. They also conduct 
electricity equal to copper without the loss of heat. Carbon nanotubes 
have extremely high thermal conductivities as well and are unreactive 
in most environments. Each desired physical property is obtained simply 
by rotating the molecule from 0 to 90 degrees. With carbon nanotubes we 
can build maritime vehicles that evade corrosion and detection by the 
enemy. We can build airplanes with warping wings that respond 
automatically to environmental conditions and that are lighter and more 
fuel-efficient. We can build computer circuits orders of magnitude 
smaller than today's standards. We can build our future, a future that 
looks as perfect as the nature that surrounds us.
    I look toward the government for strategic investment in 
nanotechnology similar to its investments during the 1950's, which led 
to micro technology, micro fabrication and computer technology. This 
was our past. It has been fruitful and formidable, but it has run its 
course. Technology of the past cannot answer our needs for today and 
the future. We need lighter more fuel-efficient vehicles. We need 
better forms of power storage. We need orders of magnitude increase in 
data storage capabilities. We need our soldiers better protected on the 
battlefield. The lead-time for a science to become a technology is 10-
15 years. We have just passed a decade in nanotechnology. Now is a 
critical time.
    The future is today. The question is no longer how. The question is 
when. We must take nanotechnology out of the laboratories and into the 
market. We must move from characterization to fabrication. We must 
build. We must invest.
    Once it was thought that our largest barrier to the technology of 
the future was the technology itself, not having microscopes powerful 
enough to see individual atoms and molecules, not understanding the 
physics and chemistry at this size scale. The scientific community has 
overcome these obstacles and surpassed them. Today without question the 
largest barrier to taking the next step is economic. The materials of 
nanotechnology are ready to be fabricated into useful forms so that the 
military and society can realize their extraordinary benefits. We are 
ready to break away from basic science and become an applied industry. 
This is evidenced by the number of new nanotechnology start up 
companies growing everyday.
    Now I will use the word ``potential.'' These small businesses have 
the potential to supply the military with materiel needed to build the 
next generation of defense products. These businesses need an 
infrastructure to survive. They need investment and goals. The defense 
department will greatly benefit by forming strategic partnerships with 
the nanotechnology private sector. Department of defense appropriations 
can bring speed to market so that the military can reap benefits.
    Senator Santorum has shown great vision in this area, realizing 
that nanotechnology will help to make unmanned air and land vehicles a 
reality and greatly improve ballistic shielding. It is time to bring 
that vision to fruition. I urge the Senate to make a small investment, 
which promises to reap enormous rewards.

    Senator Roberts. Dr. Kuper, you mentioned in your written 
testimony that you just finished, the Department of Defense 
will benefit by forming a strategic partnership with industry 
such as yours. How would you characterize the ease with which 
small businesses can work with the Department of Defense so 
that your ``will'' and ``can'' banner can be raised high?
    Dr. Kuper. Well, my past experience has been that the ease 
has been easy. We have worked with NASA successfully. I think 
that there would be a great deal of ease with which the 
Department of Defense could work with the private sector, 
especially in the materials concentration of nanotechnology, 
because the commercial interest and the military interest 
overlap so much.
    I look back to the Star Wars Program and wonder if one 
could not take that decade and compress it into yearly cycles 
of military advantage and products that come into the 
commercial sector.
    Most of the people that live in the United States today, do 
not realize many of the products that came out of the Star Wars 
Program that they use every day. I do not even know if 
researchers know how much it benefited our analytical equipment 
and characterization that we use, which came out of that 
program so many years ago, which also benefited and 
strengthened the Department of Defense.
    My vision would be to implement such a program with 
nanotechnology to make strategic investments in small business 
that have these material capabilities. These companies that 
would be invested in would have short-term commercial 
viability, and also suit the immediate needs of the Department 
of Defense.
    Senator Roberts. So you are saying here on your second 
page, ``Technology of the past cannot answer our needs for 
today and the future. We need lighter, more fuel-efficient 
vehicles.''
    I just went to many town hall meetings in Johnson County in 
Kansas. That is the place where everybody who works in Kansas 
City would like to live, and we had about 250 in each town hall 
meeting. I asked how many people would be willing to go the 
speed limit of 55 with a much more smaller vehicle, et cetera, 
et cetera. A lot raised their hand, and a lot did not.
    ``We need better forms of power storage. We need orders of 
magnitude increase in data storage capabilities.'' Then you 
switched, like you are stating here and say, ``We need our 
soldiers better protected on the battlefield.'' So, this is not 
an either/or thing. There is a direct benefit that when you 
invest in the technology for one, you get the other, right?
    Dr. Kuper. Yes, I do believe that.
    Senator Roberts. You say, ``That is a technology of 10 to 
15 years. We just passed a decade. Now is a critical time.''
    Not a problem with the research and the chemistry, it is a 
problem with economics, is that correct?
    Dr. Kuper. Yes.
    Senator Roberts. You were 15 when you began your scientific 
endeavors in the lab?
    Dr. Kuper. Yes, that is correct.
    Senator Roberts. Let me ask you an un-PC question. 
[Laughter.]
    How old are you now?
    Dr. Kuper. I will be 29 next month.
    Senator Roberts. I see. Thank you for your testimony.
    Dr. Kuper. Thank you, Mr. Chairman.
    Senator Roberts. Dr. Sherwood, in your written statement, 
you have a proposed initiative that I am certainly involved 
with in regards to what we call a ``non-lethal environmental 
evaluation and remediation program'' at Kansas State. You have 
four areas that could really be of importance to the war 
factor. Do you want to go over those real quick, if you can?
    Dr. Sherwood. Yes. I am not personally directly involved in 
this program, but I can tell you that many of these involve the 
nano materials of the sort that I have given you today. What 
Kansas State is trying to do, and I think is a very good 
example of what is happening in this area which is to optimize 
the approach by bringing together all of the talents that are 
present at the moment in the university, and bringing together 
people who have not previously been involved.
    The catalyst for this, the engines to make this possible, 
is this new approach in nano materials, and this has brought 
partnerships that previously have not been in place. One will 
see this as a partnership between scientists, engineers, 
agricultural experimenters, and so on.
    Senator Roberts. Dr. Gabriel, you mentioned that basic 
research is hard to predict and many believe it should be 
completely unfettered. But you disagree with this--this seems 
to be somewhat of a unique opinion. Could you elaborate on the 
need for the Department of Defense to focus on far future 
capabilities in its basic research?
    Dr. Gabriel. Thank you. Before I answer that, I want to 
just quickly point out, I failed to mention that if you press 
the button on the side of the thing that went up, you can see 
the membrane actually deflect, for later amusement.
    The answer to the question about objectives: I think many 
times there is a perception that the freer you are in being 
allowed to be completely undirected, that the more productive 
it can be. The history is filled with--history of technology 
advances is filled with shortcuts, unforeseen opportunities 
that people take up, and many times, they wind up in places 
which are even more important than when they originally started 
out going.
    As an example of that in my written testimony, I pointed 
out we recently celebrated the 50th anniversary of ENIAC which 
was built by Defense Department funding, basic research 
funding, at the University of Pennsylvania in 1946. Now ENIAC 
was the first electronic computing device, filled a room 
roughly this size.
    It was not done because the Army or the Department of 
Defense foresaw the Internet, but neither was it done just 
because it was something that would be interesting to do. It 
was done because the Army needed more efficient and faster ways 
of generating artillery tables, calculation tables. Now in the 
process of reaching that objection, we, of course, uncovered 
this whole rich new area which we are still uncovering of 
information technology.
    That is the sense in which I think it is important to have 
a far reaching objective. It is not a prescription. It is not a 
direct that ``You will do this. You will do this. You will do 
this.'' But it is a target which is really stretching 
everyone's capabilities, stretching the technologies, 
stretching our ability to produce it that will really generate 
the productive research that we need.
    Senator Roberts. So there is a focus.
    Dr. Gabriel. A focus, exactly.
    Senator Roberts. There is at least some direction, some 
kind of a mission that you are trying to accomplish as opposed 
to just basic research.
    Dr. Gabriel. Exactly.
    Senator Roberts. I do not mean ``just basic'' research. I 
remember back in my House days when I was Chairman of the 
Agriculture Committee, and prior to that, and we would always 
get into the debate of applied and basic research. Very few 
members of Congress appreciate the need for basic research. 
They want to touch it and feel it, more especially if it is in 
their district. [Laughter.]
    In most cases, if it did not end up in Mr. Whitten's 
district in Mississippi, why, it did not get funded. Now that 
is probably an overstatement to say the least, but that is 
interesting.
    I think that in the interest of time and get you on your 
way, we are going to end the hearing. But I want to thank you 
so much for your time and effort and for your testimony and for 
coming down today.
    Rest assured, this subcommittee will continue to make that 
investment that Dr. Kuper was talking about in science and 
technology because it is our future. Thank you so much for 
coming.
    This subcommittee hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Pat Roberts

                   TECHNOLOGY READINESS LEVELS (TRLS)

    1. Senator Roberts. Dr. Andrews, Dr. Daniel, Dr. Alexander, and 
Admiral Cohen, there has been increasing interest in ``best business 
practices'' in the technology development and insertion arena. I 
understand that the Department of Defense has adopted using Technology 
Readiness Levels as a communications device between the S&T and 
acquisition communities. Could you comment on the acceptance or 
utilization of Technology Readiness Levels by your service/agency?
    Dr. Andrews. The Army has adopted Technology Readiness Levels 
(TRLs) as the method to measure the maturity of the technologies being 
developed. The TRLs were identified in the recommendations put forward 
in the 1999 General Accounting Office Report (``Best Practices: Better 
Management of Technology Development Can Improve Weapon Systems 
Outcomes,'' GAO/NSIAD-99-162, July 1999) citing best practices for the 
management of technology development. This report indicates that 
critical technologies and/or subsystems should be at a high level of 
maturity prior to making the commitment for development and production 
of a weapons system. The Army has adopted this philosophy and has 
implemented the use of TRLs as a viable way to track technology 
maturity level. The Army has taken the lead within the Department of 
Defense in adopting TRL assessments as a way to monitor technology 
progress from concept to production. The Army fully supports the use of 
TRLs to track technology maturity and will use them as a tool to help 
assess progress towards achieving the Army Transformation.
    Dr. Daniel. Past use of the Technology Readiness Levels (TRLs) in 
the Air Force has been sporadic and localized. However, under recently-
revised Department of Defense (DOD) regulations, the use of TRLs will 
be mandatory for all major acquisition programs. The Air Force has been 
participating with the other Services, Defense Agencies, and the Office 
of the Secretary of Defense (OSD) staff in an Integrated Process Team 
to define the guidelines and framework for implementing and applying 
TRL assessments in a consistent manner across the Department. Interim 
guidance based on the results of team's efforts has just been provided 
by OSD.
    Dr. Alexander. The greatest benefit of utilizing the technology 
readiness level (TRL) description of technology or system maturity is 
in the establishment of a common language across communities. The TRL 
descriptions bridge the nomenclature between the research community and 
operational community enabling a clearer understanding of the maturity 
of the project. They also establish specific demonstrable milestones to 
gauge progress of the research and development towards an operational 
system. A consistent use of TRLs can foster a better understanding of 
the project timelines, promoting a smoother transition of the projects, 
especially from 6.3 to 6.4 funding and beyond. When broken down by 
component technology (as opposed to system), the TRL description can 
also provide insight into the higher risk components and aid in 
developing risk mitigation investments.
    The advantages of clarifying the technical maturity of a research 
program to the operational community has led the Defense Advanced 
Research Projects Agency (DARPA) to adopt the TRL description for the 
DARPA/Army Future Combat Systems. TRLs are valuable in developing a 
common understanding for joint DARPA-Service programs. For example, 
DARPA is finding TRLs useful in developing Future Combat Systems 
demonstration milestones for the Army acquisition community. As we gain 
increased experience with the TRL descriptions, I would anticipate that 
additional DARPA research efforts would adopt that nomenclature.
    Admiral Cohen. Within the Department of the Navy S&T programs, the 
Office of Naval Research (ONR) has established exit criteria as a 
measure of technology readiness to transition to acquisition/
developmental programs. Exit criteria are detailed to define the 
critical characteristics of the needed technology and are agreed to by 
ONR and the transitioning office. S&T has also incorporated Technology 
Readiness Levels (TRL's) into this structure to assist in defining the 
nature of the demonstration to ensure that the technology meets the 
desired characteristics.

    2. Senator Roberts. Dr. Andrews, Dr. Daniel, Dr. Alexander, and 
Admiral Cohen, what would you anticipate being the greatest challenge 
or unintended consequence of moving to the Technology Readiness Level 
system?
    Dr. Andrews. There have been two major issues that the Army has 
faced in adopting the Technology Readiness Level (TRL) system. The 
first, and most prevalent, is the belief that TRLs can assess program 
risk. The TRLs are a method to measure the maturity of the 
technologies, not a risk assessment tool. The Army is in the process of 
adopting a method to develop risk mitigation plans that will address 
the risk associated with technology development.
    Another issue has been the lack of clarification regarding the type 
of money required for pre-System Design and Definition (SDD) activities 
that are performed in a Science and Technology environment (S&T). The 
DODR 5000-2R requires a TRL 6 or 7 prior to a Milestone B decision and 
entrance into SDD. However, many of the demonstration and evaluation 
activities associated with achieving that level of maturity are beyond 
the scope of the level of technical maturity of funding in Budget 
Activity 3 (BA 3).
    Dr. Daniel. The greatest challenge will be to assure that the 
Technology Readiness (TRL) guidelines are being implemented and 
assessments are being made as uniformly as possible by the different 
Services and Defense Agencies. There is an ongoing effort in the 
Department of Defense to develop appropriate guidance to provide this 
uniformity. Additional challenges include lack of experience in 
utilizing TRLs and the manpower and resource implications associated 
with implementation.
    Dr. Alexander. Given the broad nature of the Technology Readiness 
Levels (TRLs), confusion and unrealistic expectations can result unless 
there exists a firm understanding of the milestones and assumptions 
used in the TRL determination. This requires early communication and 
coordination between the researchers and operational community in 
defining the specific demonstrations on a project-by-project basis. 
TRLs can improve the communications process, but they are not a 
substitute for good communication. When discussing the TRL of a system 
made up of developmental components, for example, research and 
development managers and acquisition managers must communicate 
carefully to ensure that all understand the TRLs of the system versus 
that of the components. The Department is working to apply TRLs to 
primarily software programs as well, and this also requires precise 
communication between communities.
    The biggest risk in applying TRLs is that there is not a one-to-one 
correspondence between TRLs and RDT&E research categories (6.1 to 6.6). 
Since appropriations are categorized by Program Element number (matched 
to research category), there may arise increased tension between 
researchers and operators to place more of the financial development 
burden in the other's financial category. For example, there may be a 
push by the operational community to spend more of the traditional 6.1 
to 6.3 budget maturing the technology to a TRL that mitigates the risk 
beyond the level that the research community feels is warranted.
    Admiral Cohen. Three concerns are immediately identified:
    a. The S&T Executive is charged with the responsibility of 
establishing the TRL's for their Service acquisition programs; the S&T 
community is not resourced to do this task. There is a risk that 
program funds will have to be diverted to accomplish that task.
    b. TRL's will become a measure of ``goodness'' of S&T programs and 
as a result, programs will focus on near-term issues with a loss of 
creativity and development of break-through or disruptive technology.
    c. TRL's will be used for basic scientific research, which by 
definition is not technology. This will dissuade the best researchers 
from participating in DOD-related basic research and hinder development 
of the science base required for new technology.

                  DIRECT HIRE AUTHORITY FOR PERSONNEL

    3. Senator Roberts. Dr. Andrews, Dr. Daniel, and Admiral Cohen, 
last year Congress provided laboratory directors the direct hire 
authority for personnel. This allows the directors to bypass the usual 
process of hiring which can take anywhere from 3 to 18 months.
    Could you comment on the effectiveness of this authority and 
whether it has been fully implemented in your labs?
    Dr. Andrews. The ``direct hire'' authority under Section 245 of the 
National Defense Authorization Act for Fiscal Year 2000 has not been 
implemented to date. On June 21, 2000, Mr. Aldridge, Dr. Chu, and Mr. 
Frame co-signed a memorandum to the services providing implementing 
instructions for Section 245. As a result of this guidance, within the 
Army, the Office of the Assistant Secretary for Manpower and Reserve 
Affairs has the lead for implementing this guidance. The purpose is to 
remove, to the extent permitted by law, any existing Department of 
Defense (DOD) and component impediments, including regulations, 
policies, procedures, and practices to expedited hiring authority by 
the directors of the selected laboratories and test and evaluation 
centers. The Army is identifying policies, procedures, practices and 
regulations that will be waived and reports back to DOD by mid August. 
Until these impediments have been waived and the selected directors for 
the pilot program have been able to implement the expedited hiring 
authority, I cannot comment on its effectiveness.
    Dr. Daniel. This authority has not yet been implemented in the Air 
Force Research Laboratory. We are currently awaiting authority and 
implementation guidance from the Office of the Secretary of Defense. 
Once fully implemented, I expect the authority to have a very positive 
effect on our ability to attract and quickly hire individuals that are 
among the Nation's best technical talent.
    Admiral Cohen. Section 1114 of the NDAA for fiscal year 2001 
(Clarification of Personnel Management Authority) appears to offer the 
Secretary of Defense broad authority to create a new personnel system 
for the S&T Reinvention Laboratories participating in the fiscal year 
1995 personnel demonstrations, including the possibility of direct hire 
authority without competition. However, whether this potential will be 
realized will depend largely on the interpretation accorded this 
provision by the Office of the Secretary of Defense (OSD), where action 
on implementation is still pending.

                           DARPA FOCUS AREAS

    4. Senator Roberts. Dr. Alexander, what process does DARPA 
undertake to determine which technologies to focus on and who sets the 
research agenda for the agency?
    Dr. Alexander. DARPA's main mission areas--solve national-level 
problems, enable operational dominance and invest in high-risk, high-
payoff technologies--have endured since the agency's founding in 1958. 
Within each main area, specific investments change over time. Strategic 
decisions for the first mission area, solving national-level problems, 
are based on the concerns articulated by the highest level of 
government and the Department of Defense. Technologies pursued in the 
second area, enabling operational dominance, may be for needs 
articulated by the Military Services, Joint Chiefs of Staff or Unified 
Commanders. The Future Combat Systems program is example of an 
investment that DARPA is undertaking because the Army leadership 
expressed a need for which DARPA had ideas for technical solutions. 
Other investments in the operational dominance area could be based on 
DARPA ideas for future military capabilities--DARPA technologists and 
management see a technology that presents an opportunity for improved 
military capability. An example in this area would be stealth--
technologists articulated the possibility of an aircraft that would be 
difficult to see on radar. Investments in the third main mission area, 
high-risk, high-payoff technologies, are based on technological 
opportunities seen by DARPA experts.
    This explains how DARPA sets its broad research agenda. Below this, 
to a very large extent, DARPA is driven by technical opportunities. We 
hire preeminent technical experts and ask them to bring us unique, 
innovative ideas that will have a revolutionary impact on national 
security. The Director and I review those ideas and determine funding 
levels that will allow the program manager to mature the idea, 
demonstrate its potential and lower its technical risk. Lowering risk 
and conducting demonstrations allow the Military science and technology 
community and industry to decide to incorporate the technical idea into 
their programs.
    This entire process, of course, operates in conjunction with 
planning processes within the Department of Defense such as the science 
and technology and budgeting processes. In addition, DARPA management 
and program managers also benefit from findings from the Defense 
Science Board, interagency science and technology groups, and technical 
experts within and outside of the Federal Government, as well as vision 
statements articulated by the Joint Chiefs, Military Services and 
Unified Commanders.

             CHEMICAL AND BIOLOGICAL AGENT DECONTAMINATION

    5. Senator Roberts. Admiral Cohen, decontamination of personnel and 
equipment exposed to a chemical or biological agent is a continuing 
problem for the Services. Military personnel must be able to survive 
and fight in any environment regardless of whether an adversary uses a 
chemical or biological agent against them. One of the functions of the 
Marine Corps' Chemical and Biological Incident Response Force (CBIRF) 
is to quickly decontaminate marines and their equipment so that they 
can continue their operations unhindered. To further meet the 
decontamination challenge, the Marine Corps has been testing a new 
technology called electro-chemically activated (ECASOL) decontamination 
solution. In a recent three-day test conducted by the Marine Corps' 
Systems Command and a CBIRF team, the ECA technology demonstrated that 
it was an effective decontaminate and exceeded all test requirements.  
    What are your thoughts on the problems of chemical and biological 
agent decontamination and the use of the electro-chemically activated 
technology?
    Admiral Cohen. The Marine Corps began testing ECASOL, the electro-
chemically activated technology, in February 1998. Marine Corps' 
Systems Command utilized Battelle Memorial Institute as the independent 
``honest broker'' tester for this product. A testing regime was 
developed consisting of five phases. Four of the five chases have been 
completed. Up to this point, the indications are that ECASOL has 
performed well in killing efficiency, has demonstrated its viability as 
a skin decontaminant, and has demonstrated efficacy against a number of 
chemical and biological agents. However, further testing on ECASOL's 
effectiveness on a variety of surfaces is still required. Thus, the 
nature and extent of any problems associated with the use of ECASOL as 
a decontaminant are still to be determined.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum

                       DOD BASIC RESEARCH FUNDING

    6. Senator Santorum. Mr. Aldridge and Dr. Etter, with the exception 
of the fiscal year 2001 funding spike, funding for Department of 
Defense basic research has been consistently underfunded. Congress 
shares some of this blame, as it has taken funds from these crucial 
accounts and used them to pay for the near-term modernization or 
procurement needs of today's military.
    Recently, I met with leaders of the information technology industry 
and discussed issues of concern as well as industry priorities. These 
individuals were concerned with the level of basic research funding in 
the United States. These leaders emphasized that without increased 
investment in Department of Defense basic research, the number of 
graduate student opportunities to pursue Department of Defense research 
cannot increase. A decline in the pool of scientists, engineers, 
mathematicians, and skilled technicians will prevent the Department of 
Defense from achieving success in the pursuit of ``leap ahead'' 
technologies.
    With this in mind, I offered an amendment to the Senate's Fiscal 
Year 2002 Budget Resolution which calls for increasing the level of 
Department of Defense basic research conducted in American universities 
by $353.5 million for fiscal year 2002. In addition, I recently 
circulated a letter to the Defense Appropriators among my colleagues 
which seeks a $1.03 billion increase in our S&T program funding levels 
for fiscal year 2002.
    Will both of you please address the importance of DOD basic 
research to realizing ``leap ahead'' advances in military capabilities.
    Mr. Aldridge (on behalf of himself and Dr. Etter). DOD basic 
research is a wellspring of new knowledge and understanding that 
underpins future defense technologies. While basic research sometimes 
pays immediate dividends, its full impact usually isn't apparent until 
much later. With the benefit of hindsight, we can discern the patterns 
of research that spawned today's revolutionary military capabilities, 
including the Global Positioning System, stealth, night vision, and 
precision strike. We expect equally important new capabilities to 
emerge over the long term from today's investments in basic research. 
Some of the exciting basic research areas in which the DOD currently 
invests are areas pertinent to technologies such as nanotechnology, 
smart materials and structures, information technology, human-centered 
systems, compact power and biomimetics.

    7. Senator Santorum. Mr. Aldridge and Dr. Etter, please address how 
funding levels for DOD basic research impact not only military 
capabilities, but also the pool of skilled scientists and engineers who 
will drive innovation and change.
    Mr. Aldridge (on behalf of himself and Dr. Etter). Each year DOD 
provides support to about 8,000 graduate students pursuing advanced 
degrees in science and engineering fields critical to national defense. 
The DOD basic research program provides the majority of this support, 
primarily through the employment of graduate students as research 
assistants on defense research projects. Research assistants receive 
training in the performance of research, satisfying requirements toward 
their degrees as an integral part of the work they perform on the 
projects. The basic research program also supports the National Defense 
Science and Engineering Graduate Fellowship Program, a way of honoring 
and encouraging the best and brightest students in defense-critical 
fields. Through these mechanisms, the DOD helps to ensure the future 
availability of science and engineering talent for defense needs.

    8. Senator Santourm. Mr. Aldridge and Dr. Etter, do you believe 
that the levels of funding for basic research are adequate to propel 
transformation throughout the services?
    Mr. Aldridge (on behalf of himself and Dr. Etter). The level of 
basic research funding in the DOD Amended Budget for fiscal year 2002 
reflects our carefully considered judgment on the best programmatic 
balance within available resources. There are abundant scientific and 
technical opportunities to be exploited with additional basic research 
resources, but there also must be a good balance in the investments 
among all of the components of Research, Development, Test and 
Evaluation (RDT&E). A balanced RDT&E investment strategy is important 
to help assure that basic research results are fully utilized in a 
timely way, through technology transition to applied research and 
ultimately to development of defense systems. I therefore urge your 
full support of the amount requested for basic research.

             EASE OF INDUSTRY PARTICIPATION IN MILITARY R&D

    9. Senator Santorum. Mr. Aldridge, do you believe that there are 
changes that the Department can take to make it easier for industry to 
participate in military R&D efforts?
    Mr. Aldridge. Yes. There are changes in policy and changes in 
practice that can make it easier for industry to participate in 
military R&D efforts.
    In the policy arena, I issued on May 16, 2001, a memorandum for the 
Secretaries of the Military Departments and Directors of Defense 
Agencies that makes clear that we will not require or encourage 
contractors to supplement DOD appropriations by bearing a portion of 
defense contract costs, whether through use of their Independent 
Research and Development (IR&D) funds or profit dollars. Instead, we 
will structure contracts to permit contractors to earn a reasonable 
return in exchange for good performance. In today's environment of 
reduced defense spending and fewer new program starts, contractors are 
far less likely than in the past to invest in defense R&D contracts. 
The risk is simply too great. If a contractor takes the risk, and 
follow-on work that would provide the return on investment does not 
materialize, the contractor's financial health may be in jeopardy, 
along with its ability to attract the resources and talent necessary to 
continue to undertake challenging technical initiatives.
    Another policy step in this direction, implemented in the June 10, 
2001, issuance of the acquisition regulation, is the requirement that 
program managers plan for the use of technologies developed under the 
Small Business Innovation Research (SBIR) program, and give favorable 
consideration for funding of successful SBIR technologies. I will be 
reviewing these plans at milestone and program reviews for ACAT I 
programs.
    In terms of practice, actions speak louder than words. There has 
been a policy that funding in the Future Years Defense Plan (FYDP) 
support a program as presented at a major decision review. Over time, 
that policy has received varying degrees of attention. Consistent with 
my belief that we should not require contractors to supplement DOD 
appropriations, I plan to enforce this policy. If a program is going to 
get a favorable decision, the program funding must be adequate to 
support implementation of the acquisition strategy. Also in the realm 
of practice, we will continue to leverage commercial and dual-use 
technologies to the maximum extent possible, which allows private 
entities otherwise involved in commercial efforts to apply them to DOD 
needs. We will continue to find ways to tailor our contracts or other 
business arrangements so they meet the needs of the nontraditional 
defense contractors as well as the Department.
    In addition to the policy changes, we are in the process of 
refining the investment in the Science and Technology portion of 
Research and Development, with increased investment in development of 
prototype systems, such as seen with the Advanced Concepts Technology 
Demonstration program. These demonstration programs have a heavier 
proportional industrial investment, which should also spur industrial 
Research and Development. 

                       BENEFITS OF MEMS RESEARCH

    10. Senator Santorum. Dr. Gabriel, how might MEMS research provide 
benefit to the military as it begins to transform to meet 21st century 
threats?
    Dr. Gabriel. Experiences in recent conflicts and the evolving role 
of the U.S. military stressing rapid response to varying missions have 
demonstrated the compelling advantage of accurate and timely 
information coupled with smart weapons systems. The resulting 
combination of awareness and lethality will be key to increasing and 
projecting military capability in the 21st century.
    MEMS embedded into weapons systems, ranging from competent 
munitions and sensor networks to high-maneuverability aircraft and 
identify-friend-or-foe systems, will bring to the military new levels 
of situational awareness, information to the warrior, precision strike 
capability, and weapons performance/reliability. These heightened 
capabilities will translate directly into tactical and strategic 
military advantage, saved lives, and reduced material loss.
    MEMS will create new military capabilities, make high-end 
functionality affordable to low-end military systems, and extend the 
operational performance and lifetimes of existing weapons platforms. 
For example, MEMS will enable complete inertial navigation units on a 
chip, composed of multiple integrated MEMS accelerometers and 
gyroscopes. The inertial navigation systems of today, however, are 
large, heavy, expensive, power-consumptive, precision instruments 
affordable only in high-end weapons systems and platforms. Inertial 
navigation on a chip would not only make it possible to augment global 
positioning satellite receivers for battlefield tracking of troops and 
equipment, but would also provide guidance for high-volume munitions 
that are currently unguided. MEMS inertial navigation units on a chip 
will achieve performance comparable to or better than existing inertial 
navigation systems and be no larger, costlier, or more power 
consumptive than microelectronic chips.
    In addition to single-chip inertial navigation units, there are 
many opportunities for MEMS insertion into DOD systems across a number 
of technologies alud products that include:

          Distributed unattended sensors for asset tracking, border 
        control, environmental monitoring, security surveillance, and 
        process control;
          Integrated fluidic systems for miniature chemical/biological 
        analysis instruments, hydraulic and pneumatic systems, 
        propellant and combustion control, and printing technology;
          Low-power, high-resolution, small-area displays for tactical 
        and personal information systems;
          Embedded sensors and actuators for condition-based 
        maintenance of machine and vehicles, on-demand amplified 
        structural strength in lower-weight weapons systems/platforms 
        and disaster-resistant building;
          Radio frequency elements for agile, secure and low-power 
        communications systems;
          Acoustic devices and arrays directional microphones, acoustic 
        signature and security sensors and ultrasound ranging/
        detection;
          Integrated microoptomechanical components for identify-
        friend-or-foe systems, displays and fiber-optic switches/
        modulators; and
          Active, conformal surfaces for distributed aerodynamic 
        control of aircraft, adaptive optics, and precision parts and 
        material handling.

    11. Senator Santorum. Dr. Gabriel, does MEMS have utility for the 
Army's Objective Force--a force that will rely on situational awareness 
and speed, as opposed to force-on-force lethality?
    Dr. Gabriel. Yes--most definitely and in many ways.

    12. Senator Santorum. Dr. Gabriel, if so, in what way?
    Dr. Gabriel. As just one example, MEMS creates unprecedented 
situational awareness capability by enabling the use of as many as 
100,000 to 1,000,000 micro-sensors distributed over a theater of 
operations and concentrated in critical target areas.
    These micro-sensors would be able to provide continuous 
surveillance of concealed and moving targets with an array of different 
types of detectors including but not limited to: biological. chemical, 
optical imaging, acoustic, seismic, and electromagnetic. Advanced 
energy systems coupled with covert communications would transmit data 
to overhead receiving systems for processing into detection, 
identification, and target data.
    Some of the micro-sensors would have ground or air mobility to 
allow advantageous placement and observation. It is anticipated that 
some degree of robot intelligence could also be incorporated to enable 
the micro-sensors to investigate concealed targets on their own.
    This class of surveillance and targeting system, together with the 
more conventional remote air- and space-based sensors, would allow 
future U.S. military forces, like the Army's Objective Force, to find, 
identify, and target aggressor military equipment and forces that are 
concealed under foliage, in buildings, and in underground facilities. 
In addition, such a wide-area, dense and penetrating sensor capability 
would allow identification and targeting of moving targets, even under 
foliage-a capability that challenges present-day stand-off systems.

    13. Senator Santorum. Dr. Gabriel, one of the concerns associated 
with the use of a chemical or biological agent is the invisibility of 
the threat.
    Does MEMS technology have application to chemical or biological 
threats?
    Dr. Gabriel. Yes, and again in multiple ways. In a recent report of 
the Defense Science Board,  pro-active approach to defend against 
chemical and biological threats outlined eight major elements:
    1. Blanket coverage by affordable networks of detectors and 
sensors;
    2. Biosignature recognition of engineered BW agents;
    3. Automatic triggering of neutralization, protection, and 
containment responses;
    4. Pre-positioned infrastructure protective systems;
    5. Presymptomatic detection of infected individuals for infection 
control and early therapy;
    6. Novel non-agent-specific immune enhancement pharmaceuticals, 
available to protect against novel agents and agents engineered for 
resistance;
    7. Revolutionary production capability for rapid supply (less than 
7 days) of synthetic designer vaccines/therapeutics; and
    8. Source attribution credible to the international community, 
through pathogen biosignature, intelligence, and forensics.
    As in the answer and remarks to questions 11 and 12, MEMS 
technology enables a variety of chemical and biological sensors at a 
cost, size and in numbers that allow for large-area continuous 
monitoring sensor networks of the type outlines in element #1 above.
    In contribution to element #2, new classes of chemical and 
biological ``laboratories-on-a-chip'' are creating hand-held, field-
deployable systems to quickly and accurately detect both natural and 
engineered chemical and biological agents. Such systems today are large 
instruments in a fixed, remote laboratory where samples must be sent 
and may take days to weeks to get identification.
    Addressing both elements #7 and #2, emerging MEMS-based fluidic 
systems offer the potential of implanted drug-delivery systems that 
detect the onset of symptoms due to a chemical and/or biological attack 
in an individual and immediately begin delivering antidotes and 
antibiotics at the right time and in the right quantities to protect 
the individual and neutralize the threat.

      ETHICAL, LEGAL AND SOCIETAL IMPLICATIONS OF NANOTECHNOLOGIES

    14. Senator Santorum. Dr. Kuper, currently, the NNI is balanced 
across five broad activities: fundamental research; grand challenges; 
centers and networks of excellence; research infrastructure; and the 
ethical, legal, and societal implications.
    What do you believe are some of the ethical, legal and societal 
implications behind nanotechnologies?
    Dr. Kuper. Senator Santorum, as usual, you pose an extremely 
challenging and far-reaching question. Although difficult for one 
person to answer such a question on behalf of entire community, I will 
try my best.
    To understand the ethical, legal and society implications of 
nanotechnology one must first understand the workings of the natural 
world. Nature answers to no human and has no synthetic logic, moral or 
legal structure. Some would say the sole governor of nature is a higher 
power. Humankind governs humankind. Society functions by relying on a 
previously established, although always changing, set of rules, which 
define the ethical, legal and societal protocols by which we live.
    Nanotechnology is the technology of science on the nanoscale, the 
size scale of atoms and molecules, the building blocks of life and 
world around us. Nanotechnology is about perfecting engineering at this 
level. When one perfects molecular engineering, one comes very close to 
the natural world. This means synthesizing the natural world in an 
unnatural place, the laboratory. With this, the governor changes from a 
higher power to mankind. This is the ethical, legal and societal 
implication of nanotechnology.
    From here inwards it is a purely philosophical discussion. Is 
humankind brought into the world as a tabula rasa, or are we born with 
an innate sense of good and bad, right or wrong? The answers to 
questions like these will no doubt determine our level of fear of our 
neighbors. Our fears will, as they usually do, determine our actions. 
So, I mean to say that how society handles the fruits of nanotechnology 
will depend on how we see our intent and this will be the implication.
    One should not stop for too long on this, however, to think our 
future holds only fears and wild heights of unchecked power, all from 
nanotechnology. Uncovering the beauty of the natural world and 
understanding its inner workings will equally impact our future in a 
very positive way. The implication of this will most likely be seen in 
a richer societal appreciation for the environment and how to protect 
it, an understanding for how stop disease, an appreciation for life 
that causes us to rethink producing things that destroy it.
    If I could list just a few of what I think are some of the ethical, 
legal and societal implications behind nanotechnology they would be 
patent disputes, such as what is happening now over the human genome 
project, moral issues of who should control the beginning and end of 
human life, scientific questions relating to anti-biological warfare 
agents and vaccines, making drug discoveries and advances in materials 
which could save lives available to public and most interesting will be 
the amendments to our legal system to better enable society to change 
with changing technology and standard of living. Our legal system must 
be vigilant because each plateau that technology reaches presents new 
legal questions. For example, who would have thought that technology 
would produce the issueof whether or not an electronic signature is 
legally valid? 
    Our quandaries over implications such as these are not new to us. 
Perhaps this is best evidenced by Albert Einstein in an address to the 
California Institute of Technology in 1931, where he said, ``Concern 
for man himself and his fate must always form the chief interest of all 
technical endeavors, concern for the great unsolved problems of the 
organization of labor and the distribution of goods--in order that the 
creations of our mind shall be a blessing and not a curse to mankind. 
Never forget this in the midst of your diagrams and equations.''

              ARMY SCIENCE BOARD STUDY OF VENTURE CAPITAL

    15. Senator Santorum. Dr. Andrews, earlier this year, the Army 
tasked the Army Science Board with exploring venture capital as a means 
toward maintaining the pace of modernization. Specifically, Paul J. 
Hooper, then-Assistant Secretary of the Army for Research, Development, 
and Acquisition, asked the Army Science board to study: (1) methods to 
obtain complementary funding resources for long-term research and 
development strategic objectives; (2) options and approaches to provide 
these resources; establishing an Army venture capital fund to work with 
venture partners for promising new technologies; developing more robust 
partnerships and collaborations with industry and academia; and (3) 
using a small portion of Army funds to sponsor new technologies in 
start-up companies that offer high potential as well as commercial 
benefits to the Army. Are you familiar with this tasking?
    Dr. Andrews. I am.

    16. Senator Santorum. Dr. Andrews, if so, what are your comments on 
the merits of this approach?
    Dr. Andrews. Using the Army Science Board to study this issue makes 
sense and I wholly support their effort. As to whether the use of 
venture capital is an appropriate means of maintaining the pace of 
modernization is another question. The Army Science Board has not yet 
completed its study. I would prefer to hear the specific responses of 
the Army Science Board before providing my comments. Whether the 
venture capital approach for the Army (or any of the services) is 
viable remains to be seen. The jury is still out on the experiment with 
the Central Intelligence Agency and In-Q-Tel. However, the Army already 
has many tools today that it uses to promote innovation. We partner 
with industry and academia through collaborative technology alliances 
to conduct fundamental research in where the private sector has the 
technical lead and incentive to invest. The use of Other Transactions 
when there are obstacles to attracting non-traditional suppliers was 
pioneered by the Defense Advanced Research and Projects Agency and is 
being used by the Army. Our laboratories take advantage of Cooperative 
Research and Development Agreements to co-invest (labor and facilities) 
in the development of technology. Another example is our alignment of 
the Small Business Innovative Research program with Future Combat 
Systems technologies and with Science and Technology Objectives, 
Advanced Technology Demonstrations and Advanced Concept Technology 
Demonstrations to maximize the utility of products from small and 
disadvantaged businesses.

    17. Senator Santorum. Dr. Andrews, why is this approach necessary 
when we already have DARPA, an entity that is the military's high-risk 
manager for research and development?
    Dr. Andrews. Clearly the Army does not intend to duplicate the 
Defense Advanced Research and Projects Agency. However, one could ask 
whether the venture capital approach fits the ``R'' or the ``D'' part 
of Research and Development. Venture capitalists are interested in 
bringing mature technology to market quickly and so the fit may be 
better on the development side.

    18. Senator Santorum. Dr. Andrews, why would commercial or private 
sector entities want to invest in the Army when it lacks the resources 
necessary to sustain many of its high priority programs and 
initiatives?
    Dr. Andrews. The Army contracts with industry and academia for 
services and equipment. There are opportunities of mutual interest 
where cost sharing is viable. The Army does attract the best and 
brightest of both industry and academia to be suppliers to the Army 
needs. If we have barriers to contracting with certain parts of the 
commercial sector, we need to find ways to overcome them. The use of 
Other Transactions is one. There may be others. We have tasked the Army 
Science Board to look into the venture capital area. We await their 
report.

                  FUTURE COMBAT SYSTEMS (FCS) PROGRAM

    19. Senator Santorum. Dr. Andrews, based on your assessment of 
historical trends for Army Science and Technology investment, are these 
reasonable dates?
    Dr. Andrews. The Army plans to initiate Future Combat Systems (FCS) 
System Design and Demonstration (formally Engineering and Manufacturing 
Development) in fiscal year 2006, production in fiscal year 2008, and 
fielding in fiscal year 2010. This schedule implements innovative 
approaches, such as (1) placing greater reliance on modeling and 
simulation to reduce cycle time; and (2) testing requirements, and 
concurrent subsystem development during the demonstration phase. I can 
say that when initially fielded, FSC will possess many, but not all, of 
the capabilities desired by the user. In the spirit of the new 
Department of Defense acquisition policies, we are planning from the 
outset for upgrades to FCS to enhance its capabilities. It is our 
intention for FCS to have an open architecture so that new technologies 
can be inserted seamlessly as they become mature. Yes, those fielding 
dates are reasonable if we work to streamline acquisition and use 
spiral development to provide increasing competition for FCS over time.

    20. Senator Santorum. Dr. Andrews, that is, is the plan adequately 
resourced or are there funding shortfalls associated with the plan?
    Dr. Andrews. The Future Combat Systems (FCS) Science and Technology 
program is adequately funded, based on current estimates. In the near 
future, the government will receive results from the competitive 
concept design phase of the program. The Army will carefully review 
that information to assess its implications on program funding. The 
Army FCS program is funded at approximately $500 million per year, and 
we continue to rely on the financial and intellectual help from the 
Defense Advanced Projects Research Agency. The FCS program was aided 
greatly by the $46 million that Congress added to our fiscal year 2001 
budget last year, and we appreciate that help very much.

    21. Senator Santorum. Dr. Andrews, do you believe that this 
strategy fits the profile of a ``high risk'' acquisition strategy?
    Dr. Andrews. The Future Combat Systems (FCS) program is, indeed, an 
aggressive program. We are challenged to concurrently develop the 
design concepts, enabling technologies and operational concepts. All 
these efforts will be performed on a compressed schedule so that we can 
field FCS in this decade. The Army needs to achieve the Objective Force 
as quickly as possible in order to remain relevant and postured to meet 
the Nation's needs. To paraphrase General Shinseki, the Army's Chief of 
Staff, we recognize that this is a tough challenge, but if we do not 
try, we surely will not field FCS as soon as possible.

    22. Senator Santorum. Dr. Andrews, how might the risk associated 
with this schedule be reduced?
    Dr. Andrews. The Army has taken steps to reduce risk by seeking 
competitive solutions, by increasing funding for the collaborative 
program and the enabling technologies, and by introducing management 
tools. For example, to ensure we understand the maturity of the 
technologies being developed, the Army has adopted Technology Readiness 
Levels (TRLs). The Army has taken the lead within the Department of 
Defense in adopting TRL assessments as a way to monitor technology 
progress from concept to production. By understanding the maturity of 
critical technologies, we can develop the plans to manage the risk.

                          TRANSFORMATION COSTS

    23. Senator Santorum. Dr. Andrews, General Accounting Office (GAO) 
estimates that Transformation may cost upwards of $70 billion over the 
next 12-15 years. Do you believe that the Army will receive the level 
of financial support from the Office of the Secretary of Defense (OSD) 
to aggressively support this process?
    Dr. Andrews. I can only speak for the Science and Technology (S&T) 
investments in the Army's budget. These investments are focused on 
achieving the Objective Force for the Army's Transformation vision. The 
Army's Fiscal Year 2002 Budget request for S&T is $1.58 billion. This 
is a 22.5 percent increase over the fiscal year 2001 request of $1.29 
billion, and clear evidence of the Army's commitment to achieve 
Objective Force capabilities, such as the Future Combat Systems, by the 
end of this decade. The Army has reprogrammed funds from within its own 
total obligation authority to increase its S&T accounts. The Office of 
the Secretary of Defense has also supported the Army's desire to 
achieve Objective Force capabilities by providing additional funds for 
S&T in fiscal year 2002.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                      TECHNOLOGY TRANSITION ISSUES

    24. Senator Landrieu. Mr. Aldridge and Dr. Etter, the Comptroller 
General has found that private industry fields new products faster and 
more successfully because they make sure that new technologies have 
been proven in the laboratory before they fly to incorporate them into 
new products. According to GAO, ``It is a rare program that can proceed 
with a gap between product requirements and the maturity of key 
technologies and still be delivered on time and within costs.'' 
    Do you agree that problems with immature technologies can slow down 
an entire acquisition program and unnecessarily lengthen the entire 
acquisition cycle?
    Mr. Aldridge (on behalf of himself and Dr. Etter). Yes. I think 
this is made even more complex by the nature of our business--that is, 
dealing with the development of high-risk, high-payoff, revolutionary 
new warfighting technologies that provide our forces the technological 
leap-ahead advantage on the battlefield (e.g., low observables, 
precision strike, and unmanned systems). These technologies may take 
many years to develop and mature in the laboratory environment. The 
challenge is to reduce the technological risk to the point that 
enhancements or leap-ahead capabilities can be efficiently integrated 
into program planning.

    25. Senator Landrieu. Mr. Aldridge and Dr. Etter, do you see spiral 
development, with the sequential incorporation of new technologies as 
they mature, as an appropriate response to this problem?
    Mr. Aldridge (on behalf of himself and Dr. Etter). Yes. The new DOD 
5000-series documents specifically address this issue and provide 
opportunities to insert mature technology at various phases in the 
acquisition process and supports the evolutionary development of 
systems. The new process requires more involvement and collaboration 
between the S&T and acquisition communities, requiring an agreement on 
the technology maturity level before insertion in the weapon system.

    26. Senator Landrieu. Mr. Aldridge and Dr. Etter, earlier this 
year, DOD Directive 5000.2 was revised to require that key technologies 
reach a specified level of technological maturity before they may be 
incorporated into acquisition programs.
    Are you familiar with this change, and do you support it?
    Mr. Aldridge (on behalf of himself and Dr. Etter). Yes. I think the 
use of Technology Readiness Levels (TRLs), or an equivalent assessment 
method, is a positive step in reducing the acquisition cycle time. The 
assessments will be implemented for all Major Defense Acquisition 
Programs and Major Automated Information System Acquisition Programs. 
We have published interim guidelines on use of TRLs that establish a 
technology readiness assessment process, definitions for TRLs, and 
elements for a technology readiness agreement between the acquisition 
program manager and technology provider. This will be incorporated into 
the next update to the DOD 5000.2 Regulation and will be monitored over 
the next 18 months to evaluate the impact and adjust the process, as 
necessary.
    Last year, a task force of the Defense Science Board on the health 
of the defense industry recommended that the Department revise the 
front end of the acquisition process to, among other things: (a) 
explore more technology options prior to program commitment; and (b) 
require that Research and Development programs be more separate from 
production programs. These recommendations appear to be consistent with 
GAO's findings that we need to mature our technologies more, and find 
out which ones really work, before we incorporate them into production 
programs.

    27. Senator Landrieu. Mr. Aldridge and Dr. Etter, are you familiar 
with these recommendations, and do you support them?
    Mr. Aldridge (on behalf of himself and Dr. Etter). Yes. I think the 
evolutionary acquisition process will steer the exploration of more 
technology options. The dialogue that occurs between S&T and 
acquisition managers as they establish their Integrated Product Teams 
(with industry and academia) will drive this. This will result in more 
ideas coming to the table than might otherwise occur if the 
technologists work on an issue in the laboratory. Second, the need to 
have both the acquisition and S&T players agree to a TRL level will 
ensure the best technology options are pursued before inclusion on 
acquisition programs.

            DIRECT HIRING AUTHORITY FOR LABORATORY DIRECTORS

    28. Senator Landrieu. Mr. Aldridge and Dr. Etter, over the last 2 
years, Congress has enacted a series of legislative provisions designed 
to provide additional flexibility in the personnel system of the 
defense laboratories, to make it easier for the laboratory directors to 
recruit highly-qualified scientific and technical staff. However, the 
Department appears to have been unwilling to use some of this 
authority. In particular, the Department has not given the laboratory 
directors ``direct hiring authority'', as authorized by the last two 
Defense Authorization Acts.
    Do you agree that laboratory directors would be better able to 
compete for highly skilled scientific and technical staff if we give 
them direct hiring authority?
    Mr. Aldridge (on behalf of himself and Dr. Etter). I do believe 
that ``direct'' hiring authority will allow the laboratory directors to 
better compete for highly skilled scientific and technical staff. We 
are using the term ``expedited hiring authority'' to frame the efforts 
that DOD has in progress in this area.

    29. Senator Landrieu. Mr. Aldridge and Dr. Etter, if so, will you 
take advantage of the legislative authority we have given you to 
address this issue?
    Mr. Aldridge (on behalf of himself and Dr. Etter). I have been 
working very closely with the Under Secretary of Defense for Personnel 
and Readiness in identifying and initiating various activities that 
will take advantage of legislative authorities for hiring highly 
skilled scientific and technical staff. On June 21, 2001, the Services 
were authorized waiver authority for actions pursuant to section 245 of 
the National Defense Authorization Act (NDAA) Fiscal Year 2000 and 
section 246 of NDAA Fiscal Year 1999. These actions should expedite 
hiring of scientist and engineers. In addition, we asked the services 
to identify and to waive policies, procedures, practices, and 
regulations not specifically required by law that restrict or otherwise 
impede the ability of the laboratories to exercise expedited hiring 
authority for personnel within their organizations.

    30. Senator Landrieu. Mr. Aldridge and Dr. Etter, on July 17, the 
authorities provided by section 1113 of the NDAA Fiscal Year 2001 were 
delegated to the appropriate DOD components.
    Are there other authorities that you think you may need to 
revitalize the laboratories and ensure that they continue to contribute 
to defense S&T?
    Mr. Aldridge (on behalf of himself and Dr. Etter). We are currently 
working with General Counsel and Office of Management and Budget to 
define additional authorities that would benefit the Laboratory 
Directors. This is an on-going process and we are committed to working 
with Congress for the purpose of defense laboratory revitalization. 
It's in the best interest of national defense to do so.

                         DUAL USE TECHNOLOGIES

    31. Senator Landrieu. Mr. Aldridge and Dr. Etter, over the last 
several years, the Department of Defense has attempted to make 
increasing use of technologies developed in the private sector. These 
technologies frequently need to be adapted for defense use--either at 
the front end, as they are being developed, or at the back end, after 
they have been developed. The Dual Use Applications Program (DUAP) and 
the Commercial Operation and Support Savings Initiative (COSSI) have 
been funding mechanisms through which DOD has supported such 
adaptations.
    Are you familiar with the DUAP and COSSI programs, and do you know 
if the Department plans to continue funding these programs?
    Mr. Aldridge (on behalf of himself and Dr. Etter). Both these 
programs leverage commercial technology for defense purposes. The Dual 
Use Science and Technology (DUST) Program (formerly DUAP) forms 
partnerships with industry to develop technologies having commercial 
and military applications. For example, the DUST program developed an 
affordable Antilock Brake System for both commercial trucks and the 
Army's High Mobility Multi-purpose Wheeled Vehicles (HMMWVs) to improve 
safety and performance.
    COSSI is an innovative program that adapts commercial technologies 
for use in military systems to increase reliability and reduce 
operations and support costs. Since 1997 we've initiated 77 COSSI 
projects.
    The President's Budget request for fiscal year 2002 includes $10.8 
million for COSSI and $30 million for the Dual Use Science and 
Technology program.

    32. Senator Landrieu. Mr. Aldridge and Dr. Etter, would you agree 
that, regardless whether the Department continues to fund the DUAP and 
COSSI programs, it is going to have to find a way to fund the adaption 
of commercial technologies to defense uses?
    Mr. Aldridge (on behalf of himself and Dr. Etter). Yes. In some 
areas key to defense, commercial firms are the technology leaders. We 
will need to take advantage of these technologies if we are to continue 
to deploy the most advanced weapon systems in the world. For example, 
one COSSI project leveraged commercial satellite tracking technology to 
maintain continuous control of in-theater vehicles. After successful 
demonstration of the prototype developed under the COSSI program, the 
company received an indefinite delivery, indefinite quantity contract 
for terminals and support services.

            FUNDING FOR MAJOR RANGE AND TEST FACILITY BASES

    33. Senator Landrieu. Mr. Aldridge and Dr. Etter, over the last 
decade, we have cut the operating and investment budget for our Major 
Range and Test Facility Bases by more than a billion dollars. The 
remaining dollars are stretched far too thin to cover needed upgrades 
to even the most valuable of our test facilities.
    What can we do to reverse this process and make the investments we 
need in our test ranges? For example, is there a way that we could 
increase the level of customer funding to cover capital improvements, 
or attract private investment to make needed upgrades to our most 
critical test facilities?
    Mr. Aldridge (on behalf of himself and Dr. Etter). The Department 
has reduced the operating and investment funding for the Major Range 
and Test Facility Base to a level that is about a billion dollars per 
year below the 1990 level. We intend to review this situation during 
our on-going defense reviews to determine whether we have reduced too 
far and, if so, make any necessary adjustments to insure that we have 
adequate test and evaluation capability and capacity.
    From a cost accounting perspective, we could certainly develop a 
methodology for charging the costs of capital improvements to the test 
customers, but we do not believe that this will enhance testing 
overall. One of the principal objectives of the current funding policy, 
when it was created in the mid-1970s, was to insure that funding issues 
do not inhibit valid testing. This objective is implemented via a 
policy that specifies that test customers pay for the direct cost of 
testing, while the test organization used appropriated (institutional) 
funds to pay for all other operating and investment costs. This was 
expected to insure that test capabilities would keep pace with weapon 
developments, and that the operating capacity to perform required 
testing would exist. During the last decade, this policy has suffered 
from a shortage of adequate institutional funding. In fact, a recent 
Defense Science Board Study, completed in December 2000, found that the 
test centers, due to shortages of funds, have been shifting more cost 
to the customer. The Defense Science Board believes that we have 
already shifted too much cost to the weapons programs. It is the 
position of the Defense Science Board that this shift in cost has been 
caused by too little operating funds being provided to the test centers 
and that the increased charges to weapons programs has led to cases of 
inadequate test and evaluation for programs strapped for funds.
    We are attempting to attract private investment. For example, we 
have entered into a partnership with the Boeing Company and the Air 
Force, whereby Boeing has provided new capability at one of our test 
facilities and eliminated some of its own capability. We will continue 
to pursue partnerships even though there are impediments to this 
process, such as the tax consequences to private companies for such 
exchanges. We will continue to explore these cooperative agreements, 
and other alternatives for maintaining adequate test and evaluation 
capability. Where necessary, and after thorough evaluation, we will 
propose enabling legislation to facilitate such agreements.

                         LABORATORY PERFORMANCE

    34. Senator Landrieu. Dr. Andrews, Dr. Daniel, and Admiral Cohen, 
over the last 3 years, a number of outside panels have been highly 
critical of the performance of the service laboratories. These panels 
have indicated that the civil service system is slowly calcifying the 
defense laboratories and depriving them of the new talent that they 
need to continue to make a valuable contribution to defense Science and 
Technology (S&T). We have enacted a number of legislative provisions to 
try to address these problems.
    Do you believe that these legislative provisions are having the 
desired effect, or do we need to consider more drastic measure, like 
the partial privatization of one of more laboratories?
    Dr. Andrews. I am fully aware of the Defense Science Board's 
reports which have indicated that ``the capabilities of the 
laboratories have been seriously diminished over the past decades . . . 
The major reason for this decline . . . was found to be the severe 
difficulty that they have in recruiting and retaining high quality 
professional staff. . .'' They go further, stating ``that the 
inadequate salary structure and excessive personnel regulations of the 
Civil Service System are primarily responsible for this problem.'' Four 
of our seven major S&T laboratories have participated in personnel 
demonstration projects under Public Law 103-337 since 1997. An 
additional two labs will join the demonstration project by 2002. By 
2004 we expect more than 90 percent of our Science and Technology 
workforce to be under a personnel demonstration project. This law was 
enacted to specifically tackle the issue of the Civil Service 
Regulations. For those labs under a personnel demonstration project, we 
are seeing encouraging results in the areas of recruiting for quality 
and diversity, retaining high performers, enhancing careers, and 
partnering with the unions. Our laboratories have begun to aggressively 
recruit and hire new scientists and engineers, after a decade of major 
laboratory downsizing, which continues. Competitive pay, particularly 
in technical areas such as information technology and computer science 
remains an issue. The recent legislation initiatives, such as the 
Sections 245 and 246, which are in the process of being implemented, 
need to be given the opportunity to prove their utility during 
implementation at the selected sites. At this time, therefore, I do not 
recommend more drastic measures, like the partial privatization of 
laboratories.
    Dr. Daniel. Enacted legislative provisions have had a positive 
impact on our laboratory workforce. For example, the Laboratory 
Personnel Management Demonstration Project has provided the Air Force 
Research Laboratory with some of the needed flexibility to enable a 
more responsive workforce. This Lab Demo initiative has also enabled 
the Air Force to reward its laboratory workforce for their outstanding 
contributions to defense science and technology. However, Section 246 
of the National Defense Authorization Act for Fiscal Year 1999 and 
Section 245 of the National Defense Authorization Act for Fiscal Year 
2000 have not been fully implemented at this time. I am hopeful that 
upon full implementation, these initiatives will have the positive 
effects that are envisioned. Finally, the Air Force is already making 
considerable and valuable use of the private and academic sectors in 
the Air Force Research Laboratory. At this time, almost 40 percent of 
our in-house scientists and engineers are from industry or the 
university community.
    Admiral Cohen. Some legislative provisions have helped the Service 
laboratories, especially Section 342 of the NDAA for fiscal year 1995 
and Section 1107 of the NDAA for fiscal year 2000. Section 342 allows 
``S&T Reinvention Laboratories'' to implement more flexible personnel 
systems. However, Section 342 demonstrations are limited in terms of 
coverage, duration, and scope, e.g. they had to be modeled after the 
so-called ``China Lake'' personnel demonstration authorized by Title 6 
of the Civil Service Reform Act of 1978. This greatly limited the 
degree to which participating laboratories could experiment with 
innovative ways to hire, retain, and shape their workforces in response 
to rapidly changing business conditions. Section 1107 eliminated 
controls on high-grade scientific and engineering positions, a move 
that supports retention of high-quality personnel.
    However, the Office of the Secretary of Defense (OSD) has only 
recently moved to begin implementing other legislative provisions, such 
as Section 245 of the NDAA for fiscal year 2000, and Sections 1113 and 
1114 of the NDAA for fiscal year 2001. Letters signed out of OSD on 21 
June 2001 and 17 July 2001 directed Service implementation of Sections 
245 and 1113 respectively. Implementation of Section 1114 is still 
pending in OSD. Therefore, the extent to which these provisions will be 
helpful cannot be fully determined at this point in time. It appears 
Section 245 will not allow for direct hire without competition the way 
the private sector does because of remaining barriers posed by Title 5 
merit principles. Moreover, Section 245 is a pilot effort limited in 
terms of coverage (only two labs per Service), duration (3 years), and 
scope. Of all these legislative provisions, Section 1114 appears to 
offer the greatest possibility of relief, although its coverage is 
limited to S&T Reinvention Laboratories participating in the fiscal 
year 1995 Section 342 personnel demonstrations. Whether this potential 
will be realized will depend largely on the Office of the Secretary of 
Defense's interpretation and emphasis of this provision.
    In light of the systemic problems facing the Service laboratories, 
and the urgency to address hem, it appears that incremental approaches 
and piecemeal legislative efforts may not be enough. Indeed, we are 
approaching the point of diminishing returns on trying to make Title 5 
practices responsive to the needs of a serious research laboratory. The 
real problem the Service laboratories face is one of governance. The 
governance under which these laboratories and their Federal employees 
operate was not designed for operation in a research environment. As a 
result, great effort is required to make the governance and the 
research environment coexist. Perhaps a more sensible approach would be 
to tailor the governance to the research mission rather than the 
reverse. The DOD research laboratories play an important role in 
keeping the DOD itself scientifically and technically competent. This 
would seem to be a good thing, especially in this technically complex 
and fast-moving world in which the defense of the Nation must now be 
conducted. It is now time to consider establishing a new goverlance 
model (personnel, administrative, procurement, facilities) within the 
Federal Government specifically tailored to the needs of a military 
research laboratory. This would, if properly executed, eliminate all of 
the piecemeal fixes which have been tried over the years while still 
retaining Federal status and competence in an area, i.e., science and 
technology as it relates to National Defense. In this regard, 
establishing one or more of the military research laboratories as 
special Government corporations may have some merit. The customers for 
the corporations would be the Government itself. The corporations would 
survive only to the extent that Government funding agencies were 
prepared to purchase the products/services of the corporations.
    Such a plan would appear to have several advantages over the 
partial or total privatization of a lab: (1) It almost certainly would 
be less expensive in the long run; (2) The staff of such an 
organization would remain Federal employees, and thus able to make 
decisions or render advice without conflicts of interest; (3) It would 
be more executable; and (4) It should be less controversial.

                         LABORATORY LEGISLATION

    35. Senator Landrieu. Dr. Andrews, Dr. Daniel, and Admiral Cohen, 
are there other steps that you would recommend to increase the 
flexibility and performance of the defense laboratories.
    Dr. Andrews. We clearly want to see the effect of Section 245 and 
246 on the hiring processes. If those initiatives are not sufficient in 
making our hiring processes competitive with industry, particularly in 
the time to make final offers and the time to bring the offeree on-
board, then we will need to make further recommendations. I still 
believe that our salaries are not competitive in areas such as 
information technology and computer science. The Veterans 
Administration and other sectors of the Federal medical community can 
hire at the market rates in certain specialty categories. We need 
similar authorities to hire in selected areas to insure that we can 
attract at least the top 10 percent of bachelor graduates in those 
areas as well as the Ph.D.'s. I believe our work is interesting and 
attractive. We need the ability to offer the salaries to attract 
quality scientists and engineers, and keep them.
    Dr. Daniel. Over the past several years, the Air Force has been 
addressing workforce performance via the Laboratory Personnel 
Management Demonstration Project. With Lab Demo, the Air Force Research 
Laboratory has gained some of the needed flexibility to enable a more 
responsive workforce capable of meeting future defense challenges. Lab 
Demo's flexibility has resulted in the current laboratory workforce 
making significant contributions to defense science and technology and 
being rewarded for it.
    The additional flexibility provided by Section 246 of the National 
Defense Authorization Act for Fiscal Year 1999 and Section 245 of the 
National Defense Authorization Act for Fiscal Year 2000 will be 
especially beneficial in the area of new hires. However, since these 
legislative provisions have not been fully implemented, the Air Force 
does not recommend additional legislation at this time. I would like to 
fully implement Sections 246 and 245, evaluate the results, and then 
make recommendations on other improvements, if needed.
    Admiral Cohen. The Service laboratories are one part of a larger 
defense science and technology structure that includes academic and 
industrial partners. Each of these organizations plays an indispensable 
role in the development, production, and deployment of advanced 
technologies into warfighting systems. For this structure to work 
properly, all three types of organizations must be staffed by world-
class, motivated scientists and engineers. Increasingly, the 
laboratories must team with these other partners to facilitate 
technology transfer. There are several legislative barriers that hinder 
such partnering. Their removal would increase the flexibility and 
performance of these laboratories.
    There have been over 100 studies of some aspect of the Defense 
RDT&E establishment in the past 40 years, and the recommendations 
resulting from these studies are remarkably similar. The most 
significant difference is that the more recent studies often recommend 
more radical solutions to the problems that continue to confront the 
DOD labs. Despite the blue-ribbon nature of many of these study groups, 
only a few, essentially incremental, reforms have actually been 
implemented. While these reforms have helped, they have not been enough 
to turn the tide of mediocrity that has been slowly rising over the 
past decades.
    For this situation to be reversed, the country must commit to 
implementing the most significant lab-related recommendations made by 
these studies. This will require a willingness on the part of the DOD, 
the Services, and such other Government entities as Congress, OPM and 
OMB to admit that if the DOD labs are to be good, they cannot be 
required to operate within the stifling, one-size-fits-all labyrinth of 
personnel regulations that have been developed over the past 100+ 
years. A whole new approach in the area of personnel management at the 
labs is urgently required. There is no lack of good ideas here--what we 
lack is the will to proceed. '
    They also must be permitted to operate like the best academic and 
industrial research labs in such areas as renewal of infrastructure, 
procurement of capital scientific equipment, and obtaining support 
services. For example, the current military construction process of 
competing priorities does not favor the renewal of the laboratory 
physical plants. This problem could be addressed by legislation that 
would allow the laboratories to execute a capital purchase program by 
using funds generated through overhead charged to their customers and 
from the proceeds of technology transfer activities. Such legislation 
might also streamline the procurement of capital equipment, a process 
that is burdened with onerous and unnecessary regulations and timelines 
that often make it difficult to obtain the latest scientific hardware.
    In addition, the labs need to be able to maintain a high percentage 
of interesting and challenging ``hands-on'' work. They cannot do this 
if they are largely relegated to the role of contract monitors. This 
has been one of the few advantages enjoyed by the DOD labs in the past, 
but is now threatened by continued pressures to maintain the dwindling 
defense industrial base in many areas.
    Certainly legislation that specifically addressed the needs of the 
labs in such areas as personnel recruiting, retention and reward; 
infrastructure renewal; administration and support services; and other 
areas would go a long way to solving the problems confronting the labs. 
However, bolder action should be seriously considered for the Navy's 
Corporate Laboratory, the Naval Research Laboratory, and possibly other 
Service labs as well. The basic concept of this proposal is described 
in the answer to question 34 above. Serious consideration should be 
given to such a concept--failure to take some type of bold action at 
this time would appear to consign one of the last great Government 
laboratories to mediocrity.

               ARMY SCIENCE AND TECHNOLOGY (S&T) PROGRAM

    36. Senator Landrieu. Dr. Andrews, the Army has made a commitment 
to transform itself into a more responsive, more deployable, more 
capable force over the next decade. Secretary Caldera and General 
Shinseki have acknowledged that the Science and Technology (S&T) 
program is crucial to the success of this plan. Is your S&T Program 
fully-funded through the Future Years Defense Plan (FYDP) to address 
the requirements of the Army's transformation?
    Dr. Andrews. As you are aware the Secretary of Defense is directing 
a Department-wide review of Defense Strategy and is conducting the 
Quadrennial Defense Review to help shape the FYDP. Therefore, the 
Department of Defense has not yet determined allocations of the FDYP to 
specific accounts. Additional funding would be used to reduce risk in 
S&T programs by increasing options and accelerating technology 
development.

    37. Senator Landrieu. Dr. Andrews, where are the shortfalls, and 
how do you plan to make them up?
    Dr. Andrews. As you are aware the Department of Defense is 
conducting a review of Defense Strategy and the Quadrennial Defense 
Review itself will also help to shape the Future Years Defense Plan 
(FYDP). Therefore, it is pre-mature for me to comment about shortfalls 
in Science and Technology until we, in the Army, are provided with 
information about our resource allocations in the FYDP. Additional 
funding does help to reduce risk in S&T programs by increasing options 
and accelerating technology development.

      BOTTOM-UP REVIEW OF AIR FORCE SCIENCE AND TECHNOLOGY PROGRAM

    38. Senator Landrieu. Dr. Daniel, over the last 2 years, this 
committee has been extremely critical of the Air Force for underfunding 
its science and technology programs. Last year, we required the Air 
Fore to conduct a comprehensive, bottoms-up review process to determine 
what technological challenges it needs to meet to address the needs of 
the Air Force of the future, and to make sure that its science and 
technology program is appropriately designed to address those 
challenges. When do you expect that review to be complete
    Dr. Daniel. The review is on schedule to be completed by October 
30, 2001, as required by law.

    39. Senator Landrieu. Dr. Daniel, will it serve as the basis for 
future science and technology budget requests?
    Dr. Daniel. The Air Force Science and Technology (S&T) Planning 
Review, now ongoing in response to the Fiscal Year 2001 National 
Defense Authorization Act, is identifying the Short-Term Objectives and 
Long-Term Challenges for the AF S&T Program. It is further assessing 
what current programs we have in place that address these objectives 
and challenges, as well as laying out desired programs to fully meet 
these objectives and challenges. As such, the results of this review 
will be a major input to the formulation of future S&T budget requests. 
However, while the review will be an important consideration, we will 
also factor in the Joint and Air Force strategy documents, Defense 
planning documents, Defense S&T Plans, and the Air Force Corporate 
Investment Strategy as we always have.

    40. Senator Landrieu. Dr. Daniel, do you expect to see a 
significant increase in the Air Force's S&T budget request this fiscal 
year?
    Dr. Daniel. Yes. Air Force Science and Technology (S&T) funding has 
shown a marked improvements for the second year in a row. The Fiscal 
Year 2002 President's Budget (PB) is up over $150 million for core S&T 
efforts from the Fiscal Year 2001 PB. This increase includes a sizable 
gain of almost $120 million in the 6.1, Basic Research, and 6.2, 
Applied Research, technology base. The 6.3, Advanced Technology 
Development budget activity on the whole is slightly lower due to the 
transfer of Spaced-Base Laser program from the Air Force to the 
Ballistic Missile Defense Organization. We are continuing to work S&T 
funding levels for fiscal year 2003 and out, and anticipate continuing 
progress in our future S&T budget submittals.

             DARPA FORMAL TECHNOLOGY TRANSITION AGREEMENTS

    41. Senator Landrieu. Dr. Alexander, in recent years, DARPA has 
worked closely with the services to identify areas of opportunity and 
technological needs where DARPA can play an effective role. In some 
cases, however, we still hear complaints that DARPA initiatives are not 
ready to transition into production. You told our staff earlier this 
year that DARPA's job is to prove a concept, for example, by proving 
out the high risk aspects and showing that the concept is valuable. You 
stated that it is not necessarily DARPA's job to produce completed 
designs, because such designs inevitably involve trade-offs and 
interface decisions that the services must make for themselves.
    Do you think that formal technology transition agreements between 
DARPA and the military services are helpful, or are they likely to be 
counterproductive?
    Dr. Alexander. Formal technology transition agreements can be 
helpful, but it depends on the circumstances. They are most appropriate 
when a Service first agrees that they want to take over a DARPA project 
and the formal agreement is a way to work out and clearly communicate 
the expectations and commitments of both parties. This is most likely 
the case with 6.3 system projects that produce something like military 
specific end items that require more engineering before they can be 
produced and deployed. Future Combat Systems is a case in point. On the 
other hand, formal technology transition plans are not useful or 
appropriate for our 6.1 work and the great majority of our 6.2 work; 
it's just too early. In those cases, formal agreements are unlikely to 
be meaningful, and might stifle the innovation and exploration that 
must occur. The key point about formal agreements is that they are a 
tool for communicating and focusing, not an end in and of themselves. 
It's the communication that's crucial to transition.
    It would be counterproductive to generally require formal 
technology transition agreements between DARPA and the Services, even 
if only for 6.3 programs. For starters, such a requirement could easily 
degenerate into a paperwork exercise. Far more importantly, it would 
become one way to stop DARPA programs that challenge the Services' 
existing technology, systems, or doctrine, and those are exactly the 
projects DARPA should undertake. DARPA exists in large part to produce 
radical technical change that challenges the Services before our 
adversaries do. Hence, DARPA will continue to develop technologies 
without having a formal technology transition path.

                     TECHNOLOGY TRANSITION FUNDING

    42. Senator Landrieu. Dr. Alexander, do you think it would be 
helpful to have a source of funding within the services to take 
technologies that have been proven by DARPA and mature them to the 
point where they are ready to incorporate into weapon systems?
    Dr. Alexander. Yes, but I would add not only for DARPA 
technologies, but for technologies from any source. I fully recognize 
that the Services must balance many more competing priorities than 
DARPA does, but I do think such a fund would make it easier and quicker 
to transition technologies to the Services to be further engineered to 
meet their requirements. The basic challenge here is that once a 
technology has proven its worth, and a Service wants to mature it, all 
the money in an ongoing fiscal year is claimed by specific projects and 
it takes 2 years to get new money for the technology. A transition 
fund--a pool that is not preallocated to existing projects but that can 
be used to seize technological opportunities--seems a logical solution. 
However, many veterans of the budget process believe that such a fund 
is unlikely to survive the budgeting and appropriations process, and, 
even if it does, that it will end up heavily freighted with internal 
and external approvals that would greatly slow its use. In a time when 
the DOD is under tight fiscal constraint, this skepticism carries 
considerable weight. In any event, one key to making such funds useful 
would be to ensure that the Services could allocate them quickly and 
with flexibility.

                  NAVY SCIENCE AND TECHNOLOGY FUNDING

    43. Senator Landrieu. Admiral Cohen, over the last 2 years, the 
Navy has undertaken a lengthy planning process to identify ``grand 
challenges'' and ``future naval capabilities'' to serve as a focus for 
prioritizing future S&T program needs?
    Do you expect this planning process to result in a significant 
realignment of Navy S&T spending in this year's budget?
    Admiral Cohen. The Future Naval Capabilities is a process that 
partners science and technology with both the Navy and Marine Corps 
military requirement offices and the acquisition offices. The Office of 
Naval Research (ONR) will invest approximately $500 million in applied 
research and advanced technology development funding into technologies 
to achieve the highest capabilities identified by the requirements 
offices. To focus resources to ensure that these technologies can be 
delivered in the timeframe need for the transition office, significant 
realignment of the fiscal year 2002 applied research and advanced 
technology development programs has occurred. We do not anticipate that 
there will be a significant realignment on the fiscal year 2002 basic 
research program.

    44. Senator Landrieu. Admiral Cohen, will you provide us with 
visibility not only as to what you have funded and what you have cut, 
but also into places where you are unable to fund programs that you 
have identified as important to the achievement of your new S&T goals?
    Admiral Cohen. The Office of Naval Research (ONR) will invest over 
$500 million in applied research and advanced technology development 
funding into technologies to achieve Future Naval Capabilities. The 12 
Future Naval Capabilities that will be funded include:

        <bullet> Autonomous Operations
        <bullet> Capable Manpower
        <bullet> Electric Ships and Combat Vehicles
        <bullet> Knowledge Superiority and Assurance
        <bullet> Littoral Anti-Submarine Warfare
        <bullet> Littoral Combat and Power Projection
        <bullet> Missile Defense
        <bullet> Organic Mine Counter Measures
        <bullet> Platform Protection
        <bullet> Time Critical Strike
        <bullet> Total Ownership Cost
        <bullet> Warfighter Protection

    Areas that will receive less funding are environmental quality, 
advanced logistics technology, portions of the medical research, and 
portions of advanced electronic warfare research.
    Propulsion technology for ships and combat vehicles and combat 
technology for littoral operations were two areas of research not 
funded in the original recommendations for Future Naval Capabilities 
(FNC). These area represent core missions for the Navy and Marine 
Corps. Therefore, the Navy realigned the FNCs to create the Electric 
Ships and Combat Vehicles ENC. The Navy added littoral combat 
technology to the expeditionary logistics FNC to create the Littoral 
Combat and Power Projection FNC. 
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton

             RADIATION HARDENED ELECTRONICS INDUSTRIAL BASE

    45. Senator Dayton. Mr. Aldridge and Dr. Etter, I recognize the 
importance of Radiation Hardened Electronics Technology to the DOD. I 
also recognize the nature of the technology makes it unique to the DOD 
and generally not applicable to the commercial marketplace. Because of 
this, I am concerned with the stability of the industrial base 
supplying this technology, especially now that there are only two 
remaining U.S. suppliers of Digital Radiation Hardened Electronics. I 
also understand that both suppliers are finding it difficult to keep 
this as a viable business. I was pleased to see the previous DOD 
direction to the services to make funding available for support of this 
critical strategic technology and industrial capability.
    Is there, in your view, sufficient funding requested in fiscal year 
2002 in both S&T and capitalization to maintain this critical Radiation 
Hardened Electronics Industrial Base?
    Mr. Aldridge (on behalf of himself and Dr. Etter). Yes, the funding 
requested in fiscal year 2002 initiates a 4-year program to purchase 
capital equipment and perform the research and development necessary to 
establish the radiation hardened process essential to meet the 
Department's radiation hardened electronics needs and assure survival 
of this essential industrial base. The Department's Radiation Hardened 
Electronics Oversight Council (RHOC) has studied this area in detail 
and the ``leap ahead'' technology funding, when supplemented by those 
in the Council technology development roadmap, will meet our needs.

    46. Senator Dayton. Mr. Aldridge and Dr. Etter, what measure of 
support do you need from this committee to assure that this critical 
national capability remains available to support our Nation's defense 
requirements?
    Mr. Aldridge (on behalf of himself and Dr. Etter). The DOD funding 
request is the level of support we need to meet the radiation 
survivability needs of our electronic systems and the need for 
industrial base modernization. Your continued interest will be vital to 
the success of this effort.

    47. Senator Dayton. Mr. Aldridge and Dr. Etter, what is the status 
of the report requested by our committees last year?
    Mr. Aldridge (on behalf of himself and Dr. Etter). The report 
requested was delayed because some of the data needed were not 
available until the Department completed its review of the total fiscal 
year 2002 budget request. The report is being finalized and will be 
submitted as soon as coordination is complete.

    48. Senator Dayton. Mr. Aldridge and Dr. Etter, could you please 
explain what is the DOD's intent with respect to sustaining the 
radiation hardened electronics industrial base?
    Mr. Aldridge (on behalf of himself and Dr. Etter). The performance 
of many DOD weapons systems requires these highly specialized, 
radiation hardened electronics components that are only available 
through the rad hard electronics industrial base. This need will grow 
as the Department continues to make space operations a priority. 
Consequently, we are putting special emphasis on ensuring these 
components are available to DOD systems in the future by establishing 
the focused DOD radiation hardened electronics ``leap ahead'' program 
starting in fiscal year 2002. Additionally, we will continue to 
``corporately'' manage this area through the Department's Radiation 
Hardened Electronics Oversight Council (RHOC) that reports to me. The 
RHOC charter requires it to recommend and coordinate actions where a 
needed industrial capability is at risk.

    49. Senator Dayton. Mr. Aldridge and Dr. Etter, are you intent on 
supporting multiple vendors?
    Mr. Aldridge (on behalf of himself and Dr. Etter). Yes. Our systems 
are demanding near state-of-the-art electronic performance. We achieve 
this by leveraging commercial advances in electronics and performing 
research and development to determine the material, process, layout, 
and design changes essential to instill radiation hardness. We perform 
this R&D in a very tight scheduling window with the Department's 
systems relying on deliveries of advanced radiation hardened 
electronics to meet performance, weight, and power requirements. There 
is a history that tells us that when you rely on scientific 
breakthroughs in a time constrained environment it makes sense to have 
multiple efforts. Additionally, there are real economic, innovation, 
infrastructure protection, and assured sourcing benefits to having the 
competition of multiple vendors.

    50. Senator Dayton. Mr. Aldridge and Dr. Etter, I am aware that 
there are at least three funding elements essential for preservation of 
the industrial base including: (1) Science and Technology (S&T); (2) 
Productization and Qualification (P&Q); and (3) capital equipment.
    Has the DOD sufficiently budgeted fiscal year 2002 funding for the 
P&Q and capital equipment elements in your view and for the number of 
vendors you intend to sustain?
    Mr. Aldridge (on behalf of himself and Dr. Etter). The capital 
equipment funding is sufficiently budgeted for fiscal year 2002; out-
year funding for capital equipment will be addressed in the fiscal year 
2003 budget build process. The Radiation Hardened Electronics Oversight 
Council will recommend an approach to minimize acquisition system 
barriers to support of system common objectives such as the P&Q 
investment.

    [Whereupon, at 5:30 p.m., the hearing was adjourned.]

                                 <all>

</pre></body></html>
